<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                DAVID E. PRICE, North Carolina, Chairman
CIRO RODRIGUEZ, Texas                   HAROLD ROGERS, Kentucky
C.A. ``DUTCH'' RUPPERSBERGER, Maryland  JOHN R. CARTER, Texas
ALAN B. MOLLOHAN, West Virginia         JOHN ABNEY CULBERSON, Texas
NITA M. LOWEY, New York                 MARK STEVEN KIRK, Illinois
LUCILLE ROYBAL-ALLARD, California       KEN CALVERT, California
SAM FARR, California
STEVEN R. ROTHMAN, New Jersey
MARION BERRY, Arkansas            

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Stephanie Gupta, Jeff Ashford, Jim Holm,
              Karyn Kendall, Will Painter, and Mike Birsic,
                            Staff Assistants
                                ________



                                 PART 3

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 CBP--Balancing Security With Legitimate Trade and Travel.........    1
 FY 2011 Budget Hearing for United States Immigration and Customs 
Enforcement.......................................................  223
 CIS--FY 2011 Budget Hearing......................................  691
 Update on Southwest Border: The Challenges That DHS Continues to 
Face..............................................................  837
 DHS Air and Marine Operations and Investments: Customs and Border 
Protection and Coast Guard........................................  967
                                ________

         Printed for the use of the Committee on Appropriations





    PART 3--DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2011












                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                DAVID E. PRICE, North Carolina, Chairman
CIRO RODRIGUEZ, Texas                   HAROLD ROGERS, Kentucky
C.A. ``DUTCH'' RUPPERSBERGER, Maryland  JOHN R. CARTER, Texas
ALAN B. MOLLOHAN, West Virginia         JOHN ABNEY CULBERSON, Texas
NITA M. LOWEY, New York                 MARK STEVEN KIRK, Illinois
LUCILLE ROYBAL-ALLARD, California       KEN CALVERT, California
SAM FARR, California
STEVEN R. ROTHMAN, New Jersey
MARION BERRY, Arkansas            

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Stephanie Gupta, Jeff Ashford, Jim Holm,
              Karyn Kendall, Will Painter, and Mike Birsic,
                            Staff Assistants
                                ________

                                 PART 3

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 CBP--Balancing Security With Legitimate Trade and Travel.........    1
 FY 2011 Budget Hearing for United States Immigration and Customs 
Enforcement.......................................................  223
 CIS--FY 2011 Budget Hearing......................................  691
 Update on Southwest Border: The Challenges That DHS Continues to 
Face..............................................................  837
 DHS Air and Marine Operations and Investments: Customs and Border 
Protection and Coast Guard........................................  967

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 61-840                     WASHINGTON : 2010




                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia 
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN,
 ROSA L. DeLAURO, Connecticut               New Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California                   
 MICHAEL HONDA, California                 
 BETTY McCOLLUM, Minnesota                 
 STEVE ISRAEL, New York                    
 TIM RYAN, Ohio                            
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland    
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2011

                              ----------                              

                                         Wednesday, March 24, 2010.

        CBP--BALANCING SECURITY WITH LEGITIMATE TRADE AND TRAVEL

                                WITNESS

DAVID AGUILAR, ACTING DEPUTY COMMISSIONER, U.S. CUSTOMS AND BORDER 
    PROTECTION, DEPARTMENT OF HOMELAND SECURITY

               Opening Statement of Chairman David Price

    Mr. Price. The Subcommittee will come to order. Good 
morning.
    We are happy today to welcome David Aguilar, the Acting 
Deputy Commissioner of U.S. Customs and Border Protection, as 
we focus on how CBP polices our borders while at the same time 
expediting legitimate travel and commerce. We also would like 
an update on SBInet in light of the Secretary's plan to 
reallocate Recovery Act funding, but I will say we will have a 
chance to get into that in more detail during our Southwest 
border hearing scheduled for April 14th.
    Trade and travel are essential to our economy and to the 
economy's recovery. There is broad, bipartisan agreement on the 
need to insulate trade and travel from disruption, either from 
attack or ineffective and costly security measures. That is not 
to say that everyone agrees on exactly how to do this. It is 
simple to endorse a strategy that is risk-based and that 
emphasizes defense in depth but then to gloss over the devilish 
details, which can be hard to measure and implement, especially 
when one must rely on the cooperation of the private sector and 
often work with foreign governments.
    Secretary Napolitano testified that CBP will not be able to 
implement the 9/11 Act mandate to scan 100 percent of U.S.-
bound cargo by 2012, which has been characterized as 
unrealistic and unaffordable. She says that the Department will 
rely instead on other ``risk-reduction'' measures for screening 
cargo originating in foreign ports and headed for the U.S. Now, 
I am sympathetic to taking a realistic approach to scanning 
cargo overseas. I have said that repeatedly. But we do need the 
Department's strategy and we have not yet received the 
Department's strategy to achieve meaningful and effective cargo 
and supply chain security as required by the fiscal 2010 
Appropriations Act.
    The 2010 budget proposal dramatically cuts the Secure 
Freight and Container Security Initiatives, it replaces CBP's 
overseas presence with a virtual one in many cases, and it 
reduces the C-TPAT trusted shipper program by 15 percent.
    Commissioner, we visited seaports. We know that 
implementing cargo security is complicated. But the Department 
simply must spell out its vision with a plan to achieve it if 
we are to understand how these cuts affect U.S. security and 
trade objectives.
    Another critical element to trade and security is CBP 
personnel, whether at or between ports of entry. As we all 
know, this Subcommittee has led efforts to support the 
recruitment and retention of CBP's critical workforce, most 
recently by authorizing and funding law enforcement officer 
retirement benefits for CBP officers. And I want to commend the 
Department for funding its journeyman pay initiative in the 
fiscal 2011 budget, although I am disappointed to learn that 
budget pressures have forced CBP to postpone implementing that 
initiative this year and that postponement has reportedly 
damaged morale considerably.
    Beyond the journeyman pay issue are fundamental staffing 
budget challenges for CBP. I am concerned we may lack the CBP 
Officers and agriculture specialists we need. While we doubled 
the number of Border Patrol agents since 2002, the number of 
CBP Officers has not grown accordingly and is projected to 
decrease by about 500 positions this year, despite increased 
appropriations. Yet ports of entry are where most narcotics and 
other contraband enter. Seizures are rising there where most 
travelers, legitimate or otherwise, cross; and we continue to 
hear of long wait times at land ports of entry.
    Your request includes $70 million to address what you call 
``systemic salary shortfalls'' and $45 million for 389 CBP 
officers to ``maintain staffing for critical positions''. These 
have the appearance of stopgap actions. The problem is, user 
fee collections, which fund over a third of CBP officers, are 
falling.
    Clearly, CBP has big structural budgetary dilemmas. Minor 
economies like cutting foreign language incentive pay or 
management efficiencies are not real solutions. They may, in 
some instances, be counterproductive. So we need to focus on 
CBP's strategy to fix these problems in a more sustained way.
    In addition to personnel, technology has been a cornerstone 
of CBP efforts to detect radioactive and nuclear material, 
drugs, weapons, and other dangerous contraband, with over $1 
billion appropriated over the past 5 years. Yet there remain 
significant challenges. For example, the next generation of 
radiation portal monitors has yet to be certified, and cargo 
scanning at seaports remains consistent, particularly those 
served only by rail. We would like to hear about CBP plans to 
do more operational testing of possible technologies.
    We also want to hear CBP's overall strategy for modernizing 
nonintrusive inspection systems to streamline the inspection 
process. Targeting, screening, and inspecting international 
travelers is, of course, a CBP mission, with tools such as the 
Electronic System for Travel Authorization, the Western 
Hemisphere Travel Initiative, and the traditional screening of 
inbound and now outbound travelers. In light of the December 
25th incident of last year, how is CBP improving its capacity 
to target, screen, and process travelers, to document arrivals 
and departures, and to enhance security while expediting low-
risk travelers?
    So, Commissioner, this is a full plate. We look forward to 
a lively dialogue on these issues.
    We, as is our custom, will put your full written statement 
into the record and ask you to limit your oral remarks to a 5-
minute presentation so we can get on with an exchange with you.
    Before we recognize you, I want to turn to our 
distinguished ranking member, Hal Rogers, for his comments.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Opening Statement of Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome back, Chief Aguilar.
    With all due respect to you, Chief, I find it very 
disappointing that we are here today, nearly 14 months after 
the administration was sworn in, and an agency as vital as CBP 
is still without confirmed leadership. CBP is the critical 
filter in our homeland security arsenal, allowing legitimate 
travel and trade in and doing all it can to keep terrorists, 
criminals, and contraband out. So, given the fact that our 
witness is a career Border Patrol agent with more than 31 years 
of service, I find it regrettable that he is being asked to 
defend the administration's curious and potentially harmful 
decision to substantially cut border and cargo security.
    But considering last week's seemingly haphazard 
announcement on SBInet, I think we need to at least clarify a 
few questions that are long overdue for answers, like when are 
we going to secure the border, how are we going to do it, and 
how much is it going to cost? This Subcommittee has been asking 
these questions since its inception. And since the launch of 
the Secure Border Initiative in November of 2005, I have been 
asking what is to stop S-B-I from being just another three-
letter acronym for failure?
    So, as troubled as I am about the funding and direction of 
SBInet, I am far more concerned about achieving and sustaining 
meaningful control of our borders. In the midst of an 
escalating and murderous drug war, now is certainly not the 
time to retreat from our strategic goals and blink in the face 
of the cartels' senseless violence there.
    So, today, I want to learn how CBP is getting its mission 
right. I want to learn where the administration is headed with 
cargo security while proposing what amounts to a 37.7 percent 
cut in the Container Security Initiative and an 18.4 percent 
cut in C-TPAT for fiscal 2011. I want to understand why, in the 
wake of the Christmas Day terrorist attack, the fiscal year 
2011 budget proposes no enhancements to CBP's overseas presence 
to screen U.S.-bound foreign travelers. And, perhaps most 
importantly, I want to get straightforward answers on our 
border security efforts, especially when the fiscal 2011 budget 
is proposing to slash funding for the fencing, infrastructure, 
and technology appropriation by $225 million, 28 percent below 
the current year.
    Chief, I know you understand the need for robust security 
along our border and our ports. We have watched your career 
over many years now. I also know that you are being put in an 
unfortunate situation in having to carry the administration's 
water on what appears to be significantly detrimental 
reductions to many of our most vital security programs, 
programs we have spent years building up. So I appreciate you 
being with us today. Thank you in advance for your candor in 
helping us understand CBP's budget request for fiscal 2011.
    Thank you.
    Mr. Price. Thank you.
    Commissioner, please proceed.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                    Statement of Chief David Aguilar

    Mr. Aguilar. Thank you, and good morning. Chairman Price, 
Ranking Member Rogers and members of the Subcommittee, good 
morning. It is an honor to be today to discuss the work of 
Customs and Border Protection (CBP).
    Let me begin by expressing my gratitude to the Committee 
for the strong, continued support that you have provided since 
the creation of Homeland Security.
    CBP relies on a balanced mix of professional enforcement 
personnel, advanced technologies and modernized facilities and 
infrastructure both at and between the ports of entry. Over the 
years, this Committee has made significant investments in all 
of these areas, and every investment you have made has helped 
to protect this country against historical and evolving threats 
and vulnerabilities.
    CBP, as you know, is the largest uniformed federal law 
enforcement agency in the country. Our purview spans more than 
5,000 miles of border with Canada and more than 1,900 miles of 
border with Mexico. We now have more than 20,000 Border Patrol 
agents operating between the ports of entry and more than 
20,000 CBP officers at the ports of entry. These forces are 
supplemented with more than 1,100 air and marine agents and 
more than 2,300 agricultural specialists and other 
professionals.
    In Fiscal Year 2009 alone, CBP processed more than 360 
million pedestrians and passengers and 109 million conveyances, 
apprehended more than 556,000 illegal aliens crossing between 
the ports of entry, encountered more than 224,000 inadmissible 
aliens at the ports of entry and seized more than 5.2 million 
pounds of narcotics. Every day, CBP processes more than 1 
million travelers seeking to enter the United States by land, 
air or sea.
    While considering the successes in our day-to-day 
activities, we must continually strive to improve our 
capabilities, capacities and abilities to keep terrorists from 
doing harm to our Nation and its commercial supply chains, 
basically, to our way of life.
    Through our efforts and this Committee's support, I believe 
our Nation is safer and more prepared today than ever before to 
face the threats and challenges that impact our Nation's 
borders. However, the attempted attack on Northwest Flight 253 
on December 25th was a very powerful reminder that terrorists 
will go to great lengths to defeat the security measures that 
have been put in place since September 11, 2001.
    As Secretary Napolitano has testified in recent hearings 
regarding the attempted attack, this Administration is 
determined to thwart terrorist plots and disrupt, dismantle and 
defeat terrorist networks. This is an effort that involves not 
just CBP but, very importantly, components across the 
Department of Homeland Security, as well as other federal, 
state, local, tribal and private sector and international 
partners--the entire Homeland Security enterprise.
    Working with our partners, our strategy is to secure the 
Nation's border by employing and enhancing our layers of 
defense throughout the continuum that impacts our borders, 
starting at the point of origination, transit, arrival, entry, 
egress into the country and final destination within the 
country. This strategy relies upon increased intelligence and 
risk management strategies regarding both the movement and flow 
of travelers, trade and means of transportation.
    Our organization, our agents and officers recognize we can 
never become complacent. We must continually reevaluate and 
improve the effectiveness of every layer of our strategy to 
adapt to an ever-changing threat environment.
    CBP remains committed to being progressively proactive, not 
just reactive. When it comes to the security of our borders and 
the safeguarding of our way of life, this is absolutely 
critical.
    Over the past few years, we have seen an escalation of 
drug-trafficking-related violence in Mexico. We are responding 
to the challenges and threats this poses to our Nation. As part 
of the Southwest Border Initiative announced by Secretary 
Napolitano in March 2009, CBP launched new initiatives and 
strengthened existing strategies to address this concern.
    We are continuing to enhance and build on our robust 
partnerships with our Western Hemisphere neighbors, Mexico and 
Canada. We have built successful programs to facilitate 
legitimate trade and travel, and we will continue to build upon 
those efforts.
    For instance, we successfully implemented the Western 
Hemisphere Travel Initiative on June 1st for land and sea 
travel. The Global Entry Trusted Traveler Pilot Program, which 
began at three airports in 2008, now operates in 20 airports, 
with more than 40,000 members enrolled. And, finally, we will 
utilize advanced targeting, screening and intelligence 
capabilities to quickly identify persons or cargo that warrant 
additional scrutiny without unduly impeding the traveling 
public or commerce.
    This budget recognizes that our people remain our greatest 
asset. It funds the journeyman-level increase for its front-
line CBP officers, Border Patrol agents and agricultural 
specialists from the GS-11 to the GS-12 level. The jobs of our 
front-line personnel have become more complex since 9/11, and 
this upgrade reflects the increase in those responsibilities.
    Over the past 5 years, CBP has experienced substantial 
growth in its resources and capabilities and was supported by a 
near doubling of our annual budget during that time span. 
However, our Nation is still experiencing the effects of a deep 
and lasting recession, which has had some direct impact on our 
budget. As a result of this tough economic reality, our agency 
has seen a decrease of approximately 8 percent in user fees. 
However, this does not translate to a corresponding decrease in 
inspection requirements or workload in the enforcement area.
    Mr. Chairman, I appreciate the opportunity to be here this 
morning and for your continued support of CBP. We are 
continuing to make real strides in the balance between 
effective and secure border management and streamlined and 
efficient trade policy. Thank you, and I look forward to any 
questions that you might have of me, sir.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                    SCANNING U.S. BOUND CARGO WAIVER

    Mr. Price. Thank you. We appreciate your testimony, and we 
will proceed to those questions.
    I want to focus on the scanning issue, the scanning of 
cargo headed for U.S. shores in overseas ports, both the Secure 
Freight Initiative and the Container Security Initiative, and 
whatever other approaches or plans that the administration will 
be developing.
    The Secretary has said she will likely waive the 9/11 Act 
requirements to scan 100 percent of U.S.-bound cargo by 2012, 
although we understand that DHS will consider the impact of any 
significant changes such as improved scanning technology before 
finalizing that waiver and sending it to Congress. For a long 
time now I, and I think this subcommittee, have expressed some 
understanding of the difficulties involved in that 
authorization requirement and have urged on the Department 
candor, straightforwardness in working with us to figure out 
what is realistic but also for the long run what is desirable, 
what is the optimal solution here.
    Let me first, though, focus on the waiver at hand--or the 
likely waiver at hand. To what extent is this decision one 
caused by inadequate technology, and how much of it is due to 
other aspects, perhaps aspects not as easily fixed--although 
technology is difficult enough--burdens of diplomacy, of 
logistics, of cost, of administration? How would you assess the 
likely waiver and the reasons behind it? And, of course, this 
isn't the first time we have dealt with this.
    Mr. Aguilar. Yes, sir. And thank you for that question 
because it gives us an opportunity, in the interest of candor, 
to basically describe the situation that we are facing.
    It is a very complex situation that we are facing. You 
touched on some of the most important points. Technology, 
obviously, is going to be critical in order to accomplish that 
100 percent scanning at any given location. But, in addition to 
that, Mr. Chairman, we also have the situation of logistics--
the host country being able to host us, wanting to host us, 
having the desire to host us at that host country.
    In addition to that, we have the layout, the schematic, if 
you will, of the existing ports of entry. A new term that I 
learned, for example, is a gateway port, where it is much 
easier to deploy technology because, basically, the 
containerized cargo goes through one gateway into the port. 
There are other layouts that basically are transitional ports, 
where there are a multitude of avenues into the ports and a 
multitude of requirements in order to get us to that kind of a 
situation.
    In addition to that, there are the financial costs and 
burdens that they play, not necessarily on the country but on 
the trade, the industry and so forth.
    So it is a combination of all of those things that make the 
waiver a very real situation. Needless to say, though, we are 
not going to continue in the outyears to look at the potential 
and that possibility.

                     CONTAINER SECURITY INITIATIVE

    Mr. Price. Well, let me go a little further with this.
    The 2010 appropriations bill directed CBP to report on its 
strategy to, quote, achieve meaningful and effective cargo and 
supply chain security. Now, we don't have that report. We can 
infer probably some elements of your strategy, though, from the 
budget; and that is what I want to ask you to help us do here 
this morning.
    One striking aspect at the outset is a cut of $16.5 million 
from the Secure Freight Initiative. Now, the Secure Freight 
Initiative is the pilot project which attempts to establish 
comprehensive scanning, 100 percent scanning, of cargo at a 
foreign port before that cargo heads to our shores. Now, the 
plan, as I understand it, is to sustain the SFI project through 
remote operations only at the ports of Qasim in Pakistan and 
Salalah in Oman. Other sites, including the port of Hong Kong, 
would remain part of the Security Initiative, which we will 
come to in a moment. That Container Security Initiative does 
use CBP officers at foreign ports in partnership with host 
nation authorities, and it seeks to identify high-risk cargo to 
be screened and cleared before loaded onto U.S.-bound ships.
    Now, your budget says you will establish an SFI port in 
Karachi, but you request no new funding for that. So let me ask 
you, as a practical matter, are we really looking at the end of 
the Secure Freight Initiative? Is the 100 percent global 
scanning requirement feasible in any reasonable timeframe? And, 
if not, what will scanning and screening look like at foreign 
ports?
    As I said, we will later talk about the CSI as one possible 
model. There are no doubt others under consideration. Are we 
talking about really questioning or maybe eliminating the 
chance for widespread overseas scanning? There is certainly not 
going to be any momentum or incentive for foreign government or 
private sector implementation without U.S. leadership.
    Mr. Aguilar. Yes, sir. Fair questions, Mr. Chairman.
    First of all, we are undertaking a full assessment of just 
how we bring security to the supply chain, including a 
combination of scanning, screening by way of physical and 
virtual presence and bringing all of those together.
    Let me begin with the Container Security Initiative (CSI) 
portion of this. Our intent is to continue taking a look at 
very strategic locations where the physical presence will 
benefit our interest in continuing to secure the supply chain. 
That will continue.
    You mentioned----
    Mr. Price. Excuse me. Could you just for the record 
indicate how many CSI ports are there at this moment?
    Mr. Aguilar. We are operating in 32 countries, 58 ports, 
through which more than 80 percent of cargo that either 
originates at, or transits through, comes into the United 
States.
    Mr. Price. All right. So the CSI approach is actually quite 
widespread?
    Mr. Aguilar. Yes, sir.
    Mr. Price. Please proceed.
    Mr. Aguilar. In addition to that, we talk about securing 
the supply chain. It is through a transformation of both 
physical scanning and screening.
    One of the things that I think we should be very proud of 
is the fact that, through a combination of CSI, the Secured 
Flight Initiative (SFI) and the virtual capabilities that we 
have through our national targeting center that resides 
domestically, we literally screen and target by way of risk 
management more than 98 percent of all containerized cargo 
leaving foreign parts coming toward the United States.
    Now, again, the way that we take a look at the supply chain 
is in the following fashion: What can we do at the point of 
origin, point of transit, point of arrival, point of entry and 
even continuing beyond that?
    So, at the point of origin, we have the CSI, SFI, virtual 
capabilities. We have the 10+2 rule that has now engaged and, 
thus, gives us an even higher degree of scanning and targeting, 
locating exactly where the cargo has been stuffed into the 
actual ships, things of this nature. Upon transit, we continue 
doing that risk-based analysis. Upon arrival at the ports of 
entry in the United States, we now are, in fact, scanning 
approximately 96 to 98 percent of all containers before they 
leave those ports of entry.
    Mr. Price. Whether or not they have received attention 
overseas?
    Mr. Aguilar. Yes, sir. And we certainly take that into 
consideration.
    Now--and, again, you did mention that we are going to be 
keeping Salalah and a couple of the other ports open. And 
again, very importantly, it is going to be the strategical 
approach that we take into the future at applying our either 
virtual or physical presence under CSI.
    And, of course, very importantly, sir, something I didn't 
mention, but I think it is critical to mention, is our Customs 
and Trade Partnership Against Terrorism (C-TPAT) program, which 
is our voluntary industry program that has had a tremendous 
amount of support from the industry. We right now have more 
than 9,700 member companies of that program, which basically at 
the point of origin and throughout the transit chain also 
ensures that the companies are doing everything that they can 
to ensure the security of trade, industry and containers moving 
toward the United States.
    Mr. Price. All right. This is helpful, but it does, you 
probably would agree, raise about as many questions as it 
answers in terms of the Department's long-term plans. I am 
going to go on to the next round to raise questions about the 
future of CSI in this budget. Because, as you know, the budget 
raises questions about whether that is the preferred approach 
going forward.
    But let me at this point turn to Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Chief Aguilar, we really appreciate the service that you 
and your officers put your lives on the line for us every day 
and genuinely appreciate your dedication and admire you guys 
immensely. I have had the privilege of working with you and 
your sector chiefs and visiting many, many parts of the border. 
You and your officers exhibit extraordinary bravery and we are 
really proud of you guys.
    Mr. Aguilar. Thank you, sir.

                        SECURE BORDER INITIATIVE

    Mr. Culberson. I want to ask, if I could, Chief, in this 
first round about the Secure Border Initiative, which, as you 
know, was kicked off about 5 years ago with an estimated cost 
of about $8 billion to $10 billion; and we have as a Nation so 
far I believe spent over $1 billion in the program. The SBInet 
program is a combination of technology, of course, using part 
pedestrian and fencing and vehicular fencing and technology. It 
was supposed to be like a virtual fence in more remote areas.
    Last week, Secretary Napolitano announced that the 
Department of Homeland Security would redeploy $50 million of 
money that had been provided to the Department under the 
stimulus bill and that it would be used for SBInet, as she 
said, for the purchase of, quote, commercially available 
security technology along the Southwest border. Now, she also 
announced that DHS would be freezing all SBInet funding beyond 
the block one initial deployment to the Tucson and Ajo sectors 
until the assessment she ordered in January was completed.
    Now, the stimulus plan required a detailed expenditure plan 
for all funds that were provided. So far, the plan has not been 
provided to the Congress to demonstrate exactly what 
commercially available security technology she was referring to 
and that has been purchased, and we don't have a timeline or 
scope of SBI.
    So far, about $6 billion--$6,000 million--has been 
appropriated for fencing, infrastructure, and technology, 
Chief. And, as I say, there has been $1 billion invested so far 
specifically in the virtual fence, about $1 billion in CBP's 
air and marine resources. Looking at the numbers, I see the 
Border Patrol has estimated that in October of 2005 you had 241 
miles of our 2,000 mile long border, southern border, under 
effective control. And the most recent numbers that I have been 
able to get access to show that about 697 miles are under 
effective control as of March of 2009. That is about 35 percent 
of the southern border.
    I wanted to ask, Chief, if you could, to talk to us about 
when, in your opinion, we will have the southern border under 
effective control and how we will do it and how much it is 
going to cost.
    Mr. Aguilar. Tough questions. Sir, I will begin there. 
Tough questions, because I am not sure that anybody could give 
you an answer to that, but I will attempt to take you through 
where we are going.
    First, let me begin with the SBInet situation that we are 
facing. There is nobody that is more frustrated with the 
situation that we have faced with SBInet since it began than 
those of us who have actually patrolled and worked that border 
because we identified a requirement that basically has, to 
date, not necessarily been met. We are making headway. But 
because of the situation that we find ourselves in, $50 million 
has been pulled of the American Recovery and Reinvestment Act 
(ARRA) funding toward SBInet.
    In addition to that--this is the best way I can explain 
where we find ourselves now; Tucson 1, 23 miles of capability, 
Ajo 1, 30 miles of capability, for a total of 53 miles, are 
basically going forth. They will be in the hands of the Border 
Patrol for operational testing and evaluation by the end of 
this calendar year.
    Mr. Culberson. How many miles in Ajo?
    Mr. Aguilar. Ajo is 30; 23 in Tucson 1, sir. What we are 
seeing so far, Tucson 1 is now operationally being tested and 
is showing good signs. It is giving us a capability that 
basically we have never had before. But that is why we are 
taking a measured and judicious approach to make sure that any 
further investments that are made under SBInet gets the agents 
on the ground which is exactly what we need.
    What we need is to have situational awareness. People call 
it a virtual fence. Actually, what it gives us is situational 
awareness of what is happening along our Nation's borders, not 
with a single focus but for an environmental landscape focus, 
if you will.
    Mr. Culberson. I want to stress it is the safety of your 
officers, too. This is, above all, first and foremost, for you 
and the senior command the safety of your men and women in the 
field is at risk.
    Mr. Aguilar. Yes, sir. And that is the criticality of it, 
yes, sir. And that is why we are taking this approach.
    I agree with this approach to do an assessment, to take a 
step back. That is not to say that we are going to slow down by 
any means at all. The redirection of the ARRA funding, for 
example, is going to give us capabilities, not system 
capabilities, but it will give us technological force enhancer 
capabilities that we, frankly, don't have right now. One of the 
systems we are looking forward to getting additional units of 
is going to be the Mobile Surveillance System (MSS).
    Mr. Culberson. Out of the $50 million?

                       MOBILE SURVEILLANCE SYSTEM

    Mr. Aguilar. Out of the $50 million, yes, sir. About $32 
million of that is what we are looking at directing toward that 
MSS capability. Each one of those systems basically has the 
capability to give us an environmental look, landscape look, of 
anywhere from between 8 to 12 miles of the border.
    Mr. Culberson. If you would describe the Mobile 
Surveillance System.
    Mr. Aguilar. It is a combination of ground surveillance 
radar, Doppler radar, infrared day/night capability and 
targeting and tracking capability all in one package that 
covers an area of anywhere from 8 to 12 miles. We have used it. 
We own about 40 to 42 of those right now. That capability has 
worked tremendously. So we are going to continue to add on it.
    Mr. Culberson. Thirty-two of the 50. And what about the 
other remaining?
    Mr. Aguilar. It is spread out, sir, over capabilities for 
some of our air assets, some of our pedestrian capabilities (we 
are looking for our foot officers to basically carry night 
vision capability), things of that nature. So it is spread out 
over capability requirements our officers have identified.
    Mr. Culberson. So you have got a good idea, you have 
already got the equipment lined up, and you know how the $50 
million is going to be spent.

                            EXPENDITURE PLAN

    Mr. Aguilar. We have an expenditure plan, yes, sir.
    Mr. Culberson. If I could, that is required by law to be 
provided to Congress. What happened? And when are we going to 
have it? We probably ought to get that right away.
    Mr. Aguilar. The only thing I can tell you, sir, is it is 
going through the review process right now.
    Mr. Culberson. You have done your part. Border Patrol has 
submitted it.
    Mr. Aguilar. Yes, sir.
    Mr. Culberson. That is something we heard yesterday, Mr. 
Chairman. It seems like we have got a real choke-point 
somewhere in the bureaucracy up there. It would be nice to make 
a requirement that somebody doesn't get anymore money for 
whatever office they are running if they don't provide 
statutorily required reports, would be good.
    If you could, Chief, the Tucson sector I want to ask about 
is a continuing problem. The latest numbers we have show that 
in the Tucson sector, the estimates we have heard is--and I 
want you to confirm this--that you all are apprehending about 
one in ten people that cross the border in the Tucson sector. 
Does that sound about right?

                    TUCSON SECTOR APPREHENSION RATE

    Mr. Aguilar. No, sir. No, it doesn't, but I am afraid we 
can't give you an exact number of apprehensions.
    Mr. Culberson. Your best estimate.
    Mr. Aguilar. I wouldn't want to guess now. And the reason 
is that in those areas where we now have the capability to have 
good, solid knowledge of what is happening, for example, in 
Tucson 1, we are operating for about 16 hours per day. That 
gives us an exact footprint of what is happening. And basically 
we get pretty close to telling you how many are crossing and 
how many of those we are catching. We can give you an 
approximate there. I don't have that number there. I can get it 
for you. More than 16 hours.
    For the remainder of the sector, where we don't have that 
kind of capability but are trying to build it, it is a best 
guess.
    Mr. Culberson. Let's say for that 16 miles, what do you 
estimate you are catching; two out of ten, three out of ten for 
that sector?
    Mr. Aguilar. It would be higher than that, sir.
    Mr. Culberson. Okay. I will ask some follow-up questions. 
Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mrs. Lowey.

                   SCREENING INTERNATIONAL PASSENGERS

    Mrs. Lowey. Thank you, Mr. Chairman; and welcome.
    Frankly, I brought this subject up quite a few times, and 
it is astonishing to me that we can't get this changed now. It 
was outrageous. And I am sure we would all agree that 
Abdulmutallab was a known threat, should have been stopped from 
boarding, the plane had CBP, had more time to review the 
passenger list.
    Now, during a hearing last March with CBP Commissioner 
Ahern, I asked him whether airlines should provide passenger 
lists 24 hours in advance of international flights arriving in 
the United States, as incoming sea vessels are required to do. 
He replied, absolutely not.
    Further, when Secretary Napolitano testified here last 
month, she said DHS was in the process of evaluating all of its 
rules and procedures.
    It is so obvious to me that 30 minutes is not enough time 
for CBP officers to screen hundreds of passengers. Twenty-four 
hours should be the new standard.
    In the months since Secretary Napolitano appeared before 
this Subcommittee, has the status of the DHS review of 
screening international passengers changed and is it still the 
position of CBP that 30 minutes is plenty of time to get the 
visas, review the history, make a decision as to whether that 
person shouldn't be aboard the plane? Can you respond?
    Mr. Aguilar. Yes, ma'am, I will be glad to.
    December 25th changed the way that we take a look at every 
one of our programs, and we are currently in a reassessment 
mode for everything.
    Mrs. Lowey. How long do you have to reassess? I know you 
are reassessing.
    Mr. Aguilar. Well, it takes into account what the new known 
threat is. The threat that we faced with Mr. Abdulmutallab was 
an unknown threat, and now we are looking at what gaps existed 
then so that we can close those gaps.
    Mrs. Lowey. Can you tell me if you can do this in 30 
minutes?
    Mr. Aguilar. Given the--well----
    Mrs. Lowey. Can you review the visas, check any background? 
In 30 minutes you can make a determination that someone can get 
aboard a flight and we don't have to worry about them?
    Mr. Aguilar. If we have the known information to match it 
up to, yes, ma'am.
    But the real problem that we have is not against the known; 
it is against the unknown. And if you would allow me, please, 
because Advance Passenger Information System (APIS) is not the 
sole dependency that we have for checking against our watch 
lists. We start out with Passenger Name Record (PNR). That 
starts coming at us at 72 hours before, at 24 hours again, at 8 
hours and 1 hour before boarding.
    In addition to that----
    Mrs. Lowey. May I just ask, the 72 hours, do you have their 
visa information as well?
    Mr. Aguilar. No, we do not have the visa information, nor 
do we have it with the 30 minutes before APIS checking. We have 
names, we have biographical information that we then take and 
match up against the known watchlists, the Terrorist Screening 
Databases that we have.
    Now, we are working toward revetting against visas as we 
speak. This is one of these gaps that we are looking to close. 
That is being worked on basically almost as we speak here.
    Mrs. Lowey. May I ask you, you said that this is a gap that 
you know you should close.
    Mr. Aguilar. Yes ma'am.
    Mrs. Lowey. I have been talking about this for probably 
more than a year. What is taking so long to make that decision? 
What is so difficult?
    Mr. Aguilar. Well, it is not any one agency that does all 
of this.
    First of all, let me take you to PNR. PNR is information 
that is given to us by the industry based on requirements that 
they have, not requirements that we have. We are taking an 
existing amount of data set in a certain way that we are 
basically getting from them.
    Mrs. Lowey. From the airlines.
    Mr. Aguilar. From the airlines. The data set will include 
the name, might include the date of birth, might include the 
way that the ticket was purchased, might include traveling 
partners, but it is inconsistent throughout. Now, we are 
working very closely with the industry to bring some 
consistency to the elements that we need under PNR.
    Mrs. Lowey. May I just follow up, because I know my time is 
limited. Is it very difficult for you, just you, to make a 
determination as to whether you should get the visa, you should 
get this additional information? What is so difficult about 
this process and this decision making?
    Mr. Aguilar. Well, you asked two questions, ma'am. 
Identifying the requirements, absolutely not. We have the 
requirements. As officers, as the boots on the ground that our 
people are, we understand; we know the requirements. The 
difficulty is how we reach that. Again, we are working with the 
industry right now. If that industry effort does not work out, 
we may very well be coming to you and saying we need help here.
    Mrs. Lowey. Look, I am a New Yorker. I was down at the 
World Trade Center. I have been out with our distinguished 
Chairman to JFK. We met with the police. The threat is still 
there.
    Mr. Aguilar. Absolutely.
    Mrs. Lowey. I don't know why it is taking you so long to 
make this decision, and I would like to have an answer in 
writing as to why you can't determine that at least 24 hours--
you say you get the name 72 hours. Why can't you get the visa 
and all background information? I mean, to me this is 
astonishing.
    [The information follows:]

    RESPONSE: Air carriers must transmit Advance Passenger Information 
System (APIS) data no later than 30 minutes prior to securing the 
aircraft doors for a batch transmission of passenger data or up to the 
time of securing the aircraft doors for interactive Automated Quick 
Query (AQQ) submissions of individual passenger data. CBP does require 
commercial air carriers to provide access to available Passenger Name 
Record (PNR) data starting at 72 hours before departure.
    Many reservations contain incomplete information which limits CBP's 
ability to conduct terrorist watchlist screening, however; this will 
change with the implementation of the Transportation Security 
Administration's (TSA's) Secure Flight program. Under Secure Flight, 
carriers will be required to collect and provide passenger information 
including full name, date of birth and gender to TSA for security 
screening starting at 72 hours prior to departure. CBP will also 
receive this more complete passenger information through the PNR data 
requirement resulting in enhanced screening capabilities for CBP. 
Secure Flight is expected to be fully deployed for international air 
carriers by December 31, 2010.
    Requiring additional passenger information and additional time for 
screening, beyond current APIS and PNR requirements, would necessitate 
changes to existing processes. Requiring travelers to formalize plans 
to travel to or from the United States at least 24 hours before 
departure would also preclude all last-minute travel.

    Mr. Price. Thank you.
    Ms. Roybal-Allard.

                            ILLICIT SHIPPING

    Ms. Roybal-Allard. Welcome Mr. Aguilar.
    Last December, I was joined by Mr. Farr and several of my 
colleagues from California in sending your predecessor a letter 
urging the crackdown on Chinese shippers that intentionally 
mislabeled consignments of steel tubing to avoid paying import 
duties. Without these duties, the Chinese tubing is 
significantly less expensive than its American counterpart. 
This illicit shipping, as you well know, robs our Treasury of 
essential revenue; and, more importantly, it puts American 
businesses at a competitive disadvantage resulting in the loss 
of American manufacturing jobs.
    Now, while I understand that some aspects of your current 
efforts are in fact confidential, can you please describe CBP's 
overall strategy for preventing Chinese steel tubing and other 
imports from illegally entering the U.S. market?
    Mr. Aguilar. Yes ma'am. I will speak to the degree that I 
am knowledgeable now about things such as countervailing and 
anti-dumping efforts that are ongoing.
    Just this past week, I was in Los Angeles with our district 
officers relating to import specialties and things of this 
nature, and, basically, that is one of the challenges that we 
are facing--continuing to staff up to the point where thorough 
review audits can continue to be done and then taking the 
appropriate tariff tax and duty actions against these 
individuals. We are dealing, as an example--and for obvious 
reasons I can't go into names right now--but we are dealing 
with several instances of like situations, not steel, but other 
products that have basically been skirting our duties.
    But I can assure you that CBP and DHS are taking very 
aggressive actions, both from the staffing technological 
standpoint and the focus standpoint, to ensure that we take the 
appropriate actions against these individual companies that are 
trying to skirt these duties that create an unfair competition 
field for our own domestic products.
    Ms. Roybal-Allard. So I can look forward to--or at least 
the companies that are in my district that are suffering from 
this, we can look forward to the fact that that is in fact 
going to change?
    Mr. Aguilar. We are taking, yes, very aggressive actions on 
that. I am not familiar with the company that you are referring 
to, ma'am, but if you can give us specific information, we will 
give you whatever we can on it, yes, ma'am.

                     CONTAINER SECURITY INITIATIVE

    Ms. Roybal-Allard. Thank you.
    Last year, I asked your predecessor, Mr. Ahern, about CBP's 
relationship with its foreign counterparts through the 
Container Security Initiative; and it was really disturbing to 
learn that several of our largest trading partners, including 
China, do not allow U.S. Customs officials stationed overseas 
to actually witness the inspections of suspicious shipments 
bound for the United States. Does that practice continue today, 
and what is being done to ensure that these inspections are 
being conducted properly, and if there is still a problem that 
it, in fact, is being reported?
    Mr. Aguilar. We, in fact, are working very aggressively 
with places and locations such as China, the one that you 
described, to ensure that the validation process as we deem 
necessary and appropriate gets carried out by our officers. 
Without having to go into much detail, I think all of us 
recognize the challenges that we have with China. But that does 
not mean that we are letting up. We, in fact, are continuing to 
work it. I just sat down with the new ambassador to China from 
the United States about a month and a half ago, and this was 
one of our main topics.
    Ms. Roybal-Allard. So at this point U.S. inspectors are 
still prevented from observing?
    Mr. Aguilar. We have our challenges, yes ma'am. To what 
degree we are being prevented, I don't have the exact count. I 
can get some of that for you, if you would like.
    Ms. Roybal-Allard. Okay. I would appreciate it.
    Mr. Aguilar. Yes ma'am.
    [The information follows:]

    RESPONSE: The CSI program currently has CBP officers stationed in 
Shanghai and Shenzhen. High risk shipments are referred to China 
Customs for examination. China Customs will perform examination using 
non-intrusive inspection technology comparable to that which is used in 
the U.S. In FY 09, China Customs conducted examination on 19.9% of U.S. 
requests. By comparison, CSI requests for examination are conducted 93% 
of the time program wide. China Customs performs the lowest level of 
requested examinations in the CSI program.
    Over the past year CSI has requested assistance from the CBP 
Attache at the embassy in Beijing and the consulate in Shanghai. China 
Customs says that by the time they get the referrals for exams by CSI, 
the containers are already laden on the vessel. Formal letters were 
written and meetings held with China Customs requesting that China 
Customs Officers be available to perform exams on weekends and after 
hours and China Customs indicated the Declaration of Principles signed 
with CSI does not stipulate that they are required to work after hours 
or weekends.
    CSI and the CBP Attache in Beijing continue to engage China Customs 
to resolve the low exam rate.

                             C-TPAT PROGRAM

    Ms. Roybal-Allard. And, finally, as you know, through the 
Customs-Trade Partnership Against Terrorism program, shippers 
agree to implement stronger security measures in return for 
less scrutiny from Customs officials at major ports of entry. 
According to recent news reports, Mexican drug cartels have 
begun to take advantage of this arrangement, targeting the 
trucks and containers of C-TPAT-certified companies and using 
them to smuggle narcotics into the United States. These stories 
are made especially troubling by the fact that more than half 
of all U.S. imports now come from shippers enrolled in that 
program. What steps are being taken to prevent the cartels from 
exploiting a C-TPAT, how successful have your efforts been, and 
what challenges still remain?
    Mr. Aguilar. The C-TPAT program, ma'am--first of all, let 
me begin here--is one of our great success stories because of 
the fact that it brings in industry as a critically important 
partner to help us secure the supply chain from an enterprise 
perspective. More than 9,700 companies are now members of C-
TPAT.
    The reason I mention that is because just last Thursday, I 
gave a keynote address to more than 1,200 C-TPAT members in Los 
Angeles, CA. One of the main focuses of my address and of the 
classes that were being given and the training that was being 
given was just what you speak to: the vulnerabilities that 
exist, the things that we must recognize in this partnership 
and the things that we must do to overcome them. One is 
increasing the security, the vigilance of the companies 
themselves, the validation process that we take them through. 
And then, critical to understand, because they are members of 
C-TPAT does not mean that they have a free ride. There is still 
ongoing samplings taken of these companies.
    But I am elated to tell you that, from the perspective--I 
met Chief Executive Officers or vice presidents from Shell 
company and Swift and other companies, General Motors, that 
were there, and the level of interest in protecting and 
ensuring the security of the supply chain is very, very high.
    I also had the opportunity to meet with one of the under 
secretaries for Mexico on the same issue. They are working 
jointly with us right now toward a C-TPAT-like program, and we 
are offering capacity building and lessons learned to them also 
to strengthen that supply chain.
    Ms. Roybal-Allard. And once they enter the program is there 
a continuous review? Or do they enter and then they are just 
sort of forgotten?
    Mr. Aguilar. No ma'am. There is an ongoing, continuous 
review.
    And the validation process--I will share with you that, 
when I first heard about it, I was pleasantly surprised. The 
revalidation process can take anywhere from a month to a year, 
depending on what our import specialists find. So it is a very, 
very strong program, I believe.
    Ms. Roybal-Allard. Thank you. My time is up.
    Mr. Price. Thank you.
    Mr. Rodriguez.
    Mr. Rodriguez. Thank you.

                       INFRASTRUCTURE CONSTRAINTS

    Chief, thank you very much for your leadership. And I want 
to personally thank you for your hard work in defending our 
country. I know that you have been--in terms of boots on the 
ground, you have been there. So I want to thank you for your 
direct knowledge of the things that are needed out there.
    I wanted to ask you--and I know we have beefed up on border 
patrol. We are now close to 20,000. One of the areas that we 
continue to get reports, not only from the Border Coalition but 
from other groups, about the need for Customs on the bridges 
and the problems that we continue to have with commerce there, 
as well as security. And no one knows that better than you, 
that you can secure the areas--and they are being well secured 
in most areas between the bridges--but if you don't have the 
personnel on the bridge it is going to either bottle up or we 
are going to have some problems there. Your budget recommends 
about 380 additional people when all indications are that there 
is a need for some 5,000. From your perspective, where are we 
at on that and when are we going to come to grips with that 
issue?
    Mr. Aguilar. Well, first of all, thank you for asking that 
question because it gives us an opportunity to speak to 
something that too often we don't get an opportunity to speak 
to.
    The concerns, the frustrations, are in fact very real when 
those bottlenecks occur, when that stymieing, if you will, of 
trade occurs. The officers, the Customs and Border Protection 
officers and the ag specialists are absolutely critical to 
maintaining the efficiency and the effectiveness. But they are 
constrained, also--and we must recognize this--they are 
constrained by the infrastructure that exists at these ports of 
entry.
    Congressman, one of the things that we have taken into 
consideration and we must take into consideration and we do 
look at very closely is whether it is a good thing to put more 
officers into a port of entry that, regardless of how many 
officers you put in there, because of the infrastructure 
constraints, can't bring any more capacity?
    Personal experience. Nuevo, Laredo, the infrastructure from 
an ingress into the port of entry from Mexico, is a bottleneck 
way before it gets to the port of entry.
    Mr. Rodriguez. And I understand that problem. But other 
situations, and you have seen it yourself, where we go to 
communities and we have opened up additional lanes, but they 
are closed because they don't have the personnel. Especially 
during times when staff want to take off, like Christmas, 
Easter, you know, and that is when you need them the most.
    So I understand in terms of infrastructure. And no one got 
more upset than when the stimulus money came out and it all 
went to Arizona, and Texas got nothing, than me.

                          PERSONAL CONSTRAINTS

    But, having said that, I know that we need to beef up, but 
we also need to beef up on personnel. So, based on the 380, it 
is not going to get us there in terms of--you know, we just 
opened up another bridge Ansandua. Those 380 were probably just 
going to go there, yet we are still looking at other 
possibilities.
    So I would hope that we start looking at how we beef up on 
Customs. If nothing else, there has got to be a program there 
with the number of border patrols that we have that at some 
point in time--I know that it might be difficult--but for them 
to also be able to have a transition where some of them go on 
the actual ports of entry and help out. So give that some 
thought during especially those heavy times when we need them.
    I can tell you communities of San Marcos in Texas where 40 
percent of their sales is to Mexicans coming over purchasing 
stuff. And if they don't show up, my God, we are going to be in 
trouble. Others, it is 80 percent of their sales. But ensuring 
the security. And I agree with you in terms of the 
infrastructure, because that is another issue.

                       BIG BEND BORDER CROSSINGS

    The Secretary of the Interior was with me, Secretary 
Salazar, in the Big Bend. We had an opportunity to visit that 
area. We talked about the possibility of the dialogue that has 
taken place since the 1930s and 1940s about an international 
park and the importance of that.
    There is three crossings that were closed in the Big Bend, 
and the possibilities of opening those crosses in especially 
like Boquillas, which it just makes more sense for us to have 
direct contact, a little more in terms of what is happening on 
the other side versus bringing closure completely and then not 
have any contact whatsoever with a community. I would ask in 
terms of where are we at on looking at--because I had more than 
three closures of bridges after 9/11--and so to seeing how we 
might, if nothing else, for tourist purposes of those three 
crosses. Can I get your comments on that?
    Mr. Aguilar. Yes, sir. I believe the ports of entry that 
you are talking about, or what used to be ports of entry class 
B, which were done away with in 1986, are La Linda and 
Boquillas. And we did, in fact decide, because of the field 
commander's determination right after 2001, that those needed 
to be closed because of the situation we were facing. We are in 
the process of reassessing, taking a look at what the situation 
is currently, to see what it is that can be done. But, of 
course, with that comes additional resource requirements.
    Mr. Chairman and Congressman, just one other thing. Because 
of the criticality of the importance as to how we look at our 
ports of entry, the congestion and things of that nature--
again, I am going to repeat--the CBP officers are absolutely 
critical. But we are looking at not only that but also other 
things that we can do (bringing other capabilities to those 
ports of entry that will help us segment, sort, target and 
triage, expedite the flow through)--things such as our Trusted 
Traveller Programs that will help us segment and sort the 
people that we trust and the WHTI effort that we have 
undertaken, again another tremendous success story that has 
taken real hold.

               WESTERN HEMISPHERE TRAVEL INITIATIVE (WHTI)

    WHTI right now, of those that are actually queried on the 
southern border, approximately more than 94 percent of them 
hold a card that is one of a minimal amount that can be used, 
as opposed to more than 8,000 that could be used before. So 
that facilitates, that expedites.
    So, again, I would just repeat that officers are key, but 
the other actions that we have actually put in place are 
absolutely critical also.
    Mr. Rodriguez. If you can help me with Del Rio and Eagle 
Pass, on those passages, they have to go all the way to Laredo 
to get that card, and not only does it cost them $150 or so but 
also, in addition to the travel, those individuals, we need to 
get them in some of those other communities. They have been 
asking me. There are thousands of them. That would also help 
expedite for the people in Acuna and the people in Piedras 
Negras also that would have to travel all the way down there.
    One additional question?

                        C-TPAT BUDGET REDUCTION

    Mr. Price. If you don't mind, wait until the next round. 
Your time has expired.
    I do want to follow up on Ms. Roybal-Allard's line of 
questioning. An important program, C-TPAT, and we appreciate 
basically your positive assessment of that program and its 
future. I would like to ask you, though, to put a little finer 
point on that, and you can do this for the record if you 
prefer. But there is a $12 million cut of this program in this 
budget, and that does raise obvious questions, doesn't it, 
about the number of current C-TPAT participants who can be 
revalidated, and also the capacity to add new participants. It 
just seems to me that is a basic question that this Committee 
needs to address, and you need to help us do so.
    Mr. Aguilar. I will do that, and I will address a short 
portion of it and take the rest of it, which I think will 
demand more detail as an insert for the record (IFR).
    But the reduction, if you will, does not necessarily mean 
the reduction in capacity of the program, especially as it 
relates to realignment of the revalidation inspectors and 
things of that nature. I believe, at the present time, we have 
about 200 of those import specialists that actually perform 
those revalidations.
    I spoke to the group from Miami last week, and I asked them 
specifically, how many companies do you each carry in your 
portfolio? It varies. I asked them if we were basically at the 
peak, and they said no, but we will be getting there pretty 
fast. So expansion capabilities are still inherent within the 
program by way of realignment.
    Now, we will take a look specifically at the import 
specialists as to what it is we need to carry out that very 
important part of C-TPAT. The rest I will take for IFR.
    Mr. Price. If you can assure us those basic capacities are 
not compromised in that budget request, then please tell us 
where those cuts do occur; what would account for the savings 
that you think can be absorbed?
    [The information follows:]

    RESPONSE: The current funding profile for the C-TPAT program was 
developed during the start up and expansion phase. The program is now 
mature, and $12 million can be eliminated from its budget with no 
impact on operations. Based on projected workload, as well as on 
program efficiencies, the operational capability cut will not impact 
CBP's supply chain security mission. The program has aggressively 
worked to identify and successfully implement travel and validation 
procedures aimed at maximizing program resources.
    C-TPAT will reduce the number of contractors (software programmers 
and testers) assigned to the Office of Information Technology to 
develop the program's Automated Web-Based Portal System from 8 to 2 
programmers in equal increments from FY 2010-2012. The Portal is the 
primary interface with the C-TPAT trade members and has approximately 
20,000 designed users. It warehouses information pertinent to the 
validation process and is critical to effective and efficient 
administration of the program. A phased down approach will give the 
program the opportunity to make needed functional enhancements over an 
extended time period.
    The reduction to funds supporting the Automated Web-Based Portal 
System will have minimal impacts because CBP will use a phased approach 
in which necessary enhancements will still be made, over an extended 
time period. The reduction to support funds, including equipment, 
services and supplies, will not impact the program's ability to meet 
current mission goals. The C-TPAT program will meet all timelines as 
mandated by the Security and Accountability for Every Port Act of 2006 
(SAFE Port Act), Public Law 109-347.

                     CONTAINER SECURITY INITIATIVE

    Let me return to overseas scanning and screening and the 
Cargo Security Initiative, which, as you said, is a much more 
widespread initiative at overseas ports to examine as much 
cargo as possible headed for the U.S. before it reaches our 
shores.
    Fifty-eight ports around the world now implement CSI, 
covering, as you said, 80 percent of the shipments headed to 
the U.S. In answering my question about the 100 percent 
screening and about the future of the Secure Freight 
Initiative, which is a pilot designed to determine the 
feasibility of 100 percent screening, and I think it is fair to 
say, from what you said and what we know, that that pilot has 
not been terribly reassuring. There have been some good 
operations set up, some good cooperation, but still it is a 
formidable goal and one that we are asking you to be candid 
about in terms of its feasibility.
    Now, CSI is a more targeted approach. There have been 
implications in past discussions that maybe this was the model 
for overseas screening. Yet your budget cuts this by $50 
million. And as I read your budget presentation, you are going 
to reduce the physical CBP presence to four ports, relying a 
great deal more on what you call virtual inspection, targeting, 
and possible reciprocal inspection agreements with foreign 
governments.
    Mr. Aguilar. That is right.
    Mr. Price. Now, that really raises a great many questions, 
I think, especially in light of the quite understandable 
reservations you have raised about the 100 percent goal. Why 
have you decided to pull back from the overseas-based CSI?
    The fundamental question about the pulling back that 
occurs, can domestic operations equal or surpass CBP's capacity 
to gather information and screen overseas shipments that is 
currently made possible by having a physical presence at these 
overseas ports?
    Your budget calls for reliance on domestic-based targeting 
and analysis. Where is that going to be? How is that going to 
work? You don't propose increased staffing or capacity at the 
National Targeting Center, and CBP officer staffing levels are 
declining. So within the terms of your own budget, we don't 
understand where this capacity is going to come from.
    But as you can tell, I have a more fundamental question 
about how this is going to work, scaling back the actual 
presence of your officers overseas in the way this budget 
anticipates. And I guess the question I started with, then, 
looms over all of this: Is CSI the model of the future in terms 
of overseas scanning, or are we really talking about pulling 
back on that whole endeavor and simply adopting another less 
ambitious model, or maybe pulling back on the goal of doing 
much of this work overseas altogether?
    Mr. Aguilar. Let me begin with the following, Mr. Chairman, 
because I think it is critical that we do a couple of things.
    One is that we recognize that doing as much as we can 
before--the pre-departure, before these containers are coming 
at us--is absolutely critical. I think all of us are in 
agreement on that.
    Two is that we revisit where we started CSI in 2002. It 
started because of a vulnerability that was quickly recognized 
after 9/11. At that point, the only way, the only means we had 
to start this initiative was to actually have the physical 
presence of CBP officers on foreign ground doing the screening, 
doing the targeting, the risk assessment and any needed 
assessment. That was the only way we could do it.
    Since then, in the effort of transforming what we do, we 
have now gained tremendous capabilities, thanks to this group 
right here, on building up our technological, our virtual 
capabilities. The National Targeting Center--Cargo began in 
partnership with our National Partnership Center--Passenger. It 
has now been split out. We have our own component, which 
specifically targets cargo.

                  CONTAINER SECURITY INITIATIVE CONT.

    Before 9/11, we had no advanced automatic targeting. We 
have it today. We had limited personnel overseas. We now have 
about 27 reps, attaches, throughout these locations. We have 
much better-established international relationships. We also 
have the 1,400 Radiation Portal Monitors deployed. We have 
something that is very critical--the do not load authority--
which did not exist before.
    So it is a combination of the virtual capability to screen, 
of which we are doing close to 100 percent, and the do not load 
authority that we have. It is the transformation of--again I 
would remind us that it is not just the CSI, but it is CSI, C-
TPAT, SFI, 10 + 2, 24 Hour Rule, all coming together in this 
transformational interest to ensure that we push at our borders 
as much as possible. Then at the end, domestically, we have 
more than 98 percent scanning capability of those containers 
once they are in country.
    So it is that combination, it is that comprehensive 
approach, it is not any one silver bullet that is going to get 
us to where I think we need to get. Managing the risk, 
assessing, targeting, segmenting, sorting, triaging as far away 
from our border as we can, is exactly the intent that we have.
    One hundred percent scanning foreign is a very real 
challenge for some of the reasons we spoke about earlier, some 
within our control, others that we have no control over. How 
were the ports designed many, many years ago? Is the host 
country willing to accept our desires and sometimes demands? So 
it is all of these things that we take into consideration, sir.

                           VIRTUAL SCREENING

    Mr. Price. Well, the virtual screening, the capacity you 
are talking about to do a lot of this stateside and to not have 
that physical presence, where in this budget should we expect 
to see that enhanced capacity reflected?
    Mr. Aguilar. One of the things occurring right now--and I 
believe it is three. Right now, I can only remember one 
location. But in New Zealand and Israel, for example, we are 
working with them, and they actually do the scanning at our 
request, virtually send us the image. Our officers here 
domestically review the imaging, and depending on what they 
find----
    Mr. Price. Where are those officers located?
    Mr. Aguilar. Here domestically, sir. We will provide that 
information to you.
    [The information follows:]

    RESPONSE: The officers are located at the National Targeting 
Center--Cargo, in Herndon, Virginia.

    Mr. Price. Is there going to be a lot more of that going 
on?
    Mr. Aguilar. Yes.
    Mr. Price. Then the question is, what kind of enhanced 
capacity is it going to require stateside?
    Mr. Aguilar. Again, this is what we are assessing right 
now. This is basically a pilot program that is ongoing right 
now for that, virtual imaging, and the budgets will reflect 
what our needs are going to be, taking into consideration that 
it is that plus everything else we are doing, sir.
    Mr. Price. I want to turn to Mr. Culberson. I must say that 
the impression one gets on visiting these ports, and I remember 
very well a visit to an SFI port, Salalah, and a CSI port, 
Alexandria, Egypt, the impression one gets is that the presence 
of our people on the ground is quite important. In fact, we 
were struck by the almost diplomatic quality of the job they 
were required to do, the daily interactions with people on the 
ground in those ports and just making certain that the promised 
examination was taking place. I have to confess, it is hard for 
me to envision pulling all that back and not having that 
physical presence in these ports.
    But you are saying CSI, as it has been developed, can 
operate under the conditions projected in this budget?
    Mr. Aguilar. CSI, plus everything else that supports it.
    Mr. Price. CSI, as enhanced by C-TPAT and other programs.
    Mr. Aguilar. Yes.
    Mr. Price. That is going to require some very careful 
scrutiny.
    Mr. Aguilar. Yes, sir.
    Mr. Price. Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman. I want to say for 
the record, while my good friend Ciro Rodriguez is here, how 
much I have enjoyed working with Ciro. We were elected together 
in 1986 to the Texas House, have been good friends ever since. 
Our daughters--your daughter is a little older than mine, but 
we were roommates in that first session.
    And we have with great success, Chief, worked, as you know, 
in the Del Rio sector; Ciro, in the Laredo sector. You guys 
have done a magnificent job with the help of the local 
prosecutors, the judges, the marshals, the sheriffs, in 
implementing the zero tolerance program, Operation Streamline, 
with the support of the local community.
    I note that the crime rate has just plummeted, Ciro, and 
Del Rio is much safer. Public safety is enhanced in Del Rio and 
in Laredo.
    I wanted to ask you, I know you are continuing to work on 
rolling that out down to Brownsville. I wanted to make sure 
Operation Streamline is secure. It has got the full support of 
headquarters and your office; is that right, sir?
    Mr. Aguilar. Yes.
    Mr. Culberson. And you are working to expand it down to the 
Rio Grande Valley sector and get it further expanded in Laredo?
    Mr. Aguilar. Let me qualify the answer I am going to give 
because what we want to ensure is that every chief on the 
ground has Streamline as a tool in his or her tool box to apply 
at the appropriate time, in the fashion that they feel is 
right. That is what we are working toward. The expansion is 
actually up to the chiefs on the ground, sir. It is important 
that we give them that capability, yes.
    Mr. Culberson. They have the capability, for example, in 
the rest of the Laredo sector, that ability is there, and in 
the Brownsville sector?
    Mr. Aguilar. Yes. Yes. Working with their partners.
    Mr. Culberson. We can work on that, Ciro, with our good 
friends, with Solomon. Henry has, I think, the Laredo sector; 
Solomon--and who else has got the piece of Brownsville?
    Mr. Aguilar. Mr. Hinojosa.
    Mr. Culberson. Yes. It is working beautifully. We look 
forward to helping you with that. In my opinion, there may be 
some areas you need a fence, maybe in urban areas. You want to 
make sure the local community has some input on that.
    But the best solution, Mr. Chairman, we have seen, Ciro and 
I have seen it and the Chief has proven it, is boots on the 
ground; effective law enforcement by officers, using their 
heads and their hearts and their good judgment with the support 
of local prosecutors. In fact, Chief, I understand that the Val 
Verde County Jail, Ciro, even has vacancies. It is working so 
well, the illegal crossings in Del Rio have plummeted, and you 
have been leasing beds from the Del Rio County Jail, and there 
is even room for more customers.
    Mr. Aguilar. Yes, sir.
    Mr. Culberson. There is room at the inn. This system works 
beautifully, and we are going to work together to get that 
implemented in the rest of the Rio Grande Valley and in Laredo.

                        SECURE BORDER INITIATIVE

    Let me ask you about SBI. It is scheduled to be tested and, 
I think, undergo system acceptance testing by as late as 
September.
    Mr. Aguilar. September of this year; yes, sir.
    Mr. Culberson. How long will that testing take and what 
criteria are you using to either accept or reject SBI?
    Mr. Aguilar. The criteria I won't go into because I am not 
that familiar with it. I am dependent on our executive 
director, Mr. Mark Borkowski, to carry that out. And I have to 
say I have full faith and confidence that he is trying to get 
us what we need.
    Mr. Culberson. What is the time frame?
    Mr. Aguilar. Well, it will begin sometime in September; 
that is what we are being told at the present time. I can't 
give you an exact time. It will probably be 30 to 45 days, and 
then it is going into what is known as operational testing and 
evaluation. That is when it gets into the hands of the Border 
Patrol in a quasi-formal fashion to actually jerk it around, 
throw it down, get it dirty, utilize it as Border Patrol agents 
will. And then it will go to acceptance, full acceptance.
    Mr. Culberson. Your officers will do that review?
    Mr. Aguilar. Yes, sir. In fact, our officers are working 
with the system right now, Tucson-1, for about 14-16 hours per 
day to kind of begin that testing process.
    Mr. Culberson. Would you be sure and ask, from your end and 
we push from our end, to get headquarters to release the 
spending plan on that $50 million? You have done that part. It 
sounds like you guys have done your job.
    Mr. Aguilar. Yes, sir; we will find out where it is.

                   COST TO SECURE THE SOUTHERN BORDER

    Mr. Culberson. And push to get it to us.
    I want to follow on with a very important question that I 
know all Americans are concerned about, is when will the--
particularly the southern border--the northern border is a 
problem, but we have a full-scale war going on across the 
border in Mexico--when will the southern border be secure and 
how long is it going to take?
    It looks like about 697 miles are currently secure, 
according to your own reports. Your report that you have 
effective control is the term I was looking for of 697 miles. I 
know that there is a different level of operational control. 
But in terms of effective control, I ran the math, and if the 
southern border is 2,000 miles and you had 241 miles of 
effective control in October 2005, 697 miles in March 2009, it 
looks like you were securing about 11 miles a month; and with 
1,300 miles left, that means we got about 10 years at that pace 
to get effective control of the southern border. And we have 
already spent, just doing the math, $6 billion over 5 years on 
fencing and infrastructure, $1 billion for air and marina sets, 
and about $5 billion--$3 billion a year for CBP, so $15 billion 
over 5 years.
    So, doing the math, $22 billion over 5 years, and we have 
697 miles of effective control, it looks like 10 years and $40 
billion before the entire southern border would be under 
effective control. Does that sound about right?
    Mr. Aguilar. No, sir.
    Mr. Culberson. Let's hope it is a lot sooner and less 
expensive.
    Mr. Aguilar. I have to qualify that I can't give you a 
figure, and I won't give you a time for the following reasons.
    Mr. Culberson. Just ballpark.
    Mr. Aguilar. Let me put it in this fashion first because I 
think it is foundational. The effective control miles are a 
means by which we, the Border Patrol, measure a certain level 
of control along the southwest border. There is effective 
control, there is monitored control, there is less monitored 
control and then there is an unknown. The unknown is the 
smallest group. Each one of those varies in the levels of 
control. The most critical sections of our border, especially 
as it relates to the southern border, are the ones that are 
under operational control right now.
    What that translates to is the following, and this is 
critically important: that there are places like El Paso, which 
is the third safest large city in the Nation, third largest 
safest city in the Nation. You go to San Diego, crime has 
plummeted; Laredo, crime has plummeted; the Rio Grande Valley, 
plummeted; Del Rio, vacancies in the Val Verde County Jail. 
These are things we hadn't seen before. So it is those critical 
areas where our strategy has worked.
    That is not to say we are ignoring the other areas. In 
those other border areas where we have a different level of 
control, we are monitoring it so that at the most appropriate 
time, we can start over, we can shift, we can request.
    But having said that, the Border Patrol has doubled in size 
over the last 7-8 years. We are going through a very good 
maturation period. We now have six unmanned aircraft systems 
(UASs) that we are flying. We didn't have those in the past. We 
are getting a more mature program. We now have more than 280 
aerial platforms. As recently as 2003, the Border Patrol only 
owned about 90-95 platforms. We have 500 pilots right now. 
Things we never had in the past.
    Then, because I think you hit on something that is 
absolutely critical, we have a real homeland security 
enterprise approach to the border. We have operations such as 
the Alliance to Combat Transnational Crime in Arizona that have 
taken hold where more than 65 different agencies are supporting 
the Border Patrol. We have Operation Stonegarden.
    So it is all of these things that are maturing that should 
not cost us the same that it costs us to put them in place.
    Mr. Culberson. You know how strongly this Subcommittee and 
the Congress supports your work and admires what you do. What I 
am driving at is just trying to give us, because it is so 
critical for our planning purposes in funding and looking into 
the future--for you to give us even a ballpark estimate, it is 
just critical, of when and how much is it going to cost to 
secure the southern border.
    Mr. Aguilar. I can't give you that answer, sir. I can tell 
you that we have a commitment to move forward as quickly as 
possible. I can tell you that every dollar that is being 
appropriated is working toward that. A lot of actions that are 
being looked at by this body, for example, will have an impact 
on what happens in Mexico, things of this nature.
    Mr. Culberson. Maybe what I could suggest, Mr. Chairman, 
and thank you for being gracious with the time. Sam just got 
here.
    Let me say what we found, Mr. Chairman, to be really 
tremendously effective, is Ciro and Henry and I, just literally 
just going down and visiting with your sector chiefs, talking 
to the judges, the marshals, firsthand-- what are your 
problems, what do you need--the sheriffs.
    Each of us individually, Mr. Chairman, can have a 
tremendous impact on helping these good men and women do their 
job, because the officers are risking their lives and doing 
what they need to do. But it is a team effort. We have to make 
sure the marshals and prosecutors are there.
    So I would encourage each one of us to get involved, Sam, 
in the California sector. It is astonishing what we can 
individually do as a member of the Appropriations Committee and 
this Subcommittee just by being here and seeing and hearing 
what you need. We can move mountains. That was really how we 
got Streamline done in Texas, wasn't it? A team effort and your 
local Congressmen getting down there and getting involved.
    Mr. Aguilar. Mr. Chairman, I would just add the following, 
if you would allow me, please. It is critical to understand 
that we need to do more. I am not saying we are finished or 
anywhere close to it. We are moving in that direction. But we 
also need to recognize that the tragic situation of border 
violence is on the south side. It is not spilling over to any 
great degree.
    We are seeing some spillover. If fact, one of the areas is 
against our officers. We have about a 45 percent increase in 
violent assaults against our officers just this year, more than 
300 assaults. But we are stemming it. We are keeping it south, 
and, at the same time, working with our partners in Mexico to 
do everything we can to reduce it even on that side. So, again, 
I just want to put that in context.
    Mr. Culberson. I have a few more in the next round.
    Mr. Price. Mr. Rodriguez.
    Mr. Rodriguez. Let me follow up on the--I had six bridges, 
or six points, not bridges, points of entry that were closed, a 
lot of them during 9/11. I asked to see if you can do an 
assessment for us, especially the three within the big bend 
area, and see in terms of what it would cost to look at the 
possibility of reopening. Because I think it would be even more 
cost-effective for us from a security perspective to have that 
communication back and forth and to see what it would cost, 
number one.

                             DRUG KINGPINS

    Number two, there was some dialogue regarding the efforts 
being done in terms of going after the drug kingpins and the 
cartels. And I was wondering if you have any knowledge, or you 
engage in, after someone is captured. I know on the Federal 
side, on this side, you get caught, your property is taken away 
and all that. I know that there is a push now to look at people 
on the Mexican side that are related that might have visas, how 
many of those visas have we confiscated, do you know?
    Mr. Aguilar. What you are referring to, sir, is a new 
program we have undertaken probably within the last 4 or 5 
months. I don't have the exact number with me right now. I can 
get that for the record.
    Mr. Rodriguez. Number one, I want to congratulate you on 
that program. I think if anyone gets caught with drugs, their 
visas need to be confiscated and we need to do whatever we can 
there to follow through on that. If you can get us a report 
later on, on that, I would also appreciate it.
    [The information follows:]

    RESPONSE: CBP officers do not confiscate visas. An individual's 
visa may be canceled because the individual was deemed inadmissible by 
the CBP officer. The critical function of the CBP officer is to 
determine admission. Our records are designed to capture and preserve 
the inadmissibility determination for future reference not to record 
the status of a document.

                             BUSINESS VISAS

    Mr. Rodriguez. The other thing I wanted to hear is the 
number of visas that have come in in terms of businesses. 
Because I know we have had, based on commerce, you know, we 
have had some difficulty on the border there with Customs and 
commerce. I know you are involved with the security, but you 
are also involved in making sure those packages come through 
that are appropriate.
    Mr. Aguilar. Yes, sir.
    Mr. Rodriguez. We have also a good number of people that 
are starting businesses on this side. Do you have those 
numbers?
    Mr. Aguilar. I can get them for you, sir.
    Mr. Rodriguez. I would appreciate that, because I know we 
have had a huge number in Del Rio, Eagle Pass, San Antonio, 
Austin, El Paso, and we welcome that investment. I just want to 
get a feel in terms of the number that is coming across.
    [The information follows:]

    REPONSE: CBP does not compile, mantain, or report on foreign-based 
or foreign-owned businesses located in the United States.

    Mr. Rodriguez. Some of them, there is no doubt, are fleeing 
the cartels.
    Mr. Aguilar. Yes, sir.
    Mr. Rodriguez. And so then at a later time, I want to see 
if we might be able to follow up on, maybe with the appropriate 
people. I am not sure, I apologize, Chief, whether you are the 
best one for those visas to get a good grip in terms of what is 
occurring. Okay.
    Mr. Aguilar. Yes, sir.
    Mr. Rodriguez. So you will get back with me on the possible 
cost on the Customs?
    Mr. Aguilar. On the visas, yes, sir; and any kind of costs 
associated with it, yes, sir.
    Mr. Rodriguez. I still go back to we haven't beefed up on 
Customs. We have beefed up on Border Patrol, but we really 
haven't beefed up on Customs.
    Mr. Aguilar. Yes, sir.
    Mr. Rodriguez. There is a real need to kind of look at 
that. Those are the ones right on the border.
    Mr. Aguilar. Yes, sir.

                   TACTICAL INFRASTRUCTURE IN ARIZONA

    Mr. Rodriguez. My friend had talks about effective control. 
You are doing a pretty effective job in our area. Arizona, let 
me know, isn't it all fenced in already, all of Arizona?
    Mr. Aguilar. All the fence that we--all the tactical 
infrastructure that we needed to put in place in Arizona is 
just about done, with very few pieces that are lacking.

                         PRESIDIO REPROCESSING

    Mr. Rodriguez. In spite of that, that is where the majority 
are coming in. You had a program where they came in, you 
started it before Christmas, and you were taking them to 
Presidio in my district and unloading a couple of busloads a 
day.
    Mr. Aguilar. Yes, sir.
    Mr. Rodriguez. Do we know how many we did like that?
    Mr. Aguilar. I will get you the exact number, sir, but I 
believe it was about 98, 95 to 98 per day. I don't know the 
exact count. It was very successful.
    [The information follows:]

    RESPONSE: In FY 2010 to date, 3,314 aliens were repatriated through 
the Presidio OE under ATEP.

    Mr. Rodriguez. You ran it for about 2 or 3 months. You 
stopped it and you started it again; is that correct?
    Mr. Aguilar. The program is ongoing. We are not going into 
Presidio at the present time because we are still working with 
the Government of Mexico.
    Mr. Rodriguez. Are you going into any other city in my 
district?
    Mr. Aguilar. I don't know at this point. I will get that 
answer for you because we are alternating.
    Mr. Rodriguez. Please let me know. That is a good idea.
    [The information follows:]

    RESPONSE: Aside from Presidio, there are no other cities or towns 
in TX-23 congressional district where ATEP is being run.

    Mr. Culberson. If the gentleman would yield, Ciro, if I 
could, Mr. Chairman, just to clarify. They are bringing them 
from Arizona to release them in your district?
    Mr. Aguilar. Yes, sir.
    Mr. Rodriguez. No, not in my district. Across the border.
    Mr. Aguilar. Not in his district. In Mexico.
    Mr. Culberson. I wanted to make sure I understood.
    Mr. Rodriguez. But I want you to know, I asked for the 
statistics. Based on the statistics, none of them return back, 
with the exception of one that came in through Laredo. And none 
of them came in, and this is the beauty of it, none of them 
came through our area. They went back to Arizona, the majority 
of them, and a few went to Brownsville. But none of them came 
through our sector.
    Mr. Culberson. Because of Streamline.
    Mr. Aguilar. The recidivism rate, Mr. Chairman, and this is 
an important point here, of those people that were put in the 
Alien Transfer And Exit Program was very, very low. I think it 
was like 3 or 4 percent, compared to a regular recidivism rate 
of up to 28-30 percent. So it was a very successful program.
    Mr. Price. Thank you.
    Mr. Farr.

               ELECTRONIC SYSTEM FOR TRAVEL AUTHORIZATION

    Mr. Farr. Thank you very much for being here. I enjoyed the 
evening we had in Tucson when the Chairman led a codel. We did 
actually travel, frankly, all the way from Tucson to San Diego, 
the entire border, and stopping along the way. We couldn't have 
done it without helicopter support. But I learned more about 
that border than I ever imagined.
    I want to shift a moment, because one of my sidebar things 
here is chair of the Travel and Tourism Caucus. You have got a 
tough job. You have the busiest border in the world. You have 
got the border with the contrast of the richest and the poorest 
in the world. You have the most movement of people 
legitimately, commerce of legitimate human beings and 
legitimate traffic commerce. And also probably the biggest 
pressures for illegitimate trafficking of both goods and 
persons. It is a tough job.
    Part of the things we are trying to do is to make America a 
nice place to come to. Obama just signed the Travel Promotion 
Act. It established a $10 fee by incoming, and directed the 
Department to establish a $10 fee for use of Electronic System 
for Travel Authorization, ESTA, in order to fund the travel 
promotion program. And everybody in the industry is interested 
in gearing this up.
    I was wondering, the collection of this fee is going to be 
fundamental to its success because we can't do the promotion 
without the money. I understand that CBP is responsible for 
implementing ESTA. I wondered how long it is going to take to 
get that up and running, and do you foresee hurdles in 
completing this responsibility?
    Mr. Aguilar. We are looking at getting it up and running as 
quickly as possible, sir. I will take that for the record, if 
you don't mind, because I just do not--it is brand new, as you 
know, so I am not that up to speed.
    Mr. Farr. If you are not the one, I am keen on seeing how 
fast we can get that implemented.
    Mr. Aguilar. It will be my responsibility to get it to you 
from my folks, from my experts.
    [The information follows:]

    RESPONSE: Any change to the ESTA regulations to require a fee 
collection as mandated under the Travel Promotion Act (P.L. 111-145) 
requires that CBP follow the rulemaking process. CBP is currently 
reviewing the statute and drafting the rulemaking package. The 
rulemaking package must be approved by OMB and published in the Federal 
Register. The timeline for fee collection has not yet been established.

                          GLOBAL ENTRY PROGRAM

    Mr. Farr. Thank you. I also--I really appreciate in your 
testimony that you highlighted the Global Entry program. I 
think this is a great example of another success that you had.
    Mr. Aguilar. Thank you.
    Mr. Farr. The Global Entry program is running at the top 20 
airports dealing with inbound international travelers, and it 
has reduced the wait times for participants. It currently has 
around 40,000 participants.
    I wonder, how can we make it even a bigger success? How 
does the Global Entry enrollment numbers compare to other 
programs like Nexus and Sentry?
    Mr. Aguilar. Unfortunately, the growth rate is not as 
robust as some of the others. But one of the things that is 
absolutely critical is our outreach, our outreach to that pool, 
if you will, of international partners. We are working very 
closely with some of the major international traveling 
locations, if you will. Japan. Canada, of course, have very, 
very high records on that. But in my visit to Los Angeles 
airport last week, I asked that very same question because of 
the obvious benefits to efficiency. And it is the outreach.
    Mr. Farr. Can we grow that program outside of the airports 
themselves? Outside the airport environment, so they can grow 
the enrollment?
    Mr. Aguilar. The actual enrollment process, that is exactly 
one of the questions I asked. In fact, there are some pilot 
tests going on right now specific to that. For example, the 
question that I asked last week was if we could go to a company 
that has 200, 300, 400 international travelers instead of 
expecting them to come to us? And the answer is, we are 
actually testing some of those efforts.
    Mr. Farr. Good. I appreciate that. I would like to know 
about that.
    Mr. Aguilar. We recognize it as something that is critical 
to making more efficient use of our limited resources at our 
ports of entry.

                            IMMIGRATION LAWS

    Mr. Farr. Let me just ask you sort of the big question 
here. In September 2009, Secretary Napolitano said, Over the 
past 10 months we have worked to improve immigration 
enforcement and border security within the current legal 
framework. But the more work we do, the more it becomes clear 
that the laws themselves need to be reformed.
    How true is this statement for the CBP and what changes in 
our immigration laws do you need in order to do your job as 
effectively as possible?
    We are starting to deal with immigration reform. If that 
immigration reform, if we don't deal with it, I guess, the 
other question is how will that impact on your Agency's ability 
to do its job? When we did that border visit, it was very clear 
by the officers who are trying to enforce this law and just 
saying, You know, we need law changes. We cannot do this.
    We cannot just continue--of course, the economy was very 
high and the interest in coming over was just at an all-time 
high. That has changed with the slump. But I think it is very 
incumbent for us facing this is to get from the officers on the 
ground how important it is for us to make our laws right.
    Mr. Aguilar. Laws play an absolutely critical part in our 
ability and capabilities to bring security to the border, both 
at the ports and between the ports and actually from foreign 
locations also. Having said that, there is limited input that I 
can give because of my position. I am a career officer.

                         RECIDIVISM PERCENTAGE

    Mr. Farr. How about what is the percentage of people that 
are coming back who have come to the United States, are living 
here, working illegally, but working. I live in Salinas Valley 
in Monterey County. We probably have the largest number of 
undocumented workers in the United States. You couldn't get a 
salad in this country without those workers. Agriculture is 
trying--they are paying them good wages. It isn't like that 
because they are undocumented that they are getting treated 
poorly. They actually get a lot of benefits as they work. Some 
of these families have been around for decades. They came over 
in the old Bracero program. They are really keen on finding 
legitimacy.
    So how much do you think of the traffic coming over is 
people returning back to their families, going home for 
Navidad, for the Christmas season, coming back? Because you 
talked about the recidivism. That is the ones you catch. Has 
anybody looked at the percentage of just people living in the 
United States who are trying to get back to the United States?
    Mr. Aguilar. I don't have that number, sir. I don't know if 
anybody has actually taken a look at it. But you asked a very 
specific question that I can give you an anecdotal answer to.
    I have been in the Border Patrol now for going on 32 years. 
It used to be a cyclical return to Mexico because they could. 
And because they could, they would cause--the chaotic situation 
of the inflow would be such that criminal organizations would 
take advantage of that and exploit the flow, the chaotic 
situation, in smuggling people, narcotics, and other bad things 
into this country.
    Because of what this body has done (given us the resources 
and given us the capabilities and capacities), that no longer 
happens. People are no longer going back for Christmas or 
Easter because they can't come back.
    Mr. Farr. They won't go back for funerals or for anything.
    Mr. Aguilar. Funerals, I would think they are going to try 
more than for Christmas. But it is no longer easy to get back 
in this country illegally, whether it is at the ports or 
between the ports of entry.
    In 1999, my first year as a Chief in Tucson, AZ, we 
apprehended more than 600,000 people crossing illegally at the 
ports of entry, most of which occurred within about a 12-to-18-
mile area. Last year, in its entirety, along the 2,000 miles of 
the border with Mexico, the U.S. Border Patrol apprehended 
565,000. The drop has been dramatic.
    Now, the good news is that apprehension of narcotics is 
going up because we are now able to pay attention to the other 
illegal activity going on--that chaotic flow of people coming 
into the country. So it is no longer easy for people crossing 
illegally between the ports of entry or at the ports of entry. 
We have, in fact, increased the security of our borders.
    Now, that has not come without anticipated costs. As we 
speak, we are seeing the boats going up on the Pacific Coast, 
going as far north toward Los Angeles, 40-45 miles, because 
they can no longer go between the ports of entry. But we are 
working with the Coast Guard on that. We are catching people. 
We are apprehending narcotics. We are apprehending smuggled 
goods. So that cycle has been broken.
    Mr. Price. The time of the gentleman has expired. Thank 
you.
    We will undertake a brief final round, Mr. Commissioner, if 
that is all right.
    Mr. Aguilar. Yes, sir.

                       SECURE FREIGHT INITIATIVE

    Mr. Price. I want to shift topics in terms of my own 
questioning, except I do want to say that on this extended 
discussion we have had over international cargo screening, I 
hope the message is clear. We have, for certainly a number of 
years, encouraged on the part of the Department a 
straightforward, candid, approach with us about the 
authorization mandate you face and the extent to which that is 
feasible at any reasonable cost. That is, of course, related to 
the judgments you have made and that are reflected in your 
budget about the Secure Freight Initiative pilots overseas. We 
continue to encourage that candor and that kind of realistic 
long-term projection of the approach that you propose that the 
country take.
    At the same time, we do need to have a long-term plan that 
addresses the security needs and that mirrors the commitment 
you have articulated here again this morning to do as much of 
this work overseas as we feasibly can do, understanding fully 
the benefits of that.
    Frankly, the justification we have of the CSI plans and the 
cuts that are included there doesn't fill the bill in terms of 
giving us that longer-term perspective and, of course, we need 
that report. We need the report mandated by the fiscal 2010 
appropriations bill, which presumably will do this, and more, 
in terms of giving us some basis on which to see where we are 
headed and to make these budget decisions for the next fiscal 
year.
    So I hope that all aspects of this message are clear coming 
out of this hearing today.
    Mr. Aguilar. Yes, sir.

                    CBP OFFICERS FUNDED BY USER FEES

    Mr. Price. Let me turn to the staffing issues and your 
declining fee revenues. That is a matter, I know, of 
considerable importance. CBP officer and agricultural 
specialist staffing, of course, is critical to enforcement of 
our laws at the ports of entry to detecting and stopping the 
smuggling of people, weapons or contraband, to ensuring that 
commerce is free of dangerous or unhealthy threats, and 
efficiently collecting tariffs and duties. In all these 
functions, the staffing is critical.
    On the positive side, good, adequate, professional staffing 
is key to speeding goods and people through our ports. And we 
get a lot of reports that think CBP is still shorthanded. You 
are hearing this from Mr. Rodriguez and lots of other sources.
    Nonetheless, you are going to experience a net reduction of 
500 CBP officers this year. The personnel levels are down 300 
from last September. That is a result of budget austerity and 
declining fee collections. Almost 10,000 CBP employees and a 
third of CBP officers are funded by user fees. That is the nub 
of the problem. That is what we want to get at here. I 
understand that.
    In fiscal 2000, CBP expected a 3 percent increase in fees, 
but they declined instead. And this looks to be a trend for 
this year and next, unless you can give us some information to 
the contrary.
    Mr. Aguilar. I wish I could.
    Mr. Price. Hence, my questions. What impact are declining 
fee collections going to have on staffing in fiscal year 2011? 
Assuming that is an adverse impact, how are you going to deal 
with it? How are you going to reverse it; to what degree are 
you going to propose to reverse it?
    Secondly, will your realignment of funds and your 
restoration of CBP officer positions be able to prevent 
reduction in CBP officers at the ports? Even in the short-term, 
what are you going to be able to do?
    Mr. Aguilar. Yes, sir. And, again, I thank you for asking 
that question because, as you stated, Mr. Chairman, the way 
that 37 percent of our CBP officers and agriculture specialists 
are funded is a real concern. Funding from that perspective 
does not lend itself to a Homeland Security way of doing 
business. We cannot be dependent on economic fluctuations to 
drive our ability to pay our people. So I state that for the 
record because it is a real concern as to how that portion of 
our workforce is funded.
    [The information follows:]

    RESPONSE: From FY 2008 to FY 2009 there was a decrease of $105 
million in user fee collections and continued global economic weakness 
could result in a further decrease of $20-$50M from FY 2009 to FY 2010. 
This creates a total from FY 2008 to FY 2010 of $125-$155 million. In 
FY 2010, the user fees were planned to support 9,684 positions. The 
decline of $125-$155 million would equate to about 870 to 1080 of those 
positions, as well as related non-salary support costs.
    While Users Fees are impacted by the economy, enforcement 
activities are not. A decline in the numbers of inspections performed 
does not correlate with the number of enforcement activities performed 
at ports of entry, These enforcement activities are seizures, 
penalties, and arrests related to trade compliance in addition to 
secondary inspections of non-compliant passengers. In many cases, CBP 
enforcement activities have grown, not declined. Across the wide 
variety of enforcement activities, CBP has experienced a nearly 7% 
increase in enforcement activities from FY 2008 to FY 2009. 
Approximately 37% of the CBP officer's salaries have been historically 
funded from user fees, and with this decline in user fee collections, 
CBP has reduced travel, training, other operational support, and 
enhancements to existing capabilities in enforcement, travel, and trade 
facilitation.

    Last year we fell by 8 percent on the user fee account. 
That translates to about $100 million. In Fiscal Year 2011, we 
are going to take about $46 million of appropriated funds and 
apply it toward CBP officers, which translates to about 318-320 
full-time equivalents. So that will occur.
    In addition to that, we have looked at the situation on 
exemption for Canada, Mexico and most of the Caribbean. If that 
exemption went away, that would actually add another $100 
million to $125 million per year into user fee, if we continue 
with user fee. So those are all of these things we are looking 
at.
    So will it be a full reversal? Probably not. But taking the 
appropriated funds that we can afford to take and applying them 
toward this is going to be one of the actions that we take.
    The realignment costs, I am not going to try to fool 
anybody, they are going to have to come from somewhere. It is 
going to cost somewhere else. Those are some of the things we 
are looking at now. As to just exactly what it is, we have been 
very careful and very measured in realigning those costs to 
ensure that the impacts would be minimal. But the real problem 
here is the way that we fund 37 percent of our workforce, sir.
    Mr. Price. Well, I appreciate the straightforwardness of 
that statement. It is a problem we share.
    Mr. Aguilar. Yes, sir.
    Mr. Price. But we are going to have to deal with this near-
term decrease in fees and the kind of implications they have 
for the budget. We have got it right. So to the extent you wish 
to furnish further updates or elaborate on the answer you have 
just given me, we will----
    Mr. Aguilar. I would welcome that opportunity.
    Mr. Price. Mr. Culberson.

                   CUTS TO AIR AND MARINE OPERATIONS

    Mr. Culberson. Thank you, Mr. Chairman.
    Chief, you correctly pointed out the effectiveness of the 
work that you are doing, your officers, the infrastructure, the 
money Congress has sent you, the work you are doing. In many 
areas of the border, you have got effective control, you are 
seeing a drop in crossings and pushing people into other 
sectors.
    I wanted to ask you, if I could, to comment and tell us in 
your opinion the effect of the proposed cuts to the Coast Guard 
and to CBP's Air and Marine operations. We see the budget for 
fiscal year 2011 proposes cutting Border Patrol's Air and 
Marine personnel by 3.6 percent. It looks like that would 
result in the loss of, we estimate, 68 pilots. You would lose 
20 marine interdiction agents, 56 support personnel. These are 
positions that were actually requested by the administration in 
the last budget.
    This year's budget proposed by the White House would cut 
operational personnel of the Coast Guard by more than 1,100, 
which is a real concern, and deactivate 19 operational 
components. They propose to cut funding for your Air and Marine 
procurement by 3.2 percent. They are trying to give you a $2.6 
million cut in logistics and maintenance; cutting Coast Guard 
acquisitions by 10 percent, more than 10 percent; and yet 
increase information technology positions by 950 in the Coast 
Guard civilian workforce by 349.
    How would those funding and personnel reductions impact the 
work that you do, and what sort of effect would you see along 
the borders as a result of what the budget proposes?
    Mr. Aguilar. Well, let me begin by stating that I would not 
feel comfortable nor would I propose to answer for Commandant 
Thad Allen on the Coast Guard issues. I would say, with the 
Coast Guard, we have a very, very positive working 
relationship. Everywhere that we can work together, we do, 
whether it is on the Canadian border, eastern coast, western 
coast, San Diego, Rio Grande Valley, in all of these areas, we 
work very, very closely.
    Mr. Culberson. Well, what effect would cuts like those 
have, in your opinion?
    Mr. Aguilar. I don't know because I don't know what those 
cuts translate to or where they translate to, sir. But I will 
say on the issue of Air and Marine, I want--I am sorry?
    Mr. Culberson. If you have fewer assets out there, the 
concern is, of course, you are going to see an increase in drug 
smuggling, because you are pushing them out to sea. And the 
Coast Guard, they propose to cut Coast Guard. That logically 
means you are going to see an increase in smuggling in Coast 
Guard jurisdictions.
    Mr. Aguilar. In Coast Guard jurisdictions, we will see an 
uptick, as we are already seeing. That does not translate to us 
not working closer with Coast Guard.
    Mr. Culberson. Certainly. You guys do a great job with 
that. That is not the issue.
    Mr. Aguilar. And the Coast Guard engaging, for example--
and, again, I don't want to speak for the Commandant, he is a 
good personal friend, but I don't think he would appreciate 
that.
    Mr. Culberson. That causes some problems.
    Mr. Aguilar. Well, he is working with SEMAR (The Mexican 
Navy), and things of this nature. We are working very closely 
with port authorities, with maritime authorities and things of 
that nature to get us what we need. But, again, I don't want to 
go into that realm because I just don't have enough information 
on it.
    Mr. Culberson. And you won't be able to fly as many 
surveillance hours. You are going to have to cut your 
surveillance hours.
    Mr. Aguilar. Let me address that because I spoke to General 
Kostelnik this morning before I came over here, and this is the 
way he described it. And I would agree with him.
    In the area of the Air environment, more is always going to 
be good, more capability. Now, capability does not necessarily 
translate to either just pilots, UAS pilots or aerial 
platforms. It is the right mix. And then having said that, I 
asked him, ``Are we actually going to take cuts?'' And he said 
it is not actually cuts; it is a cut to the anticipated 
enhancements. So the assets that are on the ground right now 
are not going to be cut.
    Mr. Culberson. You can't do all that you had planned to do.
    Mr. Aguilar. Well, with the enhancements we expected, yes.

                      IMPACT OF DECLARING AMNESTY

    Mr. Culberson. We will do all we can to help you with that. 
I know we are in the final round, but I wanted to ask, it is a 
fact we have seen throughout history, whenever there is a 
discussion in Congress that there may be an amnesty, we are 
going to legalize illegals, there is a surge in crossings. If 
you can again ballpark anecdotally, quantify what type of 
percentage increase do you typically see in the number of 
crossings? How big has that surge historically been when there 
is a discussion of amnesty?
    Mr. Aguilar. I would not even venture a guess, sir.
    Mr. Culberson. You have seen a surge. Every time there is a 
big discussion, lots of press about there is going to be 
amnesty, you have seen a surge.
    Mr. Aguilar. There is activity on both sides of the border.
    Mr. Culberson. You have seen an increase as a result the 
discussion and the debate?
    Mr. Aguilar. There is activity; yes, sir.
    Mr. Culberson. As a result of the debate.
    Mr. Aguilar. Yes.

                         ARRESTS IN EACH SECTOR

    Mr. Culberson. And if I could also, Mr. Chairman, Chief, I 
would be very grateful if your staff could provide Jeff in my 
office with the number--what I am looking for is to try to get 
a handle on the current state of affairs, the number of arrests 
in each sector, and, in that sector, if you are arresting one 
out of three, one out of four, one out of five, best estimate.
    And then, of those arrested, Chief, the third thing I would 
really like to get a handle on is what percentage of those 
folks that are apprehended are actually being prosecuted in 
each sector. And then work with your office to try to help you 
identify what the problem is.
    Because again, I keep going back to Tucson, because it is 
so awful. Again, it looks like the most recent numbers we have, 
Mr. Chairman, are fiscal year 2008. Chief, is it still your 
understanding if you are arrested in the Tucson sector carrying 
less than 500 pounds of dope, the U.S. attorney will not 
prosecute? What is the threshold?
    Mr. Aguilar. I do not believe that there is actually a 
hard-and-fast threshold.
    Mr. Culberson. A couple of years ago it was 500.
    Mr. Aguilar. There was one. There was one.
    Mr. Culberson. There is no hard-and-fast today?
    Mr. Aguilar. That I know of, no. I will check, but I do not 
believe there is a hard-and-fast threshold. If I might, sir, a 
very quick story.
    Dennis Burke, the sitting United States Attorney, was out 
in the field with us at one of our remote locations, working. 
To his credit, he was out there; he wanted to see how we 
operated. He was on horseback, and he was out there, I believe, 
for about 6 to 8 hours, to track down, along with one of our 
officers, a load of dope, 250 pounds more or less, give or take 
a few pounds. When he recognized that under existing 
thresholds, that amount of work would not be prosecuted, that 
is when he really started taking a look at that situation.
    Mr. Culberson. I am so glad to hear that, and I am so sorry 
I couldn't go with you, Sam, and Mr. Chairman, to go to Tucson. 
It was just impossible for my schedule. Because it has got real 
problems and it is a team effort in there. But I would be 
grateful if you could provide me with those numbers.
    [The information follows:]

    RESPONSE: CBP does not control the threshold for narcotics 
prosecution. CBP reports all suspect loads that have the potential to 
be part of an investigative operation to U.S. Immigration and Customs 
Enforcement (ICE). ICE presents the information to the Assistant U.S. 
Attorney, who decides if it will be accepted for prosecution.

                           MERIDA INITIATIVE

    Mr. Culberson. If I could ask, could you let us know what 
happened to the Merida Initiative that Bush was pushing? I 
think it wound up being, the money or equipment we provided to 
the Mexican Government on Merida, I think it was $1.3 billion 
worth of equipment. What happened? Where did it go? What kind 
of equipment did they get and where did it go?
    Mr. Aguilar. That is under the auspices of the Department 
of State, sir.
    Mr. Culberson. All of it went through the Department of 
State?
    Mr. Aguilar. As a funding mechanism; yes, sir.
    Mr. Culberson. We will have some other questions for the 
record, Mr. Chairman.
    I thank you very much.

                    COMPREHENSIVE IMMIGRATION POLICE

    Mr. Price. Thank you.
    I turn to Mr. Farr to close out. I too recollect that visit 
very acutely. We did learn a lot. I appreciate, Mr. 
Commissioner, that you are not in a position to answer the 
broad policy questions about immigration reform necessarily.
    But I do remember from that visit remarking that we never 
met a Border Patrol agent that said this was about enforcement 
alone, that in fact you learn just the opposite; that unless 
and until there is a more comprehensive fix, a more 
comprehensive balancing of our official policy and what it 
permits and our labor market needs, that all the fences and all 
the enforcement in the world aren't going to represent a 
complete solution. I know I heard that many times on that 
visit, and I have heard it many times since. So we understand 
here on this committee that we are dealing with only a piece of 
this issue.
    I hope we have dealt with it responsibly and well. We take 
enforcement very seriously.
    Mr. Aguilar. Absolutely.
    Mr. Price. But I for one have never had the slightest 
delusion that this was all that we needed to do in this 
Congress and in this country.
    Mr. Farr. Mr. Culberson, the answer to your question is in 
today's paper. Secretary Clinton is in Mexico today, and the 
complaint from Mexico is, ``We never got the money,'' and the 
response was, ``We are going to get it to you ASAP.''
    Mr. Culberson. Thank you.
    Mr. Farr. Also I wanted to correct something. I think you 
led the witness a little bit on this surge issue on when there 
is discussion of immigration reform. As you recall, in order to 
apply for sort of temporary status, because you have to go 
through background checks, you have to prove that you have had 
a history of being here. You do not grandfather in anybody who 
got here yesterday. They couldn't qualify for the old amnesty 
program. You had to have proof of work and residence prior to 
the law, in fact, months before the law was ever adopted.
    The issue on prosecution, it is the same at home. It is 
threshold value. It is what is the value? We saw in the 
marijuana locker all these backpacks that were seized, and the 
issue for the U.S. attorney was that the value of that backpack 
didn't meet a threshold level to go in and prosecute.
    You find that in your domestic courts as well as your 
border issues. Our prosecutors don't prosecute misdemeanors or 
small crimes, because they have got so much work to do with 
large crimes.
    I am interested in this. I think if you are going to grow 
the border, it first has to start with getting our own house in 
order. We have been very interested in integrating with other 
entities like AFT on the arms going south and working with 
Border Patrol and then working in a collaborative way so we 
could stop this. You know, our side of the smuggling out or 
smuggling into Mexico, those arms are being bought on our side 
of the border. I think in order to have credibility in this 
border issue of smuggling from Mexico, we also have to be 
honest that, one, the demand side is on this side of the 
border; the money is on this side of the border; and the guns 
are on this side of the border. Those are things that are 
getting back--that money is getting into the system because of 
our use of drugs.
    Hopefully this health care bill, it might be very 
interesting. We allow for the treatment of drug addiction. It 
has to be in every insurance policy now. It is automatic. So 
one of the difficulties we have had is getting people access to 
treatment. Now there is going to be a huge market for 
treatment, so there is going to be a lot of growth in treatment 
programs. I think that is one of the real benefits of the 
health care bill we signed.
    What do you have to pay to come across to the coyotes now? 
What is the going price?

                        COST FOR BEING SMUGGLED

    Mr. Aguilar. For being smuggled?
    Mr. Farr. Yes.
    Mr. Aguilar. It all depends on where you are. In Tucson it 
could be--for an illegal person from Mexico wanting to get to 
Phoenix, it would be $1,500 to $2,000. If you are talking about 
a Korean, you are talking about as much as $60,000 into the 
interior of the United States. If you are talking about a 
special interest country alien, it could be higher.
    Mr. Farr. So how many do you say you think made it across, 
or you seized? What percentage of those getting across are 
seized?
    Mr. Aguilar. I am sorry, sir. I don't understand the 
question.
    Mr. Farr. You mentioned how many are detained.
    Mr. Aguilar. Five hundred and fifty-six thousand, last 
year.
    Mr. Farr. Five hundred and fifty-six thousand. And what 
percentage of that is--of the whole total?
    Mr. Aguilar. I didn't give an answer to that because we 
haven't found anybody to include the major universities in this 
country to approximate.
    Mr. Farr. So we don't know whether it is two-thirds, 90 
percent, 80 percent.
    Mr. Aguilar. Or if it is 2 percent. We don't know.
    Mr. Farr. But if it is half a million people paying $2,000 
each, averaged out that is a lot of money.
    Mr. Aguilar. Yes, sir.
    Mr. Farr. In fact, I remember on that trip we were told 
that there is more money being made in smuggling people across 
the border than drugs.
    Mr. Aguilar. I wouldn't doubt that.

                  POTENTIAL CORRUPTION OF CBP OFFICERS

    Mr. Farr. So if there is that much money in people and they 
are getting through, there is some question of what about you 
know, what is going on? Are any of our cops being bought off? 
Are they being paid? And the question goes to the Office of 
Internal Affairs.
    Because, as I understand, the President's budget is cutting 
that funding by $250,000. Meanwhile, we have doubled the Border 
Patrol size in the last 5 years. You are struggling to 
adequately train the new officers. I mean, there is a lot 
coming in. It is pressure on the system. I understand there is 
a very low ratio of supervisors to the novice new agents, and 
Internal Affairs mission to oversee the integrity of this is 
critical and is strapped. Do you know what the budget is for 
that and how many staff investigative complaints and concerns 
are they being able to deal with?
    Mr. Aguilar. I don't know the exact numbers, up-to-date 
numbers.
    I can tell you this, sir, a couple of things I think are 
critical. The Internal Affairs Office of CBP is absolutely 
critical to our operations. We recognize that we operate under 
one of the most vulnerable environments there is to operate in 
from a law enforcement perspective: Customs. You are guarding a 
border. Sometimes you are working remotely and things of this 
nature.
    But it is also important to note that what we do--and I am 
talking now from the approach of the law enforcement community. 
As we approach corruption from the point of being reactive, 
which is absolutely critical, we need to do that, and we need 
to do more of that. One of the focuses that we are trying to 
bring to CBP is that we be as preemptive as possible, we be as 
proactive in keeping corruption to the lowest level possible 
and be more reactive and sustain a culture of intolerance to 
corruption. So it is a full court press across.
    The other thing that I think is critical to note is that it 
is not just Internal Affairs that has responsibility for 
corruption or ethical oversight, integrity oversight. It is 
Internal Affairs. It is the IG. It is FBI Corruption Task 
Forces. It is ISO PR. It is everybody else that--it is the 
local task forces, also.
    So, yes, we have gone down if the number is--I believe you 
are correct--250,000, but we are also augmenting by other 
means, such as training, than just being reactive. We are 
concentrating on training our people on the value of 
intolerance for corruption. So it is that comprehensive 
approach that we have to take a look at.
    Mr. Farr. Enough resources in that area? Do you have 
enough?
    Mr. Aguilar. Same answer I gave Mr. Culberson. More is 
always better. We are doing everything we can in looking for 
more effective ways to do what we are doing today with the 
capacity that we have.
    Mr. Farr. Do I have any more time, Mr. Chairman? I have one 
question.
    Mr. Price. One minute.

                        JOINT POWERS AGREEMENTS

    Mr. Farr. The other thing I am very interested in, I talked 
to Mr. Culberson. I come from local government. What we have 
done in local government and what we are trying to deal with in 
region and we have got all different kinds, we create these 
joint powers agreements. And my instinct on being on the border 
was why don't we create these joint powers agreements between 
border cities. I mean, it is infrastructure on both sides.
    And, as you pointed out, I mean, ideally, if Mexico had the 
economy that we had and the middle class that we have, there 
wouldn't be any desire to cross this border. I mean, Europe has 
open borders all over Europe; and you have got southern Europe, 
where there is still a lot of poverty. That doesn't mean they 
have to put up a fence between Italy and Switzerland and 
Austria and so on. Those are open borders.
    It would be remarkable if Canada, the United States, and 
Mexico were just a uniform common market and could compete with 
the rest of the world, but we are not there. But little by 
little it seems to me if we are just repairing one side of the 
river, so to speak, one side of the border, and the other is 
left in poverty and doesn't have water and doesn't have sewer 
and doesn't have the kinds of things that lead to quality of 
life and to investment.
    Maybe we ought to be building joint powers agreements. I 
think California did that with Tijuana. It is their sewage, but 
it came through our--their pipes came through our State. We 
ended up building a treatment plant for their sewage, even 
though it was on the other side of the border.
    Those are the kinds of projects it seems to me along the 
border that we ought to be more engaged in in trying to develop 
an infrastructure that works for both sides, and I wonder if 
you have any feelings about that.
    Mr. Aguilar. Let me comment. I don't have an answer, but 
let me comment.
    Mr. Farr. But you have some law enforcement interactions, 
don't you? You have joint meetings with law enforcement on the 
other side?

                               TERRORISM

    Mr. Aguilar. Absolutely. Yes, sir. Anything that our 
country, the municipalities, that the border region population 
can do to reduce the exploitation possibilities of our border 
is going to increase the security of our Nation.
    One thing that we haven't talked about here, which I find 
kind of ironic at times, and it is not anybody's fault, is that 
we have spent a lot of time on immigration, on narcotics, on 
prosecutions of those. What is very critically important is the 
security of our Nation from the standpoint that people who are 
looking to harm our country do not exploit that flow, that 
chaotic information, those criminal enterprises that now 
operate to get into this country.
    So I just want to point that out. It is about all threats. 
It is not just about immigration. It is not just about 
narcotics. Those two are critically important, but it is about 
securing our Nation from all threats. And reducing to the 
degree possible the flow of illegal people, the flow of illegal 
narcotics and any other illegal commodity increases multi-fold 
our capabilities to bring greater security to this Nation.
    And it doesn't begin and doesn't end at the border. It 
begins pre-departure, points of origin, transit, at arrival, 
and it continues into our final destination.
    So Mr. Chairman, thank you for allowing me to make that 
statement because I think it is critical and too often it just 
gets lost.
    Mr. Price. Thank you.
    Mr. Culberson. Mr. Chairman.
    Mr. Price. Yes, sir.
    Mr. Culberson. May I join with you on that? Just a quick 
follow-up that I think you and Sam will find very interesting 
and worthwhile, very quickly, if I may.
    Mr. Price. Yes.
    Mr. Culberson. Thank you so much.
    Chief, you bring up a great point that I needed to ask you 
about, but I had to get at some of the other fiscal issues.
    To follow up on Sam's question, CBP reported the GAO 
released a report in August, 2009, that said that the Border 
Patrol had reported that in fiscal year 2008 there were three 
individuals encountered by the Border Patrol at Southwest 
border checkpoints--this is a direct quote--who are identified 
as persons linked to terrorism. Who were they and what links 
did they have to what terrorist organizations?
    Mr. Aguilar. I think that goes to closed session, if you 
don't mind, sir.
    Mr. Culberson. That would be I think helpful, Mr. Chairman, 
if we could at some point.
    Mr. Price. We will get that information out in a different 
setting.
    Mr. Culberson. Thank you.
    Mr. Price. Let me thank all our members and thank you, 
Commissioner, for your appearance here today, your service, 
your continuing service. We look forward to working with you as 
we formulate our 2011 budget.
    Mr. Aguilar. Thank you, sir.
    Mr. Price. The Subcommittee is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                          Thursday, March 18, 2010.

    FY2011 BUDGET HEARING FOR UNITED STATES IMMIGRATION AND CUSTOMS 
                              ENFORCEMENT

                                WITNESS

JOHN MORTON, ASSISTANT SECRETARY U.S. IMMIGRATION AND CUSTOMS 
    ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

               Opening Statement of Chairman David Price

    Mr. Price. The Subcommittee will come to order. Good 
afternoon. Welcome to this once-postponed, once-delayed 
hearing. We are finally underway here, and we are very glad to 
welcome today Assistant Secretary John Morton from the U.S. 
Immigration and Customs Enforcement, or ICE, to discuss his 
agency's $5.5 billion request for fiscal year 2011. 
    Overall, the ICE discretionary budget grows by $87 million, 
or 1.6 percent, in 2011 with proposals that would expand the 
successful Border Enforcement Security Task Force, or BEST 
program; invest in improved ICE information technology systems; 
grow ICE's Intellectual Property Rights Enforcement Center; and 
hire additional investigatory support personnel.
    Other key programs, such as Secure Communities and 
alternatives to detention, have no real budgetary increase.
    Three years ago when I became Chairman of this 
Subcommittee, I challenged ICE to prioritize the identification 
and removal from our country of illegal immigrants who have 
been convicted of serious crimes. Astonishingly, at that time, 
and I will never forget that initial hearing, the Director of 
ICE was unable to give this Subcommittee even an estimate of 
the number of illegal immigrants that might be in penal 
custody, let alone guarantee that all of those convicted of 
violent crimes would be deported at the end of their sentence.
    While this problem is still not solved, the Subcommittee 
has provided the resources for ICE to make significant progress 
finding aliens in penal custody, and removing them at the 
completion of their criminal sentences.
    ICE's performance statistics bear this out. Between 2002 
and 2007, ICE increased criminal alien removals by only 7 
percent per year, even as non-criminal deportations surged 22 
percent annually. In contrast, criminal alien removals 
increased 12 percent in 2008, another 19 percent in 2009. 
Furthermore, the 2011 budget estimates that after full rollout 
of the Secure Communities program, 80 percent of ICE detention 
capacity will be dedicated to criminals awaiting removal from 
this country. These are real results that show ICE's commitment 
to target its resources based on threats to our society. And I 
would note these changes have been made while maintaining the 
Department's catch-and-return policy, the key element of 
maintaining control of our nation's Southwest border.
    Another key ICE success over the last year has been a 
strengthened presence along our nation's Southwest border, and 
the expansion of joint operations with Mexican law enforcement. 
These efforts have been critical to containing the drug 
violence that continues to plague our southern neighbor.
    In April we will hold a hearing specifically focused on 
Southwest border activities, so I will reserve further 
questions about ICE's anti-smuggling, counter-drug, and gang-
destruction investigation until that time.
    During our hearings last year, the Subcommittee heard about 
improvements ICE planned for its detention facilities, 
particularly in detainee medical care. I had hoped that in this 
hearing we would be applauding the significant progress made 
since then. Unfortunately, many of the promised solutions to 
this issue, such as a new electronic medical records system, 
are still years away from implementation.
    A study of ICE medical services that this Subcommittee 
funded in fiscal year 2008 has yet to be completed. Other 
system reforms advocated, by Dr. Dora Schriro's comprehensive 
analysis of ICE's detention facilities are being challenged by 
ICE field office directors as unworkable or inappropriate.
    So, Mr. Secretary, we want to know more about how you plan 
to accelerate progress in this area, and when we will begin to 
see meaningful reform of the ICE detention system.
    Another area requiring Subcommittee attention is ICE's 
international operations, particularly the Agency's Visa 
Security Unit, or VSU, program. In last year's House Bill and 
in the final Appropriations Act, Congress increased funding for 
VSUs so that ICE could expand its presence overseas, and review 
more visa applications from high-risk countries. Although ICE 
has identified 46 countries it considers at high risk for 
terrorist travel or other visa fraud, it has established units 
in only 12 countries, and has just received State Department 
approval to expand to three more in 2010. The 2011 budget 
proposes no additional Visa Security Units.
    Assistant Secretary Morton, we will need to discuss this 
further, both to understand the pace at which ICE is expanding 
this program, and what is delaying the establishment of VSUs in 
more countries.
    Finally, Mr. Secretary, we would like to discuss your plans 
for the Alternatives to Detention Program, with which ICE keeps 
track of individuals whose cases are working their way through 
the Immigration Court removals process but who pose no risk to 
society. It is a successful program. It has an appearance rate 
of over 90 percent at final hearings. Also important for this 
Subcommittee is the fact that it costs much less per day to 
monitor individuals through this program than to keep them in 
detention.
    Every year that I have been Chairman of this Subcommittee 
we have seen to it that the budget for Alternatives to 
Detention has increased over the request level, both because 
the program is cost-effective, and because it is more humane 
than locking up everyone who appeals their status in 
Immigration Court. In the last two Appropriations Acts, 
Congress has required ICE to submit a plan for nationwide 
deployment of the Alternatives to Detention program. A draft 
report was delivered to Subcommittee staff last month, but we 
have yet to receive an official submission from the Department. 
Given projections that the majority of immigration detention 
space will soon be filled with criminal aliens, I am concerned 
about what appears to be resistance to expanding this important 
program. So Mr. Secretary, we hope you can clarify ICE's plans 
for Alternatives to Detention.
    Mr. Morton, we look forward to reviewing these details of 
your budget, and undoubtedly there will be a wide range of 
questions about ICE operations. As you are fully aware, the 
policy area that you are in charge of elicits strong opinions 
from many corners of American society. But despite the concerns 
I have raised, I am grateful for the leadership you have 
brought to the Agency. Like the tough, seasoned prosecutor that 
you are, you have set clear priorities for ICE, starting with 
the imperative to keep the American people safe. We look 
forward to continuing to work with you to help your Agency 
fulfill its mission.
    I am going to ask you to summarize your statement with a 
five-minute oral presentation. We will enter your full written 
testimony into the hearing record.
    Before we begin, let me ask our distinguished Ranking 
Member from Kentucky, Mr. Rogers, for his opening remarks.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
           Opening Statement of Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome, Secretary 
Morton. It is good to have you here with us, your first blush 
at this, I think.
    It looked like we were afraid to have you because we 
postponed, and then we delayed today. But I assure you, we are 
happy to be here.
    As I reviewed ICE's body of work over the past year, as 
well as the Agency's budget request for 2011, I see a rather 
disturbing trend. On the one hand, ICE has laudably stepped up 
its efforts on criminal aliens, illicit trade, Southwest border 
enforcement.
    But on the other hand, ICE has noticeably curtailed its 
enforcement actions on illegal immigration, under the guise of 
prioritizing criminal aliens. What the Administration calls its 
smart-tough enforcement policy.
    So the way I see it, it looks as though you are an enforcer 
trapped in a poorly veiled administrative effort at so-called 
immigration reform. But last I checked, our immigration laws 
have not changed. Minding our borders and the people who enter 
our nation very much matters to our homeland security.
    First and foremost, ICE's principal mission is to target 
the people, money, and materials that support terrorism. Look 
no further than the 9/11 hijackers, none of which would have 
been categorized as criminal aliens. Rather, all of the 9/11 
terrorists exploited the legal immigration system, and several 
were here illegally.
    And then just this past year, we have seen three serious 
terrorism cases that involved individuals who could not be 
categorized as criminal aliens, who all exploited the legal 
immigration system, as well. The Zazi case in Denver, and the 
Smadi case in Dallas, and the Christmas Day attack over 
Detroit.
    In fact, the Smadi case in Dallas involved a Jordanian who 
had overstayed his tourist visa, and was therefore here 
illegally. So we cannot allow a preoccupation with criminal 
aliens to obscure other critical ICE missions; namely, those 
missions pertaining to what should be an unrelenting effort to 
disrupt and interdict terrorists.
    Secondly, immigration matters to our economy. At a time of 
painfully high unemployment, how can we allow illegal 
immigrants to take jobs away from Americans who need them? 
Stats do not lie; from 2008 to 2009, ICE's non-criminal 
administrative arrests during work-site enforcement operations 
declined by more than 68 percent. It trickled down to just 24 
arrests this past January. Hardly any.
    Furthermore, current detention bed space capacity is not 
being fully utilized. Out of the 33,400 detention beds ICE is 
currently able to use, only 29,192 beds are filled. What these 
facts tell me is that ICE is not vigorously enforcing our 
immigration laws, or fully using all the tools at its disposal 
to deter illegal aliens.
    Finally, immigration matters to the disruption of criminal 
activity. In our hearing on Southwest border enforcement last 
fall, our witness testified that ICE needs to use its 
administrative authorities to apprehend and deport dangerous 
individuals affiliated with criminal gangs and illicit trade, 
but individuals who may not be criminal aliens, by the 
Administration's definition, but are extremely dangerous 
individuals nonetheless.
    In summary, when I look at the shift in ICE's focus over 
the last year, I am deeply concerned. At best, it appears as 
though immigration enforcement is being shelved, and the 
Administration is attempting to enact some sort of selective 
amnesty, under the cover of prioritization.
    At worst, however, the Administration's apathy towards 
robust immigration enforcement is perhaps making it easier for 
terrorists and hardened criminals to embed themselves in our 
communities. Either way, I will not stand for it.
    Secretary Morton, I know you have a tough job. I think it 
is getting made tougher by the Department's lack of planning on 
SBINet, and proposed cuts to the Coast Guard's drug 
interdiction capabilities, two things that will now only put 
more pressure on the border.
    So what we need to know here today is that ICE is using 
every tool at its disposal to fulfill its mandates and improve 
our homeland security, because far too much is at stake.
    Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                        Statement of John Morton

    Mr. Price. Thank you. Mr. Morton, please proceed.
    Mr. Morton. Thank you very much, Chairman Price. Thank you, 
Member Rogers, and the distinguished members of the 
Subcommittee.
    In light of the overall budget challenges, U.S. Immigration 
and Customs Enforcement's (ICE's) request this year is 
primarily designed to sustain our existing criminal and civil 
enforcement activities. As the Chairman noted, we have some 
enhancements that are proposed, primarily to improve our 
detainee medical care, to expand our border enforcement efforts 
and to strengthen our intellectual property efforts, 
particularly the financial intellectual property rights 
coordination center.
    Before I go any further, though, let me thank the 
Subcommittee for its steady and bipartisan support of ICE. To 
Mr. Rogers, it is a challenging job, and we have received 
modest support. And I have to tell you, in spite of the many 
challenges that we face, in my view, the Agency's future has 
never been brighter.
    We are rapidly becoming a premiere federal criminal 
investigative agency and a critical player in the war on 
transnational organized crime and national security. We are 
also taking long-needed steps to identify and remove criminal 
aliens in a uniform and concerted manner, steps that were 
strongly encouraged by this Subcommittee. We removed a record 
number of criminal aliens from the United States last year 
(136,000)--that number, I expect to report to you in a few 
months will increase yet again quite substantially this year.
    Indeed, for the first time in the Agency's history, I think 
we have programs underway to answer the questions that, the 
Chairman noted, we could not answer a few years ago. And it is 
a major reform and a major step when it comes to criminal 
offenders. I think we are just a few years away from being able 
to accurately identify all alien criminal offenders in the 
United States and have a rational way to remove from the United 
States those that are subject to removal.
    Please also know that I want to have the best relationship 
I possibly can with this Subcommittee. I value oversight; I 
think it is a hallmark of our democratic system. And I commit 
to candor and transparency as Assistant Secretary.
    Let me just start out with a little candor and 
transparency. The Chairman has noted reports that, for a 
variety of reasons, are not here to the Subcommittee on a 
timely basis. All I have to say to that is it is not 
acceptable. They should have been here, and it is my 
responsibility as Assistant Secretary ultimately to make sure 
that they are. I do not make any excuses. We are going to do 
better. We will get to it on those two reports, get them here, 
and we will do better in the future.
    Let me briefly comment on a few priority areas. I will 
start with one that Mr. Rogers touched upon, and I will start 
with that, which is preventing terrorism and enhancing 
security. I agree with Mr. Rogers; this is a critical area for 
us. We have to focus on it very, very strongly.
    With this budget, were it enacted, we would continue our 
very strong presence on the Joint Terrorism Task Force (JTTF). 
We are the second-largest federal contributor to the JTTF 
outside of the Federal Bureau of Investigation (FBI). Most 
people do not realize that. With the Deputy of the National 
JTTF, we are at 100 out of 106 JTTFs. I expect we will be at 
106, whether or not we receive these particular enhancements 
requested in the budget.
    We are going to continue our leading role when it comes to 
export control. We investigate more cases than any other 
federal agency when it comes to the efforts to obtain our 
sensitive technology illegally, whether it is weaponry or dual-
use technology.
    We will talk shortly about visa security, I am sure. I am 
committed to it. Just know that I am in the midst of 
discussions with the State Department to see how we can come up 
with a much more aggressive, comprehensive expansion of the 
program.
    There are some other initiatives that I think I should come 
and brief the Subcommittee on, that address some of Mr. 
Rogers's concerns in the national security area. I would rather 
not do that in public, however.
    Next, turning to our efforts to secure the border, we are 
placing a major emphasis on intellectual property enforcement 
(mainly because there are real job issues), also it fuels 
transnational crime and with this budget we would be able to do 
that.
    We also want to continue the great work of the Border 
Enforcement Security Task Force (BEST). We have 17 BESTs; with 
this budget we would be able to go to 20. We would also make 
permanent the generous increases to Southwest border 
enforcement that the committee made last year. And that is very 
important to us.
    Turning to the nation's immigration laws. With this budget, 
we would continue to have a heavy emphasis, at the 
Subcommittee's encouraging direction, on criminal offenders. I 
think we would see record numbers, and not just in terms of a 2 
percent or 3 percent increase. We will do so without ending 
catch-and-return. I am committed to it. Hear it straight from 
me: We will provide the necessary detention space and resources 
to maintain that policy. I think it is important.
    I agree with Mr. Rogers 100 percent that we cannot have an 
immigration enforcement system that is marked solely by 
attention on criminal offenders. They are an important 
priority, but if the system is going to have integrity and 
credibility, the border has to be attended to, and we have to 
pay attention to fugitives, people who knowingly ignore final 
orders.
    And we are going to continue to address the question of 
illegal employment. It is a challenge. There are a number of 
statutory provisions that I would be happy to talk to the 
Committee about, and I have some ideas on how we might be able 
to improve them.
    For example, we do not use the two most direct provisions, 
as an investigative agency, given their difficulty in actually 
employing. One is a Class B misdemeanor. The other requires us 
to demonstrate that an offender had actual knowledge that, not 
only were the people being employed in an unauthorized manner, 
but they crossed the border unlawfully. We have to demonstrate 
that in a case. Very, very difficult for us to do. We are going 
to have a record year in terms of I-9 enforcement. And I think 
you will see the results shortly.
    Secure Communities, we are continuing to deploy that. As 
the Chairman noted, it works well. And that is going to pose a 
very large challenge for us down the road, as we are faced with 
an ever-increasing number of serious criminal offenders that we 
need to remove.
    Just to give you some flavor of how it is working. Secure 
Communities just had its best week ever. More than 600 level 1 
aliens identified in a single week. Level 1. Put aside levels 2 
and 3. Level 1, drug traffickers, murderers, rapists, violent 
offenders. In a single week. And we have just begun, and we 
will continue to grow. It is going to pose a necessary but 
significant law enforcement challenge.
    On bed cost, here is the challenge. We absolutely intend to 
meet the Committee's direction when it comes to the funding of 
33,400 beds. The big challenge for us is that estimate is based 
on the $99-a-bed figure. In reality, the cost, in Fiscal Year 
2010, is closer to $122. So it is not a question of will, it is 
a question of how. I am committed to a robust use of our 
detention resources, the resources provided here. And I can 
assure you that they are not being diverted to anything other 
than custody operations.
    Let me just finally note, Mr. Chairman, that we are working 
very hard on the question of detention reform. I would be happy 
to discuss that further. I know it may appear from the outside 
that the progress is slower than would be liked; it is a 
signature issue for me personally. We spend an enormous amount 
of time on it.
    I just got back from Mr. Carter's district, looking at the 
Hutto facility. I go to a lot of detention facilities. I am 
very, very focused on bringing the reform that I think the 
committee seeks. My foot is on the path, and I am going to 
continue down that road.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Price. Thank you very much. Let me start with Secure 
Communities.

                           SECURE COMMUNITIES

    As you know, Mr. Secretary, this Subcommittee regards 
itself as the instigator, co-initiator you might say, of such 
Secure Communities. So we follow this very carefully. So I do 
welcome your up-front acknowledgement that we have got to have 
better compliance with the deadlines for the various reports 
that are due. And that almost certainly would include the 
quarterly reports that we receive on Secure Communities. They 
are required by law to be delivered 45 days after the close of 
each quarter. They have been consistently late. So we take your 
pledge at face value, and that means the second quarter report 
for fiscal year 2010 will be delivered on May 15 of this year. 
And we will look forward to receiving that, and to having that 
at hand as we proceed with our business.
    I want to focus on Secure Communities. Through the work of 
this Subcommittee, ICE has received $550 million for the Secure 
Communities program. It is designed to identify and deport all 
aliens convicted of crimes, sentenced to imprisonment, and 
judged deportable by the United States.
    The key part of Secure Communities is ICE's support of the 
so-called inter-operability solution, which links crime 
databases with immigration databases. So that when criminals 
are fingerprinted, both their criminal history and their 
immigration status can be immediately determined.
    In 2009, almost 826,000 inquiries were processed through 
inter-operability, from only 88 jurisdictions. Twenty 
jurisdictions ran it in the first quarter of 2010. During that 
time about 515,000 more inquiries were submitted to inter-
operability.
    Now, the current plan, as we understand it, is to deploy 
inter-operability to 270 locations in 2010, which is estimated 
to cover more than 80 percent of the foreign-born jail 
population. However, ICE was only able to reach 20 additional 
facilities in the first quarter of 2010.
    So we would like to know what you are doing to make sure 
you reach your deployment goals for the remainder of 2010, and 
are those goals, in fact, on track? And then how much more 
coverage do you anticipate achieving with the 2011 
appropriation?
    We assume, as you have said, the eventual goal is for ICE 
to have inter-operability implemented in 100 percent of the 
country's jails and prisons. And assuming that is true, what is 
the timeline for that to happen?
    Mr. Morton. Mr. Chairman, first of all, you are absolutely 
right in the figures you recite. And we are in 119 facilities 
now. We have reached about 30 of the ones that we want to do 
this year. And that means there is a big number between now and 
the end of the year, the last 6 months.
    I have been asking the same questions that you have been 
asking. I am told that we are going to get there. And I am 
committed to it.
    So I can tell you, I am not aware of a reason why we are 
not going to get there. I am focused on doing it. We need, and 
then we have got another big chunk to go next year, big 
challenge. But it is working. It is the wave of the future. The 
truth of the matter is the Committee prodded the Agency quite 
strongly to get to where we are now. And I am not defensive 
about that at all. It was the right thing to do, and here we 
are.
    The big challenge for us is that it does work. It works 
well. It was the right thing to do. We need, as an agency, to 
make sure we deliver on our implementation. I intend to see it 
through to 2013, to where we are with everyone.
    But, as you have noted, we are front-loading. We are going 
first and foremost to those places that our mapping suggests we 
will have the biggest bang for the buck. And those last out-
years, while they are large in actual number of implementation, 
we will reach jurisdictions with ever-decreasing percentages of 
criminal offenders. Because we focused on, for example, going 
into Cook County. We started in Harris County, Texas. All 
places where our modeling has suggested there are a large 
number of deportable criminal offenders, and, in fact, that has 
turned out to be right. I expect it will continue.
    So I will say I hear your concern. There is no part of me 
that is not fully committed to Secure Communities. Frankly, I 
think it is the future of criminal alien enforcement.
    Mr. Price. Now, I want to make sure what I think I heard 
you just say. That the target date, the expected completion 
date for the 100 percent coverage of the country's jails and 
prisons is 2013, for 100 percent coverage.
    Mr. Morton. Correct.
    Mr. Price. You are also saying that the 2010 goal of 270 
locations, 80 percent of the foreign-born jail population is on 
track.
    What I did not hear you say is what this 2011 appropriation 
will buy us. What kind of, what kind of coverage are we going 
to have at the end of the fiscal year, for which we will be 
appropriating this spring?
    Mr. Morton. Yes, to be clear, you are right on everything I 
just said. When you say ``on track,'' I think for this year 
what I would respond is: ``It will be on track at the end of 
the year.''
    We have 30 of 190 this year and is in addition to what we 
had last year and gets us to the 280. For next year, our 
intention is to deploy to another 870 locations. So we have a 
big increase next year, and we have clearly got to do a lot. We 
have got to get to 190 this year, and then we have really got 
to turn it on the following year to go to 870. In Fiscal Year 
2012, that number increases even more, to 1,550.
    Mr. Price. There you are talking about, ordinarily, very 
small facilities.
    Mr. Morton. Correct, very small.
    Mr. Price. Or facilities with a very small number of----
    Mr. Morton. And with a diminishing return, in terms of the 
overall response. But the goal is 100 percent coverage. I want 
to get to a place where we can answer the Committee's 
questions: How many criminal offenders are in the United 
States? And, are you doing everything you can to identify and 
remove them?
    And to do that, we need to be in every jail and prison in 
the United States, whether or not it is at the Federal level, 
the State level or the local level. The big challenge, of 
course, is the local level because there are so many. There are 
more than 3,000 jails and prisons at the local level. We are in 
every Federal and every State jail and penitentiary as we speak 
now. It is the local level where the big challenge is.
    Mr. Price. Thank you. Mr. Rogers.
    Mr. Rogers. Well, I salute you for the criminal alien work. 
We all agree on that, and it should be a top priority, as it 
is. So I salute you for that.

               DECREASE IN WORK-SITE ENFORCEMENT ARRESTS

    However, you have all but stopped apprehending and 
detaining non-criminal illegal aliens. As I said in the opening 
statement, a major, major decline. Administrative arrests, that 
is non-criminal arrests, down 68 percent. And in January this 
past year, you only arrested 24 people. Twenty-four.
    Criminal arrests, criminal arrests during work-site 
enforcement operations, went down 60 percent. And in January, 
20 arrests. Twenty. Indictments filed during work-site 
enforcement operations, down 58 percent. In January, 10 
indictments. Ten. Convictions through work-site enforcement 
operations, down 63 percent. In January, 13 convictions 
nationwide.
    However, I-9 audits of employers increased 187 percent. And 
I do not see how you can have that many employers arrested, and 
ignore, apparently ignore apprehending the illegal aliens 
working at those employers' places. Can you explain that?
    Mr. Morton. A few things. First of all, let me be clear on 
our efforts when it comes to non-criminals.
    You are right, Mr. Rogers, that our numbers, in the context 
of work-site enforcement operations, have dropped. But that 
cannot be extrapolated to the larger effort.
    On the contrary, in Fiscal Year 2009, this Assistant 
Secretary presided over the largest removal of non-criminal 
offenders in the Agency's history, in the country's history. 
Fiscal Year 2009 saw the largest number of non-criminal 
offenders removed from the United States.
    The challenge for me is obviously when it comes to our 
priorities, where do the non-criminal offenders that we 
identify and remove come from. And for me, the challenge has 
been, first and foremost, we have a priority when it comes to 
criminal offenders.
    Second, the border. DHS has to maintain security along the 
border. We cannot return to catch-and-release.
    And finally, for me, we need to have an emphasis on 
fugitives, people who knowingly flout their final order.
    Now, I do not mean to suggest that is a full explanation 
for the numbers on work-site enforcement. But I will tell you 
that you are right; a number of the categories that you 
identified are down from the previous year. It is of concern to 
me. I have been talking about it the last few weeks, and we are 
going to do better.
    Mr. Rogers. It is not down, it has plummeted. As I said, 
administrative arrests went from 5,184 to 1,644. That is 68 
percent. And as I say, in January, this past, there were only 
24 arrests. And yet you audited, your I-9 audits went from 503 
to 1,444, 187 percent increase; and yet, you practically had no 
administrative arrests of illegals. Apparently, at those 
employers' places. That is not going down, that is plummeting, 
practically to zero.
    Mr. Morton. We have 387 administrative arrests, to date. We 
have----
    Mr. Rogers. For what, for the year?
    Mr. Morton. For the year. For 6 months, to date, in the 
fiscal year. And that is a substantial reduction from the year 
before.
    We have a reduced number of criminal cases, to date, as you 
have noted. I am very focused on getting that up. But, again, 
just in fairness, it is not a question that we have in any way 
given up on non-criminal immigration enforcement. On the 
contrary, we set a record for employer fines and penalties.
    I routinely receive a number of letters noting the record, 
and not particularly in a positive light, from the perspective 
of the person writing the letter.

                        DETENTION BED RESOURCES

    Mr. Rogers. Well, you have got almost 4,000 beds, detention 
bed space, unused this year. I mean, for all of those years we 
were building and acquiring detention bed space like crazy, 
every year getting bigger and bigger and bigger, and we could 
not keep up with it then.
    Now, all of a sudden it has gone the other way. We have got 
33,400 beds, and 3,900 of them are being unused this year. 
Which tells me something. It tells me you are not apprehending 
people and processing them on the way back home.
    Mr. Morton. The 29,000 figure, and you are correct, 
reflects the fact that of the 33,400 number in the budget, we 
cannot afford year-long detention because the estimates that 
went into what it takes to fund 33,400 beds were not right. And 
we, as an agency, bear most of the responsibility on that. Let 
me be clear about this. I am not suggesting that the Committee 
has responsibility for that; that is largely the Agency's 
responsibility in past years, and very, very poor cost 
modeling.
    Mr. Rogers. I am just saying that the unused beds are an 
indication that you are not apprehending and deporting the 
numbers that you are talking about. Otherwise you would not, 
you would use every bed you could. We have done it for decades.
    Mr. Morton. Just to be clear, Mr. Rogers, we are going to 
use every bed. I have been planning to use every bed. It is a 
question of given how much money is in the budget, how many 
beds can we actually buy.
    And on April 1, you are going to see us move to something 
very close to 33,400 and run it for the rest of the year. I can 
assure you, coming straight from the top, there is no intention 
whatsoever to divert detention bed resources to something else.
    Mr. Rogers. Well, on average, on average for the year, 
there are 3,900 beds that you are not using. And maybe once in 
a month or two you may use the max, but the average number 
should be the max. It always has been.
    Mr. Price. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. I have one particular 
question, and then I want to get back to some of the stuff, see 
if I have time after Mr. Rogers on the next round.

           CONTRACTORS VS. ICE EMPLOYEES--DETENTION OVERSIGHT

    As of April 12 of 2010, current contract for private 
contractors that oversee ICE's compliance with the national 
detention centers will expire. ICE will begin to replace these 
highly qualified contractors, that have at least 10 years' 
experience, with new government employees that have little or 
no experience at overseeing compliance with NDS.
    This also will become a conflict-of-interest, whereas ICE's 
own folks will do compliance, not private-sector contracts.
    In addition, it is another needless expansion of Federal 
government to create full-time positions which are not fiscally 
flexible, like in the private sector. You currently have a 
contractor performing the on-site monitoring of ICE detention 
facilities. Is this contract funded, and for how long? Is ICE 
planning next month to remove the independent contractors, with 
a minimum of 10 years' correctional experience--and in the case 
of the current contractor, they have 26 years' average 
experience--with government employees who have minimal or no 
experience?
    Mr. Morton. We do have independent contractors providing 
oversight. And we are reviewing whether to eliminate or not 
eliminate some of those contractors. And we do intend to have 
Federal employees. Let me just address it directly.
    We got to a point over the last couple of years where, 
literally, no ICE employee was involved in the basic detention 
operations of the Agency, even though we are responsible, all 
the way to me, for the detention of more than 400,000 people 
per year. And we reached a level of dependence on contractors 
that came to literally 100 percent. In my view, we need some 
direct ICE responsibility and oversight of the detention 
function.
    It is our statutory obligation. We are responsible for it. 
You hold me accountable for its good use and exercise. And we 
have had a number of instances in the past few years where our 
stewardship of detention space has been questioned, and 
questioned quite strongly.
    Let me be clear. We are going to continue to use 
contractors to carry out large portions of our detention 
function. This is not about replacing contractors with Federal 
employees. It is a reflection that, right now, we are 100 to 
zero. And that, when it comes to our responsibility as an 
agency, we ought to at least have one person on site at the 
major detention facilities--which are all carried out in our 
name, with taxpayer dollars provided by this Committee--who is 
there to make sure that the job is being done well and is being 
done in a way that is efficient to the taxpayer.
    We are very cognizant of the need to have people with 
experience. That is a requirement for the folks that we are 
looking for. We have a number of people on our staff who have 
Bureau of Prisons experience. My view is we need to have direct 
ICE involvement so that, you know, the buck really stops with 
me and with us as an agency. And we are not in a situation 
where we basically contracted out--lock, stock and barrel--the 
statutory responsibility that was given to us by the Congress.
    Mr. Carter. And maybe we are talking about different 
things, but I am not arguing with you that ICE ought to have 
some participation in overseeing the operations of the 
contractors who operate a facility. This is a question of 
making sure that national detention standards are met.
    I have only the experience of national jail standards, 
which are very similar. And at least when I was overseeing the 
operation of a fairly good-sized jail, on the standpoint of 
oversight as a judge, we had serious compliance officers 
breathing down our throat every day. And they did not work for 
the people who operated the jail. They worked, they were 
independent people who operated outside it. Now, in our case it 
was a state agency, independent completely from the operation 
of our jails.
    I am not talking about that, operations. I am talking about 
the oversight, make sure you are in compliance with national 
standards which are required.
    And the other question I have is, my understanding is right 
now, you are contracting that with some very experienced 
compliance officers. And I would assume at least some of those 
compliance officers should be independent from the operation of 
it. Maybe they are not, and that might be a problem. I am not 
going to argue with that problem.
    But if they are independent from the operation contractors, 
they are doing oversight or compliance. And with the kind of 
experience, I do not understand why. And there is a flexibility 
on contractors. You do not hire them for life like you do 
federal employees, with some exceptions.
    And so you are sitting there now replacing an inexperienced 
compliance officer, an experienced with an inexperienced, to 
create government jobs. And I want to know why that is better 
and more efficient. I do not understand how it is.
    Mr. Morton. One, I do not think we are going to replace 
them with inexperienced people. I completely agree with the 
idea that there needs to be various levels of oversight, not 
all of which is within the Agency. But I am a strong believer 
that integrity starts at home. And you know, the Assistant 
Secretary ought to be on the hook for making sure that----
    Mr. Carter. So is what you are telling me, you are not 
completely substituting government employees for all compliance 
officers.
    Mr. Morton. Well, we are going to move forward with 40 
positions. I would need to get back to you about whether or not 
that is going to replace all of the present independent 
contracts that we have doing some of it. And I am more than 
happy to talk to you about, even if we have a person on site 
that does our immediate things, how do we have the necessary 
independent oversight to make sure that we are doing what we 
are supposed to do.
    Mr. Carter. Yes, I would like to know about that.
    Mr. Morton. Okay.
    [The information follows:]

    RESPONSE: Yes, beginning in FY 2010, 39 ICE positions were 
dedicated to approximate the coverage provided by 54 contract 
field positions and contract management oversight to ensure 
compliance with ICE's national detention standards. To provide 
the same level of coverage and oversight as the contract, an 
additional 25 full-time employees are being requested to 
complete the baseline activation of the program. This is part 
of the on-site Detention Compliance Oversight Program 
initiative to improve efficiencies and enhance oversight and 
care of detainees in custody. The 39 positions are responsible 
for monitoring facilities housing approximately 23,000 
detainees which, on any given day, accounts for 70-80 percent 
of ICE's total detained population.

    Mr. Price. Thank you. Mr. Morton, let us pursue this topic 
of detention, detention space, detention reform a bit further.
    As I understand it, ICE's detained population is, in fact, 
projected to change quite dramatically in the coming year. 
Before ICE initiated the Secure Communities program, a majority 
of ICE's detained population was non-criminal. The budget 
justification states that by the end of 2011, 80 percent of 
ICE's detention capacity will be used for criminals.

                   ALTERNATIVES TO DETENTION PROGRAM

    Now, such a shift could complicate ICE's approach to 
detention reform. It may also heighten the importance of the 
Alternatives to Detention program and the integrity of our 
immigration system.
    If ICE's detention space is going to be used primarily for 
criminal aliens, there will need to be a practical, robust 
approach to deal with non-criminal immigration violators. As I 
mentioned in the opening statement, you do not seem to have 
made a great deal of progress in expanding the Alternatives to 
Detention program, even though this Committee has increased 
funding for that program, and requested, for the last two 
years, a report outlining ICE's strategy for a nationwide 
rollout of the program.
    Well, let me just ask you a few questions about this. What 
is holding up the nationwide rollout? As more criminals are 
held in ICE detention, what is going to be done with the non-
criminal immigration violators?
    Last fall you awarded a new contract for Alternatives to 
Detention. Under that contract, ICE projected 16,750 
participants in the 30 cities where alternatives are currently 
available.
    However, recent ICE data show that only 11,353 participants 
are enrolled. That is 32 percent under the projected program 
capacity. Why are you not using that full capacity in the 
Alternatives program?
    And then finally, the contract solicitation for 
Alternatives to Detention proposed expanding the program from 
that 30-city base to up to 134 more locations within two months 
of the contract award. Why has that not been initiated when you 
anticipated it when the contract was awarded?
    Mr. Morton. I understand that we had a one-time blip when 
it came to the conversion of the contract, and we went with the 
unified contract for the Alternatives to Detention (ATD) 
program, which brought the cost down. That made it appear that 
we were not using the full number of spaces allotted, but was 
really a conversion issue, and we are back up much closer to 
15,000, 16,000 slots now. I am happy to look into that, though. 
I do not want to speak out of turn. And if your numbers are 
right as of today, then we clearly have a problem that I am not 
aware of.
    [The information follows:]

    RESPONSE: The Aternatives to Detention (ATD) program 
currently manages 11,767 participants in the full-service 
program and 4,116 participants in the technology-assisted 
program. In FY 2010, ICE consolidated two full-service 
contracts and enrolled 3,000 new participants for both full-
service and technology-assisted programs. Total participation 
in ATD program components is 15,883 and represents full 
capacity.

    Mr. Price. Well, maybe we do need to clear it up. I just do 
not understand what you mean, though, by conversion issue. What 
do you mean?
    Mr. Morton. Well, we went from using three different 
contractors for Alternatives to Detention (ATD), to one. And we 
have moved to a single contractor to implement the program 
nationwide. That is not only going to bring some uniformity to 
what we are doing, it is going to reduce costs. So we can use 
the same money to have more slots. So overall, from our 
perspective, it is a necessary reform.
    But let me address the sort of heart of your questions 
directly, which is, I am not at all reluctant to use ATD. My 
only caveats are it needs to work, and it needs to be cost 
effective for the taxpayer.
    Now, in immediate terms, on a daily basis, it seems like a 
no-brainer. It is $8.80 per day, compared to $122 per day. But 
that $8 per day only works out in the long run if the hearing 
time for that case is a short one. And right now, it is not.
    A non-detained docket takes a long time. And so we are 
actually occasionally in perverse situations, where it actually 
costs more money to put somebody on an ATD, because it just 
takes so much longer to get their case heard, than someone in 
detention, because the detention docket is expedited. It is 
really a question of Department of Justice (DOJ) resources and 
the ability for DOJ to move ICE cases. So it is a challenge 
that we face.
    We are trying to deal with that directly, with the 
Executive Office for Immigration Review (EOIR). We are running 
two pilots, Mr. Chairman, one in Baltimore and one in Miami, 
where EOIR is devoting the resources so that we can see if we 
have an expedited ATD docket. You know, can we achieve the 
promising vision of ATD? And I think we can. But just to let 
you know, there are some real-world impediments to making it 
work.
    And the second, I would just caution, the figure of 90 
percent, which is often used, is for the final hearing. For us, 
however, the law enforcement agency, it needs to work through 
removal. That is what we are ultimately judged on. And if, you 
know, lots of people are willing to show up to hear whether or 
not they were granted relief. The real question is when they 
are informed that they lost their case and they need to leave 
the United States, will they show up? That is the number that 
we need to work on and make sure it works for ATD.
    If ATD can ensure that people who are not a risk to the 
community show up for their removal, then it makes sense. If it 
is 90 percent up to their final hearing, but then only 10 
percent show up for their actual removal, it is a challenge for 
us.
    Mr. Price. Your last point about needing to know about the 
percentage rate for actual removal, as well as the showing up 
for the hearing, is the basis. But I understand that figure is 
around 70 percent. Is that about right?
    Mr. Morton. The initial reports are, anecdotally, that it 
is not as high, but that it can be significant, depending on 
which one they are using. Bracelets tend to work the very best. 
Now, a lot of people do not like that because of the intensive 
supervision.
    I do not know that there is enough real data in from our 
pilots for me to answer that directly. I do not want to lead 
you astray or to get myself into territory that I do not know. 
But I do know that that figure is one we need to know and 
answer well, to be able to tell you that it is a good-use 
alternate.
    I think it will be. We just have to recognize that that is 
a challenge for us because people do tend to show up for their 
hearings at a greater rate than they do for removal. That is 
why we have such a large fugitive backlog.
    Mr. Price. All right. I would appreciate your furnishing, 
for the record, the best figures you have on that. And of 
course, also, comparisons to the removal rate for people 
released on their own recognizance. That is a very, very low 
number.
    [The information follows:]

    RESPONSE: Thus far in FY 2010, the participants in the 
program have a 98 percent appearance rate (3,607 attended 3,620 
scheduled hearings). Of the participants that have received 
either a final order of removal or the benefit of voluntary 
departure (452), over 78 percent (354) have departed the United 
States.
    The Executive Office for Immigration Review (EOIR) 
maintains the appearance rates for non-detained aliens through 
its Statistical Yearbook. EOIR statistics indicate the failure 
to appear rate for FY 2009 among non-detained aliens is 27% 
(thus, a 63% appearance rate).
    The removal rate for non-detained, non-ATD population is 
2.17%. The reason this number is so low is that many of these 
individuals represent a low priority for ICE and tend to have 
cases that go through various appeal processes (e.g. a student 
requesting an extension of time in the U.S. to complete studies 
or a VISA overstay requesting an extension).

                           SECURE COMMUNITIES

    Mr. Morton. Could I briefly comment on your observation on 
criminal aliens?
    Just to note, that is a function, that is--the way Secure 
Communities has mapped this out, and the way the numbers are 
unfolding, that 80 percent is a result of mandatory detention 
provisions in the law.
    So what we are saying is, Secure Communities is working 
well. As we go into all sorts of jails and prisons that we have 
never been in before as an agency and take it to 100 percent 
over the next few years, the good news is it works; the 
challenge is we are going to identify a huge number of serious 
criminal offenders who are mandatory detention, from the 
perspective of the law, that the Agency was not previously 
identifying.
    Mr. Price. Well, and of course, it is obviously a big 
difference, if you will be using 80 percent of your detention 
capacity for such people.
    What kind of implications is that going to have for 
detention practices themselves? For conventional detention? 
Does it imply a need for heightened levels of security, for 
example? I mean, will there be budget implications for having a 
different population mix in detention?
    Mr. Morton. I think you are right on the money. There are 
going to be serious questions, both regarding the kinds of 
facilities that we need to have and the budget implications. 
Because obviously, the Level 1 offenders, who are largely the 
mandatory detention offenders, need more restrictive centers. 
Let us be frank; these are criminals coming out of the criminal 
justice system, and they need to be detained in something that 
looks a lot like a jail.
    The expedited removal cases, they are mandatory detention, 
but those are typically non-criminals. A significant portion of 
those not need to be detained in something that looks like a 
jail.
    The real challenge for us is, as we look forward, how do we 
address the fact that we are detaining an ever-increasing 
number of serious criminal offenders, who, everybody would 
agree, need to be detained and need to be removed. How do we do 
that in a way that does not get to the Ranking Member's point, 
which is there are other parts of the immigration enforcement 
docket that are important, and need a certain level of 
detention to maintain credibility in the system?
    We can do that, some through ATD. But there are, you know, 
a significant number of people for whom that is not 
appropriate. There is just such a high risk of flight, or they 
are a danger to the community. We are either going to have to 
look at future appropriations or decrease the amount of time it 
takes for us to turn cases over.
    If I can reduce the amount of time that people stay in 
detention, it is a way of increasing our detention capacity 
without a further appropriation. I am very focused on that. 
Each couple of days that I can shave off the amount of time it 
takes to turn a case over is the same: the net effect of you 
giving me more money to go out and buy more beds.
    Mr. Price. Thank you. Mr. Rogers.
    Mr. Rogers. I want to get to the violence on the border in 
a minute, but I cannot leave this one. Briefly.

              WORK-SITE ENFORCEMENT POLICY--LEAK TO MEDIA

    The Administration's first raid on a work site I think was 
the Bellingham, Washington matter, where I think it was 24 
illegals, who admittedly got their job through false 
documentation, were arrested on that raid. And then I think all 
of them were then released from custody. And more importantly, 
were given a permit to go to work, which was an absolutely new 
policy, and what I called at the time virtual amnesty. Because 
I think the message to illegals coming into the country was 
work for a company, even though you admittedly are illegal 
there, and we will not touch you. If you get arrested, we are 
going to give you a permit to go to work, and you have got a 
license. You are legal now. Which is unheard of.
    And then, to top it off, the IG, DHS IG issued a report in 
December of 2009, I think just--well, I am not sure when it 
was, related to Bellingham. Anyway, issued its new policy on 
work site enforcement to the New York Times. Not to Congress, 
not to the ICE field offices; to the New York Times. We read 
about it in the newspaper. A whole new policy on immigration 
enforcement in the country, one of the hottest issues going.
    And the Congress, your funding authority and authorization, 
overseers, read about it in the New York Times. Last I heard, 
the Times is not the approval of authority for ICE workshop 
enforcement policy. Or am I wrong?
    Mr. Morton. Well, you are obviously right to be----
    Mr. Rogers. Was there any disciplinary action ever taken 
about that? Who was responsible for leaking this policy before 
it was allowed to be reviewed by the Congress? Has anybody ever 
been disciplined because of that?
    Mr. Morton. A couple of points. First, Bellingham was 
before my time as Assistant Secretary. What I understand is 
that, at the time, there were work authorizations given, but it 
was for the purpose of witnesses for the criminal case.
    Mr. Rogers. Oh, we have heard that before. We have heard 
all of that. Was anybody disciplined on letting this go to the 
press before the Congress approved it?
    Mr. Morton. The answer, I believe, is no. I think the 
Inspector General did not find any disciplinary misconduct.
    Mr. Rogers. It is not the IG's job to find disciplinary 
conduct; it is the Department's job. The IG reports on what he 
found. Did the Department take any disciplinary action against 
anybody for leaking this new work site enforcement policy to 
the New York Times before Congress could look at it?
    Mr. Morton. I believe the answer is no.
    Mr. Rogers. Can you tell me why not?
    Mr. Morton. I think the answer is that the Inspector 
General, in his review, found that there was no misconduct that 
would warrant discipline. But I will take a look at the report, 
and I will see if I am incorrect about this.
    Mr. Rogers. I want you to file with this Committee the name 
of the person that leaked the information out, and why he or 
she was not disciplined for that. If we are going to have 
government in the press, then let us just go ahead and do it, 
and disband Congress.
    So will you file that information with the Committee?
    Mr. Morton. Let me take a look at the report, Mr. Rogers. 
Let me educate myself on this, and I will get back to you and 
the Chairman.
    Mr. Rogers. The question is, will you file that information 
with the Committee?
    Mr. Morton. I will let you know if anybody was disciplined. 
Absolutely.
    Mr. Rogers. I want to know who leaked the information, and 
whether he or she was disciplined. Will you file that 
information with this Committee?
    Mr. Morton. To the extent that it is, one, that somebody 
leaked the----
    Mr. Rogers. Answer the question. Yes or no.
    Mr. Morton. I will, to the extent that somebody leaked the 
information, and there is no statutory prohibition on me 
disclosing something, of course. Again, as I said at the 
beginning, I want to have a relationship that is marked by 
transparency and candor, even when it is something that you 
disagree with me on as a policy.
    Mr. Rogers. Well, file the information. And I do not know, 
Mr. Chairman, there ought to be some sort of a time limit on 
this, to be sure we get it.
    [The information follows:]

    RESPONSE: On December 3, 2009, the Department of Homeland 
Security's Office of Inspector General released a report 
regarding the review of the potential leak of the WSE strategy 
to the New York Times. The report concluded that while the 
release of the strategy deviated from DHS and ICE practices, no 
Law Enforcement Sensitive information was released. No person 
has been identified as having provided the information to the 
New York Times and as such, no disciplinary action has been 
taken.

    Mr. Price. Let me say to the Ranking Member, I appreciate 
his request. It does seem to me, and I am not in possession of 
all the details about this case, it seems to me that there is 
probably a prior question about whether a change in policy, in 
fact, was involved here. And therefore, whether there is any 
departmental employee that could have leaked the information 
about a change in policy.
    I do think that what Mr. Morton is offering, which is an 
accounting of this incident and of the IG's finding, is a 
reasonable response. And then at that point we can determine if 
we want to request further information.
    Mr. Rogers. I would inform the Chairman that the Department 
IG issued this report, in December of 2009, on the new policy 
on work site enforcement. There is a new policy, and it was 
released last spring, labeled law enforcement-sensitive.
    And then, in response to that report, I issued a statement 
back then. I can quote it, I will not take the time to do it, 
but, talking about how concerned I was that, complaining that 
the policy was issued publicly to the newspapers before we had 
a chance to even see it, much less comment on it. I think that 
is a gross violation of the relationship between the Department 
and the Congress, particularly Appropriations.
    Mr. Price. We want to be informed of any change in policy. 
However, it does seem to me appropriate for us to have a 
response from Mr. Morton answering your question to what extent 
there was, in fact, a change in policy implemented at that 
time. And therefore, the extent to which there was a news item 
to be leaked in the first place.
    Mr. Rogers. Well, he knows what I want, and he knows I will 
not rest until I get it. So the sooner the better, Mr. Morton.
    Mr. Morton. What I can add to some of the things that we 
could give, is an accounting of where things actually ended up 
in Bellingham. Because I think at the end of the day, and I am 
just looking at some notes here, there were 28 individuals in 
question; 15 of them are now pending their removal proceedings, 
and seven already have gone through and have a voluntary 
departure order or have left. And one absconded, and one left 
right away.
    So again, I was not there at the time. But the end result 
is enforcement against all but one person, who absconded.

            BORDER VIOLENCE--DRUG TRAFFICKING ORGANIZATIONS

    Mr. Rogers. Let me move quickly to violence on the border 
and trends that may be going on. We all know about the drug 
cartels and the violence that is taking place inside Mexico. A 
lot of us complain that the cartels are all over this country, 
as well, in our larger cities, including this one. So the 
cartels' operations have spilled over the border, and that is 
to put it mildly.
    And as the judge can better tell us, the cartels are 
getting more emboldened. We read of the tragic murder of the 
boys on the Consulate, and another, the woman, pregnant and 
with a child in the back seat.
    But at least 18,000 people have been killed in Mexico since 
December of 2006. And the pace escalates, most notably in 
Juarez, 500 murders so far this year. The average number of 
murders per month approaches 200. That is 10 a day. Well, not 
quite.
    What have we learned over the last year about the cartels' 
tactics, especially related to border crossings, how they get 
the drugs across and where, and how that operates?
    Mr. Morton. Let me say a few things. I am going to be 
careful how I answer your question. And let me offer to come 
and tell you a little bit about what we have got going on, in a 
bit more sensitive environment.
    But listen, Mr. Rogers, the cartels, as you have noted on 
many occasions, are just brutal, vicious, you know, organized 
criminal gangs. And they are operating on a grand scale with 
great consequences for all of us.
    You mentioned something in your opening that I think bears 
repeating, which is ICE has some fairly unique authorities that 
can be brought to bear in that regard. And that is, not only do 
we exercise aggressive and broad criminal investigative powers 
but we have our civil immigration authority. And that should be 
put to work, side by side with those criminal investigative 
authorities, on the border.
    We have done a number of recent operations. As a matter of 
fact, I remember meeting with you at the very beginning, and we 
talked about this a little bit. And I am glad to report that we 
have started to do some of these exact kind of operations, 
where we are not just saying that we are going to do gang 
enforcement operations, but we started targeting those efforts 
against those gangs that support the drug cartels.
    We have done an operation called Cross-Check now in Los 
Angeles, and we just did it in Texas, and we are going to be 
doing it in a few other states, where we specifically target 
criminal offenders on the streets for removal. We need to be 
more aggressive as a law enforcement agency in using our civil 
powers to support and carry out some of the important criminal 
investigative work we do.
    So I am very interested in looking at our civil immigration 
enforcement efforts against gang members and criminals and 
using our powers in a way that furthers a broader objective of 
attacking the drug-trafficking organizations.
    If a particular gang is known on our side of the border to 
be supporting, even at a low level, drug distribution that 
furthers a drug-trafficking organization, then why do we not 
pick that group as this month's focus for immigration and 
customs enforcement? And that is the kind of targeted effort; 
we need to do everything we can to push back on the drug-
trafficking organizations.
    But let me----

                      BORDER INSPECTIONS--WEAPONS

    Mr. Rogers. I know we talked about, I guess it was last 
year some time, we were talking about the inspections at the 
ports of entry, and looking for drugs coming in and weapons 
going south. And one of the things that we wanted to try to do 
was to check the rail traffic going into Mexico for weapons. 
And I think we have been doing that. My information is that 
they found no weapons in that fashion. Do you know, is that 
accurate?
    Mr. Morton. I would not say no, and I would really want 
U.S. Customs and Border Protection (CBP), who has been doing 
most of the inspections, to answer for you.
    We have not found a large number of firearms. And 
obviously, the question is, is that a reflection of they are 
not going in at the level that we think they are, or are we not 
finding them?
    I will say, obviously the Mexican Army and Mexican law 
enforcement finds very large caches of weapons all the time in 
Mexico. That is an open question about where those come from. 
They could come from many places in addition to the United 
States.
    So I think on that one, I would need to double-check with 
CBP, and let you know exactly what the results are. But CBP has 
been upping its inspections, not only at the ports of entry, 
but also at the rail crossings and with the Border Patrol.
    Mr. Rogers. Well, if we are not finding weapons in that 
fashion, should we not move those personnel to more productive 
places?
    Mr. Morton. Assuming, I know they just started it. And so 
the real question is, without me commenting much further let me 
find out what they are doing. I do not want to misspeak. They 
may be finding far more weapons than I appreciate.
    Mr. Rogers. Thank you.
    [The information follows:]

    RESPONSE: Although ICE works with U.S. Customs and Border 
Protection (CBP) to curtail illegal weapons trade between the 
United States and Mexico, CBP maintains exclusive jurisdiction 
over border searches, including those involving transnational 
rail.
    CBP is conducting 100 percent scanning of all outbound rail 
cars destined to Mexico. CBP deployed high-energy systems along 
all eight (8) Southwest Border railroad crossings to conduct 
non-intrusive inspections (NII) of southbound trains for the 
presence of contraband to include illicit currency and smuggled 
firearms.
    Notification protocols have been developed with Mexican 
Customs for the inspection of suspect rail cars, since the cars 
themselves are on Mexican soil immediately after the U.S. NII 
scan.
    From March 1, 2009, to February 28, 2010, there were 
approximately 7,378 southbound train movements. While 
conducting 100 percent scanning, CBP has completed non-
intrusive inspections of over 368,000 full and over 160,000 
empty southbound railcars and referred 72 railcars to our 
Mexican counterparts. To date, all referrals have been 
negative.

    Mr. Price. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. Let me start off by 
saying I am a fan of your agents on the Texas border. They do a 
good job, as far as I know, those that I have gotten to know. I 
am pleased to call them fellow Texans.

                           SECURE COMMUNITIES

    The question I have--I have a lot of questions, I do not 
know where to start. I want to go back to the Secure 
Communities program. And I want to make sure I have got the 
right idea.
    You are setting this up to take people out of prison that 
have committed serious felony crimes, is that right? Or are you 
taking everybody who has committed any crime?
    Mr. Morton. Well, the ultimate goal of Secure Communities 
is to identify anybody who has committed a crime, that Congress 
has provided for as deportable based on that crime. And 
obviously, we are going to start, first and foremost, with 
those who have committed a serious offense.
    But you know, my view is, if you are here unlawfully and 
you are committing crimes, Congress has said that is two 
reasons that you should----
    Mr. Carter. And I am also making the assumption that these 
people have finished meeting their obligation to the State or 
the county that has arrested them and convicted them.
    Mr. Morton. That is right. Now, one minor caveat. It is 
within most State's power to release people to us early. But 
our preferred approach is for the State to go through with the 
criminal process, for there to be a conviction and for the 
person to serve their time; then, we take them and remove them.
    We will accept, and the law provides for, some early 
release, but that is at the discretion of the State.
    Mr. Carter. So, what I call serious people, and that is 
people who do aggravated sexual assault, murder, major crimes, 
drug dealers, gang cartel members and those types of people; 
they are the first round that is taken up, right?
    Mr. Morton. Absolutely. Our Level 1 offenders, any crime of 
violence, any serious drug-trafficking organization. Now, of 
course----
    Mr. Carter. Some of those people are going into detention 
centers. And you just visited mine, which used to be a prison, 
but it is not any more. And now the question, are not you going 
to have security problems there? And I would argue you are.
    I mean, if you are housing those kind of people, you need, 
you have got a different situation than what we have been 
trying to deal with on detention for the last five years.
    Mr. Morton. It depends on the facility. The Hutto facility, 
for example, in your district, would not be appropriate for 
those kinds----
    Mr. Carter. It would have when it first opened, but it is 
not now.
    Mr. Morton. Right, it is now. Now it is appropriate, yes.
    Mr. Carter. We spent a lot of time changing that.
    Mr. Morton. And you can see that when you are there; it was 
an old prison, and it is now something else. It is entirely 
appropriate for the non-criminal female, females that we detain 
and remove there. And we need a facility like that because we 
have a lot of women.
    But for your basic point of----

                       ALTERNATIVES TO DETENTION

    Mr. Carter. Now, and your alternative for the non-criminal 
offenders is to do intensive supervision, or electronic 
monitoring, right?
    Mr. Morton. Or something like Hutto. Hutto works perfectly.
    Mr. Carter. Or Hutto. Detention.
    Mr. Morton. Yes.
    Mr. Carter. But when you are trying to relieve the 
detention population, you use electronic monitoring, or you use 
intensive supervision.
    Mr. Morton. Or bonds, we also use bonds. And then in some 
instances----
    Mr. Carter. Now, under the bond program, I mean, our 
history on bond programs, with ICE and with this immigration 
program, is horrible. I mean, the people who show up for their 
hearings, they are in the 5 percent to 8 percent range, is what 
usually happens, at least used to historically.
    Now, I happen to have done a whole lot of electronic 
monitoring, and I have also done a whole lot of intensive 
supervision. And intensive supervision, if done right, is 
intense. Which means somebody is calling in all the time, and 
that means that a case worker can only handle X number of 
intensive supervisions. So that means you, with the numbers 
that you are talking about, you are talking about a tremendous 
number of case workers, which I doubt if you have got enough 
people out there that can do the job.
    Because if you have got 100 people on intensive 
supervision, you have got an insane case worker, okay? Cannot 
do it.
    Now, on electronic monitoring, are you treating that as 
house arrest? In other words, do they, does that monitor tell 
you when they leave home and when they come back to home, and 
they are given rules that they have to live under? Or does it 
just tell you where they are?
    Mr. Morton. I do not know the answer to that. Let me get it 
to you. But we have both intensive supervision or electronic 
monitoring, and in some instances we have both. You go on 
intensive supervision, and you have a monitor. And it works 
well.
    [The information follows:]

    RESPONSE: A participant in an ATD program is first served 
with an Order of Recognizance (OREC), for those still in 
immigration proceedings, or an Order of Supervision (OSUP), for 
those who have completed their immigration proceedings and have 
a final order of removal. The OREC and OSUP documents detail 
the rules of their release and specify what they may and may 
not do while out of custody. Once in the program they will 
either be required to report telephonically (TR) through a 
voice verification program or be assigned a global positioning 
system (GPS) ankle bracelet. ICE determines on a case-by-case 
basis the proper reporting mechanism to assign to a participant 
based on factors such as the procedural posture of the 
participant's immigration case, criminal history, demonstrated 
program compliance, and flight risk.
    A participant that is assigned TR is required to schedule a 
recurring interval during which the participant receives a 
telephone call from the voice verification program instructing 
the participant to call back within three minutes. When the 
participant calls back, the participant's voice is verified 
using voice recognition technology. After the call is completed 
successfully, the next pre-set call interval is determined.
    If the participant is assigned a GPS unit, the unit sends 
out signals to track the participant's location in 15-minute 
intervals (passively) or 1-minute intervals (actively). 
Although the device tracks the participant's whereabouts 
generally, the device does not affirmatively alert ICE. Unless 
otherwise pre-determined, the participant is not prevented from 
participating in routine activities. The participant's 
movements are not typically restricted; however, additional 
controls may be required in a specific case. In some instances, 
participants are also informed of areas they may or may not be 
permitted to enter. The GPS units track and record where the 
participant goes and the information is typically used to 
verify participant compliance in the program.

    For me, I want to get to, as you describe it, that program 
that works well. I want to see a high rate of compliance, where 
you are not just at your hearing but at your removal. And I 
will do whatever it takes to get that.
    Mr. Carter. Is there a punishment for taking the bracelet 
off? In other words, do you have procedures set up that if they 
remove the ankle bracelet, then they are automatically going to 
detention?
    Mr. Morton. We are going to detain you. If you do that, if 
you take it off, we are going to detain you.
    Now, it is an interesting question as to whether or not 
that would fit under some of the obstruction of justice 
criminal provisions in the Code that can be applied on the 
criminal side, if you do not do what the Court ordered you to 
do. I would need to take a look at that. Absolutely.
    Mr. Carter. So you might have charges, additional charges 
you could file.
    Mr. Morton. We might.
    Mr. Carter. Absolutely.
    Mr. Morton. As a minimum, we would go to your house and 
pick you up, find you, pick you up, and put you in detention if 
you do not comply.
    Mr. Carter. If they do not show up for their hearing, then, 
in other words, if they are monitored but they do not show up 
for the hearing, then----
    Mr. Morton. Then they are a fugitive.
    Mr. Carter. They are fugitives at that point in time.
    Mr. Morton. Absolutely. And when we go through the ATOs, we 
are very clear with people.
    Mr. Carter. And you will find out whether they are under 
house arrest. I mean, when we have people on monitors, we say 
okay, we are putting you out on a monitor. You are free to 
travel to work. But there is an argument about your monitor, 
that if you keep everybody on a monitor, and they keep doing 
what they were already doing when we picked them up in the 
first place, they are pretty happy. I guarantee that monitor is 
not that burdensome. But I will not go into that argument.
    The question I have is, are you saying you are not free to 
go to the beer joint, you are not free to go out on Saturday 
night and stay out until 3:00 in the morning. You are policing 
these people up, and saying you are going to be model citizens 
if you are going to get this privilege. We treat it as a 
privilege.
    Mr. Morton. Absolutely. Let me find out for you, and we 
will get back to you.
    Mr. Carter. Thank you.
    Mr. Price. Thank you, Mr. Morton. All right. We will go and 
have a final round here.
    Mr. Morton. Of course.

                       VISA SECURITY UNIT PROGRAM

    Mr. Price. And move right ahead. And I have a question 
about visa security units, as I indicated in my opening 
statement.
    We appropriated $30.7 million to the ICE Visa Security 
Unit, or VSU program, in 2010. The Agency has not requested an 
increase for 2011, even though by the end of the year there 
will be VSUs in only 15 of 46 high-risk countries.
    And by the way, those 46 countries are an interesting mix 
of countries with, in sensitive regions of the world, but also 
with a population mix that makes them of special interest.
    This program requires coordination with the Department of 
State. But I heard a disconcerting remark from the last 
Ambassador to London, who apparently told ICE that DHS already 
had, quote, ``too many people at the embassy'' to justify a VSU 
there.
    Well, what do you say about the level of deployment of 
these units? Are you concerned that ICE Visa Security Units are 
at less than one third of the countries your own agency has 
labeled is at risk? What are you doing to work with the State 
Department to accelerate the establishment of VSUs in all high-
risk countries?
    And the obvious question. Why does the 2011 budget request 
not include more funding for VSUs, when there is a known 
deficiency in the coverage we are achieving?
    Mr. Morton. I am concerned. I am attending to the matter 
with the State Department. I do want to get to a place that is 
more comprehensive than we are now.
    The Secretary wants to do the same thing. She has asked me 
to meet with the State Department. I have already met with the 
Assistant Secretary for Consular Affairs. I am going to meet 
with the head of Diplomatic Security, also an assistant 
secretary, next week. And we are going to have some good 
conversations about how we can get to full coverage at the 57 
posts that we have identified, together, as the institutions 
that we should have posts in.
    I will say, on London, some good news. I went to London 
personally and spoke to the Deputy Chief of Mission, and we 
have approval to go to London. We will be going to London, and 
we will use the resources the Committee provided for us to do 
that.
    We will also go to one more country, or one more post in a 
country, in 2011, using what we have. I would rather just tell 
you that separately and not here publicly.
    So I have my work to do with the State Department. We have 
had occasional challenges, largely due to space issues, what 
the State Department refers to as right-sizing. And all I can 
tell you is I try to work through them on every one, but I do 
not want to suggest to you that I think we are exactly where we 
need to be. I am focused on it, and I would be happy to let you 
and the Ranking Member know where we intend to head well before 
our next hearing on something like this.
    Mr. Price. Well, we will appreciate that information. This 
is not the first time the Subcommittee has been in the position 
of questioning the requested amount, and trying to nudge this 
program forward.
    If you are concluding that the original projections maybe 
are beyond what really has priority, or in some other way are 
reconsidering this, we need to know it. But it is not the way 
we want to operate, to have a stated goal in place, and an 
apparent rationale for that goal; and yet, it does not match up 
with the budget request. And there is surely not a good 
explanation for that.
    So we need, between now and bill-writing time, we need to 
come to a better understanding, I think, of what your goals are 
here, and what kind of priorities you have in your own mind as 
to where we go next. And for that matter, how far this rather 
modest appropriation request will take us.
    Mr. Morton. Understood, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rogers.
    Mr. Rogers. Let me ask you about the Visa Security Units. 
To me, it is sort of a muddled picture. We have never, in my 
judgment, got this right. It is not your fault.
    In issuing visas and who has control of what, both Homeland 
and State Department of course have a goal in visa policy. 
State responsible for visa applications, processing, and 
denial; DHS responsible for visa policy. And then specifically, 
Homeland is responsible for the approval of all immigrant and 
non-immigrant petitions, the authorization of permission to 
work in the U.S., the issuance of extensions of stay, and 
change or adjustment to an applicant's status while he is in 
the, he or she is in the U.S. DHS, within DHS, the CIS 
administers policy, ICE conducts enforcement of fraud and 
compliance.
    To me, that is really muddled. Do you feel muddled?
    Mr. Morton. I do not feel muddled today, at least not on 
this particular issue.
    You are right, we have the investigative responsibility. 
The CIS has the responsibility for the approval of the 
extensions and the various employment-based applications.
    Mr. Rogers. Well, I have always had the belief if two 
people are in charge, nobody is in charge. Because both of them 
can blame the other one when something goes wrong.
    I really like a clean target. And I know this is above both 
of our pay grades, but it has always been confusing, ever since 
I have been around this place. And it ought to be straightened 
out, but it has not been.
    But back to the main point. These Visa Security Units that 
you run I think play a vital role in enforcement and counter-
terrorism. In 2009, these units screened 900,000-plus 
applicants. You determined that 301,000 required further 
review, and you recommended over 1,000 for refusal, to the 
State Department, for the issuance of a visa.
    And then in 2009, you also generated 30 watchlist names, or 
nominations. And you have units in Sana'a, Yemen, Tel Aviv, 
Israel, London, and Jerusalem. Is that correct?
    Mr. Morton. Coming. That is this year's expansion.
    Mr. Rogers. Applications to place them. You have existing 
units in Frankfurt, Amman, and I think those are pending, are 
they not?
    Mr. Morton. Yes.
    Mr. Rogers. And it is especially important to have those 
units, because I think it was London, was it not--where was the 
Christmas Day bomber----
    Mr. Morton. London.
    Mr. Rogers. It was in London. If we had had a VSU there at 
that time, would that have made a difference?
    Mr. Morton. It is really hard to do Monday-morning 
quarterbacking on that one. And I am not trying to avoid the 
question in any way, Mr. Rogers.
    The trick with Abdul Mutallab was the information that 
ultimately came to light after his visa was issued. And that is 
one of the challenges that we face with visa security and one 
of the issues that I want to focus on with the State 
Department. Also, when I referred to some sensitive things that 
I would rather brief you on in private, there is a gap; we can 
look at you once when you get your visa issued, but we cannot 
stop there.
    Many times, and Abdul Mutallab is a key example, you get 
your visa, and it is valid for multiple entries. And then you 
do some things that then come to our attention and ought to 
lead to either a revocation of the visa or refusal, putting you 
on the various watchlists.
    And I am very interested in that gap because I am 
responsible right now for the initial security screening at the 
time of the issuance of the visa. Because of the role that we 
play in JTTF, and as you have noted the critical importance of 
this from a national security perspective, I want to work on 
that gap, as well, and make sure that between us, CBP, the 
Transportation Security Administration, all the key players, 
that if something comes up after you get your visa, we have got 
a way to either revoke that visa or prevent entry.
    Mr. Rogers. When will you set up these new VSUs?
    Mr. Morton. Well, the four, we are doing it right now as we 
speak, this year, with the resources provided for by the 
committee.
    Mr. Rogers. Who opposed the application? Who decides this?
    Mr. Morton. It is a two-step process.
    Mr. Rogers. Make it quick.
    Mr. Morton. The first step is me and the Department. Then 
ultimately, the Department of State, we have to get the 
Ambassador's approval at the end of the day for us to show up 
because they have to get a space.
    Mr. Rogers. And you have got to have the money to do it, 
right?
    Mr. Morton. And then we have got to have the money to do 
it.
    Mr. Rogers. It is your personnel, right?
    Mr. Morton. That is right. It is our personnel; we pay for 
it.
    Mr. Price. Will the gentleman yield just for a question?
    Mr. Rogers. Yes.
    Mr. Price. Did I hear you right? You have to secure the 
approval of the individual Ambassador?
    Mr. Morton. We do.
    Mr. Price. Of the country concerned? There is not a State 
Department authority that you are working with?
    Mr. Morton. Well, we have a general approval from the State 
Department, and we have an agreed list--the 46 high-risk 
countries that we have already done. But with regard to each 
actual placement, we must receive the approval from the 
Ambassador.
    Mr. Rogers. Well, that is not unusual. As a courtesy, I 
think, the local Ambassador has the approval of even FBI being 
there.
    Mr. Morton. That is right.
    Mr. Rogers. And other agencies, including the Marine Corps.
    Mr. Morton. The Chief of Mission authority extends to every 
single employee.
    Mr. Rogers. That is a formality only. It is really the 
State Department that decides, right?
    Mr. Morton. A number of Ambassadors have raised concerns 
about whether or not there is space, room at the inn. And so 
there are times when an Ambassador will raise some question.
    Mr. Rogers. Is that the case in London?
    Mr. Morton. No. In London now, thankfully, we have 
approval, and we are going forward this year.
    Mr. Rogers. Does State have any investment, dollar-wise, in 
these units?
    Mr. Morton. No, we pay for the entire cost.
    Mr. Rogers. Well, these are critical, in especially these 
locations that we have mentioned. It seems to me like we ought 
to move expeditiously. When do you think we can expect them to 
be in place?
    Mr. Morton. I think by the end of the year, we should have 
everybody in place for the four new ones, and there is another 
one that I can tell you about afterward.

                             ILLICIT TRADE

    Mr. Rogers. Let me ask you briefly about illicit trade 
investigations. It is part of your chore to enforce illicit 
trade questions, an often overlooked mission, especially on the 
companies doing business in violation of our Iran embargo. What 
can you tell us about it?
    Mr. Morton. Well, I can tell you, first, Ranking Member 
Rogers, I appreciate you even noticing that it is a major 
issue, and it is something that we spend a lot of time on, 
because we do. We spend a tremendous amount of time, and it is 
a critically important part of our national security mission.
    This is a national security mission. We are not talking 
about mom-and-pop violations; we are talking about orchestrated 
attempts on behalf of foreign powers to obtain sensitive 
information. We do a lot of it.
    Mr. Rogers. Tell us about Mr. Artibelli.
    Mr. Morton. Mr. Artibelli was working on behalf of various 
international arms dealers to obtain sensitive U.S. weaponry 
for Iran. And there are a number of other cases just like his.
    We do more than 70 percent of these cases, and they involve 
a wide variety of countries trying to obtain our technology, in 
violation of the law, or our weaponry. And it is a serious 
problem. We are very focused on it.
    It takes a tremendous amount of sophisticated investigation 
and effort to do these. These people do not want to be caught; 
they do not want to come to the United States. They know what 
they are doing is wrong.
    I very much appreciate the support that we get from the 
committee in this. We could not do it without it.
    Mr. Rogers. Well, he pled guilty, did he not?
    Mr. Morton. He did, and he alternately cooperated.
    Mr. Rogers. He was, he acknowledged procuring electronic 
chips used in military aircraft? Phase shifters, state-of-the-
art devices that help guide missiles to their targets?
    Mr. Morton. Absolutely.
    Mr. Rogers. And various other things. That is pretty 
sensitive stuff.
    Mr. Morton. Very sensitive. This typically involves 
attempts, in the case of Iran, to obtain items to rehabilitate 
weaponry that they obtained from us many years ago, F-94s and 
F-5s, or radar installations. Nuclear materials is a constant 
concern for us. Sensitive metallurgy. There are a whole range 
of very, very sophisticated either material or technology that 
is produced here in the United States that people want to get 
for cheap and in violation of the law.
    Mr. Rogers. So these were your agents?
    Mr. Morton. Absolutely, yes, sir.
    Mr. Rogers. DOJ was with you, I am sure.
    Mr. Morton. In some instances, we will partner with the 
Federal Bureau of Investigations. In many instances, we do them 
by ourselves. And we also work with the Department of Commerce. 
We are the lead in about 70 percent of the cases. And we run 
the National Export Enforcement Coordination Center.
    Mr. Rogers. Let me ask you about this. On March 6 past, the 
New York Times reported that the federal government has awarded 
more than $107 billion in contract payments and other benefits 
over the past decade, to foreign and multinational American 
companies, American companies, while they were doing business 
in Iran. Including nearly $15 billion paid to companies that 
defied American sanctions, by making large investments that 
helped Iran develop its vast oil and gas reserves.
    What are we doing about that? These are tax dollars.
    Mr. Morton. I do not know the answer to that question. I am 
unfamiliar with that report. I need to get familiar with it. 
And so----
    [The information follows:]

    RESPONSE: ICE is the primary agency authorized and 
responsible for conducting investigations involving illegal 
transactions with Iran. The Counter-Proliferation 
Investigations (CPI) Unit at ICE Headquarters is tasked with 
coordinating and supporting investigations into violations of 
the Iranian Transactions Regulations (that implement the 
sanctions against Iran), the International Emergency Economic 
Powers Act, the Arms Export Control Act, and the Export 
Administration Act.
    If ICE learns that a United States multinational company is 
conducting business or facilitating the movement of money by 
means of Iran, ICE contacts the U.S. Department of Treasury, 
Office of Foreign Assets Control (OFAC), to query whether that 
company has obtained a license to conduct business with Iran. 
If ICE learns that a United States multinational company is 
doing business with Iran and that company has not received 
approval from OFAC, ICE initiates a criminal investigation into 
that company and all individuals involved in the transaction. 
This includes investigating the movement of money in support of 
any non-authorized transaction.
    ICE is familar with the New York times article ``Profiting 
From Iran, and the U.S.'' published March 12, 2010, wherein it 
was alleged that United States multinational companies are 
involved in illegal exports to Iran. The CPI unit at ICE 
headquarters has notified field offices of the allegations made 
in the New York Times article as well as the specific companies 
that were identified.
    ICE has a long history of successful investigations and 
prosecutions of individuals and companies that violate United 
States export laws, to include Iranian embargo violations. To 
combat the threat, ICE uses a multi-layered approach to include 
industry outreach visits to manufacturers, brokers, and sellers 
of sensitive and controlled United States technology and 
commodities. ICE's Project Shield America is an effective 
mechanism in which to solicit industry cooperation and support 
in protecting the United States from illicit procurement 
attempts by Iran. ICE has a very successful undercover 
operations program wherein agents communicate and meet with 
targets of investigation that are predisposed to violate United 
States export laws. CPI agents also work closely with other ICE 
agents stationed overseas to coordinate enforcement actions and 
share intelligence with foreign law enforcement partners. ICE's 
various investigative techniques combined with its unique 
border search authority have resulted in disrupting and 
dismantling numerous illicit proliferation networks 
asymmetrically from the potentially illicit United States 
source companies to the prohibited end user in Iran.

    Mr. Rogers. Well, it seems to me like it would be ICE's 
chore to stop our own government from awarding contracts to 
U.S. businesses in violation of the trade restrictions with 
Iran. Do you agree?
    Mr. Morton. If there is a violation of the law, absolutely.
    Mr. Rogers. I would like to know what you are doing about 
that. That is the March 6, 2010 edition of the New York Times. 
I have got a copy, would you not know.
    Thank you, Mr. Chairman. Thank you, Mr. Morton.
    Mr. Morton. Thank you, Mr. Rogers.
    Mr. Price. With that, we will bring this hearing to a 
conclusion, with thanks for your appearance and your testimony, 
and in anticipation of working with you as we write the 2011 
bill.
    Mr. Morton. Mr. Chairman, if I just may note, on a closing 
note, I very much appreciate these hearings. I offer again that 
I am more than willing to come and meet with any member of the 
Committee, including the leadership, on any of these issues. 
And please do not hesitate to call. I will personally come and 
brief you on what we are doing. And even if it is a concern you 
think we are not doing something right, well, tell us because I 
need to know that and work on it.
    Mr. Price. Thank you.
    Mr. Rogers. Thank you.
    Mr. Price. The Subcommittee is adjourned. 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                         Tuesday, March 16, 2010.  

                       CIS--FY2011 BUDGET HEARING

                                WITNESS

ALEJANDRO ``ALI'' MAYORKAS, DIRECTOR, U.S. CITIZENSHIP AND IMMIGRATION 
    SERVICES

               Opening Statement of Chairman David Price

    Mr. Price. The subcommittee will come to order.
    Good afternoon, everyone. This afternoon we are happy to 
welcome Director Ali Mayorkas to discuss the 2011 budget 
request for the United States Citizenship and Immigration 
Services, or CIS, in his first appearance before our 
Subcommittee. The Administration is requesting $386 million in 
discretionary appropriations for CIS, an increase of 72 percent 
over the 2010 enacted level. This large increase stands in 
contrast to many other programs at DHS, the budgets for which 
have been held virtually flat or even reduced in 2011.
    CIS operations are funded through a mix of discretionary 
appropriations and nonappropriated collections. The vast 
majority of CIS's resources come from the application fees 
collected when someone applies for an immigration benefit, 
which covers the cost of adjudicating the application and 
processing all of the necessary paperwork. While we expect CIS 
will continue to be largely fee-funded, if appears that ongoing 
fee shortfalls have contributed to policy decisions that shift 
more operational costs to the taxpayers and away from fees. We 
will need to discuss this approach in detail and, as we move 
toward marking up our bill, review the longer-term impacts of 
this proposal carefully.
    The most significant shift is a $207 million discretionary 
request for CIS to process asylum claims and refugee 
applications, an increase of $157 million over the 2010 
appropriation. Currently the cost of processing refugee and 
asylum applications is borne by other immigration applicants. 
The 2011 budget proposes fully shifting this cost to general 
revenue. While Congress started this transition in the 2010 
Appropriations Act by funding 3 months of taxpayer-financed 
processing, CIS has yet to discontinue the surcharge it imposes 
on other immigration applicants. So, Mr. Director, the 
conference report made it clear that CIS would not be allowed 
to double-dip and to charge immigration applicants and 
taxpayers for asylum and refugee processing. We want an update 
today on when the regulations will be published to discontinue 
the application surcharge.
    The 2011 budget also proposes a new discretionary 
appropriation of $34 million to fund Systematic Alien 
Verification for Entitlements, or SAVE. This program 
complements E-Verify and is used by State and local governments 
to validate people's immigration status when they apply for 
various State-administered benefits, such as driver's licenses, 
Medicaid enrollment, and food stamps or other welfare benefits.
    Currently the SAVE program is also financed through CIS's 
fee collections. Your proposal would shift the cost, again, to 
general revenues. There are going to be arguments on both sides 
of this proposal, so we are eager to understand in more detail 
the reasons you proposed a change such as this at this time.
    Discretionary funding for E-Verify itself is decreased in 
the 2011 budget. As explained in the budget justification, the 
higher-than-requested appropriation for E-Verify in 2010 as 
well as some nonrecurring investments planned in the current 
year will permit CIS to continue expanding E-Verify enrollment 
in 2011 with a lower level of funding.
    I am concerned, however, by the findings of a recent Westat 
study that revealed an inadequate level of compliance auditing 
and analysis designed to prevent fraudulent uses of E-Verify. 
In this Committee's report accompanying the fiscal year 2010 
House bill, we supported CIS plans to expand the monitoring and 
compliance staff to ensure E-verify is not used for employment 
discrimination or other prohibited purposes. Mr. Director, we 
will be interested to know where that initiative stands and how 
the 2011 request will adequately address these concerns.
    In 2011, CIS projects a decrease in expenditures from fee-
based revenue of $209 million, largely because of one-time 
expenditures and an anticipated decrease in applications. Even 
though application fees were raised substantially in July of 
2007, a surge of applications were filed just before the higher 
fees took effect. Since then CIS has seen its filing volumes 
drop and has spent down its sizable cash balances that were 
accumulated by virtue of that surge.
    The recent 2010 reprogramming that this Subcommittee 
approved does not leave the agency much of a financial cushion 
if lower filing volumes persist. Given the Federal budget 
deficit, it also seems unlikely Congress will be in a position 
to provide discretionary appropriations for CIS operations if 
processing times begin to lag.
    Although the most recent production report show the CIS 
application backlog all but eliminated, I am concerned that it 
might come back. So, Mr. Director, we need to talk frankly 
about the longer-term implications of lower fee projections and 
your outlook for CIS finances in 2011. I look forward to 
hearing your plans for avoiding any financial crisis that might 
threaten your agency.
    Given this wide range of topics we need to discuss, we will 
ask you to limit your introductory statement to 5 minutes. We 
will gladly put the full statement in the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Price. Before we hear from you, I recognize my friend 
and Ranking Member Hal Rogers for his opening remarks.

           Opening Statement of Ranking Member Harold Rogers

    Mr. Rogers. Welcome to Director Mayorkas in what marks your 
first appearance before the Subcommittee. While I know we are 
primarily here, Mr. Chairman, to discuss the fiscal 2011 budget 
request, I have to say this witness' personal story is perhaps 
one of the most compelling we have heard for someone 
responsible for overseeing our Nation's immigration service: 
the son of Cuban immigrants who fled Castro's Communist regime, 
an individual who worked his way up to become one of our 
Nation's youngest U.S. Attorneys, and a dedicated prosecutor 
who sought to uphold the law by aggressively tackling the most 
challenging cases on discrimination and violent crime. This 
story is a truly American one, and embodies what our 
immigration system ought to be about, integrity and 
opportunity.
    In fact, CIS's mission statement echoes this sentiment 
through the use of phrases like ``lawful immigration,'' ``legal 
right to work,'' ``civic integration,'' ``lawful presence in 
the U.S.,'' and ``strengthening the security and integrity of 
the immigration system.'' These are not just mere words. These 
are bedrock principles for the agency that facilitates the 
rights, responsibilities, privileges and obligations of 
citizenship and visitation to the U.S.
    I am quite sure that you, Director Mayorkas, subscribe to 
these principles because of your background and your legal 
experience, but as I look at how the Administration is 
approaching immigration, I am increasingly concerned.
    First, immigration enforcement appears to be grinding to a 
halt, and while this is an issue that is most appropriate to 
discuss with ICE, it speaks to larger concerns on how DHS is 
ensuring the integrity of our immigration system, as well as 
lawful employment.
    Secondly, at a time when revenue is barely meeting CIS's 
operating costs, the agency has yet to properly adjust its fees 
and is expanding the use of so-called reform in a claim of 
fairness to shift what have traditionally been fee-funded 
activities to activities supported by direct appropriations. 
What this means in real terms is that the Administration is 
shifting the cost of some immigration programs and benefits 
from applicants to the U.S. taxpayer.
    Third, recent reports have raised questions about E-
Verify's effectiveness, a program that Congress has robustly 
funded, and one that is absolutely vital to ensuring lawful 
employment and protecting American jobs.
    Finally, the pace of CIS's transformation initiative 
continues to be a concern. This Subcommittee has appropriated 
funds for aspects of transformation since 2004, but it is 
unclear exactly when CIS will reap some savings and 
efficiencies from moving to operations that are more automated 
and less dependent upon manpower and paper.
    These concerns are not trivial. Immigration is absolutely 
central to our Nation's security as well as to our economy. 
Look no further than the al Qaeda-led terrorist plots that 
occurred within the U.S. this past year. Both the Christmas Day 
attack and the Zazi plot involved individuals who exploited our 
legal immigration system to gain entry into our country in 
order to carry out their various plans.
    So as I have said many times before, a viable immigration 
system based upon legitimacy and the rule of law very much 
matters to our homeland security. Without enforcing our 
immigration processes and laws, the true contribution and value 
that immigrants bring to America cannot be fully realized.
    Director Mayorkas, I know you have a difficult job, but 
given your commendable journey from Cuba and your current seat, 
I am confident you share my interests in getting our 
immigration system right.
    So, thank you, Mr. Chairman. I look forward to the 
discussions.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Price. Director Mayorkas, please proceed.

                    Statement of Alejandro Mayorkas

    Mr. Mayorkas. Thank you very much, Chairman Price, 
Congressman Rogers, and other Members of the Subcommittee. 
Thank you very much for inviting me to appear before you today 
to testify about our budget request for fiscal year 2011 and 
several critical issues of interest to the Subcommittee and to 
our agency, U.S. Citizenship and Immigration Services.
    If I may, Congressman Rogers, thank you very much for your 
remarks about my personal history. I attribute whatever success 
I have achieved to the parenting I received. Regrettably, 
whatever shortcomings I have are my own responsibility.
    It is a privilege for me to be here today. On behalf our 
entire agency, thank you for your support of CIS and its 
programs. Increased funding this year will enable us to make 
further improvements to E-Verify, an important tool in ensuring 
a lawful workplace. A significant increase in immigrant 
integration funding will assist us as we build capacity across 
the Nation, integrate immigrants into our communities and build 
a stronger civic fabric.
    Providing funds to eliminate the asylum and refugee 
surcharge will help us strengthen the alignment between our 
fees and the costs of these applications and petitions. These 
are just a few examples of program improvements that your 
continued support make possible.
    While our budget request for fiscal year 2011 is consistent 
with your recent past actions on our funding, I appreciate and 
understand the constraints you are facing in this difficult 
budget environment.
    Our agency faces several operational and management 
challenges. Our challenges, however, present opportunities. To 
enhance our national security and the integrity of our 
immigration system, we have established a new directorate 
devoted exclusively to fraud detection and national security, 
and to develop improved safeguards and security measures in our 
operations.
    A decline in revenue underscores the importance of 
developing new and greater efficiencies. This is acutely 
significant for us as an agency funded primarily by applicant 
and petitioner fees. Inherent challenges in our immigration 
system have led us to improve operational transparency, begin 
initiatives to create consistency and predictability in agency 
actions, strengthen community outreach and improve customer 
service functions.
    Our outdated information technology infrastructure has led 
us to reassess how we operate so that we can move more quickly 
from a paper-based workplace to one that is account-centric and 
more reliant on electronic information.
    Challenges indeed present opportunities, and these 
opportunities in the hands of the men and women of the U.S. 
Citizenship and Immigration Services will mean a stronger and 
brighter future for our agency and for the public we serve. 
There can be no stronger recent example of this than the 
dedication and skill our personnel exhibited in the tragic wake 
of the January 12th earthquake in Haiti. Working tirelessly and 
selflessly day and night, our workforce brought hundreds of 
Haitian orphans to safety and humanitarian relief to thousands 
of Haitian nationals in our country who could not return safely 
to their homeland. What we have done since January 12th and 
what we continue to do is a shining example of our abilities 
and our potential.
    Each and every day around this great Nation, our agency 
celebrates the naturalization of immigrants who have come to 
this country with the hope of a better life, and who have 
earned the gift of citizenship, just as I did in 1973. We host 
these ceremonies on workdays and on special days such as those 
commemorating our Nation's independence. Gaining the rights and 
assuming the responsibilities of United States citizenship is a 
privilege that we are proud to administer.
    We are thankful and proud of your support. Your demands and 
expectations help define our goals and aspirations. I am 
privileged to be before you today, and I look forward to 
working with you and to answering your questions as best I can.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      ASYLUM AND REFUGEE FEE RULE

    Mr. Price. We will now begin with some questions. I will 
begin with a question with several parts about CIS financing, 
some of the concerns I telegraphed in my opening statement.
    We have not yet heard from your agency about how or when 
the application surcharges for asylum and refugee processing 
will be discontinued. There is widespread agreement that they 
should be discontinued. We appropriated $50 million for this 
activity in 2010, but it remains unavailable for expenditure 
until a regulatory update is published. The 2011 request 
assumed that the surcharge will be discontinued since the 
budget includes $200 million for a full year's worth of asylum 
and refugee application processing.
    So as we look toward 2011 and the kind of money that is 
going to be required, we need to know when you plan to publish 
the regulatory update to discontinue the refugee and asylum 
processing surcharge. And given the fact that we are nearly 
halfway through the fiscal year, we wonder, are you sure you 
can do this? Are you concerned you may not be able to spend the 
entire $50 million appropriated in 2010 that was designed for 3 
months of asylum and refugee processing? In other words, the 
2010 appropriation assumed that the new regulations would be in 
place for the last quarter of the current fiscal year.
    Mr. Mayorkas. Thank you very much, Mr. Chairman. We are 
grateful for the $50 million that was allocated in the Fiscal 
Year 2010 budget.
    Our draft fee rule, is indeed in the clearance process. We 
are very mindful of the timing requirement to make those funds 
available this year, both in terms of their availability and 
our ability to spend the resources that this Committee 
appropriated to us. So that fee rule is in the clearance 
process, and we anticipate our successful deployment of it 
within the time frame that this committee set for us.
    The request for a greater appropriated amount to fully 
cover the fees imposed on other fee-paying applicants and 
beneficiaries for the costs of servicing asylee and refugee 
applications is something that we believe allows us to better 
align the fee-for-services model that our agency's financial 
condition is premised upon.
    We do believe it is incumbent upon us to serve that model 
by relieving paying applicants and petitioners of the burden of 
paying for services that they do not receive.
    Mr. Price. Mainly the services rendered asylees and 
refugees?
    Mr. Mayorkas. Yes, who are the most ill-equipped to pay, 
given their circumstances.
    Mr. Price. So the idea is to eliminate that surcharge which 
other immigrants have paid.
    Mr. Mayorkas. Yes, Mr. Chairman.
    Mr. Price. And to make their fees commensurate with the 
actual services they themselves are actually receiving.
    Mr. Mayorkas. Yes, to truly align the fee-for-services 
model.
    Mr. Price. Your projection is you will be able to implement 
this system in the last quarter of the current fiscal year?
    Mr. Mayorkas. It is, Chairman.

            USING GENERAL REVENUE TO FINANCE CIS OPERATIONS

    Mr. Price. Good. Well, we will await that eventuality, 
because we hope it will be done this year, and therefore we 
will be in a position next year to implement this fully.
    I would also like to hear your thoughts about how much of 
the CIS budget should eventually be funded by tax revenues. 
Under current law you receive most of your operations by 
charging fees to immigration applicants. The 2010 Appropriation 
Act started shifting the cost burden for asylum and refugee 
processing to taxpayers, as we have been discussing. The 2011 
budget proposes another proposal to fund another CIS program 
through appropriations, namely the Systematic Alien 
Verification for Entitlements program, or the SAVE program.
    To determine benefits applicants' immigration status, State 
and local agencies currently pay fees that fund the cost to 
administer the SAVE program. Although these fees don't cover 
the full cost of SAVE, if users no longer have to pay to use 
SAVE, should we expect an increase in usage? Does this budget 
account for this potential outcome by investing in a greater 
capacity for SAVE?
    Mr. Mayorkas. Mr. Chairman, the amounts that we requested 
from this committee by way of appropriation (most notably that 
one that you already have referenced, the effort to relieve 
fee-paying applicants and beneficiaries of the surcharge for 
refugees and asylees, and now the second one, the effort to 
relieve fee-paying applicants and beneficiaries of the cost of 
the SAVE program) do not reflect an administration effort to 
move from the fee-for-services model but rather to align our 
agency's budget with the principles of that fee-for-services 
model, which is that the fee-paying applicant or beneficiary 
pays a fee commensurate with the cost to our agency of 
providing the service to that individual petitioner or 
beneficiary.
    So the cost of the SAVE program, what we are seeking to do 
with the appropriation, is, in fact, to relieve the fee-paying 
petitioner and beneficiary of supplementing the funding for 
that service when they do not necessarily receive the benefit 
of it.
    Mr. Price. Let me make sure I understand this. The State 
and local agencies that are using this service do currently pay 
a fee.
    Mr. Mayorkas. Yes, they do.
    Mr. Price. But the fee doesn't cover the cost totally of 
the SAVE program.
    Mr. Mayorkas. That is correct.
    Mr. Price. All right. And so the rest of the cost is picked 
up how?
    Mr. Mayorkas. The rest of the cost is picked up by the fees 
paid by applicants and beneficiaries who do not avail 
themselves of the SAVE program. Therefore, we are seeking to 
relieve them of essentially that surcharge and to better align 
that fee that individuals pay with the services that they 
directly receive.
    Mr. Price. And what will the situation of the direct users 
of the SAVE program be? Will they still pay a fee that 
partially covers the cost?
    Mr. Mayorkas. No, Mr. Chairman. The appropriation that we 
have requested would relieve state, local and municipality 
organizations from paying the fee. Currently they cover, I 
think, approximately 25 percent of the cost of the SAVE 
program.
    Mr. Price. That is what I thought. That is why I asked, do 
you anticipate this would discourage use?
    Mr. Mayorkas. Actually our desire is to promote use, and it 
is intended to be an obligatory use of the SAVE program for the 
obvious security and antifraud benefits that participants 
realize.
    Mr. Price. So you expect a possible increase in use by the 
virtue of the absence of any fee whatsoever?
    Mr. Mayorkas. Yes, Chairman.
    Mr. Price. What about the broader question? How much of the 
CIS operating budget do you think ought to be funded by fees? 
You have articulated a general principle here, although the 
conclusion you have reached with respect to SAVE doesn't seem 
totally consistent with that in that you are removing any fees 
whatsoever from the users of that program.
    Mr. Mayorkas. From the federal, state, local and municipal 
organizations, yes, we are. Chairman, I am 7 months into my 
tenure. I have focused primarily on the operational issues and 
challenges that our agency confronts. I have not spent a great 
deal of time trying to determine whether reformulation of our 
funding model is appropriate or not. That is something that I 
have given some thought and have begun to study.
    But my focus has been, to date, on seeking the funds that 
our agency needs and ensuring that our fraud detection and 
national security functions are operational, that our customer 
service obligations and responsibilities are met fully for the 
benefit of the public that we serve and that our critical 
current responsibilities are met. Refashioning the way we as an 
agency are funded is something that I have not yet focused 
upon.
    Mr. Price. Mr. Rogers.

                                E-VERIFY

    Mr. Rogers. Thank you, Mr. Chairman.
    Let me talk to you about E-Verify. At last year's hearing, 
we discussed how the inaccuracy claims against E-Verify were 
simply unfounded. But then the Wall Street Journal came out 
with an article about a month ago that said that E-Verify might 
be failing to detect one out of two illegal workers whose 
employment authorizations are screened, outside consultants 
have told the agency. Tens of thousands of companies--I am 
quoting from the story--participate in E-Verify, either 
voluntarily or as a condition of doing business with the 
government.
    The Department hired Westat, a consulting firm, to study 
the program and tell us whether or not the information that E-
Verify has is accurate or not, and the report came back in 
essence saying that E-Verify is only as good as the data 
entered into it. In other words, E-Verify is, in fact, accurate 
at confirming the data it is presented, but it can't confirm 
whether that data belongs to the worker who is submitting it.
    Is that an accurate statement that I made?
    Mr. Mayorkas. Congressman, if I can address the E-Verify 
topic as a whole.
    The past criticism lodged against E-Verify was that E-
Verify failed to authorize immediately potential employees who, 
in fact, were authorized to work in the United States. The 
Westat report, based on data in 2008, concluded that for 
authorized employees, E-Verify's accuracy rate is more than 99 
percent. So, no longer is E-Verify the subject of criticism in 
that realm.
    Westat then turned to a different community of potential 
employees, and that was the community of individuals who are, 
unauthorized. Putting aside for a moment the standard deviation 
and the potential shortcomings in the statistical model, Westat 
concluded that approximately 6.2 percent of the employees 
running through the E-Verify system were, in fact, unauthorized 
to work in the United States.
    I think one thing is very important to note about that. E-
Verify, the use of E-Verify by the employer serves as a 
tremendous deterrent to the unauthorized worker seeking to gain 
employment for which that unauthorized worker is not entitled. 
6.2 percent is a small percentage of the entire potential 
workforce that runs through E-Verify. And what the Westat 
report concluded is that, of that 6.2 percent, E-Verify failed 
to identify 54 percent of the workers who were unauthorized.
    So, 54 percent of a 6.2 percent subset of employees or 
potential employees runs through E-Verify, and, therefore, a 
much, much smaller number than the article or the Westat study, 
out of context, would imply. The 54 percent is only the 
numerator in the number. The denominator is 6.2 percent of the 
entire workforce.
    We are very proud of the fact that E-Verify continues to 
improve and has, in fact, implemented a series of improvements 
since the Westat data were collected in 2008. We have 
implemented the use of a photo tool to use the DHS photo 
database to better detect identity fraud. We will be accessing 
the Department of State's portfolio of photographs to further 
supplement that effort. We intend to deploy 11,000 compliance 
actions in our enhanced monitoring and compliance efforts to 
detect employers who are misusing the system.
    We have a number of improvements already in place and 
planned, so we are actually very proud of the success of E-
Verify. I will tell you that as a federal prosecutor who 
prosecuted identity fraud cases, they are sometimes very 
difficult to detect before the offense is committed. E-Verify 
is but one tool in our portfolio of measures to address 
identity fraud.
    Mr. Rogers. So when this newspaper story says, ``An 
evaluation of E-Verify carried out for DHS by research group 
Westat found the program couldn't confirm whether information 
workers were presenting was their own, and as a result many 
unauthorized employees obtained employment by committing 
identity fraud that cannot be detected by E-Verify,'' that 
allegation in the story is incorrect?
    Mr. Mayorkas. I think that the story accurately 
communicates the fact that the E-Verify program is, indeed, not 
100 percent able to detect identity fraud and that it does 
detect identity fraud slightly less than half the time.
    We have, as I mentioned, Congressman, implemented measures 
to improve that ratio of success. We have additional measures 
planned to further improve it, and other tools are at the 
government's disposal to address the offense when E-Verify 
falls short.
    Mr. Rogers. I am glad to hear that. It is a terribly 
important tool, because if we have a reasonably accurate 
database where prospective employers can screen an applicant 
for a job to find out whether or not they are authorized to 
work in the U.S., that then clears the way--if the employer, in 
fact, hires an illegal alien, it clears the way for us to 
prosecute the employer. So it is a terribly important program, 
one that I feel strongly about and support fully.
    We gave you $25 million, an additional $25 million, this 
year for E-Verify to enhance the system and to ensure it is 
capable to process the Federal contractor requirement, among 
others. Do you need more money, or is that enough?
    Mr. Mayorkas. We have sought an appropriation for Fiscal 
Year 2011, Congressman, that is less than the amount that we 
sought for the Fiscal Year 2010 appropriation. The 2010 
appropriation provided 2-year money. We have some carryover 
money. We are very proud of the improvements we already have 
implemented, and we have future plans for improvement of E-
Verify.
    Mr. Rogers. Tell us how many participants you have now, 
employers.
    Mr. Mayorkas. I have those data, if I may have a moment.
    Mr. Rogers. Well, the newspaper story says close to 30,000. 
Is that reasonably accurate?
    Mr. Mayorkas. I am sorry, Congressman?
    Mr. Rogers. Close to 30,000.
    Mr. Mayorkas. We have, I believe, more than that, 
Congressman. I have that information.
    Ms. Ratliff. We have the most recent information from this 
morning, if I may hand it to him, the most recent statistics.
    Mr. Mayorkas. We have 700,000 work sites that currently 
employ the E-Verify system or benefit from it.
    Mr. Rogers. Seven hundred thousand work sites. Do you know 
the number of employers, or is that the number?
    Mr. Mayorkas. One hundred ninety-two thousand one hundred 
eight is the most recent figure.
    Mr. Rogers. The number of employers. That is a rapid 
growth; is it not?
    Mr. Mayorkas. The employers, yes. We continue to receive 
approximately 1,400 new participating employers per week in the 
E-Verify system.
    Mr. Calvert. Would the gentleman yield for a second on that 
point?
    I thought you were growing the system by approximately 
1,000 employees a month. You are saying you are growing the 
system by 1,000 employers a month. You are right. So how many 
employees does that equate to?
    Mr. Mayorkas. Congressman, we are actually increasing the 
program by more than 1,000 employers.
    Mr. Calvert. Thanks for that clarification; 1,000 employers 
per week.
    Mr. Mayorkas. Per week.
    Mr. Calvert. And how many employees does that equate to?
    Mr. Mayorkas. Approximately 6 million so far this year.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Price. Mr. Farr.
    Mr. Farr. Just a follow-up question on that. Your testimony 
indicates you are about 96 percent accuracy with E-Verify?
    Mr. Mayorkas. The Westat report reported an accuracy rate 
of 96 percent.
    Mr. Farr. What does 4 percent represent in total number of 
people? You say you have about 6 million?
    Mr. Mayorkas. We have run through approximately 6 million 
thus far this year.
    Mr. Farr. The point is even 4 percent, that is a lot of 
people, if it is screwing up on one thing or another.
    Mr. Mayorkas. If I divide that number a little more 
surgically, Congressman, I think your question is a fair one. 
The accuracy rate of E-Verify is 96 percent overall. That 
speaks to both the authorized workforce and the unauthorized 
workforce as identified numerically by Westat.
    With respect to the authorized workforce, E-Verify's 
accuracy rate is just more than 99 percent, which means that E-
Verify accurately identifies a potential employee as work-
authorized when, in fact, that potential employee is work-
authorized more than 99 percent of the time.
    The success rate is reduced slightly when one takes into 
consideration the unauthorized workforce and E-Verify's ability 
to detect, because of identity fraud, the unauthorized 
workforce. And as Congressman Rogers correctly noted, the 
success rate of E-Verify in that arena is not as high.

                      APPLICATION PROCESSING TIMES

    Mr. Farr. By the way, I want to thank you for what you all 
have done in Haiti. I think it is remarkable, and I appreciate 
it. That was great. Please pass our compliments to all of your 
staffers that worked so hard.
    My staff brings up processing times. We get a lot of 
casework, and it is processing, and you have made some great 
improvements. What are those standards? You indicate you have 
greatly improved on the standards and the times. What are the 
present standards for processing?
    Mr. Mayorkas. Well, we had goals that we set for ourselves 
as an agency, Congressman, and I think the best example of our 
success in meeting those goals is with respect to the critical 
N-400 application, which is the application for naturalization.
    Mr. Farr. It takes how long?
    Mr. Mayorkas. Our processing times used to be more than 10 
months for an application, and it is currently just more than 4 
months. So we are very proud of that improvement, and I think 
that improvement is characteristic of the progress we have made 
in our processing times across the board.
    Mr. Farr. There was a cabdriver the other day coming in 
from Dulles airport that said he just sent his old immigration 
card to get the new one. They screwed up on his name, and it 
was not his fault because his name was on the application. So 
they are waiving the fee, just told him they put it in the 
mail. But they told him it would take I don't know how many 
months just to get his name corrected and get the card back to 
him. Is that typical, due to an error like that?
    Mr. Mayorkas. No, it isn't, and I, of course, can't speak 
to that particular case, Congressman. But I think it is fair to 
compliment our agency with respect to our agency's work in 
Haiti. I think, knowing what I know from the brief 7 months 
that I have been here, I would like to expand that compliment 
to all the work that the men and women in our agency perform. 
That is not to say that, from time to time, we don't make 
mistakes. Lord knows I outnumber anyone in our agency with 
respect to that. But the improvement in the processing times we 
have achieved, I think, is a hallmark.

                      OFFICE OF PUBLIC ENGAGEMENT

    Mr. Farr. It has certainly gotten a lot better, there is no 
doubt about it. But if you are one of those individuals that 
gets caught up where it doesn't go fast, it is still 
problematic.
    You have a new Office of Public Engagement. How is that 
outreach? Who do you outreach to? Who are considered your 
external partners? You mentioned in your testimony, but I don't 
know what external partners are. Are those contractors, or what 
are they? Are they Congress or our staffs? Who are they?
    Mr. Mayorkas. Congressman, we stood up the Office of Public 
Engagement on the following very basic principles: That we are 
a public service agency and that we deal with the fundamental 
rights of individuals who seek a place in this country.
    Mr. Farr. I know that. But the question is who are your 
external partners, as you used that word in your testimony?
    Mr. Mayorkas. Our external partners or stakeholders, 
Congressman, are the general public, the advocacy community 
that represents the immigrants who come before us, the law 
enforcement community that is concerned about the integrity of 
our system, individuals who have an interest in the proper 
functioning of the immigration system regardless of the views 
that they might hold with respect to that system. Our external 
stakeholders include the applicants and beneficiaries, 
individuals that represent them, and the broader public, of 
course.
    Mr. Price. The gentleman's time has expired.
    Mr. Calvert.

                         E-VERIFY IMPROVEMENTS

    Mr. Calvert. Thank you, Mr. Chairman.
    Going back to E-Verify just for a moment, I am the original 
author of the legislation from back in 1996, and I know 
significant improvements have taken place over the years. But 
getting back to this issue of identity fraud, can you verify 
exactly what you are doing to allow employees to lock in their 
Social Security numbers; in other words, where we prevent or 
certainly cut down on the number of times that people can 
continually, repeatedly use the same Social Security number?
    Mr. Mayorkas. Yes, Congressman. Thank you very much. That 
is a very important tool that we are utilizing to help ensure 
that a Social Security number is not misused. An employee has 
the ability to, once that employee begins the term of 
employment, lock in the Social Security number, so that anyone 
else who seeks to use that Social Security number again in a 
case of attempted identity fraud would be prevented from doing 
so.
    Our work, the E-Verify program, is a collaborative effort 
between U.S. Citizenship and Immigration Services and our 
partner, the Social Security Administration.
    Mr. Calvert. How is that coming along?
    Mr. Mayorkas. Very successfully. We are always looking for 
further improvements, given, I think, what Congressman Rogers 
has correctly identified as the threat to the integrity of the 
system, and that is those who seek to fraudulently use a false 
identity to gain employment.
    Mr. Calvert. As you know, there have been a number of 
critics over the years that claim that people authorized to 
work in the United States are being denied jobs. Has anyone 
ever sued the Department for losing a job over E-Verify?
    Mr. Mayorkas. Not that we are aware of, Congressman.
    Mr. Calvert. Can you kind of review what the process is for 
individuals who receive a tentative nonconfirmation?
    Mr. Mayorkas. Congressman, what happens is if an individual 
receives a tentative nonconfirmation (and that is after they 
have begun the period of employment), they have 10 federal 
business days within which to obtain the records necessary to 
establish their authorization.
    It is interesting that if E-Verify issues a tentative 
nonconfirmation and, at the end of the 10 federal business day 
period, the employee is able to establish work authorization, 
that is determined to be an error on the part of the E-Verify 
system. And I think that terminology is actually misplaced 
because the tentative nonconfirmation may, in fact, be 
predicated upon the Social Security Administration records that 
are in place with respect to that potential employee.
    So, for example, a wife who has recently married and who 
has not updated her Social Security record may receive a 
tentative nonconfirmation, may utilize the 10-day period within 
which to correct the Social Security number.
    Mr. Calvert. Wouldn't you agree it would be better for 
individuals to be notified of an inaccuracy of their 
information sooner rather than later? It needs to get 
straightened out at some point.
    Mr. Mayorkas. Yes, and we are actually working on a program 
to equip the potential employee with the ability to determine 
the accuracy of the Social Security records before seeking 
employment.
    Mr. Calvert. By the way, back to tentative nonconfirmation, 
what is the most common reason for someone to receive a 
tentative nonconfirmation?
    Mr. Mayorkas. A marriage, Congressman.

                  ALIGNING CIS FEES WITH BENEFICIARIES

    Mr. Calvert. Let me see. One other issue that the Chairman 
brought up, these processing fees for visas and green cards. 
Just to clarify that, there is apparently some interest in 
increasing appropriation to cover the increased costs. But 
don't you think that is improper, to shift that cost to the 
U.S. taxpayer? Shouldn't we just increase the fees relative to 
the actual administrative costs of these processing fees?
    Mr. Mayorkas. Congressman, are you referring to the refugee 
and asylee population?
    Mr. Calvert. I am talking about fees for visas, for green 
cards, the normal processing fees that are going on at the 
present time. I understand that you are only collecting a 
portion of those costs, actual costs and fees, and that there 
is some discussion about increasing the appropriation to cover 
the differential.
    Mr. Mayorkas. The three things, Congressman, in our budget 
request for Fiscal Year 2011 for which we are seeking a greater 
appropriation--actually, I am sorry, efforts to better align 
the requested fees with the costs of providing the service to 
the individual paying the fee are to relieve the fee-paying 
petitioners' and surcharge applicants' relief from the cost of 
the adjudication and processing of asylum and refugee 
applications; the SAVE program, to which the Chairman referred; 
and the funding for the Office of Citizenship and the Immigrant 
Integration Program. I am very happy to comment that, if you so 
wish.
    Mr. Calvert. Are you saying there is not cost shifting 
going on as far as the difference between the actual fee and 
the appropriation?
    Mr. Mayorkas. Not beyond those that I identified, unless I 
am in error.
    Mr. Calvert. So if someone applies for a green card, for 
instance, and the fee is X, that is the actual cost to the 
Department for processing that green card?
    Mr. Mayorkas. That is the way our cost model works.
    Mr. Mayorkas. If I may, keeping in mind that currently 
there is a surcharge for asylees and refugees of which we are 
trying to relieve that fee-paying applicant or beneficiary.
    Mr. Calvert. Thank you.
    Mr. Price. Thank you.
    Ms. Roybal-Allard.

                             CIS FEE MODEL

    Ms. Roybal-Allard. Welcome, Mr. Mayorkas. I want to go back 
to the question of fees, not the appropriated fees for the 
refugees, because it is my understanding that the fees that are 
paid by immigrants for green cards and visas cover far more 
than just the cost of processing their application; that, in 
fact, your agency's entire infrastructure, including this new 
electronic system, is supported by these revenues. Is that 
correct? Because my understanding is that what happens is that 
that is one of the reasons that the fees continue to rise, and, 
unfortunately, in some cases they rise to the point where 
residents can't--a legal permanent resident can't afford the 
fees and often have to forgo their dream of American 
citizenship.
    So I want to differentiate between what I am talking about 
and what I think the question had to do with, with the 
appropriated money for the refugees and the asylum seekers. So 
could you explain that difference? And also what are the 
challenges? If, in fact, your fees that are charged to 
immigrants actually cover more than the costs, and your 
operation depends on those fees, what are the challenges that 
you face as you have to respond to the changing workloads and 
the unpredictability of your budget?
    Mr. Mayorkas. Thank you very much, Congresswoman.
    If I can preliminarily comment on, in the course of our 
public engagement, something to which Congressman Farr 
referred, we have heard loud and clear from the community we 
serve a concern that, if indeed the price of naturalization 
would increase, in this economy, the ability to become a 
citizen might be rendered inaccessible. We have heard that from 
stakeholders with whom we have spoken in our engagement 
process.
    When we talk about a fee-for-services model and a 
particular petitioner or applicant having to pay a fee for the 
cost of processing that individual petitioner's or applicant's 
benefit request, we take into account the overhead of the 
agency--the cost to us of operating as an agency. That is part 
of the costs that figure into the fee-for-services model that 
substantiate the fee rules that we publish and for which we 
seek appropriations.
    So, it is not just the individual cost of taking in that 
particular application by a single person. It is the cost of 
taking in that application; paying the person, of course, pro 
rata but paying what it costs us to employ the person who takes 
the application; keeping the lights on; keeping the facility 
open and the like. It is all of the costs of running our 
organization, and we deploy a formula when trying to determine 
how much each particular benefit costs us to administer, taking 
into account all of our operational costs.
    Ms. Roybal-Allard. What challenges do you face when there 
is a fluctuation in the number of applicants, particularly when 
you have less applicants than anticipated? I am trying to 
understand the challenges that you face as a result of not 
having a certain appropriated amount of money for your 
operating costs, in addition to just the cost of processing the 
application.
    Mr. Mayorkas. It is the very challenge that we are 
confronting now. We have considerable fixed costs. We have 86 
field offices throughout the country, for example, not 
including our four very large service centers across the 
Nation, not to mention our international footprint. We have 
very significant fixed costs.
    Perhaps as a function of the downturn in the economy, but 
for the past 2 years (Fiscal Year 2009 and now in Fiscal Year 
2010), the number of applications that we are receiving from 
fee-paying customers has been persistently below forecasts of 2 
years ago. Therefore, on the basis of our fee-for-services 
model, we do not have the revenue sufficient to continue our 
operations as they existed prior to the decline. We have to 
make adjustments as a result.
    One of the things we have done, and as I think fiscal 
responsibility would dictate, was to turn internally within our 
agency and try to develop greater efficiencies and make cuts 
wherever they can be made so that we essentially right-size, if 
you will, to the extent we can, taking into consideration our 
fixed costs. And we have already in place $160 million in cuts. 
But it leaves us in a very difficult position when the number 
of applications drop. Our ability to fund our operations is 
challenged.
    Ms. Roybal-Allard. Then if they suddenly increase in a 
certain year, how long then does it take you to gear up to 
address this influx? In other words, we are here asking how 
efficient are you operating; are you doing what needs to be 
done in terms of E-Verify and all of your programs? And what I 
am hearing, or as I understand, given the way that you receive, 
the model under which you operate, really jeopardizes your 
ability to plan ahead, to keep that same level of efficiency 
going, because it is dependent on how many people are applying 
in any given year.
    Mr. Mayorkas. I think if I may, Congresswoman, there are 
two questions there. One is: Can we be as efficient as we 
should be in a time of economic challenge? And that we can be. 
Can we be prepared for any future increases in application 
numbers? Of course. It depends on quantities and degrees. But 
if, for example, we were to see in the coming months a 
tremendous increase in volume, we would want to develop a 
greater infrastructure capacity, we would want to achieve a 
greater level of hiring and we would not have the funds at our 
ready disposal. So the funds would have to precede our ability 
to intake and process.
    Ms. Roybal-Allard. If you had actually an appropriated 
amount for your overall operation that you could depend on.
    Mr. Mayorkas. Well, appropriations----
    Mr. Price. Go ahead. Please finish.
    Mr. Mayorkas. Well, appropriated amounts are not 
necessarily inflexible or lacking fluidity. So----
    Ms. Roybal-Allard. I am just trying to help you out.
    Mr. Mayorkas. I know. It is something we are studying.

           EFFECT OF FLUCTUATING FILING VOLUMES ON OPERATIONS

    Mr. Price. Our colleague surely has a good point, though, 
that your agency is faced with considerable fluctuations in 
workload by virtue of how applications wax and wane, but in 
your case, the inflow of cash is also determined by that same 
waxing and waning. And as much as our appropriations sometimes 
fluctuate from year to year, this is a particularly variable 
source of income, and that phenomenon lies behind a lot of the 
questions I was raising earlier as well.
    When the fee increases were announced in 2007, you had this 
surge, kind of an artificial surge, if you will, of 
applications. At the start of fiscal 2009, you had a cash 
balance of approximately $900 million. At the start of 2010, 
your cash balance was $700 million. Based on estimates from 
2010, that balance may be down to $400 million by the start of 
2011. And you have applications in 2009 12 percent below 
projected receipt levels. So while your workload is going down 
some, your cash balance is going down even faster.
    You have given Ms. Roybal-Allard a partial answer here 
about your expectations for the future. I wonder if you expect 
to continue to see lower-than-projected application filing 
volumes this year and next. Then, of course, there is the 
question that she raised with you, if the application volumes 
and the associated fees fail to materialize at projected 
levels, what do you do about it? What plans do you have for 
maintaining CIS operations at the performance levels you 
promised?
    Mr. Mayorkas. Thank you, Mr. Chairman. By answering your 
question, I am going to sneak in a supplement, if I may, to 
Congresswoman Roybal-Allard's question.
    The model in place now certainly doesn't leave us as a very 
nimble agency to address the fluidity in the volume of 
applications that we receive and especially to prepare for 
anticipated increases. But we are not forecasting an upswing 
right now in the number of applications. Our efficiency review, 
our spending plans, the way we are looking to make cuts, as 
needed, are in anticipation of the trend continuing as it has 
over the past 12 months or so.
    As I mentioned, Mr. Chairman, we have in place already $160 
million in cuts. We have not filled vacancies and full-time 
equivalents. We have ended quite a number of contractor 
positions. And that fiscal responsibility, that internal 
review, is an ongoing one. We are very mindful of the fact that 
we are trying to make whatever cuts are prudent and of our 
responsibility to incur the cuts without adversely impacting 
the service we provide to our customers.
    We are very proud of the reduction in processing times we 
have achieved over the past 2 years, and we intend to continue 
that high level of service while gaining greater efficiencies.
    Mr. Price. Well, I am well aware, as we all are, that were 
we to move away from a fee-based system with your agency, the 
price to pay in regular appropriations could be substantial. So 
the principle that you articulated early on in this hearing, 
that of the fees levied should basically cover the costs of 
services rendered, seems like a sound principle, and it 
certainly helps us deal with the refugee and the asylee case. I 
don't think you have applied it precisely to the SAVE case, but 
we see what you are getting at.
    I do think Ms. Roybal-Allard has raised a set of 
interesting questions, though, about just how much overhead are 
you including in that, and what does it mean for a fee to cover 
the cost of processing and application, and just how widely do 
you range in counting those cost, in figuring what contributes 
to those costs?
    Thank you. This does help clarify the situation you may 
face with respect to the waxing and waning of revenues and the 
kind of contingency plans that might be necessary.
    Mr. Rogers.

                    BUSINESS TRANSFORMATION PROGRAM

    Mr. Rogers. Since 2004, we appropriated about $153 million 
for IT modernization and your transformation effort, which is 
intended to transform the agency from a manpower and 
papercentric operation to a digital enterprise, and in 
addition, $585 million was given since 2004 for employment 
verification systems, including E-Verify, which are fundamental 
to your mission.
    But then last year the Department's Acquisition Review 
Board required you to stop work on that transformation contract 
with IBM to facilitate a modification and resequencing of the 
contract. And that action, as I understand it, put in place 
then short-term milestones which are intended to prevent major 
cost and schedule overruns since each term is based upon 
accomplishment of previous milestones.
    Did I say that right? And where are you on the 
transformation?
    Mr. Mayorkas. Congressman, your focus on transformation is 
very important to us. That is an initiative that speaks to the 
future of this agency and the effort to move this agency into 
an account-centric electronic environment for the benefit of 
those who file petitions and applications, as well as the 
benefit of our Nation's security and the integrity of the 
immigration system that we administer.
    Indeed, the Department did impose a benchmark process. I 
should note that I am getting further and further personally 
involved in the transformation effort, given its importance to 
our agency as well as its cost. What we are doing now, 
Congressman, is we are essentially laying out a blueprint for 
the implementation or the rollout of the transformation effort.
    We have studied the transformative efforts of other Federal 
agencies. We have taken a lessons-learned approach. We are 
sharing data with other government agencies, both within the 
Department of Homeland Security and in other departments, to 
ensure that the transformed environment, if you will, is an 
integrated one across the government and our systems are 
compatible and to understand the needs and our demands of the 
agencies with which we do business on a regular basis.
    We are engaged in extensive outreach in the community, and 
I say that in the broadest sense, the broadest definition of 
community, to understand what our external partners require and 
what they need from us. We are developing a plan, and we hope 
to implement our first rollout in the resequenced environment 
in 2011.
    Mr. Rogers. Well, I have seen the acres of files, and there 
are literally acres. One file on one person might be that 
thick. And there is some inquiry from some agency, and somebody 
has to flip through that entire file, maybe it takes 30 minutes 
or an hour or more, whereas if it were digitized, it would be 
available instantaneously. So it is very important with the 
kind of paperwork that you are having to deal with that that 
transformation take place expeditiously.
    I wonder, is this new sequencing, or whatever you call it, 
milestone accomplished process, is that going to drag out the 
completion of the transformation process all told?
    Mr. Mayorkas. No, it won't, Congressman. It actually 
accelerates the rollout. Our goal is to implement the 
electronic environment for the nonimmigrant class in 2011, and 
our goal remains the same, that by 2013 our agency will have 
been transformed.
    Mr. Rogers. 2013.
    Mr. Mayorkas. 2013.
    Mr. Rogers. Any way to speed that up?
    Mr. Mayorkas. I have asked that very same question. It is a 
question that not only I ask, but we ask ourselves on a daily 
basis. Given the inefficiency to which you refer, or I should 
say the system that is currently in place, that is certainly 
not optimal. The digitized environment and the ability to 
access electronic records and share information and access 
information is of critical importance to our agency and to our 
improvement.
    Mr. Rogers. I know you have asked yourself, and I ask you, 
too. You may have answered yourself; you didn't answer me. Is 
there a way to speed it up?
    Mr. Mayorkas. We want to get it right.
    Mr. Rogers. Is there a way to speed it up?
    Mr. Mayorkas. We are doing everything possible.
    Mr. Rogers. Is there a way to speed it up?
    Mr. Mayorkas. Not that I am aware of yet, Congressman.
    Mr. Price. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman.
    I am excited that you are putting a lot of this on your Web 
site. The question is what happens to those people who don't 
have computers in their house?
    Mr. Mayorkas. Congressman, we have not as an agency made 
the decision to move to a purely mandatory electronic 
environment. As a matter of fact, the question of the 
community's ability to access services in an electronic 
environment is a question that we posed to the community last 
week as part of our public engagement.
    Mr. Farr. Can you just give me a short answer? If you don't 
have a Web site or have access to a computer, do you use the 
existing system? They still have to call in or visit or come to 
the congressional offices?
    Mr. Mayorkas. Assuming lack of access to a computer or to a 
Web site, we have in-person means or telephonic means of 
obtaining information from our agency.
    Mr. Farr. But you are reaching out with this Office of 
Public Engagement to try to figure out how to get people more 
information so they don't spend a lot of time just trying to 
find out where their application is and things like that?
    Mr. Mayorkas. That is correct. We have also redesigned our 
Web site.

                       NATURALIZATION CEREMONIES

    Mr. Farr. I know. My staff uses it and recommends it to 
people all the time. You and I chatted about this Proud to be 
an American Act, which was a process the Congress adopted to 
encourage swearing-in ceremonies around the Fourth of July and 
take them out of the centers where you normally process these 
swearing-ins. I know the Department has done a lot of that 
yourselves.
    I am very curious about how we can work with your Members 
of Congress who want to do that this coming Fourth of July. Who 
in your office should they be working with and talking to?
    Mr. Mayorkas. The individual who leads our Office of 
Citizenship, Congressman Farr, is Rebecca Carson.
    Mr. Farr. So if Members ask me--because a lot of them know 
I have been doing it with great success. It is the nicest thing 
I do all year, I think. We treat them like a big graduation 
ceremony. The whole town comes, and, in fact, we move it around 
to a different town in the district all the time. I am 
interested in making sure that you use that, because I think it 
is good public relations for both sides, for Congress and for 
the community, to understand how proud we are to have new 
citizens in America.

                          CONTRACTOR WORKFORCE

    One of the things that we heard from Secretary Napolitano 
is that you are looking at a Department of Homeland Security-
wide, districtwide or systemwide reduction in contractor 
positions. How many contractors does CIS have?
    Mr. Mayorkas. I believe we have just under 8,000, 
Congressman.
    Mr. Farr. Eight thousand contractors?
    Mr. Mayorkas. Just under, yes, I believe, approximately.
    Mr. Farr. What are their capacities? What are they doing 
for you?
    Mr. Mayorkas. Their capacities range widely. Some assist in 
the intake of applications. Some conduct site visits in our 
effort to make sure the integrity of those who seek particular 
benefits. Really they run almost the gamut of our activities 
that are not inherently federal.
    Mr. Farr. Who do you have supervising them? As the 
Secretary said, you are trying to reduce the contractors and 
make, wherever possible, these jobs Federal employees?
    Mr. Mayorkas. Yes, Congressman. I am sorry, was your 
question----
    Mr. Farr. How long would it take? That is a lot, 8,000.
    Mr. Mayorkas. It is. Our entire workforce is approximately 
18,000. As part of the realignment of our agency, we created a 
Management Directorate that has focused on the efficient 
administration of our agency. It is within the Management 
Directorate's purview to review the federal employment versus 
contractor ratio and to achieve the greater efficiencies to 
which Secretary Napolitano was referring.
    Mr. Farr. You are at almost 50 percent.
    Mr. Mayorkas. Almost.
    Mr. Farr. Do you have a plan how long it is going to take?
    Mr. Mayorkas. I would have to get back to you, Congressman, 
on what exactly is the execution plan for the review of our 
contractor versus federal workforce. But I can tell you the 
efforts are under way to move from the ratio that we currently 
have.
    Mr. Farr. All right. You have somebody in your Department 
that is supervising all of that?
    Mr. Mayorkas. Yes, Congressman. We have a number of people 
dedicated to that efficiency effort.
    [The information follows:]

    RESPONSE: USCIS is implementing a plan to in-source a 
portion of our contractor workforce consistent with guidance 
and standards being utilized across the Department. We expect 
the processes for in-sourcing the positions will continue at 
least through FY2011.

    Mr. Farr. Has my time expired?
    Mr. Price. At this very moment it has.
    Mr. Farr. I had one more question.
    Mr. Price. We will have a brief final round.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    Just for the record, what is the fee for someone to apply 
to become a legal permanent resident right now?

                                E-VERIFY

    Mr. Mayorkas. $1,010.
    Mr. Calvert. One thousand ten dollars.
    Going back to E-Verify, now that Federal contractors are 
required to use E-Verify, have you seen an increase in the 
number of employers signing up since that rule went into 
effect?
    Mr. Mayorkas. We have, Congressman, yes.
    Mr. Calvert. That is significant.
    Now, can you clarify what that means, say, to a Federal 
contractor? If a business is hired by the Federal Government to 
get a product or a service, they must go through E-Verify; 
isn't that correct?
    Mr. Mayorkas. Yes, Congressman.
    Mr. Calvert. Say that the government buys something from 
Walmart Corporation as a contractee. Are they required to go 
through E-Verify?
    Mr. Mayorkas. Congressman, I think it depends on the nature 
of the contract. If it is a pure procurement, I don't know that 
the E-Verify requirement would be triggered. That would depend 
on the contractual relationship between the government and the 
private entity.
    Mr. Calvert. Is there a definition of what you perceive a 
contractor to be that we can take a look at?
    Mr. Mayorkas. I would be glad to provide your office with 
that information, Congressman.
    [The information follows:]

    RESPONSE: Executive Order 12989, as amended, instructs the 
Federal Acquisition Regulation to be amended to include the FAR 
E-Verify clause in certain federal contracts. The Executive 
Order uses the definition of contractor found in the Federal 
Acquisition Regulation (FAR) at subpart 9.4. Under the FAR, 
``contractor'' means any individual or other legal entity that:
    1. Directly or indirectly (e.g., through an affiliate), 
submits offers for or is awarded, or reasonably may be expected 
to submit offers for or be awarded, a government contract, 
including a contract for carriage under government or 
commercial bills of lading, or a subcontract under a government 
contract; or
    2. Conducts business, or reasonably may be expected to 
conduct business, with the government as an agent or 
representative of another contractor.
    In addition, the preamble to the FAR E-Verify final rule 
states that ``[w]hoever signs a contract is the contractor. 
Only the legal entity that signs the contract and is bound by 
the performance obligations of the contract is covered by this 
E-Verify term. If ambiguity remains, this issue will have to be 
handled on a case-by-case basis consistent with traditional FAR 
principle.'' 73 Fed. Reg. 67,651, 67,669 (2008).
    The E-Verify Federal Acquisition Regulation thus requires 
contracting officers to insert a clause into covered Federal 
contracts committing Government contractors to use the USCIS E-
Verify System to verify that all of the contractors' new hires 
and all employees (existing and new) directly performing work 
under the respective Federal contracts, are authorized to work 
in the United States. The government contracting official, not 
the E-Verify program, determines whether the Federal contract 
will include the FAR E-Verify clause.
    The Rule only affects Federal contractors who are awarded a 
new contract on or after the effective date of the rule, 
September 8, 2009, that includes the FAR E-Verify clause (73 FR 
67704). Some existing Federal contracts may also be bilaterally 
modified to include the FAR E-Verify clause. In summary, 
consistent with the requirements first set forth in the 
proposed rule, the final rule:
    1. Exempts contracts that are only for commercially 
available off-the-shelf (COTS) items and items that would be 
COTS items but for minor modifications; contracts of less than 
the simplified acquisition threshold ($100,000); contracts with 
a period of performance of less than 120 days; and contracts 
where all work is performed outside the United States.
    2. Requires inclusion of the clause in subcontracts that 
flow from the prime contract for services or for construction 
with a value over $3,000.
    3. Requires contractors and subcontractors to use E-Verify 
to confirm the employment eligibility of all new hires and all 
existing employees who are directly performing work under the 
covered contract. Certain Federal contractors need only use E-
Verify to verify the employment authorization of employees 
assigned to a covered Federal contract. These include state and 
local governments, governments of federally recognized Native 
American tribes, institutions of higher education, and sureties 
performing under a takeover agreement entered into with a 
Federal agency pursuant to a performance bond.
    4. Applies to solicitations issued and contracts awarded 
after the effective date of the final rule in accordance with 
FAR 1.108(d).
    5. In exceptional circumstances, allows a head of the 
contracting activity to waive the requirement to include the 
clause.

    Mr. Calvert. Okay. When there are articles in the newspaper 
like there was in the Wall Street Journal--it was repeated, by 
the way, by the Los Angeles Times about E-Verify and the 50 
percent inaccuracy rate, which is 50 percent of the 6 percent, 
which is obviously perceived to be something different than 
what it was--are you proactive in addressing those 
misrepresentations and trying to get a correction?
    Mr. Mayorkas. Congressman, we are very proactive in 
publishing the success of E-Verify, as well as its challenges. 
I hope I made clear at the outset that the complaints that were 
lodged at E-Verify initially were its inability or perceived 
inability to accurately capture work-authorized individuals as 
work-authorized. That success rate now seems to have caused a 
shift in concern about E-Verify to its ability to address the 
unauthorized workforce and recognize that.
    As you correctly underscored, the Westat report, which is 
based on data that are now a bit dated, speaks of a percentage 
success rate that we believe we have improved upon.
    Mr. Calvert. I read the Westat report, and relative to the 
newspaper articles, the articles obviously were quite negative. 
But you read the Westat report. It is relatively positive. So 
it was just an interpretation of the statistics within that 
study, which ultimately ended up with the stories that ran 
nationally.
    Are you asking for the newspaper to give information to 
those newspapers and other publications--it got picked up 
obviously by the broadcast industry and the rest--to deal with 
that?
    Mr. Mayorkas. We have been very active in ensuring that the 
public is aware of the success of E-Verify. We have reached out 
to quite a number of community members, the business group, the 
labor group and other important constituents, that are impacted 
by the E-Verify program, to ensure that they are aware of the 
success of the program and the improvements that we are making 
to address whatever weaknesses might exist.
    Mr. Calvert. If there is a significant increase in the 
number of employers that want to go in the system, do you feel 
confident that you are able to take that on and be able to 
process them in a relatively quick fashion?
    Mr. Mayorkas. Most certainly. E-Verify is built to a 
capacity far greater than it currently administers.
    Mr. Calvert. What is the capacity it is built to?
    Mr. Mayorkas. Approximately 200 million employees per year. 
It currently has the capacity to run approximately that many 
through its system.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Ms. Roybal-Allard.

                            FRAUD PREVENTION

    Ms. Roybal-Allard. According to law enforcement officials, 
there is a growing number of unscrupulous individuals in our 
country who call themselves ``immigration specialists'' or 
``notarios,'' hold themselves up as attorneys that are 
qualified to practice immigration law. As you know, they enter 
into fraudulent contracts and promise permanent legal status 
and charge exorbitant fees, even when they know very well that 
sometimes the person that they are asking to represent has no 
chance of legalization. In other cases, beyond the loss of 
money, these fraudulent services often jeopardize a victim's 
ability to legalize their status, even though they were 
qualified prior to becoming a victim of fraud.
    Could you highlight a little bit of what kinds of things 
that you are doing to educate the public about these fraudulent 
practices by these people to let them know that they do, in 
fact, exist and will jeopardize their status?
    Mr. Mayorkas. Thank you very much, Congresswoman. That is a 
question that goes to the very heart of a very significant 
initiative we already have underway.
    Earlier this year, we led a very robust engagement with 
community members about the unauthorized practice of law and 
notario fraud, and we are developing a strategic plan to fight 
immigration practitioner fraud and protect the consumer. We 
understand that public education, building a stakeholder 
capacity and deterrence are three very important foundations 
for a successful program.
    We currently have available on our Web site a number of 
informational pieces that we hope serve the community while we 
are developing a more comprehensive and fulsome nationwide 
strategic plan.
    For example, we list the Board of Immigration Appeals (BIA) 
and BIA-recognized organizations that serve the immigrant 
community. We list free or low-cost service providers. We have 
a link to the National Association of Attorneys General that 
identifies individuals who have been prosecuted for the 
unauthorized practice of law or notario fraud, to mention just 
a few of the tools we are using.
    Ms. Roybal-Allard. Going back to Mr. Farr's point, not 
everyone has access to a computer, and that is certainly true 
of many in my district. So you are not depending on that alone. 
You mention you also do outreach to community-based 
organizations and other groups to get that information out; is 
that correct?
    Mr. Mayorkas. Yes, we do. And, Congresswoman, we not only 
touch the community-based organizations that represent 
individuals who might not have access to computer facilities, 
but we touch the individuals themselves through our extensive 
outreach efforts.
    Ms. Roybal-Allard. You said you were developing a strategic 
plan. When can we expect that?
    Mr. Mayorkas. We hope to unveil that in the next 30 days.
    Ms. Roybal-Allard. Thank you.
    And just one last point, going back to the model under 
which you operate. If and when we pass comprehensive 
immigration reform, the processing of thousands of background 
checks and applications for naturalization will be your 
responsibility. I am wondering if there is anything that you 
are doing now in anticipation of that, given the model that you 
are now working under?
    Mr. Mayorkas. Congresswoman, we are building efficiencies 
so that we are fully prepared to address whatever increase in 
applications we receive. Our experience with the January 12th 
tragic earthquake in Haiti demonstrated our capacity to meet an 
unanticipated increase in volume. So if comprehensive 
immigration reform would pass, we would be prepared to 
administer the program.
    Our ability to administer a program of an exponentially 
greater volume of people would depend on our receipt of funds 
to build the infrastructure capacity. But in terms of the 
systems, the operational design, we have that.
    Ms. Roybal-Allard. Thank you.
    Mr. Price. Thank you.

                        BUSINESS TRANSFORMATION

    Mr. Director, we will have a very rapid final round here, 
just to tie up a few loose ends. I will start with the subject 
our Ranking Member discussed, the business transformation plan 
and our concerns about the delays of implementation, and our 
desire for good information going forward, and, if at all 
possible, an acceleration of the timeline that you have 
projected.
    We do want to get it right. Of course, you are correct 
about that. But when you consider the savings, the 
efficiencies, the greater accuracy, the gains are going to be 
substantial, and it is highly desirable to realize them as soon 
as possible. I want to make sure that I understand the stages 
in which this system is going to be put in place.
    As I understand what you said and what we have heard from 
you otherwise, under the current project plan, CIS is first 
going to implement transformed application processing for 
nonimmigrant benefits, for student visas, work visas, that sort 
of thing.
    I wonder if you have an interim cost estimate as to how 
much you are going to save with on-line processing for 
nonimmigrant applicants?
    Then what you were talking about with Mr. Rogers, the 2013 
date, the second phase of CIS's business transformation will 
put the green card and citizenship processes on line, 
incorporating the entire immigration process into a digital 
system. That is what you have given us the 2013 estimate on, 
and I wonder if you have figures with estimated savings and 
efficiencies from the completed transformation?
    Mr. Mayorkas. Mr. Chairman, we did resequence. Originally, 
the agency had planned to first transform the citizenship 
application process, but we thought it most economically and 
systemically prudent to actually follow the cycle of the 
immigration benefit process. We resequenced, therefore, to 
first transform the nonimmigrant benefit process.

    RESPONSE: USCIS does not have a cost estimate associated 
with savings that may be realized from the transformation of 
non-immigrant benefit processing, or for the complete 
transformation effort as a whole. Long term cost savings is a 
goal of transformation. USCIS will strive to realize cost 
savings and factor them into future fee levels. Savings are one 
of several important goals that also include the modernization 
of outdated technology and processes, improvements in customer 
service and security, and more effective adjudication 
operations overall. USCIS will assess the cost savings over the 
long term as transformational operations, systems, and 
processes begin to be implemented.
    With respect to what savings we intend to realize, if I 
may, Chairman, this committee, I would like to get back to you 
with that. I do not have that information at the ready, and I 
do not know whether we have actually undertaken that modeling.
    I well understand and appreciate, from the questions that 
you have posed, the frustration that you have with respect to 
the initial pace of the transformation effort, as well as my 
estimated 2013 time frame and my clearly unsatisfactory answer 
that we are not in a position to accelerate that time frame 
now. What I would respectfully propose is that I make it a 
point to personally update this committee on a regular basis 
with respect to the transformation program, both substantively 
in terms of the improvements and progression of the effort, as 
well as the costs associated therewith.
    Mr. Rogers. Will the gentleman yield on that point?
    Mr. Price. Yes.
    Mr. Rogers. If you could include in that estimate if more 
money would accelerate the process?
    Mr. Price. I would second that request. That is clearly a 
relevant aspect.
    [The information follows:]

    RESPONSE: Transformation within USCIS is a gradual process 
that will require careful planning and a comprehensive change 
management strategy that will take several years to fully 
implement. USCIS will continue to explore options for moving 
Transformation forward at a faster pace.

                       HAITI AND THE TPS PROGRAM

    Mr. Price. Let me wrap up with reference to Haiti. I want 
to echo Mr. Farr's expression of gratitude to you. I should 
have done this at the outset. We are well aware of the 
contribution CIS has made in responding to the Haitian tragedy 
and being one of several Homeland Security agencies that has 
been working on this very hard, along with the Coast Guard, 
with FEMA, with ICE. We are grateful for your efforts.
    I want to ask you about one aspect of this, though, that I 
think may raise some broader questions about your method for 
projecting the impact of various programs, the demand for 
various programs. On January 21, you issued a public notice 
that you would accept applications for temporary protected 
status for Haitians who were illegally present in the United 
States before the earthquake that had destroyed, of course, so 
much of that country and the prospects for anyone returning and 
earning a livelihood.
    Based on the latest data, CIS has processed about 30,000 
applications for temporary protected status. That is much 
lower, considerably lower, than the 200,000 individuals you 
projected might apply for that benefit.
    So, Mr. Director, I wonder how you would account for that? 
Do you believe that the TPS announcement may have overstated 
the number of Haitians that might apply for TPS? What would 
account for receiving so many fewer applications than 
projected?
    Then it does lead me to a broader question. There have been 
some other shortfalls in application filings versus CIS 
projections, such as the overall lower level of applications 
received in 2009. Does this lead you to reflect on CIS's method 
for projecting its workload and changes, improvements that 
might be indicated by some of these missed projections, missed 
targets?
    Mr. Mayorkas. Thank you very much, Chairman. Let me, if I 
can, answer the questions in the order in which you posed them.
    First with respect to the Temporary Protected Status (TPS) 
program for Haiti, specifically, we at the outset estimated 
100,000 to 200,000 potential applicants for TPS, for that 
humanitarian relief. Indeed, we thus far have received 
approximately 30,000 applications. The pace is a bit slower 
than we anticipated. We are, of course, only 2 months into a 6-
month registration period, so it is unclear what volume we will 
see at the close of the period. So it is, I think, a bit early 
to assume that our projections were off.
    I should say also that we projected the 100,000 to 200,000 
number on the basis of our best understanding from the 
community of the anticipated volume and to ensure that we as an 
agency were ready should that volume materialize, rather than 
underestimate and plan on the basis of an underestimation. I 
think that would be far more dangerous to our ability to 
administer the relief that the government extended to this 
population in need.
    So that number of 100,000 to 200,000 was our best 
understanding at the time based on our interaction with the 
community and the data that we had available. We geared up for 
it operationally. We are, I think, approximately 2 or so months 
into a 6-month registration window, and we will see where the 
numbers shake out.
    With respect to the projections prior to Fiscal Year 2009, 
I don't know if the drop in applications is directly linked to 
the economic conditions that befell this country, and, frankly, 
the world, in 2009. I don't know if anyone anticipated the 
degree of the financial challenges that our economy would face 
and perhaps the consequent drop in applications. But our 
ability to project numbers, because of the significance of the 
projections on our operations and on our efficiency modeling, 
is something that we are constantly reviewing and scrubbing.
    Mr. Price. Thank you.
    Mr. Rogers.
    Mr. Rogers. No further questions.
    Mr. Price. Mr. Farr.

                     IMMIGRATION INTEGRATION GRANTS

    Mr. Farr. Thank you, Mr. Chairman.
    I want to follow up on this. You have requested $8 million 
in competitive grants to organizations preparing immigrants for 
citizenship and helping these individuals gain knowledge that 
is necessary to become successful citizens. You talk about 
expanding the capacity of volunteers to prepare immigrants for 
citizenship and so on. That is what in a way a lot of 
congressional offices do by referring people to the support 
groups.
    What I would suggest in this is that you include in this 
outreach notifying Members of Congress of these grants and 
being able to put them together in their communities.
    One of the reasons to do this, Mr. Chairman, is that it 
just becomes sort of a routine if you are doing it all the time 
in Federal courthouses and Federal office buildings. But if you 
take this outside of the normal area to do it, it just creates 
a whole pageantry of interest by local press that interview 
these people. They interview these people, the oldest person 
being sworn in, the number of countries they are coming from, 
the incredible background stories that need to be told all the 
time. This is what the great, great melting pot of America is.
    I know I do it and other Members do it, but it has always 
been sort of ad hoc, and it seems to me if we are going to put 
this money out there for community outreach, that we ought to 
get better connected. You can figure out the math here. If 
community organizations and local people wanted to put together 
one at $5,000, we have never had one that expensive, but $5,000 
for a swearing-in ceremony for all of them, you give them food 
and drink, and we do birthday cakes, a big celebration for 
America. We do it around the Fourth of July. We get flags all 
up, school groups, all sorts of things. But if you did that for 
every Member of Congress, you are talking about $2.1 million. I 
think that the sense of the importance of immigration, if every 
Member wanted to participate in it, would really help the image 
of our country, both internally and abroad, from the countries 
that these people come from.
    So it is just a suggestion. I would like to work with you 
on that and include in that outreach and in those community 
organizations sort of the ability if you would like to have a 
swearing-in ceremony in your own community, that one could put 
together the ``ask'' for a grant to do that.
    Mr. Mayorkas. Thank you, Congressman.
    Mr. Farr. Are you interested in helping on that?
    Mr. Mayorkas. Congressman, if I can address the question, 
we receive an appropriated amount to fund immigrants' ability 
to prepare for the naturalization test, to be able to provide 
to them educational tools that they might not otherwise have 
access to so that they can be equipped to pass the 
naturalization test and become U.S. citizens.
    Once they achieve that citizenship, we, through the funding 
that this Committee has appropriated, have increased 
exponentially the capacity of community-based organizations and 
our office to assist immigrants who have been naturalized to 
integrate into the community and become part of the national 
fabric.
    We currently, without special appropriation, conduct 
naturalization ceremonies throughout the country, almost one 
every day. I think we naturalize 600,000 or 700,000 new 
citizens per year. Given the tremendous fiscal challenges that 
we face, given the critical need to use the appropriated funds 
for our Office of Citizenship to enable people to become 
naturalized and then, once naturalized, to integrate into 
society, given the fact that we receive donations from the 
facilities that want to lend themselves to our effort to 
conduct naturalization ceremonies across the country, in cities 
far and wide, on ordinary days and on special days, it is very 
difficult for us as an agency to come before this Committee and 
seek an appropriation to fund ceremonies themselves when we 
conduct them already across the country without the 
appropriated amounts.
    Mr. Farr. I certainly would like to know what you spend on 
those and where you do them, because certainly no one has ever 
been doing them in our area until I initiated it. As I said, it 
is all the service clubs and schools and everybody is involved. 
No one ever did it outside of our asking. So I would like to 
see how many of these you do, how much you move around, and 
what the cost is to the agency to put on one of these, because 
I think we can do it cheaper with the service clubs.
    Mr. Mayorkas. Thank you, Congressman. I will provide you 
with that information.
    Mr. Price. We will look for that information for the 
record.
    [The information follows:]

    RESPONSE: As indicted within the Congressional 
Justification of the FY 2010 budget request, USCIS estimated 
that naturalization and oath of allegiance ceremonies cost 
approximately $26.3 million in FY 2010. The level for FY 2011 
is estimated to be $27.1
    USCIS holds hundreds of naturalization ceremonies across 
the country and overseas every month. Among these are 
``special'' naturalization ceremonies held at historical 
landmarks and uniquely American setting across the nation in an 
effort to highlight the importance of citizenship. Such events 
are held on holidays and national days of observance such as 
Independence Day, Veterans Day, Citizenship Day, and 
Constitution Week. USCIS would be happy to provide information 
upon request for specific categories of naturalization 
ceremonies of interest and/or ceremonies provided on specific 
days of a particular year.

    Mr. Price. Director, thank you. Congratulations on your 
appointment and your service thus far. Thank you for that 
service and for your presence here today. We will look forward 
to working with you as we assemble your budget for next year.
    Mr. Mayorkas. Thank you very much.
    Mr. Price. With that, the Subcommittee is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 14, 2010.

 UPDATE ON SOUTHWEST BORDER: THE CHALLENGES THAT DHS CONTINUES TO FACE

                               WITNESSES

ALAN BERSIN, COMMISSIONER, U.S. CUSTOMS AND BORDER PROTECTION
JOHN MORTON, ASSISTANT SECRETARY, U.S. IMMIGRATION AND CUSTOMS 
    ENFORCEMENT

               Opening Statement of Chairman David Price

    Mr. Price. The Subcommittee will come to order. This 
morning we will be focusing on the southwest border and the 
challenges that the Department of Homeland Security continues 
to face in that part of our country.
    Our southwestern border region possesses a rich history, a 
shared culture interwoven over the centuries, and lands of 
unsurpassed natural beauty. It is not a faraway, alien place, 
but an inextricable part of our homeland with millions of 
hardworking families and a vital and diverse economy. Cross-
border trade is an important part of the picture. Eighty 
percent of Mexico's exports and half of its imports are with 
the United States, and 10 percent of our country's overall 
trade is with Mexico.
    However, these trade statistics exclude illicit drugs. Over 
90 percent of the cocaine entering our country is estimated to 
pass through Mexico, which is also our country's largest 
supplier of marijuana and methamphetamines. The U.S. appetite 
for drugs has nurtured powerful and corrupting cartels with 
tens of billions of dollars in criminal proceeds. These 
international criminal organizations routinely violate our 
borders to traffic drugs and weapons and money and to smuggle 
undocumented aliens. But it is the violence of these cartels 
and the fear and disruption they sow that now dominate the 
news.
    Over 18,000 people, including 79 Americans, have died in 
Mexico since President Calderon confronted the cartels. The 
brutality, the wanton disregard for bystanders, including women 
and children, and the apparent impunity with which the cartels 
have operated is appalling.
    The questions we raised in prior hearings and we will 
explore today are whether and to what degree are we making 
progress against the cartels, making our borders harder to 
exploit, and reducing the risk that violence will spread.
    I believe there is not much point in debating to what 
extent cartel violence has spilled over into the United States. 
Our close relationship with Mexico means we cannot ignore the 
violence there regardless of when and whether it crosses the 
line physically. The deaths in March of three persons in Ciudad 
Juarez associated with the U.S. consulate, intensified assaults 
against Border Patrol agents including the murder of two, the 
kidnapping and murders of U.S. residents in Texas, and the 
recent homicide of an Arizona rancher all remind us of the 
threats of narcoviolence. The truth is the cartels are engaged 
in criminal activities every day in cities and communities on 
both sides of the border and not just along the border. We need 
to focus on meaningful ways to deal with cartels and their 
violence on the border and beyond.
    This hearing falls on the first anniversary of the 
administration's announcements of its Southwest Border 
Initiative. Secretary Napolitano noted during her recent visit 
to Mexico that CBP and ICE's enhanced efforts have resulted in 
record seizures of drugs, firearms and smuggled illicit cash. 
She also cited unprecedented cooperation with Mexico on 
information sharing, joint training, cross-border 
communications and trade.
    Today from our witnesses we will want an assessment of how 
successful DHS efforts are or can become, and we will pose such 
questions as: how would you grade efforts to prosecute drug and 
trafficking cases in Mexico given that Mexico has its own 
immigration issues? Will our cooperation help U.S. security 
against attempts by non-Mexicans to enter the U.S. through 
Mexico? Does the fiscal year 2011 budget enable CBP and ICE to 
sustain a long-term effort to counter the cartels? How 
effective are joint efforts with Federal, State and local 
agencies, including backing them up when they are seriously 
outmanned or outgunned?
    We also want to understand how investments that we have 
made to date are complicating life for the cartels. These 
include the Secure Border Initiative, the Border Enforcement 
Security Task Forces, the deployment of air and marine assets, 
tunnel detection, and the establishment of forward-operating 
locations or checkpoints.
    Our Subcommittee is pleased to welcome this morning 
Commissioner Alan Bersin of U.S. Customs and Border Protection 
and Assistant Secretary John Morton, the Director of U.S. 
Immigration and Customs Enforcement, to bring us up to date on 
the status of this initiative in light of expanded staffing, 
equipment and other resources that Congress has provided to 
enable your agencies to work with Federal, State and local 
partners as well as with the Government of Mexico to overcome 
the cartels. Assistant Secretary Morton appeared here last 
November on this topic, but this is Commissioner Bersin's first 
time before the Committee.
    Commissioner, we welcome you. We expect that your initial 
year at the DHS, along with your unique law enforcement and 
personal experience has given you a realistic perspective on 
what can be accomplished on the border.
    We look forward to hearing from both of you today. We will 
insert your complete statements in the hearing record, so we 
will ask you to summarize your presentation in a 5-minute oral 
presentation. We will begin with Commissioner Bersin followed 
by Assistant Secretary Morton. But we first want to turn to our 
distinguished ranking member Mr. Rogers for his comments.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
           Opening Statement of Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and thank you for this 
hearing, because there is no more important topic for American 
security than the southwest border.
    Commissioner Bersin, as the chairman says, this marks your 
first appearance before the Subcommittee. Given your extensive 
experience working in southern California and your service as 
this administration's border czar over the past year, I look 
forward to finally hearing your views on border security.
    And a welcome back to Assistant Secretary Morton. We meet 
again. I appreciate your being here and look forward to hearing 
your strong views on border enforcement as well.
    As the chairman noted, it has been just over a year since 
this administration launched its Southwest Border Security 
Initiative, an effort that has surged resources to further 
enhance our border security and support the courageous actions 
of the Mexican Government against the cartels. While this 
initiative has resulted in some noteworthy seizures of drugs 
and bulk cash and modest interdiction of weapons, the murder 
rate continues to soar, the purity of marijuana and 
methamphetamine remains stubbornly high, and Mexico appears 
years away from sufficiently reforming its customs and 
immigration services as well as sustaining resilient local law 
enforcement. In fact, the cartels appear emboldened as ever, 
demonstrated by the continued escalation of violence and the 
recent assertion of a well-known Mexican drug lord to the media 
that ``Mexico's war on the drug trade is futile, even if cartel 
bosses are caught or killed.'' Sobering.
    According to several published reports, mounting drug 
violence in Mexico has killed more than 19,500 people since 
President Calderon launched his effort against the cartels in 
2006. Furthermore, the pace of homicides continues to escalate, 
most notably in Juarez, as the chairman said, where the average 
number of murders a month approaches 200, more than 6 murders a 
day on average in 1 city on the border in Mexico.
    But just as this drug war seem to be reaching a tipping 
point, I fear as though our political resolve to adequately 
sustain this fight is on the verge of slipping. The President's 
fiscal 2011 budget not only curbs CBP's operational resources 
and reduces funding for border security technology and 
infrastructure, it also severely cuts the Coast Guard and its 
drug interdiction capabilities to the point where the amount of 
cocaine seized will decline by an estimated 11.3 percent. 
Explain that.
    Such reductions to operations will undoubtedly empower the 
cartels and put more pressure upon the border. In the midst of 
this drug war, with our border under siege, how can we possibly 
support a budget that is knowingly letting our guard down and 
allowing more drugs, more illegals, and contraband to flow 
across that border into this country? How can we justify this?
    And apart from DHS's flawed fiscal 2011 budget request, 
there are other pressing questions. How can we accept the 
administration's recent pronouncements on the troubled SBInet 
program when we have yet to receive the legislatively required 
expenditure plan for that program for the next fiscal year--for 
fiscal 2010, the current fiscal year? And why does the 
administration repeatedly assert that ``violence is not 
spilling over'' when, one, our own Justice Department admits 
the cartels' networks reach all across this country into every 
city and now almost every village, direct cartel organizations 
all across this land, not just on the border; two, assaults 
against the Border Patrol continue to increase, and an agent 
was murdered in cold blood last year, another with his face 
caved in a few days ago, a well-known Arizona rancher murdered 
last month on his own property, U.S. consulate personnel 
murdered, another consulate bombed just this past weekend? And 
as the Washington Post reported on April 4, the cartels' 
contract killers are operating with near impunity on both sides 
of the border, but including the U.S. contract killers, hired 
by a foreign cartel, murdering Americans. What are you going to 
do about that?
    And beyond the surge efforts of the past year and 
escalating violence, what are the next steps that need to be 
taken against this threat? If there is one thing I am certain 
of from my experience as a State prosecutor in Kentucky for 11 
years, a DA, and my years here in this body, is that drugs pose 
a grave and unrelenting threat to the health, safety and 
security of the United States; therefore, we must do all we can 
to secure that border, thwart these cartels, and put a stop to 
their savage criminality and their murderous ways.
    So the challenge being presented to DHS by this drug war is 
clear. My question, which is the same one I posed during our 
hearing on border violence last November, is whether or not we 
are up to the challenge. And when I pose this question, I am 
not wondering whether we have the proper resources in place to 
simply disrupt this organized cross-border crime. I am 
wondering, just as I did last November, whether we have the 
will to actually break its back.
    Now, I realize that is a mighty tough chore. I am quite 
certain it is a worthy fight, and surely this country has the 
capability to protect our border from organized criminal 
ventures spreading its tentacles across every inch of America. 
This is a serious, serious problem.
    Securing our border is not a mere luxury. Securing our 
border is a worthy fight that we must win. So today, Mr. 
Chairman, I am not only interested in assessing our progress in 
this fight with the cartels, I am interested in learning what 
more we can do to combat this clear and present threat to the 
United States and its citizens. Thank you.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Statement of Alan Bersin

    Mr. Price. We will now begin with the Commissioner, 
Commissioner Bersin.
    Mr. Bersin. Good morning, Chairman Price, Ranking Member 
Rogers, members of the Subcommittee and staff. I appreciate 
this opportunity to provide an update on our efforts to combat 
the threat of violence along the southwest border and to 
discuss my vision for the southern border as U.S. Customs and 
Border Protection's (CBP's) new Commissioner.
    The Committee has been extremely supportive of CBP over the 
years in meeting our difficult mission, and we are grateful for 
your support and your continued guidance. The significant 
investments that you have made in CBP helps protect our country 
from a variety of evolving threats, including those generated 
by organized criminal organizations operating transnationally 
in Mexico.
    Before serving as CBP Commissioner, I worked for many years 
as a prosecutor on the border and in other positions with the 
Department of Homeland Security and the Department of Justice. 
During that time, I worked closely with U.S. law enforcement 
colleagues at all levels--state, local, county, federal and 
tribal--as well as with our counterparts in Mexico. The level 
of cooperation that we see today between the United States and 
Mexico under President Felipe Calderon is unprecedented and 
provides us with a historic opportunity. President Calderon's 
willingness to address the growing problems of drug cartels is 
nothing short of heroic. It presents a unique opportunity to 
expand and deepen coordinated law enforcement operations 
between our countries. We recognize that this is a journey that 
will not be accomplished overnight, but the important point is 
that it is a journey in which the first steps have been taken.
    Having worked and lived most of my life in border 
communities, I recognize the concerns of our citizens regarding 
drug-related violence that has taken place on both sides of the 
border. It has been and continues to be a deeply serious 
threat. Most recently, the tragic murder of Robert Krentz, an 
Arizona rancher and a leader in his community, is an outrage 
and a tragedy. It points to the continuing problem. Secretary 
Napolitano has committed significant resources to bring this 
killer or killers to justice.
    Immediately after the shooting, CBP provided air and marine 
assets and trackers to find signs of the suspects. Furthermore, 
CBP dispatched additional mobile surveillance systems, 
supplemented regular aerial surveillance and transferred and 
deployed 64 additional Border Patrol agents into the area.
    Although individual incidents of violence are not a new 
phenomenon along the border, we are determined to prevent the 
kind of widespread violence that continues to take place every 
day in northern Mexico from crossing the border into the United 
States in the form in which it appears in Mexico.
    In March 2009, Secretary Napolitano announced the 
comprehensive Southwest Border Strategy aimed at preventing 
spillover violence and at helping the Government of Mexico 
crack down on drug cartels in that country. During the past 
year, CBP has supported that initiative by adopting the 
doctrine of co-responsibility, acknowledging that drugs coming 
north is part and parcel of a cycle of violence that involves 
bulk cash and weapons going south.
    To deal with national security issues for both countries, 
CBP has increased its cooperation with Mexico to coordinate 
border inspections and law enforcement operations. We have 
enhanced our information sharing and continue to build on 
intelligence cooperation. We have developed joint strategic 
approaches to our common problems, and we have continued to 
increase our capacity building at ports of entry.
    Just last month, CBP opened the Operations and Intelligence 
Coordination Center in Tucson, AZ. This new facility serves as 
a centralized location for gathering and disseminating real-
time data (actionable information to help increase security 
along the southwest border) and then putting information into 
the hands of CBP agents on the ground.
    Since last November when Acting Commissioner Jayson Ahern 
testified before this Subcommittee, CBP has continued its 
enhanced efforts on outbound operations to prevent weapons and 
currency that, in fact, fuel drug-related violence that 
continues in Mexico.
    As part of the strategy, we have expanded our License Plate 
Reader (LPR) program, we have invested in nonintrusive 
technology and we have deployed additional Border Patrol agents 
on the scene. We have also deployed mobile response teams, 
canine teams and other resources to increase pulse and surge 
operations, looking at what is leaving our country as we 
concentrate on what is coming into our country.
    These outbound efforts have been successful. They are an 
important step in the right direction. Since the Southwest 
Border Initiative was launched last year, CBP has seized more 
than $30 million in illicit southbound cash along the southwest 
border. Together with our cooperative efforts with U.S. 
Immigration and Customs Enforcement (ICE), the numbers are 
greater and growing.
    Let me take a concluding moment to address our future 
strategy. In addition to keeping America's border safe and 
secure, CBP recognizes that we must promote economic 
competitiveness throughout North America. Security and trade 
and commerce go hand in hand. Security comes first, but we can 
be economically competitive as we enhance our security.
    We will adopt strategies that simultaneously improve 
security and expedite legitimate trade and travel. Smarter 
targeting and risk segmentation allow law enforcement 
authorities like CBP to focus their energy on the relatively 
small amount of illegitimate cargo and crossings that pose a 
threat to our public safety as well as to our economic 
prosperity. We can have enhanced security while reducing the 
cost and inconvenience to legitimate goods and lawful 
travelers.
    CBP has made tremendous strides in this area by 
implementing trusted traveler programs such as the Free and 
Secure Trade (FAST) program and the Secure Electronic Network 
for Travelers (SENTRI) program on the southern border. These 
programs complement the Global Entry program at our airports 
and the NEXUS program on our northern border. They expedite 
entry for low-risk travelers and cargo, while allowing our 
officers to focus on more high-risk individuals and shipments.
    Working with our public, private and international 
partners, we believe that we can continue to have greater 
security and greater prosperity.
    Finally, let me thank you again for this opportunity to 
appear here and deliver my first testimony as CBP's new 
Commissioner. I am honored to be able to share with you the 
good work the men and women of CBP do each day to safeguard our 
Nation's security. Thank you.
    Mr. Price. Thank you, Commissioner.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Statement of John Morton

    Mr. Price. Mr. Morton.
    Mr. Morton. Mr. Chairman, Mr. Rogers, members of the 
Committee, thanks once again for inviting me to appear before 
you to testify on this subject. Let me also take a moment to 
welcome my new colleague, Commissioner Bersin, to his post. 
Alan has great insight and experience when it comes to the 
border and to Mexico, and I look forward to working with him as 
we train ICE and CBP, making the border a much more secure and 
safe place.
    Since I last testified before you on the same subject, we 
have, as both the chairman and Mr. Rogers noted, witnessed 
several acts of violence against U.S. citizens, and, in 
particular, we have seen the outrageous killing of three 
individuals associated with the U.S. consulate in Ciudad 
Juarez, Mexico, and the cowardly murder of Mr. Krentz, the 
Arizona rancher in Cochise County near the Mexico border.
    First, on behalf of ICE, I extend my heartfelt sympathy to 
the families of Lesley Enriquez, her husband Arthur Redelfs, as 
well as to the families of Jorge Alberto Salcido Ceniceros and 
Mr. Krentz.
    Although I can't get into the specifics of the open and 
ongoing investigations into these cases, I can assure you of 
one thing: Both ICE and CBP acted very swiftly and aggressively 
in response to the killings. We are working with our partners 
in Mexico and the United States as we speak to try to solve 
these murders and to bring the killers to justice.
    In the Krentz case, for example, ICE is the lead federal 
agency assisting the Cochise County Sheriff's Office with the 
investigation. We have assigned special agents full time to the 
case, we have devoted the full resources of our office in 
Mexico to it and we have offered a reward to bring the killers 
to justice.
    My message today to you is simple. ICE shares the concerns 
of many over the presence of organized crime in Mexico and 
along our border. We are committed to vigilance and to a 
sustained attack on the criminal networks that seek to smuggle 
drugs, guns, money and people to and from Mexico.
    This commitment is more than rhetorical. Thanks to the 
increased appropriations we have received from this 
Subcommittee during the past 2 years, there has never been, in 
the history of our agency, more ICE agents and deportation 
officers devoted to the southwest border, and the results are 
promising.
    Let me start with our staffing. Approximately a quarter of 
our special agents are devoted to our five Special Agent in 
Charge (SAC) offices in the four border states. The same is 
true for our detention and removal officers, a quarter of our 
entire staffing.
    We now have 10 of our 17 Border Enforcement Security Task 
Forces (BESTs) on the southwest border: two in California, two 
in New Mexico, three in Arizona and three in Texas. The 11th is 
being formed in Mexico City itself. By the end of the year, we 
will have 40 ICE agents in Mexico, both in Mexico City and in 
border cities along the border--again, the largest presence we 
have ever had in any country in our history. We have six 
special assistant U.S. attorneys devoted to prosecuting border 
cases in border U.S. attorney offices. I am personally 
committed to significantly increasing that number, and we are 
in the process of working with the Deputy Attorney General to 
do just that.
    To give you some flavor of the results over the past year, 
in our Houston office, we have seen a 64 percent increase in 
drug seizures; in San Antonio, a 23 percent increase in drug 
seizures and, in San Diego, a 40 percent increase in currency 
seizures; in Phoenix, a 15 percent increase in criminal 
convictions; and, overall, an 11 percent increase in 
administrative arrests of criminal offenders along the 
southwest border.
    As welcome as these successes are, we intend to do more. 
The drug-trafficking cartels remain a very serious threat to 
both Mexico and the United States, fueling unacceptably high 
levels of violence in Juarez and elsewhere in Mexico. This is a 
fight. It is a very real and a very nasty fight, and it is one 
that will take deep resolve and deep commitment to win, but we 
have to win it. There is no rational alternative.
    ICE is aggressively going after the cartels and other 
organized criminals in Mexico in many ways. First, we are 
pursuing initiatives along the southwest border to stop all 
cash smuggling, drug trafficking and firearms trafficking. We 
are also attacking the alien-smuggling industry and 
transnational gangs that operate on both sides of the border, 
and, in this respect, we are increasingly doing it hand in hand 
with our other federal law enforcement partners, namely the 
Drug Enforcement Administration, the Bureau of Alcohol, 
Tobacco, Firearms and Explosives and the Federal Bureau of 
Investigation.
    Second, we are going to continue to match our powers of 
investigation, seizure and deportation with CBP's impressive 
powers of inspection and interdiction. Between the two of us, 
working closely, we can make the border and the transit zones 
on the Mexican side and the U.S. side hostile places for 
criminal networks.
    Third, we are going to increase our joint efforts with 
Mexican law enforcement to investigate cases, share 
intelligence and improve professionalism through training. I 
really want to focus on the concrete here: real cases, real 
criminals, real jail time.
    Fourth, we need to develop much better intelligence sharing 
among all of the federal and local law enforcement agencies 
involved.
    Finally, I want to harness the full power of our local law 
enforcement partners, our intelligence officers in our 10 
southwest border BESTs. All of these are described in more 
detail in my submitted written remarks, but they just reflect 
the absolute commitment we have to trying to get this right.
    Since my last testimony here, we have also stepped up our 
specific efforts in and around Juarez and El Paso, TX. This has 
involved taking such extraordinary steps as stopping all 
removals of criminals and noncriminals through Juarez. We are 
expanding the Illegal Drug Program in which we, with the 
Mexican Government, prosecute individuals in Mexico for 
offenses that occurred in the United States, and we are working 
with the Mexican equivalent of the BEST called the UNITO.
    Let me close by just saying we have begun to see real 
results from our efforts. I can assure everyone here that we 
are mindful of the seriousness of this problem. We spend an 
enormous amount of time trying to think about getting it right, 
doing things differently, being more innovative. It is a very, 
very serious challenge to us. Alan and I have talked about it a 
lot. We are both sort of sober individuals. We are not 
pretending in any way that this isn't a challenge that 
confronts our Nation. We have a long, long history in federal 
law enforcement, and ultimately I think that it is going to be 
an important combination of the power of the Federal 
Government, cooperation with state and Local law enforcement 
and a much better and improved relationship with Mexico that 
will lead to success in the end. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             BILATERAL ENFORCEMENT RELATIONSHIP WITH MEXICO

    Mr. Price. Thank you, and thanks to both of you for your 
testimony.
    I want to focus initial questions on something you both 
referenced extensively; namely, the cooperative efforts 
underway with the Mexican Government and to get you to 
elaborate a bit on the results that agreement has produced, and 
what you expect from it, because we all know that cooperation 
is absolutely essential.
    Secretary Napolitano, along with her counterparts at State 
and Defense, met with their Mexican counterparts in February 
and March. They signed new agreements on intelligence sharing, 
border and air security cooperation. We would be interested in 
your take on the significance of those agreements, and what 
difference they will make in your work, and what kind of 
results you would anticipate. But let me be a little more 
specific. I would like first, Commissioner Bersin, to ask you 
about efforts on the Mexican side to greatly beef up military 
and law enforcement presence in the northern part of the 
country.
    When President Calderon took over in 2006, he put the 
Mexican military in charge of security and policing for Juarez 
and other northern Mexican areas, and it was reported at the 
time the local police were demoralized, there were corruption 
problems, they were overwhelmed by the cartels. Now there has 
been a replacement of those military forces, or at least a 
number of them, with Federal police who have now arrived in 
Juarez as of April 8. What can you tell us about that? What do 
we conclude from that? Is that good news in the sense of 
signaling an enhanced capacity from the police? What kind of 
mix of forces are we looking at here, and what would be your 
assessment of the way on the Mexican side these forces have 
been deployed?
    Mr. Bersin. Mr. Chairman, of all the remarkable changes 
that have taken place in Mexico and in the bilateral 
relationship with regard to confronting organized crime, one of 
the most extraordinary was the recognition and the public 
acceptance by President Calderon that much of Mexico's law 
enforcement machinery and much, if not all, of its judiciary 
was subject to corruption and that corruption and the tentacles 
and the influence of organized crime had tainted law 
enforcement and the judiciary at all levels of Mexican society.
    Since 2006, they have begun, under President Calderon's 
leadership, the transformation of law enforcement into a 
reliable instrument of public policy, focusing for the most 
part on the federal police and the federal enforcement 
authorities: the Secretary of Public Safety, or Seguridad 
Publica (SSP); ingeniero--engineer--Garcia Luna, I think, is a 
very positive step and one that will, over time, begin to 
produce dividends.
    Secretary Napolitano as well as Secretary Morton and myself 
have been to the headquarters in Mexico City, which just in an 
equipment and technological sense is impressive and indicates 
the commitment that has been made fiscally to build up a 
federal law enforcement presence.
    The plan is to move toward 20,000 federal police. What we 
have seen recently in Juarez was the decision that recognized 
that although the military, because of the lack of local law 
enforcement, will continue to have a role to play in dealing 
with organized crime, the long-term solution was to substitute 
a military presence with a law enforcement presence. That is 
beginning to happen in Juarez, where the primary enforcement 
duties are being transitioned to Secretary Garcia Luna, with 
the military remaining, but in a protective stance. And I 
believe that is the way ahead, one that will show significant 
improvement in the near term as well as over the longer term.
    Mr. Price. So your assessment is that that is, number one, 
a mark of increased capacity, greatly improved capacity on the 
part of the police; and secondly, that that is the optimal 
long-term pattern, that the military would remain in that 
supportive role perhaps, but would not be the primary force?
    Mr. Bersin. Yes, Mr. Chairman, I believe that is the 
strategy, and that it is a sound one.
    Mr. Price. Let me turn to the Controlled Substance Pilot 
Project that is an agreement between the Mexican Attorney 
General, ICE and CBP, that enables them, the Mexicans, to 
prosecute drug-smuggling cases when for whatever reasons those 
cases are declined by the U.S. Attorney's Office. There is a 
similar program for alien smuggler prosecutions known as the 
OASIS's program.
    So, Assistant Secretary Morton, your testimony refers to 
the first two convictions from this new drug prosecution 
cooperative program. You don't make any reference to 
prosecutions for alien smuggling. What can you tell us about 
the impact underway or the impact you anticipate from these two 
cooperative programs? Is there reason to believe the Mexican 
authorities are able and willing to accelerate prosecutions? 
What kind of specific report can you give us?
    Mr. Morton. I can tell you that the initial results are 
very promising here. In less than a year, we have gone from 
having no pilot programs addressing drug prosecutions on the 
Mexican side to having two programs, and we are in active 
discussions with the federal prosecutor's office about 
expanding. The basic idea is simply: We have a number of drug 
offenses that occur on our side of the border, particularly at 
ports of entry, that, for a variety of reasons, ICE is able to 
investigate with assistance from CBP, but that are not accepted 
for prosecution. Mexican federal law provides fairly 
significant penalties for that conduct, reaches that conduct 
assuming Mexicans were involved, and the Mexican standards of 
proof are different and allow prosecution in certain instances 
where we can't do it. So it makes a lot of sense. And so far so 
good. And we have done the same thing with smuggling offenses 
for quite some time now through OASIS.

     OPERATION AGAINST SMUGGLERS INITIATIVE ON SAFETY AND SECURITY

    I am cautiously optimistic that we are going to stop 
considering these as pilots and move to a broad-based 
prosecution program hand in hand with the Mexicans for low-
level offenses involving Mexicans on their side. And as we have 
seen, they are starting to convict people and send them to 
jail.
    Mr. Price. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Well, by every account, public and private, the threat on 
that border is increasing. The violence is increasing. The 
audacity and the bravado of the criminal cartels is growing by 
the minute. According to the Department of Justice's most 
recent National Drug Threat Assessment released in February of 
this year, the cartels are not only ``the single greatest 
trafficking threat to the United States,'' they also have 
operations in every region of the U.S. and are expanding into 
more rural and suburban areas, according to the CNN reports. 
And the cartels, according to that report, have partnered with 
U.S. street gangs and prison gangs for drug distribution to 
such an extent that ``Mexican drug trafficking organizations 
control most of the wholesale cocaine, heroin and 
methamphetamine distribution in the United States as well as 
much of the marijuana distribution.''
    Do you agree with that? Commissioner.
    Mr. Bersin. Yes, sir.
    Mr. Rogers. The report also says that greater levels of 
heroin, marijuana and methamphetamine are flowing across the 
border than ever before, and projects availability of such 
drugs to increase.
    Have I understated the threat that is there on the border?
    Mr. Bersin. I think not, Mr. Rogers.

               CUTS TO BORDER PATROL MONEY AND PERSONNEL

    Mr. Rogers. Then how can you justify coming here to this 
Congress and asking us to decrease the amount of money and 
personnel in Border Patrol faced with this ever-growing threat 
to our security? How can you justify that?
    Mr. Bersin. Congressman, with regard to the Fiscal Year 
2011 request and the level of Border Patrol agents, we have 
seen remarkable growth thanks to this Committee, and that 
growth will continue to increase. Although we saw a slight 
decrease from 2009 to 2010, from 21,294 CBP officers, (and 
20,019 Border Patrol agents), we will maintain a level of 
20,163 in 2011. So, in fact, with regard to the Border Patrol, 
the budget calls for maintenance of the unprecedented levels 
that this Committee has been instrumental in providing us on 
the southern border.
    Mr. Rogers. Well, you are still cutting air and marine 
operations, right, and Coast Guard?
    Mr. Bersin. The cut in air interdiction agents, but not a 
diminution in the assets, yes, is from 891 to 839 under the 
budget that has been called for.
    Mr. Rogers. And when you furnished us the first iteration 
of your budget request for 2011, you would have cut 1,100 
Border Patrol agents--I am sorry, 1,100 Coast Guard personnel. 
And then when you heard the noise up here against that kind of 
a cut, you came back with a budget request that restored some 
of that personnel, but you are still cutting the air and marine 
operations and other aspects. And I just wonder how in the 
dickens you can justify that, given the threat that we are 
facing there by all accounts including your own.
    Mr. Morton, you have been silent there a while. What do you 
say?
    Mr. Morton. ICE's budget has a modest 2 percent increase. 
Our budget for this year annualizes the enhancement that we 
received in Fiscal Year 2010, so I am quite confident that the 
President's budget is going to sustain us at our highest levels 
ever, and we will have a modest increase.

                   COMBATTING DRUGS AND GANG VIOLENCE

    Mr. Rogers. You know, Mr. Chairman, the old-fashioned idea 
of what Border Patrol and ICE is supposed to do is to protect 
us against the traditional threat along the border, illegal 
aliens particularly. But the problem on the border has evolved 
into huge changes and into a huge danger, and that is 
criminality, drugs, and contraband and that sort of thing, 
which is really a law enforcement problem. And I have been long 
critical of the administration, of the previous one and this 
one, for not recognizing that the border is more of a criminal 
problem now than it is anything else, and yet we do not have 
enough of the Nation's law enforcement manpower on that border. 
I am talking FBI, DEA and those agencies that fight drugs and 
criminality. And this thing is getting out of hand down there. 
And I wonder what either of you see that we could be doing that 
we have not thought about or not planned for yet. Are we doing 
all that we can do? Commissioner?
    Mr. Bersin. There are always, Congressman, improvements 
that can be made, but in terms of the strategy and the 
resourcing that has taken place over the last decade, indeed 
over the last 5 years, I think what we do is continue to get 
better and improve the mix and the alignment of the resources 
that have been provided; 21,000, 20,000 Border Patrol agents 
compares favorably to what existed when I first met you 15 
years ago by a factor of almost 6.
    We have seen dramatic increases, and we need to now develop 
the capacity of these wonderful men and women who now will have 
the opportunity to become journeyman Border Patrol agents.
    We need to build on intelligence sharing. We need to build 
on technology that is available. We need to coordinate with our 
sister agencies like ICE in a more effective way.
    All of this is always a work in progress. So I wouldn't, 
for a moment, suggest that the work is done or the challenges 
aren't supreme. They are. But, in fact, we stand better 
resourced than we have been. And we need to develop and see 
that the resources that have been given to us are deployed most 
effectively and aligned with our technical equipment capacities 
that also are, frankly, unparalleled from what existed in the 
past.
    Mr. Rogers. Mr. Morton.
    Mr. Morton. Two quick things, Mr. Rogers. One, on your 
point about the border facing a level of criminality that needs 
to be reflected in a change in strategy and approach, I think 
that is one of the great promises that ICE holds. As you 
alluded to, traditionally we are often thought of in the 
context of civil immigration enforcement, yet, at the same 
time, we are the second largest criminal investigative agency, 
with nearly 7,000 special agents (1811s) whose sole job is to 
investigate crime. And we need to harness both of those powers 
in a very focused way on the border to address the problems 
that have arisen.
    And, in terms of what can we do better, one of the things 
you mentioned earlier on that same report from the Department 
of Justice that pointed out the relationship between the 
cartels and gang members and street-level distribution, we did 
something differently this year. It was the first time we ever 
did it, and we need to do more of it. And that is ICE does a 
lot of transnational gang removal. We have typically done it in 
terms of--Look at MS 13. Look at this gang. Are they here 
unlawfully? Let us remove the gang members from the community 
from just a general safety perspective.
    For the first time, we took the very report you were 
talking about, and we said, ``Well, this time let us focus on 
those gangs that also have a direct connection to the cartels 
and the distribution of narcotics.'' We did it nationwide, and 
we ended up with nearly 800 people. That is the kind of thing 
where we need to match our civil powers with our criminal 
powers in a coordinated way so that we are not just removing 
gang members, but we are removing gang members who are 
furthering the efforts of specific cartels. And we are going to 
do more of it.
    Mr. Rogers. My time has expired. Could I ask just one brief 
question?
    Mr. Price. Certainly.
    Mr. Rogers. It relates to the gangs, the contract killers 
that the cartels are now engaging, have contracted with, that 
are apparently responsible for thousands of murders on both 
sides of the border. What can you tell us, either of you, about 
what we are doing to try to break that cycle of hiring gang 
killers?
    Mr. Morton. I am not familiar with the level of contract 
killings that particular report refers to. I will say this, and 
I prefer to say more about it in private rather than in public: 
The relationship between ICE and the Drug Enforcement 
Administration is the closest it has ever been in our country's 
history. And I don't want to suggest that it is perfect. We can 
always work to make it better. But there is a lot going on in 
that regard that I think is promising. We need to do the same 
with the Federal Bureau of Investigation (FBI). ICE's role from 
a border security perspective with the FBI has been good but 
not particularly strategic, so I need to work some more in that 
area. It might be a fruitful one.
    Mr. Rogers. The Washington Post of April 4 carried the 
story about the heavily tattooed Barrio Azteca gang long 
operating across the border in El Paso, dealing drugs, stealing 
cars, but in Juarez that organization, according to this 
report, now specializes in contract killing for the Juarez drug 
cartel. And according to U.S. law enforcement, it may have been 
involved in as many as half of the 2,600 murders in the city in 
the past year alone, and that is just 1 town, 1 city. Can you 
follow up on that and give us a report?
    Mr. Morton. Be happy to.
    [The information follows:]

    RESPONSE: ICE will provide a classified briefing on this 
subject on Wednesday, June 16, at 9:30 a.m.

    Mr. Price. Thank you.
    Mr. Rodriguez.

                            BORDER CROSSINGS

    Mr. Rodriguez. Thank you very much. And let me thank you 
for being here today and what you do for all of us throughout 
the country and keeping us safe.
    Commissioner and Mr. Secretary, as you well know, I 
represent one of the largest districts in the Nation. I have 
785 miles along the border. I have 17 border stations. I have 
seven ports of entry and crossings. I have three Border Patrol 
sectors. And I want to take this opportunity to invite both of 
you to come to my district, if I can. I have had Secretary 
Salazar from Interior come by and visit. I have two beautiful--
I have a good number, but two beautiful national parks right on 
the border, the Amistad, which is the best bass fishing in 
North America, as well as the Big Bend area, which is a 
beautiful area that has 340,000 people visit it every single 
year. And I have 1.7 million people visit the Amistad, and 
thank God we have never had any serious incidents there.
    But we do have a very beautiful relationship in those 
communities working with the Border Patrol as well as the Park 
Rangers, and working together in housing and working on that. 
But I wanted to follow up, and I have been told that we are 
safer when we communicate with the other side and have lines of 
communication.
    There was a numerous number of crossings that were closed 
in that sector. From Del Rio to Presidio is some 400 miles, and 
there are communities there that no longer have legal crossings 
anymore. And so do you see any value with having border 
crossings within the Big Bend or at least looking at the 
feasibility of reopening some of the old crossings?
    Mr. Bersin. Congressman Rodriguez, I thank you for that 
invitation. I have been to your district and share your 
assessment of Amistad and the Big Bend National Park. And, as 
you point out, in those vast expanses of the Big Bend country 
in Texas (across from Nuevo Leon, Tamaulipas and Coahuila in 
Mexico), there is a border that we need to protect but also a 
border that serves as the community, a cross-border community, 
of families, of friends as well as of commercial partners.
    In the wake of security threats (and security being 
paramount) there have been, as you noted, closings of a number 
of the so-called informal crossings in which people crossed 
back and forth across Rio Bravo/Rio Grande for generations.
    As a result of your inquiries and your requests, and 
without sacrificing security, which we understand needs to be 
one of the primary requirements, we are in the process of 
reviewing the feasibility of opening up one or more of those 
crossings but doing it in a controlled way. I think it is 
beyond the point in American and border history where we can 
have unmonitored and uncontrolled crossings, but the point you 
make about facilitating cross-border community life is one that 
we understand and will work to assess with your office.
    Mr. Rodriguez. Thank you very much.
    And I just want to highlight a very positive thing that is 
occurring in Big Bend with the ones we called the Diablos. And 
it is about 38 or so Mexicans that legally--and I say legally--
every year during our emergency periods of time when we have 
fires in our national parks, that have been trained to help us, 
and they come every year in those specific areas where we have 
serious fires occurring, where we can't get other people there 
as quickly as possible, and it is beautiful the way they go out 
there. Right now they just go out on the border and yell out, 
and these farmers and ranchers on the Mexican side come in 
riding their horses and get into their gear to fight the fires 
on our side.
    And so there are some beautiful stories to tell about that. 
So I want to thank you for that. And we want to continue to 
enhance that beautiful trade that occurs there, not to mention 
the tourism with the national parks of those figures that I 
mentioned.
    Secondly, if I can real quickly, I know that throughout our 
history we have used the military on the border, and they have 
played a very significant role in certain specific areas. The 
National Guard, for example, performed non-law law enforcement 
duties and allow for more of our trained Border Patrol and CBP 
officers to be able to do some of the things that they can do 
and get out of behind the desk.

                            BORDER VIOLENCE

    The military on the border has been also a serious source 
of contention along the border. As you well know, in 1997 an 
incident with a young man, a kid actually, a high school kid in 
my district, at Redford who got killed, and I wanted to just 
get some assurance from you--I know the Governor has talked 
about sending the troops to the border, and, by the way, I 
don't have any problem if that is what we need to do--I want 
some assurance that before any type of action in this manner is 
taken, that there will be appropriate outreach information to 
my communities, the ranchers out there and the people in that 
area, and be notified if that is the case.
    Mr. Bersin. Congressman, in dealing with the violence (real 
and threatened), the administration is determined to take all 
necessary actions to protect border communities and our 
national borders. In that inquiry, all options have been on the 
table and will be on the table in terms of law enforcement, and 
any action that is taken will involve the kind of outreach with 
local communities and with state authorities, as you suggest.
    Mr. Rodriguez. Thank you.
    If I can just add, I have my ranchers who also enjoy 
hunting and that kind of thing, and I don't want them in any 
way endangered by our own troops when they go through, so that 
communication is essential. So thank you.
    Mr. Price. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman, and thank you, 
gentlemen, for attending today.
    And as Mr. Rogers pointed out, the level of violence has 
continued to escalate. I live in southern California, and we 
see evidence of that every day in our communities in 
California, and I am sure throughout the Southwest United 
States.
    And obviously, the violence in Mexico is extreme. I would 
say it is not a fight, it is a war. Almost 23,000 people have 
been killed just since 2006 alone in Mexico. And I certainly 
congratulate President Calderon and the courage he has taken to 
take this adversary on, and it is an adversary. And, as has 
been pointed out, the violence is escalating on both sides of 
the border, not just the media when they point out what 
happened to this rancher in Arizona, but the drug activity 
throughout the United States, especially methamphetamine, which 
is being distributed through these gangs right here in Virginia 
and Maryland. It is not just in California and the Southwest; 
it has spread throughout the United States.
    And because of this level, I want to kind of go over with 
the gentleman from Texas, as you know, we had an operation 
called Operation Jump Start. I was along the border back in 
2006, and they give the assistance to the Border Patrol as they 
were increasing their numbers to protect that border. But 
obviously since then violence has increased significantly on 
the Mexican side and on the American side of the border.
    So I am going to ask you, do you think that if that is 
occurring, do you see any value in another deployment of 
National Guard along the borders to support your mission until 
we can stabilize this, especially in areas next to Juarez or 
Laredo and other areas where we seem to see real extreme 
problems along that area?
    Mr. Bersin. Congressman, as we confront the violence on our 
side of the border, and particularly, as you point out, the 
extreme levels of violence taking place in Northern Mexico, in 
Juarez, but also increasingly in the Northeast, in Nuevo Laredo 
and in the Tamaulipas area, as I said, the administration is 
committed to considering all options and the mix of options in 
order to deal with this threat and to contain it, so that the 
kind of extreme violence that is being experienced in Mexico in 
single incidents does not come into the United States and 
affect our communities on the border.
    What I would say is that, as I said to Congressman 
Rodriguez, all options are on the table and in the process of 
being considered and will be determined in terms of law 
enforcement--National Guard deployment, if any--in the near 
future.

                        CRIMINAL REMOVAL PROCESS

    Mr. Calvert. The reason I point that out, if, in fact, the 
reports I have read in other areas that the President of Mexico 
is going to escalate here rapidly his battle--it seems that he 
has been doing that, but I understand he is going to do 
significant escalation here soon going after these individuals 
throughout Mexico--that this probably will have an effect on 
the United States, especially in the border communities, and 
whether we should be prepared for that if, in fact, that 
occurs.
    And, Mr. Morton, on your comment about deporting these 
criminal aliens that are in the United States, I would hope as 
rapidly as possible identifying these individuals, especially 
the ones that are involved in distribution of drugs throughout 
the United States, identifying, finding them and deporting them 
as quickly as possible, and I would hope that is a top priority 
in your Department.
    Mr. Morton. Absolutely. And actually the chairman referred 
in his opening remarks to whether or not our relationship with 
Mexico has improved, and that is one area where it actually has 
improved quite dramatically. The Commissioner and I went with 
the Secretaries to Mexico, and one of the agreements we signed 
was to provide information sharing between ICE and Mexican law 
enforcement officials on all of the criminals that we are 
removing, with an eye to streamlining that process. We are 
working with them on having more centralized removal procedures 
for criminals, maybe flying them to central places. We don't 
just take them to the border communities anymore. It is a top 
priority.

                                  AMOC

    Mr. Calvert. And I would hope if they are incarcerated, 
they stay incarcerated. I don't have a lot of confidence 
sometimes in the penal system in Mexico.
    But nevertheless, one other issue before my time expires. 
AMOC is in my congressional district in southern California, 
and, as you know, they have been very successful and very 
integral in protecting our country from attack not just from 
drug activity, but any potential terrorist problem and the 
rest. Could you provide an update on how AMOC in Riverside, 
California, is utilized specifically in their interdiction, 
security and coordination roles as the environment on and 
across the border has changed over the last year?
    And I certainly share Mr. Rogers' perspective on this is--
if any time, this is more important than ever to keep this type 
of program rolling. So----
    Mr. Bersin. Mr. Calvert, I share your enthusiasm for the 
Air and Marine Operations Center (AMDC) in Riverside, CA. Tony 
Crowder and his colleagues at the operations center have built 
a very critical capacity to monitor aviation movements in the 
country and across the border in a way that significantly 
enhances our situational awareness with regard to aviation 
efforts, in particular efforts to bring dangerous things and 
potentially dangerous people into our country.
    There is a continued reliance on the integration of AMOC 
into our national military and civilian agencies coordination 
between DoD and the Federal Aviation Administration, operating 
with AMOC, is an asset valued, recognized and supported by 
Secretary Napolitano significantly.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Farr.

                    ILLEGAL FLOW OF GUNS SOUTHBOUND

    Mr. Farr. Thank you very much, Mr. Chairman.
    This is interesting testimony on the border because you led 
our Committee on a CODEL once from Tucson to San Diego, and I 
was thinking as we are listening to a lot of this, perhaps we 
ought to do it before it gets too hot, one long weekend here do 
a CODEL from El Paso, Juarez to the whatever that city is----
    Mr. Bersin. San Diego.
    Mr. Farr. No the other way; go east, go the rest of Texas. 
Brownsville.
    But I am struck here as I listen to this because it seems 
to me that we have got to think a little bit outside the box. A 
lot of testimony in other committees is, what are we doing in 
Iraq and Afghanistan? If you think about it, we are trying to 
stabilize an area, we are trying to put a lot of foreign aid 
into that so we can stop the violence that is caused by the 
Taliban. And we have the same situation on the border, we just 
have different names for it. Instead of the military, we put 
ICE, Border Patrol. And I am not sure we have even focused on 
what we ought to be doing about infrastructure development, 
particularly foreign aid, to build the Mexican side of the 
border up so that we don't--all the pain isn't on our side, 
because I think just like the military said that we can't win 
the war in Afghanistan militarily, I don't think we can arrest 
our way out of our border issues.
    And I say that because I represent Salinas, California, 
which is not on the border, but it is halfway between northern 
California and southern California, and we have a border war 
going on in Salinas between the Nortenos and Sortenos, and last 
year they killed 29 kids. Kids killed kids; 29 in a small town. 
Just think what that would be. And it has everybody absolutely 
freaked. Two weeks ago a kid got up in the middle of the night 
to go out to get a drink of water, and he got killed by a 
bullet. It was a stray bullet. He wasn't intended, it was just 
the wrong place at the wrong time. Five years old, could have 
been anybody's child. And it has brought this city to our 
knees, so we really need to have more of a collaborative.
    I want to ask some questions of Secretary Morton, and by 
the way, Commissioner, I am really pleased with your background 
in both San Diego, knowing the border issues, but your 
background in education, because I think what we need to start 
looking at in education, they know that you can't put all of 
the resources in the schools and expect them to have kids not 
drop out unless you have what they call wraparound, all those 
other social services in a community. You know that from an 
airport district in San Diego, it wasn't an island within the 
city, it had to have collaboratives with everything. I think 
you are building those collaboratives, but I don't think we are 
building them enough.
    And I wanted to ask Secretary Morton, we have had this 
testimony before this Committee about the cooperation with 
Alcohol, Tobacco and Firearms, ATF, but it is obvious that 
there is still a massive number of guns and other weapons 
recovered by raids by Mexican authorities as well as ongoing 
levels of violence that U.S. has still not successfully reduced 
in the southbound flow of arms, and my understanding is that 
some of ICE's resources have been redirected to assist in 
reducing the flow of guns. And one of the questions I have is 
what role does ICE play in reducing the southbound flow? What 
do you see as the central challenge to eliminating illegal flow 
of arms? What problems is ICE facing? And if you were given the 
authority and the responsibility, how would you execute a 
program to eliminate the southbound flow of guns?
    And the reason I ask that is when I went with the President 
to the Summit of Americas, we stopped at Mexico City. And it 
was your folks in your Department that were asking these 
questions of me about they are not seeing the kind of 
collaboration that they wanted to see with ATF. So perhaps you 
could answer that question.
    Mr. Morton. Well, here is what we do now. As your question 
suggested, we do not have----
    Mr. Farr. It is not what you are doing now, it is what you 
can do--but what you can do to reduce, what is not--and what 
you are not doing that you should be doing or would like to be 
doing.
    Mr. Morton. By statute, we have no authority----
    Mr. Farr. I know that. But you have collaboration.
    Mr. Morton. That is right. So the support that we can bring 
is to ATF. In the support role, we also have independent 
authority to investigate smuggling of firearms in violation of 
law, but we have no authority to oversee or go to Federal 
Firearms Licenses (FFLs). Then we work very closely with CBP to 
target specific shipments. Often a CBP interdiction at the 
border is, in fact, based on ICE intelligence that we developed 
through an investigation, and then we refer it to CBP for 
actual arrest and interdiction at the border. We are doing 
everything we can to play the most significant support role we 
can to ATF and to CBP.
    And where we have evidence of smuggling and an actual 
smuggling network, we will do that independently, but we are 
quite limited in our legal authority to do more.
    Mr. Farr. I know you are limited in your legal authority, 
and that is what my question really went to is if you were 
given authority, sole authority, because I have even been told 
that there is restrictions on what ATF can do, very restrictive 
as to what they can do in gun stores and so on. If we were 
rewriting all this, what would you like to see?
    Mr. Morton. I think one of the big challenges that we face 
right now is the southbound inspection process, harnessing more 
and more of that, as CBP does more and more southbound 
inspection; taking our intelligence, matching it up with CBP's 
powers to inspect; and doing a more aggressive approach on 
searches along the border, and not just in a random way but in 
ways that we have developed using intelligence from our office 
in Mexico and our offices along the border--looking in that 
car, looking in that container.
    We are in our infancy on that, but that is what we are 
doing, and the more--. We have a very broad informant network. 
We have a lot of undercover cases. We have a lot of 
cooperators. Again within our limitations of the law, we have 
the power to direct more seizures.
    And the other piece is working much more closely with the 
Mexicans because they seize quite a large number of firearms on 
their side of the border, far more than we interdict right now 
going across the border.
    Mr. Farr. Does the power--the agricultural inspections from 
the Mexican side greater for CBP than the firearms power on our 
side? You can go to do more inspections of where it is coming 
from, sources of----
    Mr. Morton. CBP's powers of inspection are quite broad and 
expansive on the border. The question is more about the 
infrastructure and how it was originally designed and put 
together. In the beginning, the structure was mainly on inbound 
inspection, and here we are talking about outbound inspection 
and just the challenge, literally the infrastructure 
challenges, for CBP of doing outbound inspections in a facility 
that was designed with all the lanes and the inspection booths 
for the inbound. CBP has been working on that, and we have been 
lending a lot of our--. We do surge operations, hand in hand 
primarily through our Border Enforcement Security Task (BEST) 
task forces with CBP, where we literally go into the outbound 
lanes, search, and start checking on individual trunks. It is 
not so much that CBP doesn't have the power, it is building up 
that southbound inspection capacity.
    Mr. Price. Thank you.
    Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    And I thank both of you for being willing to take on this 
tough job. And it is a tough one. I personally am very 
frustrated with this whole operation.

                              DRUG CARTELS

    I have been involved in looking at the southwest border as 
a Member of Congress and on a Committee that can do something 
about it since 2004. We have dumped tons of resources into the 
border. I see nothing but failure. I see, A, we have gone from 
cartels in Colombia to now cartels within 250 miles of my home. 
I woke up Saturday and Sunday finding out that 23 houses in 
Austin, Texas, were cartel-owned drug-distribution houses. The 
good news is we raided them, I think made 17 arrests. But the 
point is, now it is no longer 250 miles from my house; now it 
is 5 miles from my house, okay.
    And as far as I am concerned, and as far as the people of 
Texas are concerned, this is an expanding, potentially violent 
situation that is moving into our State. If there are 23 houses 
in Austin, Texas, there are 50 in San Antonio, and how many in 
San Diego nobody knows. So the question is this cancer is 
spreading it is not stopping.
    Meanwhile I talked to Border Patrol agents who were fired 
upon regularly from the Mexican side with no authority to 
return fire.
    We have got to at some time recognize that we have to 
actually get in the business of fighting these people and not 
just talking about fighting the people.
    And I want to know how much assurance do you have that AKs 
are not going to be firing in the capital city of Texas, 
because we now know the drug cartels are purchasing property in 
Austin, Texas.
    So this looks like to me we are failing at that level. We 
have now seen this violence moved up to within 5 miles of my 
home. I want you to give me an answer on what do you see that 
we can do to start fighting rather than talking about fighting 
now for all the time that I have been in this committee? Any 
answer. I will take any answer.
    Mr. Bersin. To say that, in part, thanks to this committee, 
there are increased resources and that, in fact, the potential 
for progress exists is not to deny the gravity of the threat. 
In fact, as you suggest, when you deal with an issue in law 
enforcement, and in particular in one area, it moves and pops 
up in another area. So, in fact, we did see the movement of 
cartel power. Once the Medellin and Cali cartels were reduced 
in significance, we saw the growth of Mexican cartels. and we 
have seen the movement into the interior of the United States 
of drug-distribution gangs that are geared and based in 
organized crime in Mexico.
    Having recognized that threat, in fact, we build the 
capacity to deal with it. And we separate out, in fact, the 
need to prevent the kind of mass violence that we have seen in 
places like Juarez and increasingly in Nuevo Leon and 
Tamaulipas from coming over in that form with that degree of 
shootouts in public places that Mexico has experienced. We 
haven't seen that in the United States, and we need to do 
everything and intend to do everything to prevent that.
    That is not to deny, as you say, that there are drug-
distribution rings in every medium- and large-sized city in the 
United States, and those cause and have violent repercussions. 
That means that we need to continue to do the investigation, 
the prosecution and the interdiction that takes place at 
greater levels than in the past, but is challenged by 
significant threats.
    So I take your point, Mr. Carter, but I don't see this as 
unmitigated failure. I see it as a continuing challenge and the 
need to continue to ramp up our capacity as well as our 
willingness to stay the course on this.
    Mr. Carter. I was in the business of putting people in 
prison for this for 20 years, okay? I know there is always 
going to be and always have been drug-distribution points. My 
point is it is organized crime, Mexican cartels that are out 
there buying homes and putting people in them. It means that 
they have got the resources and they have got the expansion to 
come as far as into Austin, Texas, which makes it mighty close 
to home for me.
    And I think that at some point in time, we have got to 
recognize we got them out of Colombia, why can't we get them 
out of Mexico? What did we do in Colombia that pushed them out 
of Colombia? I think the Colombian Government got severely 
involved, and we, under the Bush administration, forced them 
and pushed them and cajoled them and financed them to get those 
people shoved out of Colombia, but they shoved them right into 
Mexico. And now we need somehow to get together--and I have the 
greatest respect for the Mexican Government. I went to school 
in Mexico. I believe they are a first-class country with first-
class resources, and we can assist those resources. But this is 
a fight. We can't just sit around and talk about it.
    I think if somebody fires upon an American who is doing his 
job on our side of the border from the other side of the 
border, we should talk to Mexico about shooting back, and if we 
don't shoot back, all the Border Patrol can do is duck and 
cover.
    Mr. Bersin. Border Patrol agents have the right to engage 
in self-defense, and what we have that is different from what 
has ever been the case is we have the potential and, in Arizona 
and Sonora, the reality of actually having federal police 
officers who coordinate with our Border Patrol to actually deal 
with this.
    So, for example, in the Tucson/Sonora corridor where the 
Secretariat of Public Security has deployed 200 federal police 
officers who are in regular contact with our Border Patrol, we 
have seen a decrease in the rocking incidents and a response, a 
real-time response. In that respect, I see great potential in 
terms of the coordination.
    But your point in terms of protecting our Border Patrol 
agents, I take that point completely.
    Mr. Carter. These incidents took place in the district at 
Laredo across the border, across the river.
    Thank you, Mr. Chairman.
    Mr. Price. All right. Thank you.
    Let us see. Ms. Roybal-Allard.

                             BORDER FENCING

    Ms. Roybal-Allard. Mr. Bersin, in the rush to build the 
border wall, there was a failure to address some of the very 
legitimate concerns of affected landowners, and the wall 
continues to negatively impact border communities by limiting 
the ability of first responders to reach isolated areas, and by 
adversely affecting farms and other businesses. These 
stakeholders play a critical role in border security, and their 
views should be incorporated into CBP's planning process moving 
forward.
    Can you please tell us what steps is your agency taking to 
develop constructive relationships with local landowners to 
mitigate the effects of fencing and other security measures on 
border communities?
    And also, given the fact that in some areas--I believe that 
El Paso is probably one of the best examples--public 
information offices have been established in certain sectors of 
the border to perform community outreach, and they have proven 
to be a very effective means of facilitating dialogue and 
addressing local concerns before they become major problems, 
are you also considering expanding those programs?
    Mr. Bersin. Congresswoman, I believe, with regard to each 
of our Border Patrol sectors, we have a public outreach, a 
public affairs capacity locally. And one important improvement 
that has been made--as I return after a hiatus of 10 years to 
see the Border Patrol and the way in which it has grown--is 
that it has developed a significant and a sophisticated 
outreach capacity in terms of real communications communities 
and the development of relationships with community groups, 
civic groups and business groups in a way that simply was not 
the case. And you correctly point out that community outreach 
is absolutely essential in areas such as the building of the 
border fence that has taken place over the last number of 
years.
    Secretary Napolitano made clear when she came in--and as 
someone who has lived on the border for a very long time and 
been a political leader as well as a prosecutor, Governor in 
Arizona--that there would be this kind of outreach, and I think 
we can continue to see it, for example, in the area of 
environmental mitigation in which $50 million has been 
committed by CBP to the Department of the Interior. There is 
regular communication with the Department with regard to 
environmental mitigation and, in fact, regular communication 
with local communities. There has been, I think, considerable 
improvement, recognizing that we can always be better in terms 
of public outreach and public communication. But I believe the 
extensiveness of CBP contact, particularly the Border Patrol 
contact, having to do with the fence is actually a fact and a 
very positive fact.
    Ms. Roybal-Allard. I raise this because there was a letter 
sent to Congressmen from an association of landowners who feel 
that a lot more needs to be done, so I am glad that you are 
paying attention to this issue. But I think you need to look 
into it to make sure that there is more progress made in that 
particular area.

               TREATMENT OF UNACCOMPANIED ALIEN CHILDREN

    I also very quickly want to bring to your attention an 
issue that I have been concerned about for some time, and that 
is the reports that I continue to hear about the mistreatment 
of immigrants, especially unaccompanied children, at Border 
Patrol stations. And according to the human rights groups, 
these children sometimes go without beds or blankets, they fail 
to receive adequate nutrition, and in some cases have endured 
physical and emotional abuse.
    Can you please explain what steps that you are going to be 
taking to ensure that every individual in custody is treated 
humanely, and also to provide this committee with the policies 
and procedures governing their care, as well as if you could 
describe what oversight mechanisms exist to prevent the abuse 
of detained immigrants at Border Patrol facilities?
    I have asked this question before. I have gotten responses. 
I am told that changes are being made; however, I continue to 
hear from advocacy groups that go into these facilities and 
hear complaints from immigrants about their treatment. So 
again, this is an area that needs attention immediately, and 
there is a lot more that needs to be done especially in light 
of the fact that we are talking about young children here.
    Mr. Bersin. The commitment to humane and lawful treatment 
of all people taken into custody is a paramount one and one 
that CBP takes seriously. As you know, for many years, the 
treatment of unaccompanied alien children (UAC) has been 
governed by the Reno v. Flores settlement, and, in fact, that 
sets the standard and the protocols that are required in this 
case.
    We have--and I have looked into this--with regard to so-
called UAC, there are very established procedures that are 
followed and supervised to see to it that these minors are 
handled with extreme concern and care and watched very 
carefully as they are turned over to ICE for then, I think, 
subsequent transfer to the Department of Health and Human 
Services. So there is a very established, long established, 
procedure for handling UAC. I am satisfied our people 
understand the absolute importance of observing it and, to my 
knowledge, are observing it.
    Ms. Roybal-Allard. Could you please submit whatever those 
procedures are.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Roybal-Allard. And also I just want you to know that in 
private meetings with some Border Patrol, there does seem to be 
some confusion about what they can and can't do and how to go 
about it.
    Mr. Bersin. Before turning it over to Mr. Morton, let me 
say that, when you receive complaints in this area, or any 
other for that matter, please forward the specific facts, and 
they will be looked into. And, yes, we will provide you with 
the procedures that are required by Reno v. Flores.
    Ms. Roybal-Allard. As well as the oversight procedures that 
you have.
    Mr. Morton. Just very quickly, Border Patrol's detention 
authority is quite limited, and it typically doesn't extend 
much past a few hours to 12.
    Ms. Roybal-Allard. That is what I am talking about, that 
72-hour period.
    Mr. Morton. And, in most instances, if there is going to be 
any prolonged detention, UACS are transferred to Immigration 
and Customs authority. And, as you know, we have a very 
pronounced overhaul of our immigration detention practices 
underway. But, with regard to minors, there is quite a detailed 
set of procedures. They come to us, but only very briefly, 
because we, in turn, turn them over to Child Protection 
Services in most instances or advocacy groups with contracts 
with the state.
    Mr. Price. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

                          OPERATION STREAMLINE

    Commissioner Bersin, can I ask your help, please, in 
providing me with some information that my office has been 
trying to get from you for some time? It is very simple and 
straightforward. We are looking for the numbers of individuals 
that have been apprehended, this by sector, sector by sector, 
on the southern border, and northern border, too, for that 
matter--we are not neglecting it, but obviously the problem, 
the most severe problem, is on the southern border--but sector 
by sector the number of individuals apprehended, and then the 
number of individuals actually prosecuted, by sector, over the 
last several fiscal years. Could you provide that to me by the 
end of the week? You have got the data. It is real simple.
    Mr. Bersin. I was going to say I would be happy to provide 
the data. My understanding is we have apprehension statistics, 
and we have the prosecutions, particularly with regard to 
Operation Streamline. We will get it to you as expeditiously as 
we can.
    [The information follows:]

    RESPONSE: This response has been designated as ``Law 
Enforcement Sensitive--For Official Use Only'' and, as a 
result, cannot be placed in the record or released to the 
public. DHS has provided this response to the Committee 
separately.

    Mr. Culberson. Thank you. Thank you. I really appreciate 
it. We and all of us in this Committee have a keen interest in 
making sure the border is secure. Those of us from Texas in 
particular, this is near and dear to us.
    My good friend Ciro Rodriguez--we were elected together in 
1986, and known each other, been good friends ever since--have 
worked together very successfully with Henry Cuellar, who also 
was elected with us to the Texas House in 1986, to implement 
Operation Streamline. Works beautifully. This is not 
complicated. You enforce existing law with existing resources 
by law enforcement officers who are using their good judgment 
and their good hearts to prosecute everybody who crosses with 
the obvious exception of women and children, who are handled a 
little differently. The officers are using their good judgment 
and their good hearts.
    But I was wondering if you could--just if you could 
reaffirm your support for Operation Streamline and our efforts 
to get it expanded up and down the southern border. You are in 
support of Streamline and want to see it expanded?
    Mr. Bersin. Yes. As a former prosecutor, I understand the 
importance of consequence delivery. As you understand, no 
series of crime, save the most heinous, actually are prosecuted 
at a 100 percent rate. But the importance of the deterrent 
effect in the application of Operation Streamline has a very 
important place in consequence delivery, in the deterrence of 
illegal immigration among other violations.
    Mr. Culberson. And you have seen the dramatic declines in 
the crime rate in the Del Rio and Laredo sector. It is just a 
terrific program.
    And also I think it is important, as Mr. Carter has said, 
that I think we quit--the country recognize that in a real 
sense there is an undeclared war on the southern border. Mexico 
is as violent today, Northern Mexico, as it was 100 years ago. 
I am going to go back and look at the level of violence 100 
years ago during the Mexican Revolution in Northern Mexico and 
compare it to today, and I suspect we will discover that the 
level of violence today was even more severe than it was 100 
years ago when President Wilson sent General Pershing to the 
southern border to deal with the violence that had crossed over 
into the United States.
    The Mexican Army itself--I understand the Department of 
Defense estimates that the Mexican Army has about 130,000 
troops, but that the cartels, just the two biggest cartels 
together, have about 100,000 foot soldiers. So in a very real 
sense the level of violence, the spillover, the shootings 
across the border, the helicopter crossings, just the chaos and 
the violence that we see in Northern Mexico certainly meets--
you know, Webster's dictionary defines a state of war as a 
state of hostility, conflict or antagonism between opposing 
forces for a particular end. And I certainly think what we are 
seeing in Mexico today qualifies as a state of war, which we 
need to quit--we need to--as Mr. Carter says, there is a lot of 
talk, and we don't see enough action.
    So I appreciate your commitment to expanding Operation 
Streamline. It is vitally important. It works beautifully. This 
is, from our perspective on the U.S. side, a law enforcement 
operation. We need to stay focused on that. The role that the 
National Guard played in the Bush administration was one of 
support and support of the Border Patrol, and I think that is 
important, but they were very successful where they were 
deployed and sincerely appreciate the dedication of your 
officers, the work that you are doing. I understand the 
frustrations and challenges you face. I know this Committee 
supports you in a bipartisan way.
    I would like you to, if you could, look into what Mr. 
Carter has identified in the Laredo sector, several instances, 
and I am also aware of shootings, people from the Mexico side 
shooting at our law enforcement officers, and our law 
enforcement officers are unable to return fire. They are under 
orders not to return fire, and that just doesn't make any 
sense. They can certainly shoot in self-defense. But I hope 
that you can correct that situation.
    Mr. Bersin. Mr. Culberson, we will get back to you with the 
incidents that have occurred over the last 3 years and the 
facts attendant to each of them because the protection of our 
Border Patrol agents on the front line is very much uppermost 
in my mind.
    Mr. Culberson. Also I want to ask, Mr. Chairman, I 
appreciate the time, the Border Patrol in fiscal year 2008, Mr. 
Bersin reported that there were three individuals--and this is 
from the GAO report in August--that the Border Patrol reported 
in fiscal year 2008 there were three individuals encountered by 
the Border Patrol at southwest border checkpoints who were 
identified as persons linked to terrorism. Who were they, and 
to what terrorist organizations were they linked?
    Mr. Bersin. I prefer to get that back to you in response to 
that issue. I can't identify those persons for you at this 
moment.
    [The information follows:]

    RESPONSE: This response has been designated as ``Law 
Enforcement Sensitive--For Official Use Only'' and, as a 
result, cannot be placed in the record or released to the 
public. DHS has provided this response to the Committee 
separately.

    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman.
    Commissioner Bersin, Secretary Morton, thank you for being 
here.

                             BORDER FENCING

    I come from a non-Mexican border State, the State of New 
Jersey, but there are consequences to the flow of criminal 
activity across the Mexican border into the United States that 
are felt in New Jersey in terms of gang violence and drugs, of 
course. In many of my town hall meetings, the subject of 
illegal immigration comes up, especially that immigration 
originating across the Mexican border.
    The issue of a fence, some people say just build a fence 
all the way across the border. I notice in the budget we now 
have, in the testimony with Commissioner Bersin, 646 miles of 
fencing to go up to 655 miles of fencing. Do you consider that 
amount to be sufficient? Should the entire border be--should a 
fence be put up through the whole border? Would that be the 
best use of U.S. taxpayer dollars to stop the flow of illegal 
activity across the border?
    Mr. Bersin. The building of more than 600 miles of fencing 
in the original directions of the Congress--Secretary 
Napolitano indicated when she took office more than a year ago 
that she committed to completing what Congress had mandated, 
and, except for several miles that are still being discussed, 
that commitment has been met.
    The Secretary has also indicated that she will continue to 
be advised by professionals on the border (Border Patrol 
agents, our field officers, our air and marine officers, as 
well as ICE agents and others who live and work on the border) 
about whether or not any additional infrastructure would be 
necessary.
    Mr. Rothman. Mr. Commissioner, excuse me, I have a limited 
amount of time, so I want to follow up on your answer. So would 
it be a fair characterization of your testimony that today and 
in the fiscal year 2011 budget request of your agency, the 
amount of fencing that you want to build is being funded?
    Mr. Bersin. To this date, yes, sir.
    Mr. Rothman. Next. There is a general sense--and this is a 
softball, this is one right over the middle for you gentleman 
to address--but there is some chatter out there from various 
sources saying that the border between Mexico and the U.S. is 
porous, it is practically open, there are criminal gangs just 
flowing unimpeded into the United States, drugs are coming in 
willy-nilly. Now, of course your written testimony belies that, 
but for the record, and this is being televised, are those 
statements true, illegal immigrants coming in, terrorists 
practically able to walk in without any problem?
    Mr. Morton. Those statements aren't true as your question 
suggests.
    Mr. Rothman. They are true that all these things are 
happening easily without any impediments?
    Mr. Morton. No. I think that both Commissioner Bersin and I 
would note for everyone here, and I think most of the 
individuals on the panel have seen it as well, that while the 
challenge remains very significant (and I don't pretend that it 
is not a very real and significant challenge) the resources and 
enforcement dedicated to our southwest border has never been 
greater. And the change has been profound in the 16, 17 years I 
have been in the enforcement business.
    Mr. Rothman. But sir, Mr. Secretary, is it enough? I 
appreciate the fact that there are more resources than ever, 
the threats are real, and you are addressing them with greater 
and greater success. Is your budget enough? Should we give you 
more money to do more things?
    Mr. Morton. You know, that is a question that the 
administration officials always have to dance a little bit on, 
and so I will say that I am always happy to do everything I can 
with the good money that the Appropriations Committee gives me.
    Mr. Rothman. Are we gaining ground or losing ground in 
these areas?
    Mr. Morton. I think we are gaining ground, but, again, I 
don't want to be heard as saying that I think we have by any 
means solved the problem or that some of the points that Mr. 
Carter has made. I think the greater point is that we are in a 
long-term struggle with organized criminals, and they are 
trying to stay a step ahead of us. They are willing to go to 
lengths that we haven't seen in the past, they are willing to 
go to a level of violence and brutality we haven't seen in the 
past, and our job is to stay a step ahead of them.
    Mr. Rothman. And your budget reflects the resources to 
address that, you feel, this year?
    Mr. Morton. I feel that this year for ICE, in particular, 
we are going to have the----
    Mr. Rothman. One fast question.
    Mr. Price. The gentleman's time has expired. We will have a 
quick second round, but let me turn to Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.

                       DRUG SMUGGLING VIA TRUCKS

    Mr. Bersin, there was an ABC World News Tonight report a 
year ago now which suggested that--the title was ``Cocaine 
Highways Post-NAFTA: Most Drugs Cross U.S. Border in Trucks.'' 
I don't know if you are familiar with that report or not. But 
let me read the introductory paragraph.
    It says, Most of the drug shipments smuggled into the 
United States by the Mexican cartels are hidden in trucks that 
drive across U.S. border checkpoints in plain sight with little 
fear of inspection, U.S. law enforcement officials told ABC 
News. Only about 5 percent of the trucks coming into the 
country from Mexico are inspected, according to U.S. officials, 
and that is out of 3 million loaded container trailers crossing 
the border checkpoints last year, which would have been 2008.
    And a Juan Zarate is quoted in this piece as saying, quote, 
It is just--Mr. Zarate dealt with these trafficking issues in 
George--in President Bush's White House. Mr. Zarate was the 
Deputy National Security Director under President Bush, and he 
is quoted in this article as saying, It is just too costly and 
too slow, given the volume of trucks, to actually try to stop 
and inspect each and every truck. And he goes on and says that 
any attempt to inspect all trucks crossing the border, quote, 
would have a hugely negative impact in terms of commercial 
traffic and trade between the United States and Mexico.
    Is this accurate? Is this an accurate depiction of----
    Mr. Bersin. I am not familiar with that particular article. 
I would not say----
    Mr. Mollohan. Do the facts resonate with you?
    Mr. Bersin [continuing]. That article, as you have 
described it adequately or accurately in all respects, 
characterizes the situation at the southern border.
    Mr. Mollohan. Are you saying it does or it doesn't?
    Mr. Bersin. It does not because, in fact, there are 
sophisticated methods we use to determine which trucks or 
vehicles that are coming across the border need to be 
inspected, subjected to the kind of X-ray equipment that is 
unprecedented, in part, because of the resources provided by 
this Committee.
    In fact, more than 5 percent are inspected, but it is not 
just a--sometimes it is done on a random basis, but, in fact, 
there is a sophisticated targeting system based on advance 
information that we require of trucks coming to the border, in 
terms of the use of intelligence systems that we have, so that, 
in fact, it is much more organized, much more systematic and 
much more effective than that article suggests, sir.
    Mr. Mollohan. It sounds like you are dealing with a tough 
problem. Statistics can't be too far--are there 3 million 
trucks that come across the border inbound to the United States 
every year?
    Mr. Bersin. I know that CBP handles 60,000 containers that 
come across every day via air, sea, and land. We don't have--I 
will get you the specific number of trucks from that number.
    [The information follows:]

    Rep. Mollohan: How many Mexican trucks travel inbound into the 
United States each year?
    RESPONSE: Please see the chart below for vehicles crossing from 
Mexico for Fiscal Years (FY) 2007-2009, and FY 2010 year-to-date ending 
in March.

        SOUTHWEST BORDER COMMERCIAL VEHICLE CROSSINGS FROM MEXICO
           (Past Three Fiscal Years (FY 07-09) + YTD FY 2010)
------------------------------------------------------------------------

------------------------------------------------------------------------
4,818,936           4,967,514.......  4,275,977.......  2,286,277
------------------------------------------------------------------------

    Mr. Mollohan. It sounds like a huge number of trucks coming 
across the border, and it sounds like a small percentage, 
relatively small. Your response to that is it may be relatively 
small, 5 percent might not be the right number, but it might be 
relatively small, but we deal with that by a sophisticated 
selection process.
    Mr. Bersin. There are a variety of programs that help us 
distinguish between those cargoes about which we know something 
and those about which we know nothing.
    Mr. Mollohan. Would you for the record submit kind of a 
discussion of this? You are not going to have time to respond 
in my time, and I really think it is an important question. How 
do we deal with that? If it is true, once they get across the 
border, my goodness, what a transportation vehicle for drugs 
across the country. And this article goes on to say that there 
is a--they have hubs across the Nation, and it references 
Atlanta as doing it.
    For the record would you please elaborate on this answer 
and get us some accurate statistics and then how you are 
dealing with it, please? Would you submit to my office that 
copy, too?
    Mr. Bersin. Yes, we will do that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mollohan. Mr. Chairman.
    Mr. Price. Thank you very much.

                             MEXICAN GANGS

    We are trying to honor Mr. Bersin's schedule for an airline 
that is not going to wait, but we do have time, and I think we 
do have some further questions. So we will proceed with a brief 
second round here, if that is all right with you gentlemen. And 
I will begin by referencing Mr. Rogers' comments about these 
gangs that have specialized in assassinations. The Aztecas, I 
think, was the case he quoted, responsible for something like 
2,660 murders in 2009, just an incredibly and, of course, 
highly alarming figure.
    In that context I would like to ask you specifically about 
press reports that follow the March 13 killings of U.S. 
consulate workers and their family. The DEA led a multiagency 
gang sweep called Operation Knock Down to apprehend dangerous 
Azteca gangs members after that. Soon after there was a warning 
that came out of DHS. That is what I wanted to ask you about, a 
warning that said the Azteca had been given a green light to 
conduct retaliatory killings of U.S. law enforcement officers. 
What can you tell us about that? It sounds like an ominous 
escalation; looks like a type of direct confrontation that 
could mark a new level of engagement with these Mexican gangs.
    Mr. Morton. To be candid with you, Mr. Chairman, I would 
prefer to answer that question off the record with you. But 
what I can say more generally is that we have-- We are working 
very closely with the Drug Enforcement Administration (DEA) and 
the Federal Bureau of Investigations not only in Operation 
Knock Down, but to identify the killers in that case and to 
focus the full weight and resources of the Federal Government 
on the Barrio Aztecas. We get a lot of information through 
investigation. So far, we have not seen that the particular 
information that you refer to, in fact, reflects actual 
intentions.
    Mr. Price. Of course, I would welcome the information you 
have in whatever setting you need to use. This was a public 
pronouncement though, a green light on retaliatory killings of 
U.S. law enforcement officers, and that is why I bring it up in 
this setting, a very, very ominous kind of escalation of this.

                                 BESTS

    All right. Let me turn to the Southwest, the Border 
Enforcement Task Force teams. You have referenced those a 
number of times today. I want to ask you more specifically 
about what value added they represent, and what kind of 
evidence you have of their performance, and also why this isn't 
more explicitly reflected in the budget request for 2011.
    We provided 100 million last spring to respond to the drug 
violence in Mexico. ICE received 55 million of this, largely 
for these new so-called BEST teams, as well as more border 
intelligence officers, expanded investigatory resources, and so 
on.
    Do you have any measure of success, Secretary Morton? What 
kind of difference are these units making? What is their value 
added? What is your measure system? What do you anticipate?
    We know that the 2011 budget request continues the base 
budget for ICE southwest border initiatives like BEST. There is 
no specific funding proposed for expansion of this effort, and 
so it just raises the question, is a flat budget adequate for 
what appears to be a problem that is not going away and, we 
hope, an initiative that is making some headway?
    Mr. Morton. A few things, Mr. Chairman. First, I think our 
budget does, in fact, request a modest increase for the BESTs, 
including three new ones. They would not be along the southwest 
border. Two would be at seaports, and one would be along the 
northern border.
    Mr. Price. Excuse me. Could you clarify that? There is some 
BEST team expansion, but not on the southwest border.
    Mr. Morton. Not on the southwest border. But more 
generally, and I think that is a reflection, Mr. Chairman, of 
the very tight budget environment, that our modest increase 
would, in fact, focus how much importance we give to these task 
forces.
    Very quickly, the whole task force concept for BEST was in 
response to the violence in Laredo in 2005, very similar to the 
conversation that we have had today. That worked so well that 
we immediately adopted the basic concept elsewhere, and it has 
grown very rapidly. We use task forces for all sorts of things, 
from criminal investigation to surge operations that we do with 
CBP. CBP is our biggest partner on the task forces, and we have 
begun to work very closely with the marshals. We are hunting 
down fugitives. We returned a number of wanted murderers using 
the task forces. We go out and we find them, and we return them 
to Mexico.
    What do we need to do a better job on? Were Congress to 
appropriate the 2011 budget, we would move to 20. I have 
directed that we create an office here in headquarters to 
better coordinate what we are doing, to make sure that the task 
forces are working in tandem in their respective spheres and 
that we have articulable measurements for success, so that you, 
the Committee, can evaluate how value added that we think they 
are and why we think they have been so successful.
    They have worked really well in the seaport context. We are 
thinking about having our very first one in a major 
international airport. It just has worked well. We are bringing 
not only our federal law enforcement partners, but our local 
law enforcement partners.
    One little trick that we may want to talk to you about in 
terms of making the program a full success is that our ability 
to reimburse some of our state and local law enforcement 
partners is quite limited. CBP has much broader authority, and 
we can reimburse some overtime, some equipment purchases, but 
our authority is quite narrow; it is not really a question of 
money, but just authority for it. And I think that would 
greatly help the overall effectiveness of the BESTs.
    Mr. Price. Have you, in fact, requested that formally?
    Mr. Morton. No, and we need to talk to you about it. It is 
really just getting the legalities down in terms of our 
authorities. I don't think it is a heavy lift. It is something 
that we need to come and brief you about.
    Mr. Price. Thank you.
    Mr. Rogers.

                                 JIATFS

    Mr. Rogers. How many BESTs are on the southwest border?
    Mr. Morton. Ten, Mr. Rogers.
    Mr. Rogers. The last time you were here, we talked about 
the advisability of creating a joint interagency task force for 
the whole southwest border, where all of the agencies that 
might be involved in some fashion would be headquartered under 
one roof to coordinate the defense of that border, much the 
same as the JIATF task force in Florida manages the Caribbean 
antidrug war very, very successfully. Are you giving some 
thought to that?
    Mr. Morton. A lot of thought. I think most people would 
agree with your general assessment that Joint Interagency Task 
Force (JIATF) South has worked quite well, that something akin 
to JIATF South, from an intelligence perspective, makes a lot 
of sense along the southwest border.
    Mr. Bersin and I have talked about this subject at great 
length, and the question is do we model something like JIATF 
South for the southwest border in a place like the El Paso 
Intelligence Center (EPIC), which is right now very sort of 
Department of Justice (DOJ)- and DEA-centric (although CBP has 
quite a presence and ICE has quite a presence), or do we have 
an outright JIATF structure that is independent of EPIC along 
the border? But I think few people would argue with your basic 
premise that JIATF South or something like that would be quite 
useful along the border. It think we think it does.
    Mr. Rogers. We talked about this last year. Have you moved 
at all since then?
    Mr. Morton. Yes, we have talked about it a lot in the 
interdiction committee that both Mr. Bersin will now sit on and 
that I sit on presently. There are many moving parts. Obviously 
to do this right, you have to get a lot of different federal 
agencies to come together under one roof and to coordinate. CBP 
and ICE, fortunately we are within the same Department, and we 
are already moving a lot of our intelligence operations closer 
and closer together.
    I think the momentum, though, is very much in favor of the 
general concept that you outlined, and it is just a matter of 
time.
    Mr. Rogers. Well, we are facing problems on that border as 
we have talked about this morning that are enormous and growing 
and very dangerous to the security of the whole country, both 
us and Mexico. And it seems to me that we need a single place 
where all of the agencies, military and civilian, are 
headquartered, much like JIATF South on the antidrug war in the 
Caribbean, so that you can call instantly on any asset of any 
of these agencies that may or may not be needed and get an 
instant response, and where you coordinate both Justice 
Department activities as well as DHS and any military agencies. 
And when can we expect a decision about doing this?
    Mr. Morton. I can't promise you any timetable on a decision 
because it obviously involves many more players than me. What I 
can tell you is I actually spoke to Michele Leonhart, who is 
the Acting Administrator of DEA, on this very issue, this exact 
conversation, on the way back from the trip to Mexico, and we 
agreed that I would go down. We are waiting for Commissioner 
Bersin to come on board and go down and take a hard look at 
EPIC and what we are doing there. We just need to have that 
kind of assessment in conversation among the key players. And 
now that Alan is here, that is very much one of the key 
players, and we will move from there.
    Mr. Rogers. Could we get an update on your progress, say, 
within 30 days? Is that a reasonable time, or should it be 
longer or shorter?
    Mr. Bersin. We could certainly give you an update on where 
the discussions on EPIC and the coordination among agencies is, 
but I think realistically because--as you recognize--this would 
be a major structural transformation, 90 or 120 days would give 
you more substance than not.
    Mr. Rogers. What could we expect in 90 days?
    Mr. Bersin. I think what we could report back to you is 
where the federal agencies across DHS and DOJ, and the 
Department of Defense for that matter, would be in terms of the 
willingness to entertain in serious detail, not in rhetorical 
flourish, of the notion of a unified command, a joint command 
or a variety of other command mechanisms that are available.
    Mr. Rogers. Mr. Chairman, to try to further this process 
along, I would hope that we could informally request of the 
gentlemen a report on how we are doing in 90 days. Would that 
be a reasonable request?
    Mr. Morton. Fine. From the two of us.
    Mr. Price. Let us just agree at this point that we will 
make that informal request and look forward to it. 
    Mr. Rogers. That would be a big step forward. I think the 
time has come for a headquarters operation like this to manage 
that whole aspect of the southwest border.

                          BULK CASH SMUGGLING

    Quickly switching gears, last time I guess it was you were 
here, Secretary Morton, we talked about the flow of drugs 
across the border this way, and possibly the money and guns and 
stuff going the other way. What can you tell us about those 
subjects?
    First off, do we have an estimate, a rough estimate, of the 
amount of money that the drug sales in this country are netting 
the cartels in Mexico?
    Mr. Morton. Yes. There are broad ranges of anywhere from 
$18 billion to north of 30----
    Mr. Rogers. Eighteen to $30 billion per year?
    Mr. Morton. Per year.
    Mr. Rogers. And that is money going from the U.S. to the 
cartels across the border, the southwest border?
    Mr. Morton. Yes. And then, in certain instances, to places 
like Colombia and other countries.
    Mr. Rogers. How can that amount of money, say, $30 billion, 
how that can that amount of money cross that border without us 
knowing about it? Just the bulk of that is something; is it 
not?
    Mr. Morton. It is.
    If you were to ask me where is the area where we need to 
devote more time and attention to developing intelligence, it 
is in this exact area that the--although CBP and ICE's 
seizures--and we typically do these together because a lot of 
CBP's seizures are based on ICE leads--are at an all-time high, 
the truth of the matter is we are seizing a fraction of those 
estimates if that is right.
    Mr. Rogers. How much money have we seized going south?
    Mr. Morton. This has been a particularly good year. We 
typically, between the two agencies, are north of $200 million 
per year. This particular year we had one of the largest 
seizures in ICE's history of $40 million in some shipping 
containers going between Mexico and Colombia. We found the 
containers in the space of about 10 days. They were packaged 
inside very large ammonium nitrate shipments.
    Mr. Rogers. You recovered roughly $200 million out of $30 
billion?
    Mr. Morton. Yes. And then DEA and the other partners at 
Justice seized a similar amount, but, again, it is by no means 
the majority of the money. We are not seizing most that is 
going south if those estimates are right.
    Mr. Rogers. That is a miniscule percentage, a very 
miniscule percentage.
    Commissioner Bersin, do you have any information you can 
share with us on this?
    Mr. Bersin. Congressman, although much of the money goes 
down in bulk cash, as Secretary Morton indicated, and CBP and 
ICE are working to intercept it, not all of it is bulk cash, 
but rather is transferred through banking channels and through 
trade arrangements. And, as Mr. Morton suggested, we need a lot 
more intelligence about the way in which money is laundered, 
and we need to be able to identify with much more precision 
about what the proportion is in cash as opposed to other kinds 
of transfers. And frankly, we need to get a better range, 
simply $18 million up to $30 billion, so that we can be much 
more responsive in our efforts.
    Mr. Rogers. It seems like this is a very fertile field for 
getting at the problem, and that is tracking the cash that is 
flowing across that border in rivers. Quickly----
    Mr. Morton. If I could add one thing on that, Mr. Rogers, 
there are many things that we are doing to try to address that 
exact point. We are working with the DEA, ICE, CBP and the 
Mexicans to study the flow of money from the United States to 
Mexico. And we are also working with the World Customs 
Organization (WCO) to try to broaden our efforts. We are doing 
these for the first time, international bulk cash smuggling 
surges, where we get-- Last year we had more than 80 countries 
pick a week, and we hit every airport, we hit every crossing, 
and we just went looking for trouble. And it has been quite 
successful. We want to do more of those under the umbrella of 
the WCO, and we have seized a lot of cash.
    And this phenomenon is by no means limited to the drug 
cartels. All large criminal organizations need to move money 
back and forth, and they do it through bulk cash smuggling or 
through sophisticated money laundering.

                            FIREARM SEIZURES

    Mr. Rogers. At this Committee some time back there was a 
lot of noise made about weapons of the cartels coming from the 
U.S. across that border. Have you determined how much weaponry 
is going north to south?
    Mr. Morton. I have not, and as alluded to earlier, we have 
some--we have very limited authority in the firearms area. 
Typically we look to ATF for the estimates and analysis of what 
is coming and going across the border because they have the 
tracing authority. We do not.
    Mr. Rogers. Mr. Commissioner, do you have information for 
us?
    Mr. Bersin. Not to add to that.
    Mr. Rogers. Well, I can tell you this: According to CBP, no 
weapons have been seized by way of rail into Mexico from the 
U.S. Only 72 weapons have been seized heading outbound at 
points of entry, including one submachine gun, 15 shotguns, 28 
rifles and 28 handguns. Considering the weaponry that the 
cartels have in Mexico, these are popguns that we are talking 
about here. There is hardly any weaponry that has been seized 
going south across that border. Is that generally true?
    Mr. Morton. I know that our seizures are roughly in the 
neighborhood of about 1,500 per year. So most of the seizures 
that I am aware of occurred in Mexico and obviously could have 
come from a variety of sources, including the southern border 
of Mexico and elsewhere.
    Mr. Rogers. No. I mean outbound weapons at points of entry.
    Mr. Morton. I would have to defer to the Commissioner.
    Mr. Price. Let me say to the gentleman we did receive, in 
response to inquiries in our last hearing, specific information 
about weapons seized at outbound points of entry. What we don't 
have is a fuller account of the assessment of the weapons 
seized in the country, in Mexico and the country of origin of 
those weapons.
    Mr. Bersin. That is an area of continued inquiry in terms 
of the population of weapons you look at. But the Congressman 
is right. In Fiscal Year 2009, 109 firearms were seized by CBP, 
and thus far to this point in this fiscal year, 72 firearms 
have been seized at outbound checks.
    Mr. Rogers. And those were the numbers that I quoted to 
you. But the question the chairman was talking about of the 
origin of weapons that have been found in Mexico, what can you 
tell us about those?
    Mr. Morton. That is where ATF comes in with the tracing.
    Mr. Price. That is the information we still need to get 
from ATF.
    Mr. Morton. ICE does have FFL authority under the law.
    Mr. Price. We will pursue that energetically because we do 
need to fill out the picture more fully.
    All right. Moving right along. Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much. And let me say in that 
particular specific area, I know we put in about 15-17 million 
to do that, which is not sufficient in all honesty, and the 
little reports that I got when I was in Mexico was that a good 
a number, they felt, came from the U.S., but they weren't sure. 
What they did know was that a lot of the guns did come from the 
wars that we have had in Central America and elsewhere, 
especially some of the big arms. But we do need additional 
data.

                             DRUG SEIZURES

    I also feel what the Congressman, Minority Leader, just 
talked about in terms of following the money, we haven't done a 
good job there. And I know there is some stuff out there in the 
Caribbean, and there are some other people doing some things. 
But please let us know in terms of what else we might be able 
to do there, because if it is $30 billion, and that amount 
remains stagnant, and we have done a lot more capture of a lot 
more drugs, and assuming that our appetite for drugs in this 
country has remained the same, then we made some inroads. If 
our appetite has increased, then we haven't, we are not there 
yet.
    But let me also just add I had an opportunity to visit 13 
of my 20 counties. One of them was at Fort Hancock, which is 
Hudspeth County, and there is a genuine--of all my counties, I 
think that is where there is a genuine fear there that is 
occurring and a concern in terms of what is happening on the 
other side. I met with the sheriff's staff on this side. I met 
with the Border Patrol. And by the way, they are doing a 
tremendous job. All the numbers are dropping in my three 
sectors, and they are doing good work and haven't heard too 
many complaints or too many concerns except in that specific 
area, and that fear is from other communities not wanting to 
send their kids to play ball there, to do other things like 
that. And I know that part of it is just what they hear in 
terms of what is occurring across the border and what is 
happening in terms of the ones that are coming across. There 
are increases locally in terms of they were telling me they got 
about 1,100 seizures of the local authorities there.
    And having said that, I wanted to reemphasize how important 
it is for us to continue work with our sheriffs and the county 
officials as well as the cities. And I mentioned the city of 
Presidio because they have, I think, one deputy working there 
for the whole city; they can't afford any more.
    So that Stonegarden project that the chairman has been 
really helpful on has been really a good program that has been 
extremely positive, and ironically Hudspeth County is not one 
of the ones that has received those resources. But it has been 
helpful.
    So whatever we can do to beef up on local authorities and 
somehow look at the language, and also look at the school 
districts, because I know I have a couple of school districts 
where there has been talk about people coming over, and the 
kids that are dropping out, where there is dialogue about 
picking up some of those kids who do the drugs now from the 
cartels. I don't have any evidence, but I know we have had a 
lot of talk in some areas in the border where it might be 
happening in Brownsville. Whatever we might do in terms of 
those political subdivisions such as school districts, cities 
and counties and continue to support that, I would appreciate 
it.
    I know the administration, did they wipe out that sector, 
the $60 million that we put in there, Mr. Chairman? It is in 
the budget?
    I know I will be asking the chairman to see if we can up 
those numbers a little bit in not only helping the northern 
border, but the southern border. So I wanted to stop with that 
and seeing how else we might be able to work with those 
communities.
    One of the other is just communication. Along that border 
there, my God, you get lost. They are still unable to 
communicate among themselves. Having that interoperable 
communication capability is essential, and every year we put a 
little bit, a little bit. In some areas we are almost there, in 
other areas we are not quite there yet, where the local sheriff 
and the local police can dialogue with not only EMS, but also 
Border Patrol and other people. That is important. And so thank 
you very much. If either of you want to comment on that.
    Mr. Price. Why don't we ask Mr. Mollohan to close us out, 
if that is all right, because our time is really drug to a 
close.
    Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.

                  EPIC AS PRIMARY INTELLIGENCE CENTER

    Gentlemen, Drug Enforcement Agency's 2011 request includes 
$40 million to dramatically expand the El Paso Intelligence 
Center. Part of the justification for that is the anticipation 
that ICE is going to be using that. Following up on the ranking 
minority Member's questions, does ICE intend to choose EPIC as 
its primary intelligence center for southwest border needs?
    Mr. Morton. I was unaware that that request was based in 
any formal way on a decision by ICE because that decision 
hasn't been reached. What I have agreed to do is to take a hard 
look at the resources we have at EPIC. I think we need to have 
much more coordinated intelligence gathering----
    Mr. Mollohan. When are you going to make these decisions? 
Because these funding decisions are going to be made very 
quickly, and it is a large amount of money. So the question is, 
does ICE support using EPIC as the primary intelligence center? 
And that is the question that really needs to be answered for 
us to respond to these requests from these law enforcement 
agencies.
    Mr. Morton. I think, as we have noted, that is an ongoing 
discussion and will be part of what we get back in the 90 days 
that we have agreed to here.
    Mr. Mollohan. Ninety days. I agree with the ranking member, 
90 days is a long time, because we are going to be making these 
funding decisions much more quickly than 90 days.
    Mr. Morton. One thing I need to do is to look at DEA's 
request for $40 million and to the extent that it refers to 
ICE, which is news to me, and then talk to Michele about it. 
But I am not prepared at this time to say that we have decided 
that, in fact, EPIC is the place to be. It is obviously one of 
the prime contenders.
    Mr. Mollohan. What would be the alternative to using EPIC 
for that purpose?
    Mr. Morton. One of the other centers or the creation of a 
new center along the southwest border.
    Mr. Mollohan. Who would stand the new center up?
    Mr. Morton. Well, it could be the Department of Homeland 
Security. CBP and ICE already are, in practical terms, the 
principal players along the border. CBP and ICE share 
intelligence regularly. We are already moving many of our 
operations. We do them in the same place. And then, of course, 
the military is a key player. JIATF South, to start with, has a 
very strong military support and structure to it.
    Mr. Mollohan. Would you include my office, please, in the 
updates that Mr. Rogers has asked for this purpose?
    Mr. Morton. Absolutely, sir.
    Mr. Mollohan. We are making these decisions real time.
    Mr. Rogers. Would the gentleman yield on that briefly?
    Mr. Mollohan. I don't have very much time here. May I yield 
after I am finished, please? Because if I can get one more 
question here, I am going to feel lucky, one more question in.

                            WEAPONS SEIZURES

    That is a paltry number of weapons to seize going out of 
the country. Is that because you are not checking, you are not 
screening for traffic going out of the country? Why wouldn't 
you catch or--did you say 18 weapons going across the border 
into Mexico?
    Mr. Bersin. One hundred nine in the last fiscal year, but, 
in fact, we have not seized any weapons in rail, and yet every 
rail shipment in and out of the United States is subject to an 
X-ray examination.
    Mr. Mollohan. My statistics--and I am sorry to be so quick 
here and cut you off, I understand that is rude, and I don't 
want to do that, but I have to get the essence of my question. 
I understand that 90 percent of the firearms found in Mexico 
come from the United States. Did you agree or disagree with 
that statistic?
    Mr. Bersin. I disagree with that. That is a statement that 
has been broadly publicized but does not reflect the reality. 
The most that could be said is that 90 percent of the weapons 
that have been traced may originate in the United States, but 
we don't know what the larger population of weapons are.
    Mr. Mollohan. Can you give us a statistic of what 
percentage of the weapons being illegally used in Mexico come 
from the United States?
    Mr. Bersin. As Mr. Morton indicated, that is information--
we haven't dodged questions--that is information that is more 
readily available from ATF.
    Mr. Price. To answer your question, I am sure both of our 
Committees have made this request, and we need to get a better 
answer.
    Mr. Mollohan. It sounds to me, Mr. Chairman, we are not 
doing enough screening or focusing on effective screening of 
weapons traveling south. We screen a lot coming north, but not 
having enough time to--I won't make a judgment on that, not 
having enough time to follow up on the question.
    Thank you, Mr. Chairman.
    Mr. Price. Mr. Rodriguez, I guess you have a quick request 
for the record?

                                  EPIC

    Mr. Rodriguez. Just really quickly, I know that the State 
Department had also been looking in terms of the money 
expenditures that were going into Mexico, doing something, as 
was discussed here, about some collaborative effort together in 
some area that includes the State Department in our efforts 
with Mexico, at one point a little bit over $1 billion, and 
hopefully maybe we can dialogue, move that dialogue further 
into some reality in forming some center that will respond to 
that and address all those issues beyond not only security, but 
what is also occurring in Mexico in the training of the judges 
and all that other stuff. Thank you.
    Mr. Price. Mr. Rogers. 
    Mr. Rogers. Briefly, Mr. Chairman. Chairman Mollohan, of 
course, will be important if we do a JIATF-like organization on 
the southwest border because he appropriates the funds for the 
Justice Department. And I hear him saying that 90 days, if we 
delay the decision 90 days, it is going to be too late for the 
action of these Subcommittees to write into the budget next 
year's money for such a center.
    Mr. Bersin.
    Mr. Bersin. If I may say respectfully, I think that what we 
are talking about is such a remarkable institutional 
transformation that, in fact, would not be a matter for this 
budget year, in any case. And although I agree that the issue 
on EPIC is improving its service to ICE and CBP as border 
agencies, we have made a huge investment in EPIC over the 
years, and I don't think in the next 90 days we will be in a 
position to make a radical departure.
    But I take your point that we should be in a position to 
report in 90 days where the status of the discussion is, and, 
if it is going further, then, in fact, it has real budgetary 
implications.
    Mr. Rogers. Just be advised that the Subcommittees may 
override you and do this anyway.
    Mr. Morton. Yes.
    Mr. Rogers. Whether you like it or not or whether you are 
prepared for it or not.
    Mr. Bersin. I understand. But if you ask for my 
recommendation, I would not make a radical change in course in 
the period of time that we have to consider this in this budget 
cycle.
    Mr. Rogers. With the severity of the problem on the border, 
a radical change may be in order.
    Mr. Price. In any case, the request stands for the 90-day 
report, as full as you can make it, of the state of your 
present thinking and interagency discussions.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    With that, we really have run out of time, and we will 
adjourn the hearing with thanks to both of you for your good 
work and for your testimony today.
    Mr. Morton. Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                           Tuesday, March 23, 2010.

   DHS AIR AND MARINE OPERATIONS AND INVESTMENTS: CUSTOMS AND BORDER 
                       PROTECTION AND COAST GUARD

                               WITNESSES

REAR ADMIRAL VINCE ATKINS, ASSISTANT COMMANDANT FOR CAPABILITY, U.S. 
    COAST GUARD
MAJOR GENERAL MICHAEL KOSTELNIK (RET.), ASSISTANT COMMISSIONER FOR THE 
    OFFICE OF AIR AND MARINE, U.S. CUSTOMS AND BORDER PROTECTION

               Opening Statement of Chairman David Price

    Mr. Price. Good morning.
    The Subcommittee will come to order. We are going to be 
examining this morning the respective roles and coordination 
between the Coast Guard and Customs and Border Protection in 
carrying out their air and marine missions.
    This is a somewhat different way of configuring a hearing. 
But we think it will let us get at some issues that wouldn't be 
raised in exactly the same way in separate discussions with the 
Coast Guard and CBP.
    So we appreciate you both being here.
    The Department of Homeland Security is analogous to a 
police force in some ways, with the Coast Guard and the CBP 
walking the same beat, watching for smugglers and working to 
thwart their efforts. Their aircraft and vessels patrol our 
borders and coasts and interdict migrants and illegal drugs. 
Their illustrious histories originated in the first acts of the 
U.S. Congress to collect revenue, counter smuggling, and 
protect life and property along the coast. And their range is 
vast: 7,500 miles of land border, and 95,000 miles of 
coastline.
    This hearing is the first opportunity for this subcommittee 
to examine how these essential programs work in tandem to 
support a wide range of law enforcement, national security, and 
humanitarian missions.
    We welcome Admiral Vince Atkins, assistant commandant for 
capability for the U.S. Coast Guard; and Michael Kostelnik, 
assistant commissioner for the Office of Air and Marine, U.S. 
Customs and Border Protection for a frank discussion of this 
topic.
    Admiral Atkins is a leading member of the DHS senior 
guidance team on matters related to the Department's maritime, 
air and surface capabilities and is Coast Guard's lead 
executive for the Predator B partnership, one area of focus for 
today's hearing. Before his current assignment, Admiral Atkins 
served as deputy director of response policy, overseeing 
development of policy guidance for the Coast Guard's statutory 
missions and helping friend the foundation for cross-agency 
partnerships that we will examine today.
    Assistant Commissioner Kostelnik directs the world's 
largest civilian aviation and maritime agency. Before coming to 
CBP, the Commissioner had a distinguished U.S. Air Force 
career, retiring as major general. He then ran NASA's manned 
space and international space station programs. For his 5 years 
with CBP, he has helped transform Air and Marine into a 
national enterprise, a long way from its origins as a loose 
confederation of field operations.
    Cooperation between these agencies has been very successful 
in places like Puerto Rico, where shared resources have slowed 
undocumented immigration through the Mona Pass and intercepted 
illegal drugs headed for American shores. On the drug front, 
their joint efforts are combined with DOD and DEA under the 
Joint Inter-Agency Task Force South, which coordinates efforts 
in the western hemisphere to detect, monitor and interdict drug 
smuggling by sea and air.
    Both agencies are long conducted aerial surveillance along 
our coasts. The Coast Guard has its C-130 and C-144 aircraft, 
and CBP has its P-3 and Dash-8. All are used to identify and 
track smugglers moving drugs from South Africa to the Caribbean 
and Gulf Coast. Both agencies operate helicopters for 
interdiction, law enforcement support, and humanitarian 
assistance.
    CBP and the Coast Guard are jointly developing a maritime 
variant of the Predator B unmanned aircraft system to extend 
their surveillance abilities. This maritime variant, named the 
Guardian, was first flown in 2008, and it is undergoing 
additional operational testing. Another is requested by CBP in 
the 2011 budget. The Guardian represents a new level of 
collaboration on this critical mission, and we look forward to 
learning more details about this program today.
    Coordination between these two agencies also extends to 
managing and sharing assets. Over the past 2 years, Coast Guard 
has transferred 73 small vessels, including 55 SAFE boats, to 
CBP for refurbishment and marine deployment. Both agencies 
participate in DHS councils to review aircraft and vessel 
procurement planning and decisions. And they have benefited 
from access to each other's contracts. In light of such 
cooperation, we hope to hear today how the two agencies manage 
their overlapping jurisdictions, how they coordinate their 
missions, and how they share intelligence.
    Despite many positive elements, we have concerns about the 
sustainability of these programs. First, the lack of trained 
operators and support staff could reduce DHS capacity to carry 
out aerial surveillance missions. For example, their request 
for 2011 cuts 120 CBP pilots and other positions funded last 
year to support the UAS program. This seems inconsistent, at 
least on the face of it, with plans to deploy the Predator.
    In addition, while both Coast Guard and CBP are acquiring 
new marine and air assets, they are burdened with aging fleets 
which are increasingly expensive and dangerous to operate. The 
need for Coast Guard recapitalization is well known, and CBP's 
air assets are over 33 years old on average. We expect to 
explore today whether CBP can sustain its operating tempo while 
delaying replacements, as anticipated in the budget. And 
turning an eye toward the long-term situation of these assets, 
this Subcommittee needs updated and overdue strategic 
recapitalization plans for CBP and the Coast Guard. I suppose I 
am starting to sound like a broken record on that issue. But I 
have to say again, without this information, we cannot assess 
how the Department will modernize these aging fleets. And 
therefore, it is very difficult to put our 2011 budget 
decisions in perspective.
    Admiral Atkins and Commissioner Kostelnik, we anticipate an 
informative discussion today. Your full written statements will 
be placed in the record. So we are going to ask you to limit 
your remarks to a 5-minute oral presentation. And before you 
begin, I want to turn to our distinguished ranking member, Hal 
Rogers, for his comments.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Opening Statement of Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman.
    General and Mr. Commandant, thank you for being here. 
Welcome to the Committee. It is good to see you and to be seen 
with you.
    Each of you, of course, has a very tough job, you are the 
ones caught between the bean counters here in Washington and 
the bureaucrats at DHS headquarters, and the brave men and 
women in the field, who put their lives on the line every day 
to keep us safe and secure.
    And you are the ones apparently getting squeezed, 
shortchanged by the fiscal year 2011 budget, a budget that 
proposes to substantially increase the Department's 
headquarters' staff and put $200 million of its money toward 
security costs of terrorist trials, needlessly I might add; 
while also cutting funding for CBP's air and marine personnel 
by 3.6 percent, cutting Coast Guard operational personnel by 
more than 1,110 military billets and decommissioning or 
deactivating 19 operational components; cutting funding for 
CBP's air and marine procurement and maintenance by 3.2 percent 
and cutting funding for Coast Guard acquisitions by more than 
10 percent.
    So to put it mildly, your tough jobs are getting made 
tougher by an administration that is increasing bureaucracy at 
the expense of operations, a prioritization that I find simply 
indefensible. We all know the threat. We all know your aging 
assets are in dire need of recapitalization. The challenge 
before you now is how to meet your mission requirements with 
fewer dollars. This is certainly no small chore since the boats 
and aircraft our frontline operators need are expensive, and 
the systems to make those assets work together are inherently 
complex.
    So we are counting on both of you and the men and women 
that you command to find a way to collectively use the talent 
and experience at CBP and the Coast Guard to link funding to 
real results and do this in a fiscally responsible way.
    While the joint program offices that you have established 
are noteworthy, it is collaboration at the technical level in 
the field that I find far much more significant. In fact, the 
need for teamwork during operations was probably best summed up 
by the Coast Guard sector commander in San Juan, then Captain 
Jim Tunstall, who simply remarked when CBP isn't flying, I 
cannot see anything. What Captain Tunstall was specifically 
referring to was the Mona Pass, as the chairman indicated, a 
heavily trafficked stretch of water where CBP provides aerial 
surveillance, since the Coast Guard has no maritime patrol 
aircraft in Puerto Rico.
    That teamwork exhibited by CBP and the Coast Guard in 
Puerto Rico exemplified what I believe is the most critical 
asset in our entire Homeland Security arsenal, sheer will, the 
will to put turf battles aside and seek any and all means to 
further the broader Homeland Security mission, which is exactly 
what was envisioned when DHS was established. And it is exactly 
what the American people expect of our security professionals 
today.
    So that brings us to today's hearing, what I hope will be a 
thoughtful discussion of how CBP and the Coast Guard are 
working together to further the protection of our borders and 
shores.
    Gentlemen, please know that we and the American people are 
very appreciative of the work that you are doing, very grateful 
for all of the sacrifices made by those in the field, whom you 
represent here today. We thank you for being here. We look 
forward to hearing your views.
    Mr. Price. Thank you.
    Whatever order you prefer to proceed. But please go ahead.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
              Statement of Major General Michael Kostelnik

    General Kostelnik. Thank you, Mr. Chairman.
    It is a pleasure to be here, Ranking Member Rogers, 
Congressman Calvert.
    First, let me begin by thanking this Committee for your 
outstanding support over the five years that I have been 
associated with the program. And as the chairman properly 
noted, Air and Marine, although our roots with U.S. Customs go 
back to the beginning of the Customs service more than 200 
years, the current configuration of Air and Marine is only five 
years old.
    And, of course, our recapitalization efforts was a 
significant issue going back to the legacy Border Patrol air 
fleet that was in poor condition and the legacy Customs fleet 
of aircraft and maritime vessels in support. And back in 2005, 
at the beginning of the merger, there were insubstantial funds 
for any serious recapitalization effort.
    Now five years later, with the support of this Committee, 
we have done a lot of things. You all have provided more than a 
billion dollars for an aircraft recapitalization program which 
we think we have invested wisely. We still operate some of the 
oldest aircraft in the inventory, but don't confuse age with 
capability.
    Going back to the P-3 program, in front of our larger 
sister service, the United States Navy, we made a decision in 
2005 to restore the P-3 fleet, with your support, create a 
service life extension program. We have done that. In 2006, 
recall, all those aircraft were grounded through 2007 and 2008. 
And we tried to fly the mission with three or four aircraft.
    And today, I am pleased to tell you, 11 of those 16 
aircraft are operational. Three are still permanently grounded 
until rewinging, but we have completed the acquisition process 
in 2011 for 10 wing sets. We have the first aircraft to be 
rewinged in advance of the Navy fleet that rolls out this 
spring and will enter operational service; the second aircraft 
later this year. And we will complete the rewinging of all 10 
aircraft as early as 2015.
    We have taken due diligence on some of the oldest aircraft 
we have. We still operate more than 50 percent of our fleet 
with aircraft that are 33 years, on average, old. Some of those 
are a concern. We have managed those very closely. The worst 
ones we have started to de-assess. In fact, this year we lost 
our confidence in our MB-600 fleet, grounded those nine 
helicopters.
    The P-3s have been restored. We are updating the A model 
Black Hawks to L model configuration. With your support, we 
purchased new M model Black Hawks. So while we keep the old 
aircraft solid and maintain them on duty and upgrade them with 
sensors and new capabilities and upgrades to keep them safe, we 
are also recapitalizing the middle parts of our fleet that, 
while still functional and not safety or flight issues, have 
been short in the areas of performance.
    A lot of that has been with your help, most importantly 
last year with the plus-up of our maritime program. Clearly, 
with the things happening in Somalia and off the coast of the 
Horn of Africa with pirating and so forth, clearly small boats 
and the approaches to the country are an increasingly important 
part of our Nation's defense. While we focus on the land 
borders, we have not forgotten about the water borders. And 
with your support, the 11 new marine branches are in place now. 
The boats are in place. And with the help of the Coast Guard 
and others, we have made tremendous investments there.
    At the end, while we continue to manage aged aircraft and 
support them to make them safe and modernize them for continued 
service for the long term, we have been, over the last several 
years, working at the front end of technology and particularly 
with our UAV program. From one single aircraft, which was lost 
in a pilot error in 2006, we have grown our UAV force to be the 
most capable force in this hemisphere.
    The DOD is much larger, has many more assets, most of which 
are deployed. But in the country, in this hemisphere, the 
Office of Air and Marine with the six aircraft we currently 
have in service can do things in this hemisphere today that the 
larger DOD could not do in the same capability. And I think 
that speaks well for the investment towards the future.
    We have land-based Predators that flew last night on the 
Southwest border. We have northern-based Predators that are 
flying the floods at the request of Governor Hoeven and the 
political leadership in North Dakota, doing before and after 
difference analysis using our synthetic aperture radar, 
streaming a live feeding video to not only our own people but 
to state and local to give unprecedented situational awareness 
to what is happening on the ground, practiced with the floods 
we flew in North Dakota last year and the hurricanes the year 
before.
    So while we create this national capability to support our 
homeland security, the fallout is unprecedented support for 
local humanitarian and contingency response.
    And finally I will leave my comments with the creation of 
the Guardian. I will be happy to answer your questions and 
explore possibilities, a unique partnership with the U.S. Coast 
Guard, but only one of many. You mentioned the number of boats. 
Those 73 boats that the Coast Guard de-assessed, we re-engined, 
refurbished and put into service, that was a cost avoidance for 
Air and Marine of more than $14 million.
    That has made an unprecedented difference for us to be able 
to grow our marine force. In 1995, we had 85 MIAs on active 
service. Today we have more than 350 MIAs, Marine Interdiction 
Agents, in service and more than 253 boats operational. A good 
part of that was not only the support from this Committee, but 
the support we have had from our partners with the United 
States Coast Guard.
    And in the areas of the UAVs, while the Coast Guard look at 
their opportunities and requirements, we have formed a Joint 
Program Office, training Coast Guard crews, providing CBP 
aircraft assets and folding these things into where I think you 
all mentioned you were most concerned with joint operations.
    Not only is Puerto Rico and the CBP operation a great role 
model, you will find similar relationships in many other places 
around the country: In the Great Lakes, where we are both at 
Selfridge Air Force Base; in San Diego, where there is a joint 
operation there; in the San Juans in upstate Washington; and 
most importantly, in the transit zone, a unique partnership in 
JIATF South in the Inter-Agency-DEA, United States Navy, U.S. 
Coast Guard, CBP-all oriented to a tremendous effort in 
limiting narcotics from coming out south.
    So I would offer to you that while we continue to maintain 
the old things we have with your support, we do it in a 
measured safe way. We update the equipment we have, and we are 
planning on the leading edge for perhaps contingencies we have 
not seen. And we are doing this in a very coherent and in a 
very amenable partnership with our larger sister service, the 
Coast Guard. I look forward to your questions.
    Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Statement of RDML Vincent Atkins

    Mr. Price. Thank you, General.
    Admiral.
    Admiral Atkins. Good morning, Mr. Chairman, Mr. Rogers, 
distinguished members. As the Coast Guard Assistant Commandant 
For Capabilities, I am honored to appear before you today to 
talk about the Coast Guard's critical role in maritime security 
and safety and how our cooperative efforts with sister agencies 
move those capabilities along and further our efforts in air 
and marine operations. At a time when whole of government 
operations and approaches are critical to achieving national 
objectives, the Coast Guard's military multi-mission and 
maritime assets provide highly adaptive operational 
capabilities that serve the Nation's interests well, whether 
those interests are in the heartland, in our ports of entry 
along the coastlines, in exclusive economic zones or anywhere 
around the globe.
    The Coast Guard's unique combination of civil and military 
authorities and capabilities makes our service ideally situated 
to serve as the principal agency for maritime law enforcement 
and lead federal agency for the maritime component of homeland 
security.
    The Coast Guard's law enforcement authority, codified in 
Title 14 of the U.S. Code, is the foundation of our maritime 
security mission. This authority underpins our ability to 
interdict illegal drugs, illegal cargos and illegal people and 
other more potentially dangerous threats to the homeland.
    When coupled with our Title 10 military responsibilities 
and authorities, the Coast Guard truly is a unique service 
provider to the Nation. The Coast Guard's ability to contribute 
to any whole of government operation is predicated on our broad 
authorities, our core competencies, our organizational ethos 
and our fleet of assets. In terms of those assets, we remain 
committed to recapitalizing our aging surface and air fleets. 
We continue to make progress in the delivery of new major 
cutters, such as Berthoff and Waesche, our first two national 
security cutters. We are operating new fixed-wing assets, the 
C-130J and to HC-144. And we are realizing tremendous return on 
investment from the modernization of our helicopter fleet, both 
the H-65 and H-60s. The Rescue 21 Command and Control System is 
on watch from Maine to Texas, and it is increasing our ability 
to conduct search-and-rescue and to save lives.
    Sirs, the recapitalization program that you are supporting 
is making a difference. And our men and women on the frontline 
want to thank you for your continued support of that 
recapitalization effort.
    The Coast Guard has strengthened its ability to protect our 
Nation's ports, waterways and coastal borders by partnering 
with federal, state and local agencies, tribal nations, the 
marine industry and international stakeholders. Nowhere are 
these effective partnerships more apparent than between the 
Coast Guard and other agencies within DHS.
    For instance, our efforts with US-VISIT highlight the 
success of our joint biometric proof of concept in reducing 
illegal migrant flow into Puerto Rico. Our cooperative efforts 
with Customs and Border Protection are spearheaded by a 
strategic guidance team that brings together senior agency 
leaders to drive interagency effectiveness and efficiency.
    Examples of our interagency cooperation occur every day 
throughout the United States and at sea. And they are a source 
of pride for our service and a sense of accomplishment for the 
Department. From Joint Operation Centers, joint targeting, 
synchronized detection and monitoring to effective endgame 
prosecution, the Coast Guard and CBP are working smarter and 
more effectively along the northern, the southern and coastal 
borders, the maritime ports of entry and throughout the elicit 
drug transit zone en route to North America.
    Beyond our operational efforts, we are working to leverage 
each other's strengths in acquisition, training and 
maintenance. Our joint efforts are illustrated by the 
successful DHS Small Boat Commodity Council and Joint Coast 
Guard CBP program office for unmanned aircraft systems.
    Sir, the Coast Guard is proud to stand the watch. We 
recognize that where there is overlap in areas of operation, 
authority and capability, the American taxpayer is best 
protected and best served by unity of effort that results in 
coordinated and effective operations. To this end, the Coast 
Guard strives to expand its collaboration to consistently and 
effectively execute our mission as America's maritime guardian.
    Sir, thank you again for this opportunity to come and have 
this discussion with you all today. I am happy to answer any 
questions you might have.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     CONFLICTING MISSION PRIORITIES

    Mr. Price. Thank you, Admiral.
    And let me start with you, because you do give a very 
positive rendition of the planning process in particular that 
your agencies are engaged in. You describe a very smooth 
process for sharing assets, a process that goes on from the top 
down from the very beginning of planning to execution.
    Surely sometimes mission conflicts arise. I wonder if one 
of the downsides of what we are discussing in a positive vein 
here today might be that unshared missions could get the short 
straw when it comes to planning. Can you give us a little 
better feeling for this planning process and some of the 
conflicts that you have to overcome in this process from time 
to time?
    Admiral Atkins. Yes, sir. I would say the planning process 
is absolutely essential, and it begins with the unified command 
perspective. And as the general indicated, across the Nation at 
various ports of entry, we are working very closely together at 
the tactical level so that our tactical forces are best arrayed 
against the threat for that particular vector and sector. So, 
for instance, in Florida, where there is a Southeast border 
interagency group that is looking to coordinate, what they have 
done is they have looked for where are the various agency 
partners flying their aircraft on any given day? And how do you 
deconflict those aircraft and those times and those areas of 
patrol to maximize the effect that we are trying to bring to?
    And now it is not just aircraft in the air, but it is 
surface units on the water, because while you might be able to 
detect and monitor, the absolute essential here is to get an 
effective endgame on the water so whomever you are 
interdicting, you are boarding and you are finding out what you 
need to find out. So it is this idea of prior planning to 
understand where the other blue forces are, where the other 
interagency forces are, how do you deconflict those and how do 
you aim them to get the best result, sir?

                          GUARDIAN DEPLOYMENT

    Mr. Price. Let me ask both of you to turn to a specific 
innovation in border and maritime surveillance--the Predator 
unmanned aircraft system. By October of this year, as we 
understand CBP will have seven Predator Bs operating on the 
Southwest border, the Northern border, Florida, the coast, the 
Gulf and possibly the Caribbean transit zone.
    One of these, the Guardian maritime variant, is being 
tested in a joint program with the Coast Guard. Preliminary 
results indicate the Guardian could fill air surveillance gaps 
for vulnerable areas in the southeast coastal region 
particularly since it can operate longer and with a smaller 
crew than manned surveillance aircraft. The CBP budget proposes 
a Florida UAS base in fiscal year 2011 or 2012. Commissioner 
Kostelnik and Admiral Atkins as well, what is the current 
Guardian deployment plan and how does it fit into the Deepwater 
and CBP 5-year recapitalization plans? And, of course, I have 
to say, again, these are plans currently under review and due 
to this Subcommittee.
    General Kostelnik. Let me start and take you back to the 
history of the maritime variant, and it goes back to, I think, 
what the Admiral was talking about, about the rich relationship 
we have at the tactical level. Going into the source and 
transit zone were differentiated by our missions by the kind of 
equipment we have. So, clearly, on the water, you need the 
bigger ships that we don't have. So U.S. Navy, U.S. Coast Guard 
with U.S. Coast Guard boarding crews were out of the Eastern 
Pacific. And then you have maritime aircraft overhead; used to 
be some foreign aircraft involved; now they have gone. There is 
Navy P-3s. There are Coast Guard C-130Js. There is our P-3. But 
it is never enough. Similar to the Mona Pass issue, we just 
don't have enough maritime capabilities.
    So going back a couple of years ago, we thought it would be 
prudent, given the good success we were having with the land-
based variant, to do a development of a Guardian-type aircraft 
with a maritime radar. To give you a sense for the genesis, the 
Coast Guard was coming off some of the Deepwater experience 
with the VTOL UAV. And I will leave the Admiral to talk about 
the long-term requirements consistent with the deepwater 
approach. But in that time period, there was some interest by 
the Coast Guard with the land-based variant from maritime ops, 
given the close connectivity we had in all these areas around 
the environment in the littoral area where an aircraft could be 
useful.
    The Coast Guard, to their credit, put a fair amount of 
money, as did we, and we borrowed the Air Force prototype of 
the Mariner, a very early variant of the Predator with an ELTA 
CV radar that was never developed. And we did an extensive and 
exhaustive test in the Gulf of Mexico jointly working with 
Coast Guard cutters, Coast Guard aircraft, our aircraft to 
determine if there would be a need. And it turned out, there 
was great promise. And the Guardian program was what evolved 
from that.
    Now, with the Guardian program currently in test, it has 
completed DT&E very early because it is an aircraft we know. It 
is a radar system we already operate on our Dash-8 and our P-3, 
very low risk. And we are getting very good results. We should 
finish the operational testing and evaluation of this aircraft 
in the next month or so.
    And then we have options. And we are looking at those 
options coherently with the Coast Guard to see where would be 
the first operational mission deployment. There is clearly 
requirements pull in the Caribbean supporting DEA and Coast 
Guard missions and JIATF South missions. We could get into Mona 
Pass with this aircraft. So clearly that part of the Southeast 
region is in play.
    The second Mariner aircraft, CBP-159, should arrive later 
in the summer. We should get the radar on it in the September/
October time frame. We are looking to deploy that aircraft in 
Corpus Christi. That gives us two maritime basing locations 
where, from those fixed locations, we can support the Caribbean 
and Southeast region. We can also turn those aircraft north and 
support the Eastern seaboard and also the metro areas of D.C. 
and New York State, should there be issues up here. And then 
with the Corpus bird, we can cover the Gulf. We can cover south 
Texas. We can cover the Texas border if we need to.
    We can then, with both of those assets, make both of those 
aircraft available for deployments into the Gulf, deep Central 
America or the Eastern Pacific in concert with the JIATF South 
mission.
    So at this time, we are focused on basing in Florida, 
although that could be moved to other bases in the Florida 
region. We would do that in concert with the U.S. Coast Guard, 
depending on where we can best support these missions. The 
second base at NAS Corpus Christi, we already have a large P-3 
presence there, and we do qualify our P-3 crews to fly this 
asset as well. And there is a Coast Guard presence there.
    So the ultimate way ahead with deployment will be 
determining condition by how this first aircraft performs. And 
coherently, we are in the planning process with the operational 
part of the Coast Guard to determine where the first deployment 
would be. Those two experiences will help the condition, the 
overarching strategy.
    It is important to note that while these are primarily 
oriented towards the maritime environment, the belly pod, which 
carries the CV radar will accommodate all the radars that the 
Air and Marine and the Coast Guard operate, so we can put 
different sea-search radars in that configuration. And we can 
also drop that belly pod, put the synthetic aperture radar back 
in and operate the maritime-based variances--marine variances 
as well.

                         UAS FLEET REQUIREMENTS

    Mr. Price. General, before turning to the Admiral, let me 
just ask you specifically how many flight hours the UAS fleet 
is going to make in fiscal years 2010 and 2011. And of course, 
you understand the reason I am asking you that question. Will 
you have pilot and other support crew to support the 14-hour 
mission average previously projected for the Predators? As you 
well know, there are multiple challenges that developed, 
producing an alarmingly low utilization for the first half of 
fiscal year 2009, falling far short of projections. So with 
that background on both of our minds, I wonder if you could 
fill us in on the kind of flight hour projections you are 
dealing with now.
    General Kostelnik. I appreciate the opportunity to comment 
on that, because even though these aircraft are old, they are 
unmanned; it is kind of a misdirection in a way because you 
would think they are less manpower-intensive. The reality is, 
given as you correctly point out, the extended length of 
flight, in fact, the land-based variants we demonstrated 20-
hour mission capability with the configuration we carry. And 
the first long-duration flight of the Mariner looks like it is 
going to have about 20 hours duration as well. So it actually 
takes more pilots and crew to fly one of these things, and of 
course, that is the downside.
    On the plus side, it allows you to bring in other 
capabilities. You can bring in intel specialists. You can bring 
in legal specialists. And, of course, in our business, that is 
an important factor in real-time consideration. So you 
basically bring in a flight team.
    So if you will look at our utilization rate to date, I 
mean, the observation that I would offer is that, again, going 
back to this program, it is just a little over four years old. 
And having said that, we are still growing this force. But with 
the capabilities we have today and in only four years, we have 
grown the second largest operational fleet of Predator Bs on 
the world stage. We have capabilities no other country in the 
world has. And in this hemisphere, we have experiences in 
Homeland Security that even the DOD doesn't have, even though 
they have much larger assets.
    So we are still very much in the building part of our 
process, trying to grow pilots, trying to train analysts, 
trying to acquire the equipment at the same time we are doing 
due diligence, flying a fairly high ops tempo. We try to fly 
every night on the Southwest border. When the weather is good 
on the Northern border, we try to fly every day or night up 
there. But we are actively training many of our crews.
    And oddly enough, it isn't really the aircraft that is the 
discriminant. It is either the ground control stations, which 
are always more problematic, late to need, and we are short of 
those and, most importantly, having enough training pilots to 
fly that.
    The partnership with the Coast Guard is a good one for us 
and them because it will start to grow and train Coast Guard 
pilots to fly these aircraft. In fact, we already have three 
that are fully qualified on the Predator, and they will be 
assisting with the Guardian mission. So we typically look like, 
for a single aircraft, with the crews and control sets, we 
could fly those aircraft typically three times a week. Probably 
not 20 hours, because there are other limitations: Mission 
need; in some cases, the code; the certificate of 
authorization; or issues associated with the tower's operating 
availability. So while the flight rate to date has been perhaps 
less than what people might have expected given the aircraft, 
you are going to see, as we bring on the Coast Guard pilots--
and with your support we hired and dedicated 24 UAV pilots last 
year, but again those are still in training and coming up to 
speed and then to offset the shortage of pilots because the 
bulk of our aviation fleet and numbers has not changed. Even 
though we increased the number of pilots over time, we are 
dual-qualifying our pilots. So the same pilots that fly P-3 
missions in the transit zone will be flying Guardian missions 
on rotation. So I think you are going to see a dramatic 
increase in the flight hours for these assets over time.
    Mr. Price. And you are telling me in other words that we 
can expect to approach that 14-hour mission average that was 
previously projected? Or is there some reason to alter that 
projection?
    General Kostelnik. It is not so much the 14 hours because 
typically out--Sierra Vista today, given the limitations on 
crews primarily, we fly typically 10-hour missions. So the 
aircraft will go out in the afternoon, and it will land 
sometime around midnight. And oddly enough, that is in concert 
with when the bulk of the activity is. Those aircraft are 
dealing a lot with low-level drugs, a lot of smuggling across 
the border. And typically the activity is occurring 10:00 to 
midnight, and then people travelling out in the desert bed down 
at night. So it just turns out that that mission suits our 
needs.
    In the East-Pac area, if there is a mission requirement 
pull and need for the aircraft to be out longer because the 
assets are out there, we can fly those aircraft longer. It is 
not an issue that we don't have the spare parts. It is not an 
issue we don't have the gas. The reality is, when you go to 20-
hour mission sets, you have got to have two full crews of 
mission pilots in addition to the launch-and-recovery pilots 
that you have at the remote site.
    What I am saying is, over time, we are still aggressively 
building our training program, and each month, as the time goes 
by, we have more pilots available to fly. Right now, it is the 
pilots that are the limits and the duration, not the GSEs, not 
the Coast, not the aircraft. But what it does offer--and a good 
way to think about these things--while these are reasonable 
missions, while they are still building this force today, both 
in border security in the Southwest border and the Northern 
border, but also in contingency ops, if floods happen. Two 
years ago we had no capability to do that when we had the 
floods in Iowa. Today, in North Dakota and Minnesota or any 
place else in the country where you have a humanitarian need 
for these assets, we can put an aircraft overhead the same day.
    We flew the hurricanes, three hurricanes two years ago. We 
have never done that before. But now having done that, that 
capability is available. So this summer, we get into hurricane 
season again. If there is a need, we will be there.
    And all these activities, both the day-to-day work and the 
border security, as limited as it is right now because we are 
still training, give you the ability to respond not only to 
these humanitarian events, but if we were to have a serious 
event in this country today, one perhaps like 9/11 or something 
short, but something significant today, any place else in the 
continental United States, we could put a Predator overhead, 
streaming live video, having COCOM, having a laser ranger 
designator providing unprecedented situational awareness to 
leaders across federal, state and local government. And I think 
that puts us in a very good position.
    But, again, I would leave you with the part that you would 
have to look at this program. It is just four years old. In 
many cases, in many organizations, trying to build a 
capability, you would just be getting the aircraft now or maybe 
it would just be at the end stages of operational test and 
evaluation. We are not only growing at a fast rate and have 
been doing missions 24/7 for the last three years while 
building this force, we are not only creating new opportunities 
by laying in the back game with intel, but creating this new 
maritime variant. So, from our perspective, where we sit, we 
think we have been leaning forward strongly in the saddle and 
providing a great capability for the country.

                             UAS STAFF CUTS

    Mr. Price. General, I am sure we will return to this 
question throughout the morning. I do want to turn to other 
members.
    But, finally, your answer to me does underscore the 
question of personnel. And it is in that respect that I must 
say, this 2011 budget does raise some serious questions, 
particularly in light of the kind of program you have just 
outlined. Last year you estimated you need 79 crew members, 
mission support and trainers, to fully deploy the UAS. You 
sought and received fiscal year 2010 funding to add 18 more UAS 
pilots.
    But that is where this 2011 budget comes in. Your 2011 
budget is proposing funding cuts for 13 of these people. What 
is the rationale for that? Have personnel needs somehow 
changed? Again, what is your operational deployment plan for 
the UAS in relation to the staffing cuts? That is really what I 
am trying to get at. Are these staffing cuts going to constrain 
your ability to use the UAS effectively and indeed carry out 
the program you just described?
    General Kostelnik. As you know, I know you have been 
familiar with our operations for a long time. We are a very 
small force. If you look at Customs and Border Protection, the 
Office of Field Operations, it is about 26,000 agents. Border 
Patrol is about 23,000 agents. Air and Marine is 1,800 total. 
We have always been a very small force, and we work very hard 
with what we have had.
    I am sure you are aware that 2011 is a tough budget year, 
and obviously, we are subject to constraints like others. We 
make our case, we submit our inputs and we get what we get as 
part of the process. Directly to your question, we would have 
hired more pilots in 2010 were those to be supported in our 
2011 request. We do get supported to the tune of about 24 of 
those original 144 requests, of which we are certainly going to 
use wisely, but it is not necessarily just for the pilot.
    And in the short term, the direct answer is, no, there 
would be no impact to our short-term program because of the 
innovations we have used having dual qualifications for our 
pilots that fly the P-3s. They understand the mission, the 
transit zone. We have both pilots and back seat detection, 
specialists. And our plan is to use the pilots to fly the 
aircraft and detection specialists to run the sensors.
    The partnership with the Coast Guard: We love the Coast 
Guard, would like to bring them along. We really don't compete 
at the tactical level and have a lot of great synergism. But 
the truth of the matter, while we are providing hardware and 
UAV expertise, we are getting manpower from the Coast Guard 
that we just don't have and that helps us. We would be limited 
without the Coast Guard support of their aviation pilots 
associated with the program. That is how we work that.
    We have a solid plan for the manpower we are going to hire 
this year; some pilots, some associated support both at the Air 
and Marine Operation Center and our various program and 
engineering staff to make sure we can support those things. We 
are aggressively training the pilots, and long term, having 
more pilots would be better. And depending on the 
representation of the Guardian and the transit zone mission and 
out-year budget, we would expect to have some further 
investments both in aircraft and support equipment, but also in 
pilots downstream.
    But in the short term, while we are still building this 
force and training, actually the shortage of pilots in the 2011 
request will not have a serious impact on that activity. In 
fact, if you look back into 2005, at the beginning of our 
recapitalization, Air and Marine only had a little over 500 
pilots, agent pilots at that time. Thanks to your support, we 
now have over 800 agent pilots and more than 350 Mariners.
    But if you look at the aircraft side of that picture, 
despite the investment from this committee--in 1965, we had 264 
aircraft. Today we only have 284 aircraft in service, despite 
the investment. So as you can see, we actually do have some 
excess capacity in our rated force, and using that excess 
capacity to dual qualify on the Predator makes good sense. And 
if you have watched the issues that the Air Force was having 
with the unpopularity of manned fighter pilots having to fly 
unmanned things, it is actually a benefit for our agents 
because all of our agents are certified FAA pilots, and all of 
our agents who fly the Predator also fly a manned aircraft, 
either a Black Hawk or a Cessna 550 or, in the case of the 
Guardian, the P-3. So we think this synergism and the 
partnership with the Coast Guard will put us in good shape for 
2011.
    Mr. Price. Thank you.
    Mr. Rogers.
    Mr. Rogers. Well, to follow up on that line of question the 
chairman had for you, I didn't follow you. I mean, you are 
going to be, your budget proposal would cut personnel by about 
3.6 percent, and as I understand it would, you would have to 
actually lose 68 pilots because of that, 20 marine interdiction 
agents and 56 support personnel, positions that were actually 
requested by the administration in fiscal year 2010. Right or 
wrong?
    General Kostelnik. Those numbers are--those make up the 
composition of the 144 that we would have hired in 2010. Those 
were added to the force we currently have in place. And 
because, during the budget deliberations internal to the 
administration, it was clear that we were not going to have 
those allocations in 2011 supported, we did not bring those 
added people on board. So those are not in fact cuts from 
agents or officers that we currently have on board. Those are 
new hires that we did not hire in 2010 that we would have 
hired.
    Mr. Rogers. Which means that, in fiscal year 2010, you 
obviously saw the need for the additional pilots and personnel, 
right?
    General Kostelnik. You can always have more, sir, always.
    Mr. Rogers. And you were denied, apparently denied your 
request by the administration; is that correct?
    General Kostelnik. Well, as part of the ongoing 
prioritization within CBP and DHS, that is true.
    Mr. Rogers. And it is indefensible to me that, at a point 
in time when we are besieged by the cocaine traffic out of 
South America--and I hold here a description, depiction of the 
traffic patterns of cocaine from South America through the 
Eastern Pacific and Caribbean to Mexico, thus to the U.S. That 
is not abating, is it, Admiral?
    Admiral Atkins. Sir, what we are going to be doing, as the 
general indicated, is we are going to be maximizing our MPAs as 
best as we possibly can. And what we want to do is we want to 
put into effect a concerted effort to the JIATF South 
structure, a plan for detecting and monitoring and then 
affecting an endgame. And really the issue here is, how can we 
best fuse our information and get acute intel to the assets 
that we do have.
    Mr. Rogers. Sure. Duh. What I am saying is the problem is 
not decreasing. It is increasing every day, is it not?
    Admiral Atkins. Yes, sir, it is.
    Mr. Rogers. And your interdiction efforts are being more 
successful every day, are they not, Admiral?
    Admiral Atkins. Yes, sir.
    General Kostelnik. Yes, sir.
    Mr. Rogers. It is not the time, from my judgment, to deny 
you the personnel and equipment and assets that you need to 
continue to battle this problem, which is killing Americans. 
And for the administration to deny you on the front lines of 
this battle the personnel and equipment that you, as recently 
as last year, said we must have, you have told us, and we gave 
you, and now the bureaucrats are saying, we are not going to 
give you what you need to fight this battle; and I find that 
reprehensible as well as indefensible. All in the name of 
increasing headquarters personnel in Washington, D.C., by 
almost 1,000 people, which is reprehensible and indefensible to 
deny you on the front this commitment and manpower.

                     OFFSHORE INTERDICTION EFFORTS

    Tell us about this fight that is going on here. Here are 
the terrific patterns out of South America through the Eastern 
Pacific and the western Caribbean and the eastern Caribbean and 
primarily into Mexico, thus into the U.S. How is it going, 
General?
    General Kostelnik. I think it is going exceptionally well. 
In fact, we just had a meeting of the Source and Transit Zone 
Interdiction Committee that the Commandant of the Coast Guard 
shares. And we had Admiral Dan Lloyd, who, as you know, is the 
JIATF South commander. He directs our assets in the Eastern 
Pacific, which is really the largest area of that activity 
where, again, we have U.S. Navy destroyers and frigates. We 
have Coast Guard cutters. We have Coast Guard boarding crews on 
both ships, Navy P-3s, CBP P-3s, 11 of which we now have back 
in service, which is a benefit. But we have also put the CV 
radar on the long-range tracker aircraft. That has increased 
their effectiveness in the maritime role as well as the Coast 
Guard aircraft.
    And it was reported that in 2009, JIATF South was 
responsible for interdicting more than 234 metric tons of 
cocaine just in the East-Pac area. These are primarily the 
self-propelled, semi-submersibles you have heard so much about. 
I think nine or ten of those were detected last year. Large 
numbers of go-fast. And if you think about that much narcotics 
in bulk quantity not getting to our shores, that is more 
narcotics of all kinds from all agencies, from all sources 
coming into the country. I would say that is a big deal.
    Now, they say what is the worry about what they are 
missing, based on projection or intel or so, you know, 
techniques, but the way I look at that and you look at those 
type of activities, it has been extraordinarily successful and 
I think more than justifies our interest and our investment in 
the Source and Transit Zone Mission.
    Mr. Rogers. Admiral.
    Admiral Atkins. Yes, sir, I would agree with that. And I 
think that the issue is, again, the underlying reasons for 
success is this unity of command and unity of effort that is 
brought under JIATF South's hat. And it is this idea that you 
have somebody in charge and you bring complementary 
capabilities to the fore and to bear against good intel, and 
then you affect endgame. So those would be the same qualities 
and characteristics of what makes this a success.
    And so in terms of the operational success down in East-
Pac, in particular, from the Coast Guard perspective, our C-
130s have been outfitted with new Selex radars, which are 
highly effective. We have been able to use our retooled MH-65s, 
which are armored up and, with airborne use of force, have been 
able to make a real effective impact against go-fast runners.
    Mr. Rogers. I understand the budget is cutting five of 
those helicopters; is that right?
    Admiral Atkins. Sir, there are five H-65s which are to be 
cut in the fiscal year 2011 budget, but those are not 
associated with the deployers that go down to East-Pac. Those 
are in the Great Lakes regions associated with search and 
rescue.
    Mr. Rogers. I share your enthusiasm and admiration of JIATF 
South. I went there years ago and was greatly impressed with 
the way that we are bringing together not just the units that 
you represent, but the FBI and the Justice Department and the 
Navy and Army and all the other agencies, DEA and so on. A 
great operation. In fact, I was so impressed, this is before we 
had the Department of Homeland Security. I brought that entire 
crew up here to brief then Homeland Security Advisor Governor 
Ridge to try to impress him and the then President that this 
was really the way we ought to be fighting terrorism 
nationally, through this kind of an operation that JIATF South 
represented.
    So it is a great, great facility and capability. What I am 
saying to you is I don't understand the recommendations to cut 
personnel and manpower both in Coast Guard and in CBP, Air and 
Marine personnel. In the face of an ever-growing problem that 
is killing Americans. I just don't fathom that. And even given 
the terrific cooperation that your agencies have and the 
terrific work in JIATF South and that the other agencies are 
bringing to the fight, we are disarming in my judgment. Coast 
Guard acquisitions are being cut by 10 percent. CBP's Air and 
Marine procurement and maintenance: Maintenance is being cut 
3.2 percent, including $2.6 million cut to logistics and 
maintenance system upgrades, and no funds for procurement of 
new multiple-role enforcement aircraft. The Coast Guard is 
going to have to cut 1,110 military billets and decommission, 
take out of service, deactivate, withdraw from the battle 19 
operational components. How can you justify that?
    Admiral.
    Admiral Atkins. Sir, as Admiral Allen testified just a 
couple of days ago, he had to make some very tough choices 
between recapitalizing the Coast Guard's aging fleet and 
decommissioning those assets and staying within an overall 
budget in terms of operational priorities. He had to make some 
very tough decisions relative to which assets to let go and 
which assets to recapitalize. And, sir, that is the answer.
    Mr. Rogers. In other words, it was a budget crunch.
    Admiral Atkins. Yes, sir. We are absolutely making 
operational priorities based on available dollars.
    Mr. Rogers. And you are not getting all of the money that 
you actually need to do your chores, are you?
    Admiral Atkins. Sir, we are living within the 
Administration's priorities, and we are trying to work as best 
we can to weigh operational risk and to use our collective 
operational experience as best we can, given the resources we 
get.

                       NORTHERN BORDER OPERATIONS

    Mr. Rogers. That was a good answer. You are good.
    Well, now, tell me about the operations on the northern 
border. You are planning a new fusion center, are you not, 
general?
    General Kostelnik. Yes, sir.
    Mr. Rogers. Tell us about that.
    General Kostelnik. Well, this is part of--while the 
southwest border obviously has gotten a lot of attention over 
the last several years, as you all know, we have put a lot of 
Air and Marine infrastructure across the northern border, not 
only five new Air and Marine branches that were directed 
before, but also a new UAV branch up in North Dakota. And I 
think this concept of a fusion center is tied to our northern 
border strategy and our northern border technology 
demonstration of taking some of the key and essential elements 
that have worked well in the SBI program, some of the MSS 
equipment and some of the connectivity associated with that, 
and taking some of the intelligence-based function out of our 
Joint Interagency, not only with us and the Coast Guard but 
also the Canadian friends up in the north, capitalizing on 
preexisting things and creating in essence a DHS campus at 
Selfridge Air Force Base. The Coast Guard has been there for a 
number of years. We opened up one of our large air branches 
there a couple years ago, a great facility, Border Patrols on 
the same facility.
    So what you are starting, IC and the fusion center coming 
together, is in essence an air and maritime operational center 
not unlike the command and control AOCs that the DOD operates 
or the facility down at JIATF South to focus on the northern 
border and particularly the Great Lakes, which is a combination 
of Coast Guard, larger vessels and some small vessels, and our 
small vessels associated with the ports of entry tying into the 
air capabilities we have up there.
    And of course fundamental to that, you may recall that last 
year we had a very early deployment of our Predator system out 
of North Dakota to Upstate New York. We were hosted by the 10th 
Mountain Army Rangers at Fort Drum in partnership with the men 
and women of Syracuse Air National Guard to apply Predators for 
the U.S. Air Force to start to create the beginnings of an 
umbrella of Predator support for the northern border, with 
assets in North Dakota and a potential deployment site to 
Upstate New York and Fort Drum, and from those assets over time 
as we worked the issues--the rifle issues with the FAA about, 
you know, flying in congested airspace over the Great Lakes 
proper, we are starting to create, you know, an air picture.
    So part of the fusion center activity will be to work the 
connectivity from taking Predator imagery feeds from fleer 
radars. We could have Guardians up there at the Great Lakes at 
some point in the future, depending on what the risk or issues 
would be.
    So the fusion center is an early technology push in an 
integrated fashion to create, I think, the benefit of what you 
see in the JIATF South.
    Mr. Rogers. What can you tell us about the threats that you 
are seeing in the Great Lakes and that border that would 
require such a center?
    General Kostelnik. The risk? Well, I will leave it to the 
Admiral to talk about some things in the Great Lakes proper. 
You know, clearly, we have had all types of unknown people show 
up at a marina, coming across the Great Lakes uninterdicted. We 
clearly have had a lot of activity through the ports of entry.
    If you look at the things that we see across--all across 
the northern border, there is a fair amount of traffic in 
methamphetamines. They are coming north, coming south. There is 
a fair amount of traffic in BC Bud, some of these hidden in 
devices coming through the ports of entry, some airdrops off 
small Canadian helicopters and fixed-wing aircraft. And these 
are the things that we know. There is cocaine going north. 
There are probably guns going north. And there is cash in bulk 
quantities going, you know, both ways and these are the 
things----
    Mr. Rogers. Is this not going to stretch your budget even 
worse by building this center there? It is a $40 million item, 
is it not?
    General Kostelnik. It is, sir. And it is funded, thanks to 
your help.
    Mr. Rogers. But isn't taking that money for that purpose 
going to wreak other problems on you with your budget cuts that 
are being proposed?
    General Kostelnik. I really don't see those as detrimental 
to the effort. I mean, we have the people and the 
infrastructure in place, as I am sure the Coast Guard does as 
well. I would look on that--while we have the hardware and we 
have some of the software elements and we have the people and 
the infrastructure, I think the real issue on the northern 
border is the connectivity, you know, tying in NORTHCOM and the 
air picture, tying in the maritime picture on the Great Lakes. 
I look on that $40 million investment as a good piece of 
connectivity to help create a common operating picture, because 
I talked about the threats that we know, and we see those 
probably in spades, but it is not the threats you know that get 
you in trouble, it is the ones that you don't know.
    And added connectivity, tying in the sensor aircraft and 
the new class of boats--we are putting up 38-foot SAFE boats, 
very capable boats, on the Great Lakes in partnership with the 
Coast Guard, 33 feet for them, as well as the cutters and other 
ships that are out in the Great Lakes proper--tying all that 
information and fusing the information from the sensor aircraft 
and boats, tying those into the intelligence of the interagency 
should make us stronger in the northern border.
    Mr. Rogers. Well, it makes a lot of sense. I just worry 
about whether or not you are going to have the personnel to 
operate that center once you get going because of these cuts 
that are being forced upon you.
    General Kostelnik. Well, fortunately, a lot of that is in 
Intel-based centers; so actually a lot--some of those won't be 
Air and Marine personnel. A fair percentage for us will be 
actually Intel people that we have hired and do have in place 
to do that work.
    Mr. Rogers. Admiral, do you want to add anything?
    Admiral Atkins. Yes, sir. I would just like to add to the 
General's comments in that this is the beginning of a JIATF 
flight structure on the northern border in the sense of you 
begin to bring everybody together and you begin to share 
information. Sir, at this point we don't have a way to 
deconflict where our own internal operations are happening, and 
so this tool provides us--this fusion center provides us that 
capability. So it is an opportunity to sort of model those 
other excellent examples that you see down in Puerto Rico, down 
in Florida, and San Diego.
    Mr. Rogers. This center will be funded out of your SBI 
accounts, will it not?
    General Kostelnik. Yes, sir, I believe that is the case.
    Mr. Rogers. In closing--I know others need to be on 
schedule here--Admiral, you were once the first executive 
officer aboard the cutter DECISIVE and then later, the 
RESOLUTE; is that correct?
    Admiral Atkins. Yes, sir, it is.
    Mr. Rogers. Do you recognize in the room anyone who served 
under you on either one of those missions?
    Admiral Atkins. Yes, I do. And I believe he owes me a 
morale report.
    Mr. Rogers. You are talking about the staffer, Ben, here 
who served with you.
    Admiral Atkins. Yes, sir. Mr. Nicholson was a fine Coast 
Guard officer, and I am proud to see him continue in service to 
his country.
    Mr. Price. Thank you.
    Mr. Calvert.

                    AIR AND MARINE OPERATIONS CENTER

    Mr. Calvert. Thank you, Mr. Chairman.
    It is good to see you again, General. I remember you back 
in the days when I chaired the Space Aeronautics Committee. We 
don't have a human space program anymore, but those were the 
good old days.
    I want to talk a little bit about the Air and Marine 
Operations Center, AMOC. As you know, the Air and Marine 
Operations Center is in Riverside, in my congressional 
district. And the AMOC team does a great job of critical work 
serving our Nation's general aviation and interdiction security 
operations. So I was disappointed you didn't mention it in your 
testimony. I understand the CBP still owes the Committee a 
report on the role and the operations of AMOC, and so I was 
wondering when can we expect that report?
    General Kostelnik. The report should be forthcoming pretty 
soon. AMOC, as you know, it is the crown jewel of the 
Department of Homeland Security. When I signed on, when I left 
NASA in 2005, I saw a lot of things that I didn't like, I mean 
an aging force, we had low morale, questions on the way ahead. 
But the Air and Marine Operation Centers, even in 2005, was a 
crown jewel that few could want to have. I mean, it was kind of 
put together over years with--you know, on the side with some 
contractor support and some government intervention. But at the 
end of the day, even in 2005, it could do things in the 
Homeland Security mission that other things could not do.
    Over the last four years, you know, we have continued to 
plus it up. We have added infrastructure. We have added the GCS 
control sets. We have added more DEOs. We have hired some intel 
specialists to start to work there. We are still growing that 
capability and, as you know, in the way ahead it is still 
early, but still in the long-range planning of what further 
investments we need to make. That work is still unfinished. But 
with the money that was provided for AMOC in this calendar 
year, we are using that to set the stage----
    Mr. Calvert. And that was a question I was going to ask. 
Could you provide us a breakdown of how that $6 million we 
provided in fiscal year 2010 to AMOC for technology expansion 
was allocated to the Office of Air and Marine? Was the money 
spent on the core mission of AMOC, that function there?
    General Kostelnik. It was, in fact, and actually making 
that mission stronger. Part of that, we are going to strengthen 
our UAV capability. Today we have a GCS and a KU-band antenna 
there. We have actually used that to fly missions. But in the 
way ahead, we are looking to add the endgame of that, which we 
really don't have in place anything else, and this is the piece 
that the DOD has. In fact, I think there was an article today 
in the paper on the amount of information that is potentially 
available from the unmanned systems. And this is the part of 
the problem we are having. When we flew the hurricanes and 
floods, we could gather the information. We could provide, you 
know, unique FLIR imagery static synthetic aperture radar, but 
we really didn't have the people to analyze what those things 
meant.
    So part of that investment is we are adding an intel cell 
very similar to exactly the same kind of intel cells that the 
DOD proper uses in their missions in the AMOC to tie the 
intelligence part of it to the operational feeds on the UAVS. 
So that is a future investment.
    We are also working coherently as we have grown our 
capability through this big pipe technique. The big pipe is a 
technology where we feed the streaming FLIR imagery not only 
from the UAVs anywhere in the free world, but from the P-3s as 
well. In fact, if we were flying up in North Dakota today with 
the Predator, we could easily put the streaming video from that 
asset on your personal computer here or at home. Those kinds of 
connectivity investments are part of that.
    And then, finally, a lot of that--some of the money is 
still planning money to put the ducks in a row, working on what 
the real investment for the long-term growth of the AMOC ought 
to be.

                          PREDATOR OPERATIONS

    Mr. Calvert. One last comment on the Predators and, 
obviously, the Predator B. I am very familiar where the 
aircraft is built in Southern California. I have been to the 
plant a number of times, and of course moving to the Predator 
C. But the confliction in operating in airspace, in domestic 
airspace operations--is there any work with the FAA to remove 
those conflicts where you can operate more freely within the 
airspace of the United States and certainly along the Canadian 
border, the Mexican border, where you can operate that aircraft 
more efficiently?
    General Kostelnik. There is certainly a lot going on in 
that regard. Flight----
    Mr. Calvert. Furthermore, do you think there ever is going 
to be a point in the near future--and not in the long future--
where we can actually take off and land within, say, March Air 
Force Base, for instance, or Coronado?
    General Kostelnik. It is a tough debate, and I am 
sympathetic in a way for the FAA because it is their job to 
keep the national airspace safe. It is our job, you know, to 
apply technologies we have, and, with some risk, to keep the 
country safe. So there obviously is a potential conflict. And 
of course with the tremendous growth of UAVs, or RPAs, as the 
Air Force is now calling them, there is a wide variety of 
unmanned things, small handheld things that are like, you know, 
RC model years from years ago, to the Global Hawk flying 60,000 
feet, you know, very large aircraft and everything in between. 
And there is a different risk posture for each one of those.
    But you, like all of us, would want the national airspace 
to be safe. So in areas where there is a lot of commercial 
manned traffic, if we are going to put unmanned things into 
those scenarios, we need to assure the traveling public that we 
can do that safely. And while the Predator is a tremendous 
airplane--more than a million operational hours is why we chose 
that aircraft for our fleet--it is still not without its risks. 
We still get surprised, and the Predator C will be no different 
because it is a manmade thing, a manmade program.
    So what we have tried to do in Homeland Security--because 
unlike the DOD, who has a training mission in this country, 
ours is Homeland Security. Ours is different. You know, we need 
to apply these technologies to protect ourselves today. So we 
have offered the FAA, and have over four years of discourse, a 
very simple theme about why we should be flying and what we are 
doing. One is what we fly--four W's--what we fly. The system, 
it is the safest system out there, but not perfectly safe. We 
have lost an airplane. We have crashed a couple of them in 
landing accidents. And every once in a while, we get surprised 
by a software error or, like anything else, one of our pilots 
will make a mistake.
    The second risk reduction is when we fly. We fly typically 
at night, because that is when the bad guys are up to work.
    To your point about North Island, it is where we fly. We 
are not flying downtown D.C. We are not flying over New York 
City. We are flying on the borders. You are familiar with the 
California border. There is not much out there. There is not a 
lot of risk. And that in itself is a risk reduction.
    And, finally, the last W is why we are flying. We are not 
flying to make a point. We are not flying to push a policy. We 
are not flying to make money for commercial reasons. We are 
flying to protect the country.
    So in our approach in Air and Marine, why I think we have 
been successful and why--we have issues with the FAA. We argue 
with them all the time. We fly by certificates of 
authorizations. They are difficult. But that is not the 
constraint. We are flying the floods. We flew the hurricanes. 
If we were to have a national event, we will be there for that, 
and we will continue to work with them because they are right 
to be concerned about the risk.
    There will come a time and you--back in our time in the 
space business, you know, the space business is mostly 
unmanned. We have pilots and astronauts and so forth there, but 
many of those activities are already done remotely. So the 
technology is coming, and there will be a time when there will 
be unmanned things in the normal traffic pattern. In fact, 
overseas in the operational bases, it is not uncommon to find 
fighters and C-130s and Army helicopters and Predator A's or 
B's all in a pattern; so in a combat scenario, it will work. 
But they are in a combat environment with collateral damage 
associated and risk associated with the combat environment. I 
don't think we are quite there yet. So I think that debate will 
continue.
    But I know there has been an interest from this Committee. 
We are working very closely with the DOD to find a measured way 
to open the doors. And I would offer to you, based on where we 
were in 2005 and where Air and Marine and the Coast Guard will 
be with the Guardian this year, we have gone remarkable ways in 
our ability to fly in the national airspace when needed, and I 
think that meets our needs.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    General, let me pick up just briefly on the report in the 
Washington Post this morning which you referenced, which has to 
do with the heavy use of Predator drones over Afghanistan and 
other countries, that is resulting in an overload of the 
satellite networks used to control and retrieve data. We will 
ask for a classified response as well, but to the extent you 
can discuss this, will you elaborate a bit? How much of an 
issue is bandwidth as we deploy and use more of these assets, 
and what kind of an analysis has been done of the Department's 
bandwidth needs?
    General Kostelnik. That is not really my technical area of 
expertise in exactly kind of where we are. It is less of an 
issue for us today in our business. I mean we fly our aircraft 
much like the DOD does, through the satellite infrastructure. 
So bandwidth is critical not only for command and control but 
even more so for the data feeds. And as you acquire more 
systems that produce even more data--in fact, a very specific 
system, Gorgon Stare, which is talked about in that DOD 
article, is going to generate a lot of information. And 
ultimately that information, with compression techniques and so 
forth, is going to require a lot of bandwidth.
    So really bandwidth is going to be an issue in the long 
term, because listening to Secretary Gates and seeing where 
unmanned things are going into the Department of Defense, 
watching the interest across the globe in the commercial use of 
unmanned things, clearly there is going to be, over the next 
several years, tremendous growth in the need and, therefore, 
constraint in the area of bandwidth. And obviously there are 
some technical things in terms of how data is manipulated and 
compressed that will help to offset that.
    There will still be growth in technology that will cut into 
those issues. But in the long term, bandwidth is going to be 
another one of those resource limitations that is problematic. 
For our mission specifically in the Continental United States, 
in Homeland Security, that is not going to be an issue in the 
near term.

                          GUARDIAN DEPLOYMENT

    Mr. Price. Thank you. Before we leave the Predator 
question, Admiral, I want to give you a chance to comment on 
the question that the General explored in the first round; 
namely, the current Guardian deployment plan and how it fits in 
with the Coast Guard's larger plans, the recapitalization plans 
in particular. Anything you want to add on that before we move 
on to other issues?
    Admiral Atkins. Yes, I would, Mr. Chairman. Thank you.
    The Coast Guard is really excited to be working with CBP on 
the Joint Program Office. Related to that, we are also working 
with the U.S. Navy on a Fire Scout Joint Program Office in 
terms of rotor wing ship-based launch UAV technology.
    At this point, the Coast Guard is in the needs 
identification phase, and we are trying to understand and we 
are trying to leverage the lessons learned by more experienced 
agencies; in this regard, CBP relative to the Predator and the 
Navy relative to the Fire Scout. And through those lessons 
learned, when we are ready to ramp up our own acquisition 
programs, sir, we will be better situated to do so.

                             MARINE VESSELS

    Mr. Price. Thank you.
    Let me turn to Marine vessels. CBP currently has 253 Marine 
vessels in service in coastal and riverine areas enforcing the 
laws, with an end state of 358 planned, as we understand. This 
year it will complete setting up 11 new Marine units funded in 
fiscal 2008, integrate SAFE boats transferred from the Coast 
Guard, explore acquisition of a multirole enforcement vessel, 
and test a new Marine interceptor vessel.
    The Coast Guard has almost 300 boats that range from 33-
foot special-purpose law enforcement craft to 110-foot patrol 
boats that operate in the same coastal waters on joint 
missions. Between the two components, 2,643 people crew these 
boats and hundreds more support them in port and at the 
strategic level.
    Now, CBP is recapitalizing its interceptor fleet and 
building up its riverine and coastal enforcement capability. 
Although the Coast Guard is quickly recapitalizing its small 
boat fleet, the 87-foot and 110-foot patrol boats are rapidly 
aging, and we are just beginning to build the fast response 
cutters needed to replace them. Four will be built with the 
$243 million we provided in the current fiscal year, and the 
2011 budget provides a similar amount for four more of these 
vessels.
    Now, given the constraints on the budget, which have been 
referred to repeatedly this morning, and the significant 
capital costs involved in these projects, it is critical to 
direct this investment properly. So I ask you both to explore 
this. How is the Department planning, across components, on 
asset acquisition and workforce planning to make sure we have 
the right mix of boats for crews and crews for boats, as well 
as the right mix of assets to secure our maritime border? Has 
the Coast Guard in particular been involved in the development 
and testing of the Advanced Concept Technology Demonstrator, or 
will this be a specialized CBP asset? What does it do that 
existing vessels in the joint mix cannot?

                ADVANCED CONCEPT TECHNOLOGY DEMONSTRATOR

    General Kostelnik. Let me address the Advanced Concept 
Technology Demonstrator. This was in a similar fashion to the 
air investment piece. While we continue to operate a lot of 
outmoded vessels that are reaching the end of their service 
life, and good vessels that are just getting, you know, worn 
out, the Midnight Express, a year ago we created a technology 
investment program to build a one-of-a-kind boat. This is the 
Advanced Concept Technology Demonstrator. It is oriented as a 
requirements demonstrator and a technology push tool to give 
our mariners a sense for what the requirements ought to be to 
replace the Midnights. This is our primary 39-foot interceptor. 
This is in a class of boats that is really different from the 
Coast Guard utilization, not one that would be, you know, 
consistent for their mission set, but it is our primary 
interdiction tool out in the Caribbean and all the coastal 
environments.
    That boat is 39-foot, has four 225 engines, conventional 
seats, and some type of law enforcement capability, but not 
anything substantial. The Advanced Concept Technology 
Demonstrator is a one-of-a-kind boat, 43-foot developmental 
hull, four 350 horsepower developmental Mercury Verado, the 
largest developmental racing engine made. We mounted 2,762 
machine guns with the help of the U.S. Coast Guard, state-of-
the-art FLIR, state-of-the-art integrated flat-blade displays, 
state-of-the-art seats, shock-absorbing seats--the biggest 
investment in our human capital force that are like, you know, 
nothing else--and put all of these things in one integrated 
boat, this boat can do things that nothing else in its class 
can do, 75 miles an hour in the open water.
    There are pictures of it. Everything is out of the water 
except for the prop underway with a full-man crew 600-gallon 
tank. We are not going to buy--we bought that one-of-a-kind 
boat, but that allowed us to take that boat to all of our 
mariners, let them have a look, refine their requirements. And 
this year, this summer, we are going out for an RFP based on 
what we learned from that one-of-a-kind boat to replace our 
Midnight fleet.
    The first part of that has already been funded by this 
Committee. In fact, with the added six boats that we will get 
in the funding in 2011, we will have money in hand for 23 of 
these new vessels, and there will be nothing like that. That is 
about half of our operational interceptor fleet, which is 
really a good start on that effort.
    In the other parts in regards to the Coast Guard's 
recapitalization, those 73 boats they gave us, those were in 
superb condition. We reengined those craft. We refurbished 
those. We put those boats right into service in rough duty. And 
of course, I think you all know we procure the SAFE boats for 
the U.S. Coast Guard and we buy the engines and maintain those 
boats. We have a perfect partnership in those class of boats 
where we have overlapping mission requirements.
    That relationship in terms of training, in terms of 
resourcing and sustainment and acquisition could not be any 
stronger. As you get to the larger craft, out of class, you 
know, a different mission set and clearly a different kind of 
process.
    So I believe on the Marine side, now similar to the air 
picture and the recapitalizations we have done, thanks to your 
input and the improvements that we got last year, of which most 
are in place, added our facilities a little bit late in some of 
these new marine branches we have put up, but they all have 
boats and they all have mariners, and that speaks well for that 
part of our program.
    Mr. Price. Admiral.

                      SMALL BOAT COMMODITY COUNCIL

    Admiral Atkins. Sir, I would add to that the ``how'' part 
of your question, which was how does the Department deal with 
that? And really it is this DHS Small Boat Commodity Council 
that has brought CBP and Coast Guard and others together where 
we discuss our requirements. And as the General points out, it 
really is a missions-generated sort of discussion.
    So if there is an opportunity for synergy, we seek it out 
and it has really brought some terrific synergies relative to 
the boats that we buy, the maintenance that we share. The Coast 
Guard is able to take advantage of CBP maintenance contracts, 
and we are also able to bring together, in terms of training, 
those techniques and practices that align our actual tactical 
operations on the water. So it is through this DHS Small Boat 
Commodity Council that delivers the ``how'' to the departmental 
ability to bring synergies in effectiveness and efficiency.

                        SEMI-SUBMERSIBLE VESSELS

    Mr. Price. Let me, before I turn to Mr. Rogers, ask you 
about one particular threat, which Admiral Allen has 
highlighted. He has described the growing threat of SPSS, or 
Self-Propelled Semi-Submersible vessels, noting that their use 
has grown significantly and that they account for maybe a third 
now of all the maritime cocaine flow.
    Needless to say, this goes way beyond initial expectations 
and projections of the importance of these vessels.
    Admiral, I wonder if you could estimate for us the number 
of these vessels being used by traffickers, the number we are 
able to detect and stop in relation to that overall number.
    And to both of you, what assets are Coast Guard and CBP 
bringing to bear against these vessels? Are they enough? And 
then how do you target your efforts? Are you mainly relying on 
surveillance? Are you getting other types of good intelligence 
to target these traffickers, and what do you need to get better 
intelligence?
    Admiral Atkins. Sir, in terms of--you cite the numbers; in 
the last year, approximately 11, 10 to 11 SPSS were 
interdicted. I can get you for the record a more exact number 
relative to the projections associated with that from JIATF 
South.
    In terms of what tools we are bringing to bear, really 
JIATF South, again through their unified command, we are able 
to bring from the Coast Guard our maritime patrol aircraft, the 
C-130s, from the CBP the P-3s, and in the future we hope the 
UAVs. It is this idea of providing that domain awareness, and 
now couple that with JIATF South intel and information, how can 
we better cue the surface assets that the Coast Guard and the 
Navy--Navy-carrying Coast Guard LEDETs is able then to execute 
the endgame?
    So, sir, I will tell you that we--as we discussed earlier--
are being more effective through that cued information from 
JIATF South, and they are able to bring to bear a national 
asset and sound intelligence, human intelligence. We have had 
some fantastic opportunities working through the Department of 
Justice, DEA, on how to bring to bear all the national assets 
against this threat vector.
    In terms of our aviation use of force through our HITRON 
Squadron where we put up armed helicopters to bring a stopping 
function so that our vessels on the waters can then interdict 
and board these vessels, that really is part of the picture, 
too, to our fantastic success rate down there.
    Mr. Price. Do you have a rough estimate you can give us of 
the number of these vessels that are now out there being 
utilized and the interdiction numbers?
    Admiral Atkins. Sir, I would like to get back to you on 
that for the record.
    Mr. Price. All right. Please do that.
    [The information follows:]

    RESPONSE: In fiscal year 2009, according to the 
Consolidated Counterdrug Database, Joint Interagency Task Force 
South (JIATF-S) assets detected 13 or 60 documented Self-
Propelled Semi-Submersible (SPSS) deployments. Coast Guard 
assets, initially under JIATF-S tactical control, interdicted 
11 of the 13 SPSS detected and removed over 64.6 metric tons of 
cocaine. Projections for FY 2010 indicate Drug Trafficking 
Organizations will continue to utilize SPSSs at a rate similar 
to those in FY 2009.

                     SEMI-SUBMERSIBLE VESSELS CONT.

    Mr. Price. General.
    General Kostelnik. Of course, the projections are really 
estimates. These boats are one-way ships, so they either make 
it or they don't. The last time I was in JIATF South, they talk 
as many as 20 to 30 of these things at any one time being under 
construction in the jungles along the riverine environment, 
although we can get their current assessment.
    And I would just reinforce the kind of things that the 
Admiral said, and that is that we have made a lot of 
improvement in our support in that area. Recovering the P-3 has 
been the first-order effect because back in 2006, we only had 
two of the airplanes flying. In 2007, three of the airplanes. 
Today we have 11 airplanes. So, one, there is a lot more air 
time being provided into the maritime role. In fact, last year 
in 2009, more than 58 percent of the total air picture was 
provided by CBP P-3s.
    If you look at our P-3 aircraft, not only have we provided 
the aircraft and returned them to operational service, but we 
have two different kinds of P-3s in play. We have the domed 
aircraft which has the radar. That is the primary aircraft used 
for searching out the boats.
    And the second aircraft, called the long-range tracker--and 
these aircraft are typically deployed in pairs--traditionally 
has the forward-looking infrared and an F-16 radar. It does the 
air intercept and provides the endgame picture for the radar.
    So you need two things for the maritime endgame. You need 
radar to detect the vessel and then a FLIR to work with the 
surface vessels for the endgame.
    Two years ago we put the sea-view radar on the long-range 
tracker P-3 and on the first operational deployment, the same 
radar that we are putting on the Guardian with the same amount 
of OT&E on the first operational deployment of that long-range 
tracker P-3 into EASTPAC last year, around the first of 
January. In 13 days that one aircraft with the developmental 
radar got three of four Self-Propelled Semi-Submersibles.
    So, one, we are almost doubling the fleet by putting the 
seavue radar, which we plan to do on all of our slick long-
range tracker aircraft. We are also going back and looking at 
putting a FLIR on the domed aircraft. So now that is going to 
ultimately double the capability, where each aircraft now can 
fly the mission stand-alone, rather than requiring two 
aircraft.
    Specifically in regards to the SPSS, not only are we going 
after those, but you might recall that a year ago Science and 
Technology in the Department of Homeland Security built a 
surrogate target. We have several of these submarines that the 
Coast Guard was successful in acquiring, and one or more of 
those at JIATF South. But we built a developmental target 
vessel that we are actually going to use that target vessel in 
our Guardian test to see how the Guardian radar, with the same 
capability that the P-3 has, does against the SPSSs. So we are 
enhancing our maritime capability with very long duration.
    The P-3's typical mission is about 12 hours. We can fly the 
Guardian about 20 hours in EASTPAC with a combined crew. The 
aircraft would be launched and recovered from Central America 
somewhere, or one of our remote sites, but flown from a 
combined fly team--it could be Florida, could be Miami, could 
be Fort Huachuca, Riverside, could be any of our 
infrastructures around the country.
    So, one, not only have we recovered our P-3 fleet, which 
gives you more time on station, but we are adding new 
capabilities.
    And, finally, Admiral Atkins mentioned the HITRON 
capability, which is another great example of partnership, 
Customs has had that same entitlement. We shoot out the engines 
on boats on the water to stop craft when we can run them down, 
but often we are out--don't have enough boats or can't get to 
an endgame, and aircraft would bring the capability.
    So this past year, not reinventing the wheel, we procured 
the same Barrett weapon that the Coast Guard uses in HITRON, 
capitalized on their expertise and their training, and this 
year we are adding that capability to our Black Hawk fleet. 
Now, we don't fly Black Hawks out, you know, in the EASTPAC 
because these aircraft are mounted on ships. But from land-
based facilities in the SeaBig area of operation, and the Mona 
Pass and the Caribbean and other approaches, starting this year 
we will have that capability deployed on our Black Hawk.
    So if you look at the overall picture, there is a lot going 
on behind the scenes to deal with this mission. And I would 
echo what Admiral Atkins said earlier. It is a great 
partnership and a great process to have Admiral Dan Lloyd down 
there sitting in a chair, focused entirely on this effort, 
managing not only the interagency but the international, 
getting the intelligence right, getting us focused--which is 
the key--and then focus the resource assets we have on the 
ships as they actually sortie.
    I don't know what we are missing, but I can tell you when 
you get 234 metric tonnes in one year that doesn't get to the 
States, that is a big deal. That has to hurt somebody.
    Mr. Price. Yes, sir.
    Mr. Rogers.

                         RECAPITALIZATION PLANS

    Mr. Rogers. Do you want to know how you can help yourselves 
secure the funds that you need for your programs? Tell us about 
it. That is our chore. We have to decide how to allocate the 
funds for your agencies, and we are having a tough time with it 
because we don't have your recapitalization plans, which, in 
the case of the Coast Guard, is required by law. It is in the 
appropriations bill of 2010 and the report language for the 
CBP, and yet we don't have it. It is way overdue.
    What is the problem? Admiral.
    Admiral Atkins. Sir, we are working on that report. It is 
now at the Department, and we are working with them so that 
they can understand the Coast Guard's position relative to our 
needs.
    Mr. Rogers. General.
    General Kostelnik. Well, the reports are clearly late, the 
need. In the case of Air and Marine looking towards 2011, we 
were late in doing our due diligence and putting our activity 
together. You know, given the limited resources we have and the 
investment strategy, we try to optimize those as carefully as 
we can. And on the leading edge in terms of our UAS program, we 
are very much conditioned about the emerging threats in the 
real world around us. So some of that delay I would have to 
take in our agency. I know you are all aware it is a difficult 
process going through the Administration to get it formally 
approved, not only with the Department but with OMB and others, 
and that does take some time. I think you are going to get our 
report very soon. I don't think you will see a lot of 
surprises. We try to work closely throughout the year with----
    Mr. Rogers. I understand the difficulty of getting it 
through OMB and the Department and everybody else. That is a 
common problem we hear time and again, on all these agencies, 
is we can't get OMB to clear our report that is due 6 months 
ago under the law.
    I don't know why, Mr. Chairman, we don't just have the OMB 
up here and grill them for about a week on every one of these 
departments.
    I mean it is not just you, but for goodness sakes, how can 
we intelligently lay out a spending plan for you if we don't 
know what it is you want to do?
    So I am frustrated, and I know probably you are too, but it 
is an impossible situation. We are trying to help you sort 
through the funding for the CASA aircraft and the Marine patrol 
aircraft that you want and the sensing pallets and all of those 
things that are Greek to a lot of us. But we are depending on 
you for expert advice.
    We love you to come here and testify, but we really need in 
writing the plans. I am a great believer in planning your work 
and working your plan. And you are working a plan, but I don't 
think the plan is written out.
    Well, we hear constantly from everybody that there are not 
enough flight hours, but all of the equipment that each of you, 
both of you have--and that also bears back on the desire that 
we have to help you fulfill your mission.

                     MULTIROLE ENFORCEMENT AIRCRAFT

    Now, in the CBP's 2011 budget, you have no funding for 
sustaining the procurement of the new multirole enforcement 
aircraft. Coast Guard's budget only includes funding for one 
Marine patrol aircraft, the 15--the HC 144-A. No spare part 
moneys. CBP has contracted for 30 of the multirole enforcement 
aircraft, but only funds five through the end of the current 
year and only enough funding for one P-3 service life 
extension.
    And given the growing need for flight hours, how can we 
hope to realize the increased flight hours with this stinginess 
on acquiring and maintaining the aircraft that you have? Any 
thoughts?
    General Kostelnik. Sir, I would just offer that the--flying 
our program, obviously, is fully funded for this year and I 
believe it is fully funded in 2011. Now, getting those aircraft 
in service would certainly be a benefit in regards to the five 
MEAs and it will take us some time to get those aircraft in 
service. In fact, we do have those first five aircraft on 
contract. The first aircraft is actually coming down the 
assembly line at Beech, and should be out and delivered to the 
contractor for its law enforcement modifications this spring. 
But it will still be late in 2011 before we even get the first 
one of those aircraft, and of course those aircraft will have 
to go into tests.
    Our contract for 30 gives us options to add those things as 
resources are available. And, of course, you hope to have 
continuity in those investment lines. But the MEA program is 
really out on the leading edge, again, and in pretty good 
shape. And in some cases, giving us a little time to make sure 
we get the right aircraft, make sure the sensors work properly, 
and test is not a bad thing.
    On the P-3 investment, that is actually the addition of 
another wing set. That will be our tenth wing set. But those 
things--we already have enough wing sets in place; so those 
really aren't going to affect the rewinging of the P-3s.
    So in fact, over the foreseeable future, with two aircraft 
down each year being rewinged, in addition to the airplanes we 
currently have grounded, our plan shows that we will have 11 
operational aircraft flying the mission, and only in the 
transit zone, meeting the 7,200 hours expected by JIATF South, 
but also being able to bring the aircraft into other roles and 
missions along the southwest border or along the northwest.
    Mr. Rogers. One of the big reasons that we want to see your 
recapitalization plan is that we have got to try to plan the 
expenditures over a period of time, multiyears in fact. And it 
only stands to reason the Coast Guard is only budgeting for one 
aircraft in 2011 and will likely end up paying around $2-5 
million more per aircraft in that fashion by piecemealing it 
out one or two at a time.
    CBP has only received funding for five of the 30 multirole 
aircraft that you are planning to buy; no funding to sustain 
the procurement in 2011. That will drive up the cost per plane, 
possibly elongate the delivery schedule. So we will wind up 
paying millions and millions of dollars more for the 
procurement program if it is stretched out piecemeal over the 
years. And if we went ahead and paid for them now, we could get 
them at a unit cost millions of dollars cheaper than if you 
piecemeal it out. Is that right or wrong, Admiral?
    Admiral Atkins. Yes, sir. A consistent funded line would--
as you maintain that line open, it would be cheaper in the long 
run.
    Sir, if I could return to one of your earlier questions 
about how do we seek to maintain the hours? For the C-144s in 
particular, they are replacing aircraft that are supposed to 
bring 800 program flight hours per asset, whereas the 144s are 
supposed to be bringing us 1,200 program flight hours per 
asset.
    And so this year, working with our Aviation Training 
Command, and as we go forward into our first operational unit 
at Miami, we are on schedule to hit that target of 1,200 
program flight hours. So it is this idea, that through new 
assets with better service life, with better maintenance, that 
don't have the issues of reliability and maintainability and 
operational overhead associated with older aircraft, we are 
going to be able to maintain those op hours, sir.
    Mr. Rogers. There is no funding for spare parts that you 
request.
    Admiral Atkins. Yes, sir, that is correct.
    Mr. Rogers. How come?
    Admiral Atkins. Sir, again, we are living within the 
constraints and we are making priorities. And in order to move 
forward on surface recapitalization, that was the priority for 
that year, sir.
    Mr. Rogers. Does the procurement plan--the capitalization 
plan that you have submitted to the Department and to OMB, does 
that plan anticipate the need to procure these items not one at 
a time, but in wholesale lots? Either one of you.
    Admiral Atkins. Sir, I am not sure I understand your 
question relative to wholesale lots.
    Mr. Rogers. Do you have in your mind at least, and probably 
on paper--you know what you want to do. You have got a 
recapitalization plan, do you not, each of you in your own 
world?
    Admiral Atkins. Yes, sir.
    Mr. Rogers. And you have submitted that recapitalization 
plan to the higher-ups, have you not, to the Department?
    Admiral Atkins. Yes, sir.
    Mr. Rogers. And to the OMB?
    Admiral Atkins. The report that we discussed earlier, sir, 
is at review with our Department right now.
    Mr. Rogers. Is what? I am sorry. What did you say?
    Admiral Atkins. The Deepwater report, sir. Our plan going 
forward is with the Department, and we are working with them 
right now to understand the puts and takes.
    Mr. Rogers. General?
    General Kostelnik. The MEA program, as we contracted out 
with lot option buys, we really don't pay more in the long run 
if we don't put the risk of the aircraft on right away. The 
commercial market has the basic aircraft available more 
frequently. So in the near term, there really isn't any impact 
to this because it takes us so long to build the aircraft and 
to get the pieces on.
    There will be a time at some point, if we don't add to the 
option and procure the aircraft, where there could be the kind 
of issues that you are referring to, including suboptimization. 
But right now, I would characterize that that program is well 
on track.

                           FLIGHT OPERATIONS

    And in regards to flying hours, recall these are going to 
be additive aircraft to our fleet. These are aircraft that are 
going to replace the existing C-12s that we are still 
continuing to maintain and fly out the end of their service 
life. So as these aircraft come onboard, we will be retiring 
other aircraft at the end of our area.
    And also for us, the biggest part of our flight operation 
is the rotary wing. So we do have, obviously, fixed wing. We 
talked about the P-3s and the MEA. But a big part of our force 
is the rotary wing program, and that program is very important 
because it is a very tight helicopter market on the kind of 
aircraft that we buy, and to the support that we have had from 
this Committee, that program is well established. We acquire 
another eight aircraft in 2011, and we continue to keep that 
line open. We are well along in that particular program.
    We would see the kind of issues you talked about if we had 
a break in our procurement or the numbers, and to the credit of 
this Committee and the Administration, we continue to get those 
aircraft in at one per month. In fact, by the end of 2011, we 
will have acquired 39 of the new AStar 350-3B aircraft with 
FLIRS and a full law enforcement package.
    This is the mainline part of our small rotary-wing fleet 
that we will take a lot of the aircraft--the 086, the MD-500s, 
the MD-600s--out of service. So in a much bigger part of our 
program, I think you would see the coherency and the continued 
logical investment that you would expect in these other 
programs.
    Mr. Rogers. Well, the recapitalization plan is long 
overdue. We got the budget request of the OMB before us, and I 
guess that answers most of the questions that have been raised 
here about what they will do about the recapitalization plan 
that you have submitted.
    The budget is the plan, I guess, and that is proposing all 
these horrendous cuts in your equipment and personnel. I don't 
understand, though, now why we can't get the recapitalization 
plan under the budget that has been submitted to us from OMB. 
Right?
    General Kostelnik. It is certainly a worthy expectation and 
they should both be forthcoming very soon.
    Mr. Rogers. I have heard that before, Mr. Chairman.
    Well, there are others wanting to ask questions, but let me 
ask you this one finally.
    Well, I will yield to the next round, Mr. Chairman.
    Mr. Price. Mr. Culberson.

                         RECAPITALIZATION PLANS

    Mr. Culberson. Thank you, Mr. Chairman.
    Admiral and General, we really appreciate your service. The 
people of Texas are very proud of you and appreciate what you 
and the men and women that you command do for our country to 
protect us.
    To follow up on Mr. Rogers' questions, who had--apparently 
you all have obviously done your part of producing your 
capitalization plans, fulfilling your requirements under the 
law to tell the Committee what we need to do to help you. Who 
has those reports? Where are they now? It sounds like they are 
at OMB; is that right, Mr. Chairman, Mr. Rogers?
    General Kostelnik. I can't speak for the Coast Guard, but 
in terms of our report, OMB actually took the least amount of 
time. So actually the OMB crowd is actually a pretty quick read 
on our reports, and ours have gone back and forth. Some of that 
is our fault at Air and Marine for not having the proper things 
in here and making changes and submitting into the process kind 
of late. So a big part of our particular problem was our own 
fault.
    Our report is in the final stages of review at DHS and 
should be forthcoming in the very near future. I mean, the work 
is done and virtually approved, so you should----
    Mr. Culberson. Who at DHS? It would be very helpful, I 
know, for Mr. Rogers and the Chairman and the staff to identify 
who has it so we can go find them and get it.
    General Kostelnik. I don't think I know the individual at 
DHS. It is a large infrastructure and----
    Mr. Culberson. Would you find--have your staff, please, 
tell the Chairman and Mr. Rogers who has it? Admiral, can you 
tell us the same thing? It sounds like you have done your due 
diligence. Where is it?
    [The information follows:]

    RESPONSE: The report was transmitted to Congress on April 
8th, 2010.

    Admiral Atkins. We do share that responsibility. We just 
finished it up ourselves here in the Coast Guard, and we passed 
it to the Department, and we are now in that give-and-take 
stage with the Department to understand the puts and takes of 
the report. And so the Coast Guard shares responsibility for 
this tardiness, and we are working with the Department to move 
it as quickly as we possibly can.
    Mr. Culberson. You all are very gracious about this. I 
understand. But, please, what we are looking for is tell Mr. 
Rogers and the Chairman who in the Department of Homeland 
Security has your capitalization report and the other 
information that the Committee needs, so we can bust it loose.
    Admiral Atkins. Yes, sir. We are working with a number of 
offices within the Department including the Under Secretary of 
Management's Office.
    Mr. Culberson. Under Secretary of Management.
    Admiral Atkins. Yes, sir. But a whole bunch of folks 
relative to what is in the report and how do we move it 
forward.
    Mr. Rogers. Will the gentleman yield?
    Mr. Culberson. Yes, please, Mr. Rogers.
    Mr. Rogers. And while you are at it, convey to them that 
this Subcommittee is not in the business of writing blank 
checks. We want to know what we are buying, and we don't know 
that without that report.
    Mr. Culberson. And we are really serious about it. We 
really want to help you. We admire you. We revere you guys and 
want to help. And you are being very gracious and diplomatic 
about it publicly. Tell us who, and we will go find it.

                      OFFSHORE DRILLING PLATFORMS

    Let me, if I could, also ask, General--I represent Houston, 
which is to the energy industry what Silicon Valley is to the 
computer industry. And the Committee may not be aware, Mr. 
Chairman and Mr. Rogers, that Homeland Security actually came 
out with a rule, a tentative rule, last year that we found out 
about at the last minute because there was no notice that the--
all the offshore drilling, if you are an offshore drilling 
platform or rig in the Gulf of Mexico or anywhere in the United 
States, could no longer use foreign-flagged vessels; is that 
right?
    Out of the blue, Homeland Security comes out with this rule 
that says no foreign flag vessel can support or bring supplies 
to any offshore drilling rig. Well, you can imagine what a 
catastrophe that would be. We were fortunate. I objected and 
others objected, and that rule was withdrawn. And obviously you 
want to make sure we are protecting that strategic asset. But 
it has never been a problem, and there are virtually no 
American foreign-flagged supply vessels that supply these 
offshore rigs.
    Can you tell us, General, the status of that rule?
    [The information follows:]

    RESPONSE: The Advanced Notice of Proposed Rulemaking is 
currently in the review process. The rulemaking package must be 
approved by OMB and published in the Federal Register.

    We understand--I have been told by Oceaneering, the folks 
that do the underwater exploration, they do the blowout 
preventers, that they understand this rule is about to be 
resubmitted. I certainly hope not, and you need to make sure 
that you are including the industry. If you are thinking about 
a similar rule, it has to include input from the industry, and 
we need to know about it in advance.
    Could you tell us what is the status of that? Is there 
going to be another such rule proposed? And, Admiral, maybe 
you--I am not sure--it really is CBP, Admiral.
    General Kostelnik. I am not aware of that law or that 
approach. That could be something with the Office of Field 
Operations, but it really is beyond my area of expertise. I am 
really not familiar with it.
    Mr. Culberson. Would you have somebody on your staff--would 
somebody run that down for us? That is a big one.
    General Kostelnik. If it is from CBP, we will take a look 
at that.
    Mr. Culberson. Shutting down all offshore oil and gas 
production is a pretty big deal, which would be the effect of 
that rule. It would just kill us.

                           OPERATION PREDATOR

    Another question I want to ask, General, is the Predators 
are extraordinarily important. One thing I discovered on 
touring the border, up and down the southern border, is you 
have got wildly different levels in enforcement. In sectors of 
Texas, the Border Patrol's policy is essentially zero 
tolerance. They call it Operation Streamline. And it works 
beautifully. The local community supports it. The local 
community is 96 percent Hispanic on the Texas border. In Del 
Rio and Laredo, the crime rate has plummeted. The Border Patrol 
is enforcing existing law.
    We have supplied you with additional resources in order to 
keep up with the prosecution rate. But the illegal crossings 
have essentially disappeared in those sectors where the law is 
being enforced.
    However, in Tucson we visited--what was the name of that 
air base? We visited Fort Huachuca, Mr. Chairman and Mr. 
Rogers, and saw some of the extraordinary assets you have got 
there with the Predators. And we were shown a CD, Mr. Chairman, 
where the Predator had actually spotted--how big was that load? 
It was like a caravan of vehicles, wasn't it, Joe? You could 
actually see this caravan of smugglers coming over the southern 
border, Mr. Chairman, with the Predator. And at night, in the 
dead of night, your Border Patrol agents--I mean the brave 
souls, God bless them, go out there in the dead of night in 
that desert to intercept these heavily armed smugglers. And 
they were carrying thousands of pounds. It was a huge load, a 
huge load of dope.

                    PREDATOR OPERATION PROSECUTIONS

    Mr. Culberson. And the Predator set the whole thing up. You 
see the whole thing on videotape, Mr. Chairman and Mr. Rogers, 
and then we discover the prosecutor in Tucson would not 
prosecute. And apparently, it happens all the time, that you 
guys risk your lives, make these arrests. And as far as we can 
tell, it is still the case in Tucson that if you are arrested 
in the Tucson sector crossing the border illegally, carrying 
less than 500 pounds of dope, you have a 99.6 percent chance of 
never going to jail. And all the smuggler is out is about 3 
hours and the load.
    Now, that is still apparently the case. Are you familiar 
with this problem in Tucson, and are you continuing to have 
difficulty getting the U.S. Attorney to prosecute intercepts 
and arrests that your agents make using your Predators?
    General Kostelnik. It is really not limited to the Predator 
part of the mission.
    Mr. Culberson. It is. It is bigger than that.
    General Kostelnik. We are a part of the air picture for the 
Border Patrol field commanders, who actually run the mission 
kind of on the ground.
    But I would offer that I am familiar with the issue on the 
prosecutors and which cases they choose to take. And it is 
frustrating when you find people, obviously, that are involved 
in the criminal enterprise, large or small, that are not 
prosecuted.
    But my guess is that the capacity is limited. They have to 
choose the cases wisely. I don't think the cases they choose 
have anything to do with whether it is Predator-related or not.
    Mr. Culberson. Yes, sir, that is the area of your expertise 
and knowledge, though.
    General Kostelnik. I know there are limits on how much or 
what kind of narcotics----
    Mr. Culberson. That is what they tell us.
    General Kostelnik. And certain kind of things they choose 
not to prosecute.
    Mr. Culberson. The point is--could I have someone on your 
staff--could you please go back and look and tell us the level 
of arrests versus prosecution? I mean, the people that you all 
arrest in those different sectors, what percentage are 
prosecuted in those different sectors up and down the border?
    [The information follows:]

    RESPONSE: This response has been designated as ``Law 
Enforcement Sensitive--For Official Use Only'' and as a result, 
cannot be placed in the record or released to the public. DHS 
has provided this response to the Committee separately.

    General Kostelnik. We could probably give you some sense of 
that.
    Mr. Culberson. In Tucson, you are aware of the 99 percent 
plus release rate that they don't prosecute?
    General Kostelnik. I couldn't confirm or deny the actual 
percentages, but I know that there are a lot.
    Mr. Culberson. They turn almost all of them loose.
    General Kostelnik. A lot of it is humanitarian, those are 
turned back. Certain levels of narcotics, they are interdicted, 
and they are offered up for prosecution. If the prosecution is 
not accepted, then they are repatriated.
    Mr. Culberson. Yes, sir. Regardless of the prosecutor's 
excuse, you are aware of--and I just wanted you to confirm for 
the Committee--that in the Tucson sector, virtually everyone 
that is arrested is released?
    General Kostelnik. I don't think that I could confirm that. 
I would say that there is a large number, a fair percentage.
    Mr. Culberson. An extraordinarily high percentage.
    General Kostelnik. That would probably be a fair 
characterization.
    Mr. Culberson. Is that fair?
    General Kostelnik. Yes, sir.
    Mr. Culberson. It is important for you all to know that, 
Mr. Chairman.
    We are working on it and continuing to try to shine some 
sunlight on it, find some additional resources for the 
Marshals. We have worked with the judges there and found a 
way--the Border Patrol, actually, Mr. Chairman, provided an 
administrative facility. There is a building in Tucson that you 
all own. I think the Border Patrol owns--it is an 
administrative building.
    And I will wrap up here, Mr. Chairman. But I wanted to be 
sure while I had you here to remind the Committee, our good 
chairman and ranking member that this continues to be a 
terrible problem where the Tucson sector is essentially wide 
open, as is Southern California, yet the Yuma sector and large 
sectors along the Texas border, the law is being enforced very 
successfully, with great support from the local community. Is 
that an accurate statement?
    General Kostelnik. I am not familiar with the details on 
the other, but----
    Mr. Culberson. In Tucson, you have a bad problem.
    General Kostelnik. It is a focus area, as you know, for the 
Border Patrol. There is a lot of activity of all kinds. It may 
be a supply and demand issue with the attorneys.
    Mr. Culberson. Thank you very much.
    I really appreciate what you guys do.
    Thank you, Mr. Chairman, for going back through that. It is 
just important for the Committee and the staff to know how 
serious a problem we have got in the Tucson sector. Thank you 
very much.
    Mr. Price. Thank you.
    And with that, we will thank both of you for your service 
and for your testimony here this morning. This interagency 
focus on air and marine assets is one that we need to take 
under consideration as we write the budget, obviously, 
understanding that the operations of both of your agencies are 
related to each other and need to be assessed in a coordinated 
fashion.
    So you helped us greatly in doing that, and we are 
appreciative.
    Mr. Rogers, do you have any final thoughts?
    Mr. Rogers. No, thank you, Mr. Chairman, except to say 
thank you to these gentlemen and their staff who are with them 
and to thank them for their service to the country. We 
appreciate it.
    Mr. Price. With that, the Subcommittee stands adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           W I T N E S S E S

                              ----------                              
                                                                   Page
Aguilar, David...................................................     1
Atkins, Rear Admiral Vince.......................................   967
Bersin, Alan.....................................................   837
Kostelnik, Major General Michael (Ret.)..........................   967
Mayorkas, Alejandro ``Ali''......................................   691
Morton, John.....................................................   223
Morton, John.....................................................   837


                               I N D E X

                              ----------                              --
--------

        CBP-BALANCING SECURITY WITH LEGITIMATE TRADE AND TRAVEL

                                                                   Page
Opening Statement of Chairman David Price........................     1
Opening Statement of Ranking Member Harold Rogers................     7
Statement of Chief David Aguilar, Acting Deputy Commissioner, CBP    11
Arrests in Each Sector...........................................    51
Automated Modernization: COPPS...................................   204
Automated Targeting System (ATS).................................   191
Big Ben Border Crossings.........................................    33
Bonuses..........................................................   166
Border Patrol Tactical Communications Program....................   221
Border Security Fencing, Infrastructure, and Technology (BSFIT)..   195
Business Visas...................................................    42
CBP Construction.................................................   205
CBP Officers Funded by User Fees.................................    48
CBP Operations in the Commonwealth of the Northern Marianas 
  Islands (CNMI).................................................   204
CBP Readiness and Mass Migrations/Evacuations....................   213
Comprehensive Immigration Police.................................    52
Container Security Initiative...........................22, 30, 35, 179
Contracts........................................................    74
Cost For Being Smuggled..........................................    53
Cost To Secure the Southern Border...............................    40
Cross-Border Travel and Western Hemisphere Travel Initiative 
  (WHTI).........................................................   194
Customs-Trade Partnership Against Terrorist (C-TPAT).............   183
C-TPAT Program...................................................    31
C-TPAT Budget Reduction..........................................    34
Cuts to Air and Marine Operations................................    49
Cyber Security Initiatives.......................................   191
Drug Kingpins....................................................    42
Electronic System for Travel Authorization (ESTA)...............44, 206
Expenditure Plan.................................................    26
Fee Funded Operations............................................   188
Fiscal Responsibility............................................   218
Global Entry Program.............................................    45
Hiring...........................................................    67
Illicit Shipping.................................................    30
Immigration Laws................................................45, 210
Impact of Declaring Amnesty......................................    51
In-Bond Shipments................................................   184
Infrastructure Constraints.......................................    32
Inspection and Detection/Nonintrusive Inspection Technology......   177
Integrity Programs...............................................   188
Jones Act Regulation Changes.....................................   221
Joint Powers Agreement...........................................    55
Merida Initiative................................................    52
Mobile Surveillance System.......................................    26
National Targeting Center (NTC)..................................   183
NEXUS/SENTRI/FAST................................................   184
Northern Border BSFIT Investments................................   202
Operation Streamline.............................................    38
Oversight and Accountability.....................................   216
Personal Constraints.............................................    33
Ports of Entry...................................................   190
Potential Corruption of CBP Officers.............................    54
Presidio Reprocessing............................................    43
Questions for the Record Submitted by Chairman David Price.......    60
Questions for the Record Submitted by the Honorable John 
  Culberson......................................................   221
Questions for the Record Submitted by the Honorable Sam Farr.....   207
Reception and Representation.....................................    64
Recidivism Percentage............................................    46
Recovery.........................................................   185
Revenue Collection...............................................   192
Scanning U.S. Bound Cargo Waiver.................................    22
Screening International Passengers...............................    27
Secure Border Initiative.........................................25, 39
Secure Freight Initiative.......................................47, 182
Security in the Border Region....................................   211
Statistics and Data..............................................    60
Tactical Infrastructure in Arizona...............................    43
Terrorism........................................................    56
Textile Transshipment Program....................................   186
Training of CBP Agents...........................................   214
Travel...........................................................   174
Travel and Tourism...............................................   207
Tucson Sector Apprehension Rate..................................    27
Unobligated Balances.............................................   176
Virtual Screening................................................    37
Western Hemisphere Travel Initiative (WHTI)......................    34

    FY2011 BUDGET HEARING FOR UNITED STATES IMMIGRATION AND CUSTOMS 
                              ENFORCEMENT

Opening Statement of Chairman David Price........................   223
Opening Statement of Ranking Member Harold Rogers................   229
Statement of John Morton, Assistant Secretary, ICE...............   235
287(g)...........................................................   682
287(g) and State and Local Immigration Support...................   499
Alternatives to Detention (ATD)...........................270, 494, 683
Alternatives to Detention Program................................   262
Ballistic Forensics/NIBIN........................................   607
BEST Team Program................................................   680
Bonuses..........................................................   668
Border Inspections--Weapons......................................   268
Border Violence--Drug Trafficking Organizations..................   267
Contractors vs. ICE Employees--Detention Oversight...............   260
Contracts........................................................   609
Decrease in Work-Site Enforcement Arrests........................   258
Detainee Medical Services........................................   514
Detainee Transfers...............................................   682
Detention and Removal............................................   687
Detention Bed Resources..........................................   259
Detention Reform.................................................   281
Family Separation................................................   683
Hiring...........................................................   607
Illicit Trade....................................................   276
ICE Field Office Consolidation...................................   538
ICE Investigations...............................................   540
ICE Overseas Investigations......................................   576
Operation Angel Watch............................................   681
Operation Community Shield.......................................   606
Questions for the Record Submitted by Chairman David Price.......   281
Questions for the Record Submitted by the Honorable Alan Mollohan   680
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   682
Questions for the Record Submitted by the Honorable Sam Farr.....   685
Reception and Representation.....................................   650
Secure Communities.................................256, 264, 269, 684-5
Secure Communities/Criminal Aliens...............................   576
Southwest Border.................................................   687
Travel...........................................................   675
Unobligated Balances.............................................   675
Visa Security Unit Program.......................................   272
Worksite Enforcement.............................................   686
Work-Site Enforcement Policy--Leak to Media......................   265

                       CIS--FY2011 BUDGET HEARING

Opening Statement of Chairman David Price........................   691
Opening Statement of Ranking Member Harold Rogers................   695
Statement of Alejandro Mayorkas, Director, CIS...................   701
Aligning CIS Fees with Beneficiaries.............................   724
Application Processing Times.....................................   722
Application Volumes..............................................   794
Asylum and Refugee Fee Rule......................................   717
Bonuses..........................................................   778
Business Transformation........................................735, 828
Business Transformation Program..................................   728
CIS Fee Model....................................................   725
Contractors......................................................   832
Contractor Workforce.............................................   730
Contracts........................................................   745
Effect of Fluctuating Filing Volumes on Operations...............   727
E-Verify..................................................719, 731, 833
E-Verify Improvements............................................   723
Fee Rule Updates for Asylum and Refugee Surcharge................   829
Fraud Prevention.................................................   734
Haiti and the TPS Program........................................   736
Hiring...........................................................   742
Immigration Application..........................................   833
Immigrant Integration............................................   827
Immigration Integration Grants...................................   737
Naturalization Ceremonies........................................   730
Office of Public Engagement......................................   723
Questions for the Record Submitted by Chairman David Price.......   742
Questions for the Record Submitted by the Honorable Sam Farr.....   831
Reception and Representation.....................................   778
SEVIS-II.........................................................   827
Stateless Persons................................................   829
TPS Status for Haitians..........................................   829
Travel...........................................................   791
Unobligated Balances.............................................   793
Using General Revenue to Finance CIS Operations..................   718
Website..........................................................   831

 UPDATE ON SOUTHWEST BORDER: THE CHALLENGES THAT DHS CONTINUES TO FACE

Opening Statement of Chairman David Price........................   837
Opening Statement of Ranking Member Harold Rogers................   842
Statement of Alan Bersin, Commissioner, CBP......................   848
Statement of John Morton, Assistant Secretary, ICE...............   863
Follow Up Statement of Alan bersin, Commissioner, CBP and John 
  Morton, Assistant Secretary, ICE...............................   921
AMOC.............................................................   893
Benchmarks of Success............................................   958
BESTs............................................................   911
Bilateral Enforcement Relationship with Mexico...................   885
Border Crossings.................................................   890
Border Deaths....................................................   939
Border Fencing.................................................898, 905
Border Violence..................................................   891
Bulk Cash Smuggling..............................................   914
Cargo Security and Narcotics Smuggling Through the SW Border 
  Ports of Entry.................................................   929
CBP--Background Investigations...................................   948
CBP--Inspection Protocol for Commercial Trucks Originating in 
  Mexico.........................................................   951
CBP--Non-Intrusive Inspection (NII) Equipment....................   947
CBP--Ports of Entry (POE)........................................   944
CBP--SBInet Review...............................................   943
CBP--SBInet System Acceptance Testing............................   944
CBP--Tactical Communications.....................................   946
Combatting Drugs and Gang Violence...............................   888
Corruption.......................................................   963
Criminal Removal Process.........................................   892
Cuts to Border Patrol Money and Personnel........................   887
DHS--JIATF-like Entity for Southwest Border Enforcement..........   943
Drug Cartels.....................................................   896
Drug Smuggling Via Trucks........................................   907
Drug Seizures....................................................   917
The El Paso Intelligence Center (EPIC).........................919, 956
EPIC as Primary Intelligence Center..............................   918
Firearm Seizures.................................................   915
Firearms Trafficking at the Southwest Border.....................   950
Homeland Security Advisory Council Recommendations...............   931
ICE Overseas Investigations......................................   928
Illegal Flow of Guns Southbound..................................   893
Intelligence Coordination........................................   935
JIATFS...........................................................   913
Mexican Drug Cartels and Commercial Trucks Originating in Mexico.   952
Mexican Gangs....................................................   911
Multi-Agency Cooperation at the Border...........................   957
Operation Against Smugglers Initiative on Safety and Security....   886
Operation Arizona Denial.........................................   942
Operation Streamline...........................................903, 938
Oversight and Accountability.....................................   940
Questions for the Record Submitted by Chairman David Price.......   928
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   943
Questions for the Record Submitted by the Honorable Alan Molloh950, 954
Questions for the Record Submitted by the Honorable Sam Farr.....   957
Recent ICE/ATF and ICE/DEA Memos of Understanding................   954
Sharing Border Crossing Information..............................   930
Short-term Custody...............................................   936
Special Assistant US Attorneys...................................   956
``Spillover'' Border Violence....................................   933
Training of CBP and BP Agents....................................   941
Travel...........................................................   930
Treatment of Unaccompanied Alien Children........................   899
Weapons Seizures.................................................   919
Weapons Seizures and Ballistics Tracing..........................   936
Weapons Smuggling and Forensic Analysis..........................   929

   DHS AIR AND MARINE OPERATIONS AND INVESTMENTS: CUSTOMS AND BORDER 
                       PROTECTION AND COAST GUARD

Opening Statement of Chairman David Price........................   967
Opening Statement of Ranking Member Harold Rogers................   973
Statement of Major General Michael Kostelnik, Assistant 
  Commissioner, CBP..............................................   979
Statement of RDML Vincent Adkins, Assistant Commandant, USCG.....   995
Adequacy of Shared Resources: Counternarcotics Efforts.......1046, 1057
Advanced Concept Technology Demonstrator.........................  1021
Aging Aircraft Program......................................10148, 1057
Air and Marine Operations Center.............................1016, 1048
CBP Office of Air and Marine Budget and Operations...............  1036
Coast Guard--Cutter-based UAS....................................  1060
Coast Guard--HH-65C Deactivation.................................  1060
Conflicting Mission Priorities...................................  1005
Flight Operations................................................  1028
General Aviation.............................................1050, 1057
Guardian Deployment..........................................1005, 1020
Joint Training and Maintenance...................................  1052
Marine Vessels...................................................  1020
Multirole Enforcement Aircraft...................................  1026
Northern Border Air and Marine Branches..........................  1051
Northern Border Operations.......................................  1014
Offshore Drilling Platforms......................................  1030
Offshore Interdiction Efforts....................................  1012
Operation HALCON.................................................  1049
Operation Predator...............................................  1031
Predator Operation Prosecutions..................................  1031
Predator Operations..............................................  1017
Questions for the Record Submitted by Chairman David Price...1036, 1056
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................  1060
Recapitalization Plans.......................................1025, 1028
Semi-Submersible Vessels.........................................  1022
Sharing Resources............................................1045, 1056
Small Boat Commodity Council.....................................  1022
Small Vessels....................................................  1055
Southwest Border Mexican Military Incursion......................  1050
UAS Fleet Requirements...........................................  1007
UAS Staff Cuts...................................................  1009
Unmanned Aircraft Systems (UAS)..................................  1053
Unmanned Aircraft Systems (UAS) and Certificates of Authorization  1058
Unmanned Underwater Vehicles (UUVs)..........................1055, 1058

                                  <all>

</pre></body></html>
